Nos. 19-416 & 19-453

In The Supreme Court of the United States
————
NESTLÉ USA, INC.,
Petitioner,
v.
JOHN DOE I, ET AL.,
Respondents.
————
CARGILL, INCORPORATED,
Petitioner,
v.
JOHN DOE I, ET AL.,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
JOINT APPENDIX
————
NEAL KUMAR KATYAL
PAUL L. HOFFMAN
Counsel of Record for
Counsel of Record for
Petitioner Nestlé USA, Inc.
Respondents
Hogan Lovells US LLP
Schonbrun Seplow Harris
555 Thirteenth Street, NW
Hoffman & Zeldes LLP
Washington, DC 20004
200 Pier Avenue, #226
(202) 637-5600
Hermosa Beach, CA 90245
(310) 396-0731
neal.katyal@hoganlovells.com
hoffpaul@aol.com
ANDREW J. PINCUS
Counsel of Record for
Petitioner Cargill,
Incorporated
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-300
apincus@mayerbrown.com
PETITION FOR CERTIORARI NO. 19-416 FILED: SEPT. 25, 2019
PETITION FOR CERTIORARI NO. 19-453 FILED: OCT. 2, 2019
CERTIORARI GRANTED: JULY 2, 2020

i
TABLE OF CONTENTS
Relevant Docket Entries From U.S. District
Court For The Central District Of
California, No. 2:05-cv-05133-SVW-MRW ........ 1
Relevant Docket Entries From The United
States Court Of Appeals For The Ninth
Circuit, No. 10-56739 ....................................... 10
Relevant Docket Entries From The United
States Court Of Appeals For The Ninth
Circuit, No. 17-55435 ....................................... 19
First Amended Class Action Complaint For
Injunctive Relief And Damages, filed July
10, 2009 ............................................................. 25
Order Granting Defendants Archer–Daniels–
Midland Co., Nestle U.S.A., And Cargill
Inc.’s Motion To Dismiss Plaintiffs’ First
Amended Complaint Pursuant To Fed. R.
Civ. P. 12(B)(6) For Failure To State A
Claim, filed Sept. 8, 2010 ................................ 61
Opinion, Ninth Circuit Court of Appeals, No.
10-56739, filed Sept. 4, 2014 .......................... 239
Amended Order denying rehearing, Ninth
Circuit Court of Appeals, No. 10-56739,
filed June 10, 2015 .........................................280
Second Amended Complaint For Injunctive
Relief And Damages, filed July 14, 2016....... 303
The following have been omitted from this Joint Appendix because they appear in the appendix of the
Petition for a Writ of Certiorari, Nestlé USA, Inc. v.

ii
John Doe I, et al., No. 19-416, on the following
pages:
APPENDIX A – Ninth Circuit’s Order Denying
Rehearing En Banc and Amended Opinion (July 5, 2019) .............................................. 1a
APPENDIX B – Ninth Circuit’s Opinion (Oct.
23, 2018) ......................................................... 47a
APPENDIX C – District Court’s Order Granting Motion to Dismiss (Mar. 2, 2017) ........... 63a

1

Relevant Docket Entries From The U.S.
District Court For The Central District Of California (Western Division – Los Angeles), Civil
Docket For Case # 2:05-cv-05133-SVW-MRW
NO.

DATE

DESCRIPTION

n/a

7/14/2005

LODGED COMPLAINT forwarded to Judge. Complaint
sought to be filed by plaintiffs John Doe, II, John Doe,
I, John Doe, III, Global Exchange.(pj) (Entered:
07/18/2005)

109

07/10/2009

AMENDED DOCUMENT
filed by Plaintiffs John Doe,
II, John Doe, I, John Doe, III,
Global Exchange. First
Amended Complaint (per
Court Order) (Collingsworth,
Terry) (Entered: 07/10/2009)

111

07/20/2009

NOTICE OF MOTION AND
MOTION to Dismiss Plaintiffs' Amended Complaint
filed by Defendant Cargill
Cocoa. Motion set for hearing
on 9/21/2009 at 01:30 PM before Judge Stephen V. Wilson. (Rubin, Lee) (Entered:
07/20/2009)

117

08/06/2009

Opposition re: MOTION to
Dismiss Plaintiffs' Amended

2
Complaint 111 filed by Plaintiffs John Doe, II, John Doe,
I, John Doe, III, Global Exchange. (Hoffman, Paul) (Entered: 08/06/2009)
119

08/24/2009

REPLY Support MOTION to
Dismiss Plaintiffs' Amended
Complaint 111 filed by Defendant Cargill Incorporated
Company. (Rubin, Lee) (Entered: 08/24/2009)

138

09/08/2010

ORDER GRANTING DEFENDANTS ARCHER-DANIELS-MIDLAND CO., NESTLE U.S.A., AND CARGILL
INC.S MOTION TO DISMISS PLAINTIFFS FIRST
AMENDED COMPLAINT
PURSUANT TO FED. R.
CIV. P. 12(b)(6) FOR FAILURE TO STATE A CLAIM
by Judge Stephen V. Wilson:
111. Defendants Motion to
Dismiss is GRANTED with
leave to amend. If Plaintiffs
elect to file an amended complaint, they shall do so no
later than September 20,
2010. If Plaintiffs fail to file
an amended complaint at
that time, Defendants shall
submit a proposed final judg-

3
ment no later than September 22, 2010. (im) (Entered:
09/08/2010)
145

10/13/2010

ORDER by Judge Stephen V.
Wilson Dismissing Claims
With Prejudice and Dismissing Plaintiff Global Exchange's California Business
and State Law Claim for
Lack of Jurisdiction. In view
of Plaintiffs' Response and
the Court's September 8,
2010 Order, the Court holds
that Plaintiffs' complaint is
DISMISSED WITH PREJUDICE. The claim of Plaintiff
Global exchange for the alleged violation of California
Business and Professions
Code section 17200 is dismissed for lack of jurisdiction. (Made JS−6. Case Terminated.) (mg) (Entered:
10/15/2010)

146

11/04/2010

NOTICE OF APPEAL to the
9th CCA filed by plaintiff
John Doe, I, John Doe, II,
John Doe, III, Global Exchange. Appeal of Order on
Motion to Dismiss,, 138 , Order, Terminated Case,,,, 145
(Appeal fee of $455 receipt
number 0973-7765055 paid.)
(Attachments: # 1 Exhibit

4
Exhibit A, # 2 Exhibit Exhibit B)(Hoffman, Paul) (Entered: 11/04/2010)
155

12/19/2013

ORDER from 9th CCA filed
re: Notice of Appeal to 9th
Circuit Court of Appeals, 146
filed by John Doe, II, Global
Exchange, John Doe, I, John
Doe, III, CCA # 10-56739.
The Appeal is VACATED
AND REMANDED. Order received in this district on
12/19/13. (mat) (Entered:
12/23/2013)

208

07/14/2016

SECOND AMENDED COMPLAINT against Defendants
Archer Daniels Midland
Company, Cargill Cocoa,
Cargill Incorporated Company, Cargill West Africa S
A, Nestle Ivory Coast, Nestle
USA, Nestle', S.A. amending
Complaint - (Discovery), 118 ,
filed by Plaintiffs John Doe,
I, John Doe, II, John Doe, III,
John Doe, IV, John Doe, VI,
John Doe, V (Attorney Catherine Elizabeth Sweetser
added to party John Doe, IV
(pty:pla), Attorney Catherine
Elizabeth Sweetser added to
party John Doe, V (pty:pla),
Attorney Catherine Elizabeth Sweetser added to party

5
John Doe, VI (pty:pla))
(Sweetser, Catherine) (Entered: 07/14/2016)
212

09/15/2016

NOTICE OF MOTION AND
MOTION to Dismiss Doe
Plaintiffs' Second Amended
Complaint filed by Defendant Nestle USA. Motion set
for hearing on 1/9/2017 at
01:30 PM before Judge Stephen V. Wilson. (Attachments: # 1 Proposed Order, #
2 Proof of Service) (Boutrous,
Theodore) (Entered:
09/15/2016)

211

09/16/2016

NOTICE OF MOTION AND
MOTION to Dismiss Case
filed by defendants Archer
Daniels Midland Co, Cargill
Incorporated Company. Motion set for hearing on
1/9/2017 at 01:30 PM before
Judge Stephen V. Wilson.
(Attachments: # 1 Proposed
Order) (Pincus, Andrew) (Entered: 09/15/2016)

222

11/07/2016

MEMORANDUM in Opposition to NOTICE OF MOTION AND MOTION to Dismiss Doe Plaintiffs' Second
Amended Complaint 212
filed by Plaintiffs John Doe,
I, John Doe, II, John Doe, III,
John Doe, IV, John Doe, VI,

6
John Doe, V. (Attachments: #
1 Declaration OF David J.
Scheffer, # 2 Declaration OF
Equal Exchange, Inc., # 3
Declaration of William J
Acevez)(Sweetser, Catherine)
(Entered: 11/07/2016)
229

12/08/2016

NOTICE OF DISMISSAL
filed by plaintiff John Doe, I,
John Doe, IV, John Doe, VI,
John Doe, V, Global Exchange, John Doe, II, John
Doe, III pursuant to FRCP
41a(1) WITH PREDJUDICE
as to Archer Daniels Midland
Co. (Hoffman, Paul) (Entered: 12/08/2016)

233

12/19/2016

REPLY in support of NOTICE OF MOTION AND
MOTION to Dismiss Case
211 filed by Defendant Cargill Incorporated Company.
(Pincus, Andrew) (Entered:
12/19/2016)

234

12/19/2016

REPLY In Support Of NOTICE OF MOTION AND
MOTION to Dismiss Doe
Plaintiffs' Second Amended
Complaint 212 filed by Defendant Nestle USA. (Attachments: # 1 Declaration of Jan
Paulsson Submitted Pursuant To FRCP 44.1, # 2 Proof

7
of Service)(Boutrous, Theodore) (Entered: 12/19/2016)
240

01/09/2017

MINUTE ORDER IN CHAMBERS REQUESTING SUPPLEMENTAL BRIEFING by
Judge Stephen V. Wilson.
The parties are ordered to do
the following: File their supplemental briefs within five
(5) days. The briefs shall not
exceed ten (10) pages in
length. Defendants are ordered to file one joint brief.
(mrgo) (Entered: 01/10/2017)

243

01/17/2017

REPLY in opposition to NOTICE OF MOTION AND
MOTION to Dismiss Doe
Plaintiffs' Second Amended
Complaint 212 , NOTICE
OF MOTION AND MOTION
to Dismiss Case 211 SUPPLEMENTAL BRIEF filed
by Plaintiffs John Doe, I,
John Doe, IV, John Doe, VI,
John Doe, V, John Doe, II,
John Doe, III, Global Exchange. (Hoffman, Paul) (Entered: 01/17/2017)

244

01/17/2017

SUPPLEMENT to NOTICE
OF MOTION AND MOTION
to Dismiss Doe Plaintiffs'
Second Amended Complaint
212 , NOTICE OF MOTION
AND MOTION to Dismiss

8
Case 211 filed by Defendant
Cargill Incorporated Company. (Pincus, Andrew) (Entered: 01/17/2017)
249

03/02/2017

MINUTES (IN CHAMBERS)
by Judge Stephen V. Wilson:
ORDER GRANTING MOTIONS TO DISMISS 211 ,
212 WITHOUT LEAVE TO
AMEND. The prevailing
party shall submit a proposed judgment consistent
with this order. (lc) (Entered:
03/10/2017)

251

03/30/2017

NOTICE OF APPEAL to the
9th Circuit Court of Appeals
filed by plaintiff John Doe, I,
John Doe, IV, John Doe, VI,
John Doe, V, John Doe, II,
John Doe, III, Global Exchange. Appeal of Order on
Motion to Dismiss Case, 249 .
(Appeal Fee - $505 Fee Paid,
Receipt No. 0973-19604913.)
(Hoffman, Paul) (Entered:
03/30/2017)

252

03/31/2017

JUDGMENT IN FAVOR OF
DEFENDANTS by Judge
Stephen V. Wilson Related
to: Order on Motion to Dismiss Case, 249 . (MD JS−6,
Case Terminated). (mrgo)
(Entered: 04/03/2017)

9
254

04/28/2017

FIRST AMENDED NOTICE
OF APPEAL to 9th CIRCUIT
filed by plaintiff John Doe, I,
John Doe, IV, John Doe, VI,
John Doe, V, John Doe, II,
John Doe, III, Global Exchange. Amending Notice of
Appeal to 9th Circuit Court
of Appeals, 251 Filed On:
March 30, 2017; Entered On:
March 30, 2017; (Hoffman,
Paul) (Entered: 04/28/2017)

263

08/06/2019

ORDER STAYING PROCEEDINGS by Judge Stephen V. Wilson, re Stipulation to Stay Case 262 . This
action is STAYED pending
the Supreme Court's resolution of Defendants' forthcoming petitions for writs of certiorari (and any related merits proceedings if the petitions are granted). (mrgo)
(Entered: 08/06/2019)

10
Relevant Docket Entries From The United
States Court Of Appeals For The Ninth Circuit,
No. 10-56739
NO.

DATE

DESCRIPTION

15

6/24/2011

Submitted (ECF) Opening
brief for review. Submitted
by Appellants John Doe I,
John Doe II, John Doe III
and Global Exchange. Date of
service: 06/24/2011.
[7797627]--[COURT UPDATE: Replaced PDF of
brief. Resent NDA.
06/29/2011 by TW] (Hoffman,
Paul) [Entered: 06/24/2011
06:38 PM]

16

6/27/2011

Filed Appellants John Doe I,
John Doe II, John Doe III
and Global Exchange excerpts of record in 3 volumes.
Served on 06/24/2011.
[7798709] (FT) [Entered:
06/27/2011 02:11 PM]

19

6/30/2011

Filed (ECF) Errata to Opening Brief ([15] Brief Submitted for Review (ECF Filing) ).
Filed by Appellants John Doe
I, John Doe II, John Doe III
and Global Exchange. Date of
service: 06/30/2011.
[7803942] (Hoffman, Paul)
[Entered: 06/30/2011 01:02
PM]

11
39

9/30/2011

Submitted (ECF) Answering
brief for review. Submitted
by Appellees Archer Daniels
Midland Company, Cargill
Incorporated Company and
Nestle USA, Inc.. Date of service: 09/30/2011. [7912957]
(Linsley, Kristin) [Entered:
09/30/2011 10:55 PM]

65

12/29/2011

Submitted (ECF) Reply brief
for review. Submitted by Appellants John Doe I, John
Doe II, John Doe III and
Global Exchange. Date of service: 12/29/2011. [8015459]
(Hoffman, Paul) [Entered:
12/29/2011 04:24 PM]

74

06/13/2013

Filed clerk order (Deputy
Clerk: BJB): Appellants shall
file a letter brief of no longer
than five single-spaced pages
analyzing the affect of Kiobel
v. Royal Dutch Petroleum
Co., 133 S. Ct. 1659 (2013),
on this appeal. The brief
shall be filed by no later than
June 21, 2013. Appellees
shall file a response of no
longer than five singlespaced pages by no later than
July 3, 2013. No reply shall
be filed unless requested by
the panel. [8666219] (BJB)

12
[Entered: 06/13/2013 10:11
AM]
77

06/21/2013

COURT ENTERED FILING
to correct entry [76]. Submitted (ECF) Letter Brief for review. Submitted by Appellants John Doe I, John Doe
II, John Doe III and Global
Exchange. Date of service:
06/21/2013. [8677899] (RY)
[Entered: 06/21/2013 03:03
PM]

80

07/03/2013

Submitted (ECF) Letter Brief
for review. Submitted by Appellees Archer Daniels Midland Company, Cargill Cocoa, Cargill Incorporated
Company and Nestle USA,
Inc.. Date of service:
07/03/2013. [8690158] (Hoover, Craig) [Entered:
07/03/2013 07:51 AM]

100

12/19/2013

Order filed for PUBLICATION (DOROTHY W. NELSON, KIM MCLANE WARDLAW and JOHNNIE B.
RAWLINSON) VACATED;
REMANDED. (Partial Concurrence and Partial Dissent
by Judge Rawlinson) []
[8908032] (RMM) [Entered:
12/19/2013 08:58 AM]

13
103

01/09/2014

Filed (ECF) Appellees Archer
Daniels Midland Company,
Cargill Incorporated Company and Nestle USA, Inc.
petition for panel rehearing
and petition for rehearing en
banc (from 12/19/2013 opinion). Date of service:
01/09/2014. [8932020]
(Pincus, Andrew) [Entered:
01/09/2014 03:05 PM]

104

01/10/2014

Filed order (DOROTHY W.
NELSON): Appellants are directed to file a response to
the Petition for Rehearing En
Banc filed with this court on
January 9, 2014. The response shall not exceed 15
pages or 4200 words and
shall be filed within 21 days
of the date of this order. Parties who are registered for
ECF must file the response
electronically without submission of paper copies. Parties who are not registered
ECF filers must file the original response plus 50 paper
copies. SO ORDERED.
[8933410] (AF) [Entered:
01/10/2014 01:46 PM]

107

01/31/2014

Filed (ECF) Appellants John
Doe I, John Doe II, John Doe

14
III and Global Exchange response to petition for panel
rehearing and petition for rehearing en banc. Date of service: 01/31/2014. [8962124].-[COURT UPDATE: Edited
docket text to reflect content
of filing. Resent NDA.
02/03/2014 by RY] (Hoffman,
Paul) [Entered: 01/31/2014
06:13 PM]
117

09/04/2014

Filed order (DOROTHY W.
NELSON, KIM MCLANE
WARDLAW and JOHNNIE
B. RAWLINSON) The defendant-appellees’ petition
for panel rehearing and petition for rehearing en banc,
filed January 9, 2014, are denied as moot. The parties
may file a petition for rehearing and rehearing en banc
with respect to the opinion
filed together with this order.
IT IS SO ORDERED.
[9228029] (RMM) [Entered:
09/04/2014 07:02 AM]

118

09/04/2014

FILED ORDER AND OPINION (DOROTHY W. NELSON, KIM MCLANE WARDLAW and JOHNNIE B.
RAWLINSON) The order
filed December 19, 2013, and
appearing at 738 F.3d 1048,

15
is withdrawn, Carver v. Lehman, 558 F.3d 869, 878–79
(9th Cir. 2009), and is replaced by the opinion filed
concurrently with this order.
Our prior order may not be
cited as precedent to any
court. Moreover, with the
original order withdrawn, we
deem the petition for rehearing and rehearing en banc
moot. The parties may file a
petition for rehearing and rehearing en banc with respect
to the opinion filed together
with this order. IT IS SO ORDERED. REVERSED; VACATED Judge: DWN Authoring, Judge: JBR Concurring
& dissenting. FILED AND
ENTERED JUDGMENT.
[9228035] (RMM) [Entered:
09/04/2014 07:08 AM]
121

10/17/2014

Filed (ECF) Appellees Archer
Daniels Midland Company,
Cargill Incorporated Company and Nestle USA, Inc.
petition for panel rehearing
and petition for rehearing en
banc (from 09/04/2014 opinion). Date of service:
10/17/2014. [9281564] (Linsley, Kristin) [Entered:
10/17/2014 04:10 PM]

16
122

10/22/2014

Filed order (DOROTHY W.
NELSON, KIM MCLANE
WARDLAW and JOHNNIE
B. RAWLINSON) PlaintiffsAppellants are directed to file
a response to Appellees’ Petition for Rehearing and Rehearing En Banc filed with
this court on October 17,
2014. The response shall not
exceed 15 pages or 4200
words and shall be filed
within 21 days of the date of
this order. Parties who are
registered for ECF must file
the response electronically
without submission of paper
copies. Parties who are not
registered ECF filers must
file the original response plus
50 paper copies. SO ORDERED. [9286479] (WL) [Entered: 10/22/2014 01:10 PM]

129

11/05/2014

Filed order (DOROTHY W.
NELSON, KIM MCLANE
WARDLAW and JOHNNIE
B. RAWLINSON) Appellants’
Unopposed Motion for a 30day Extension of Time is
GRANTED. Appellants’ Opposition to the Petition for
Rehearing and Rehearing En
Banc shall be filed on or before December 12, 2014. SO
ORDERED. [9302475] (WL)

17
[Entered: 11/05/2014 11:16
AM]
134

12/12/2014

Filed (ECF) Appellants John
Doe I, John Doe II, John Doe
III and Global Exchange response to Combo PFR Panel
and En Banc, Combo PFR
Panel and En Banc for panel
and en banc rehearing, for
panel and en banc rehearing
(statistical entry). Date of
service: 12/12/2014.
[9348314]. [10-56739] (Hoffman, Paul) [Entered:
12/12/2014 05:12 PM]

139

05/06/2015

Filed order (DOROTHY W.
NELSON, KIM MCLANE
WARDLAW and JOHNNIE
B. RAWLINSON) Judge
Rawlinson voted to grant the
petition for rehearing and petition for rehearing en banc.
Judge Nelson and Judge
Wardlaw voted to deny the
petition for panel rehearing.
Judge Wardlaw voted to deny
the petition for rehearing en
banc and Judge Nelson so
recommended. The full court
was advised of the petition
for rehearing en banc. A
judge requested a vote on
whether to rehear the matter
en banc. The matter failed to

18
receive a majority of the
votes of the nonrecused active judges in favor of en
banc consideration. Fed. R.
App. P. 35. The petition for
panel rehearing and the petition for rehearing en banc
are DENIED. (Dissent from
Judge Bea) [9526761] (WL)
[Entered: 05/06/2015 09:29
AM]
143

06/10/2015

Filed Order for PUBLICATION amending order (DOROTHY W. NELSON, KIM
MCLANE WARDLAW and
JOHNNIE B. RAWLINSON)
Amended Order; Dissent by
Judge Bea. The order denying the petition for rehearing/rehearing en banc, filed
on May 6, 2015, is hereby
amended at Page 2, Line 3,
to add the sentence: Judges
Graber, Ikuta, Watford, Owens, and Friedland did not
participate in the deliberations or vote in this case. SO
ORDERED. [9568257]
(RMM) [Entered: 06/10/2015
07:08 AM]

19
Relevant Docket Entries From The United
States Court Of Appeals For The Ninth Circuit,
No. 17-55435
NO.

DATE

DESCRIPTION

12

11/06/2017

Submitted (ECF) excerpts of
record. Submitted by Appellants John Doe, John Doe,
John Doe, John Doe, John
Doe and John Doe. Date of
service: 11/06/2017.
[10645368] [17-55435]
(Sweetser, Catherine) [Entered: 11/06/2017 05:20 PM]

13

11/06/2017

Submitted (ECF) Opening
Brief for review. Submitted
by Appellants John Doe, John
Doe, John Doe, John Doe,
John Doe and John Doe. Date
of service: 11/06/2017.
[10645476] [17-55435] (Hoffman, Paul) [Entered:
11/06/2017 11:12 PM

23

02/05/2018

Submitted (ECF) Answering
Brief for review. Submitted
by Appellee Nestle USA, Inc..
Date of service: 02/05/2018.
[10751491] [17-55435]
(Boutrous, Theodore) [Entered: 02/05/2018 12:33 PM]

24

02/05/2018

Submitted (ECF) Answering
Brief for review. Submitted
by Appellee Cargill Incorpo-

20
rated Company. Date of service: 02/05/2018. [10752531]
[17-55435] (Pincus, Andrew)
[Entered: 02/05/2018 05:16
PM]
42

04/20/2018

Submitted (ECF) Reply Brief
for review. Submitted by Appellants John Doe, John Doe,
John Doe, John Doe, John
Doe and John Doe. Date of
service: 04/20/2018.
[10845813] [17-55435] (Hoffman, Paul) [Entered:
04/20/2018 08:48 PM]

45

04/25/2018

Filed clerk order (Deputy
Clerk: AF): The parties are
requested to file supplemental briefs addressing: (1)
the impact of Jesner v. Arab
Bank, PLC, No. 16-499, 2018
WL 1914663 (Apr. 24, 2018),
on the disposition of this
case; and (2) any other issues
properly before this court.
Such briefs shall be no longer
than 15 pages each and shall
be filed simultaneously no
later than May 18, 2018. SO
ORDERED. [10850222] (AF)
[Entered: 04/25/2018 12:08
PM]

49

05/18/2018

Submitted (ECF) Supplemental Brief for review. Submitted by Appellants John

21
Doe, John Doe, John Doe,
John Doe, John Doe and John
Doe. Date of service:
05/18/2018. [10878666] [1755435] (Hoffman, Paul) [Entered: 05/18/2018 05:48 PM]
50

05/18/2018

Submitted (ECF) Supplemental Brief for review. Submitted by Appellee Nestle
USA, Inc.. Date of service:
05/18/2018. [10878737] [1755435] (Boutrous, Theodore)
[Entered: 05/18/2018 07:15
PM]

51

05/18/2018

Submitted (ECF) Supplemental Brief for review. Submitted by Appellee Cargill Incorporated Company. Date of
service: 05/18/2018.
[10878741] [17-55435]
(Pincus, Andrew) [Entered:
05/18/2018 07:41 PM]

66

10/23/2018

FILED OPINION (DOROTHY W. NELSON, MORGAN
B. CHRISTEN and EDWARD
F. SHEA) REVERSED AND
REMANDED. Judge: DWN
Authoring, Judge: EFS Concurring. FILED AND ENTERED JUDGMENT.
[11056456]--[Edited: attached
corrected Opinion (typo corrected). 10/25/2018 by SLM]

22
(RMM) [Entered: 10/23/2018
08:41 AM]
70

11/27/2018

Filed (ECF) Appellee Nestle
USA, Inc. petition for panel
rehearing and petition for rehearing en banc (from
10/23/2018 opinion). Date of
service: 11/27/2018.
[11100660] [17-55435]
(Boutrous, Theodore) [Entered: 11/27/2018 02:53 PM]

71

11/27/2018

Filed (ECF) Appellee Cargill
Incorporated Company petition for panel rehearing and
petition for rehearing en banc
(from 10/23/2018 opinion).
Date of service: 11/27/2018.
[11100730] [17-55435]-[COURT UPDATE: Removed
excess pages from opinion
(post judgment form),
11/27/2018 by RY] (Pincus,
Andrew) [Entered:
11/27/2018 03:24 PM]

81

12/19/2018

Filed order (DOROTHY W.
NELSON, MORGAN B.
CHRISTEN and EDWARD F.
SHEA): Plaintiffs-Appellants
are directed to file a response
to the Petitions for Rehearing
En Banc filed with this court
on November 27, 2018. The
response shall not exceed 15
pages or 4,200 words and

23
shall be filed within 21 days
of the date of this order. Parties who are registered for
ECF must file the response
electronically without submission of paper copies. Parties who are not registered
ECF filers must file the original response plus 50 paper
copies. SO ORDERED.
[11126887] (AF) [Entered:
12/19/2018 03:29 PM]
84

01/30/2019

Filed (ECF) Appellants John
Doe, John Doe, John Doe,
John Doe, John Doe and John
Doe response to Combo PFR
Panel and En Banc (ECF Filing), Combo PFR Panel and
En Banc (ECF Filing), Combo
PFR Panel and En Banc
(ECF Filing), Combo PFR
Panel and En Banc (ECF Filing), Order, Order. Date of
service: 01/30/2019.
[11173397]. [17-55435]
(Sweetser, Catherine) [Entered: 01/30/2019 04:14 PM]

90

07/05/2019

Filed order and amended
opinion (DOROTHY W. NELSON, MORGAN B. CHRISTEN and EDWARD F.
SHEA). The Opinion filed on
October 23, 2018, is amended
as follows: (SEE ORDER

24
FOR FULL TEXT). The petition for rehearing and petition for rehearing en banc are
DENIED. Judge Bennett’s
dissent from the denial of rehearing en banc is filed concurrently herewith. Judges
Wardlaw, Watford, Owens,
Friedland, Miller, and Collins
did not participate in the deliberations or vote in this
case. [11354596] (AKM) [Entered: 07/05/2019 07:55 AM]

25
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
_______________
No. CV 05–5133 SVW
_______________
John Does I – III, individually and on behalf of Proposed Class Members, and Global Exchange,
v.

Plaintiffs,

NESTLÉ, S. A, NESTLÉ U.S.A., NESTLÉ Ivory
Coast, ARCHER DANIELS MIDLAND CO., CARGILL INCORPORATED COMPANY, CARGILL COCOA, CARGILL WEST AFRICA, S.A, and CORPORATE DOES 1-10,
Defendants.
_______________
FIRST AMENDED CLASS ACTION
COMPLAINT FOR INJUNCTIVE RELIEF AND
DAMAGES
JURY TRIAL DEMANDED
I.

NATURE OF THE ACTION

1. Plaintiffs John Doe I, John Doe II, and John
Doe III (referred to herein as the “Former Child Slave”
Plaintiffs) are all former child slaves of Malian origin
who were trafficked and forced to work harvesting
and/or cultivating cocoa beans on farms in Cote
d’Ivoire, which supply cocoa beans to the Defendant
companies named herein. The Former Child Slave
Plaintiffs bring this action on behalf of themselves
and all other similarly situated former child slaves of
Malian origin against Defendants: Nestlé, S.A.,
Nestlé, U.S.A., and Nestlé Cote d’Ivoire, S.A. (together

26
as “Nestlé”); Cargill, Incorporated (“Cargill, Inc.”),
Cargill Cocoa, and Cargill West Africa, S.A. (together
as “Cargill”); and Archer Daniels Midland Company
(“ADM”) (referred to collectively as the “Chocolate Importers” or Defendants) for the forced labor and torture they suffered as a result of the wrongful conduct
either caused and/or aided and abetted by these corporate entities. Specifically, the Former Child Slave
Plaintiffs assert claims under the Alien Tort Statute
(“ATS”), 28 U.S.C. § 1350, and the Torture Victim Protection Act (“TVPA”), 28 U.S.C. § 1350, note. The Former Child Slaves also bring claims for breach of contract, negligence, unjust enrichment and unfair business practices under California’s Business & Professions Code §§ 17200, et. seq.
2. The Former Child Slave Plaintiffs bring their
ATS and TVPA actions in the United States because
such claims cannot be maintained in their home country of Mali as currently there is no law in Mali
whereby such Plaintiffs can seek civil damages for
their injuries against the major exporters of cocoa operating outside of Mali. Nor could claims be brought
in Cote d’Ivoire as the judicial system is notoriously
corrupt and would likely be unresponsive to the
claims of foreign children against major cocoa corporations operating in and bringing significant revenue
to Cote d’Ivoire. It is also likely that both Plaintiffs
and their attorneys would be placed in danger following the civil unrest in Cote d’Ivoire and the general
hostility by cocoa producers in the region where Plaintiffs were forced to work. Further, the Former Child
Slave Plaintiffs bring their claims in the United
States as the U.S. has provided a forum for such human rights lawsuits with the passage of the ATS and
TVPA.

27
3. The Former Child Slave Plaintiffs bring this
action using pseudonyms due to fear of retaliation
against themselves and their families by those persons who trafficked them into Cote d’Ivoire; the owners of farms on which they were enslaved; and by the
local buyers, who are employees and/or agents of the
Defendants. Plaintiffs’ case not only threatens to expose criminalized elements within the cocoa sector but
also to dismantle the source of its significant profits,
cheap labor procured through forced child trafficking.
For this reason, Plaintiffs’ lives are in great danger as
evidence by the violence already wielded against other
critics and investigators of corruption and child labor
within the cocoa sector. French-Canadian reporter
Guy André Kieffer, who was investigating the criminal elements within the cocoa sector disappeared and
is presumed dead. Other journalists investigating cocoa and child labor have also received death threats.
4. Plaintiff Global Exchange, along with the
Former Child Slave Plaintiffs, bring this action
against Defendants for the damages which they and
their members have suffered as a result of Defendants’ unlawful and unfair business practices prohibited under California Business & Professions Code §§
17200, et. seq.
II. JURISDICTION AND VENUE
5. Pursuant to 28 U.S.C. § 1331, this Court has
federal question jurisdiction over this dispute pursuant to the ATS, 28 U.S.C. § 1350, and the TVPA, 28
U.S.C. § 1350, note, for the alleged violations of international human rights law. The ATS provides federal
jurisdiction for “any civil action by an alien for a tort
only, committed in violation of the law of nations or a

28
treaty of the United States.” The TVPA provides federal jurisdiction for acts of torture committed under
the color of foreign authority.
6. This Court has Supplemental Jurisdiction
over Plaintiffs’ state law claims based on 28 U.S.C.
§1332.
7. Venue and Personal Jurisdiction over each
Defendant is proper in this judicial district, and in the
United States as a whole for the foreign Defendants,
because, as more fully detailed below, Defendants either own, lease, export to, or otherwise conduct business activities, including the sale of cocoa and cocoa
derivative products, to chocolate retailers in the
United States and/or in California such that they
maintain a general course of business activity within
the United States, including California, either directly
through their own activities or by virtue of their parent entities acting as their alter ego and/or agent.
III. PARTIES
A. Former Child Slave Plaintiffs
8. Plaintiff John Doe I is an adult citizen of Mali
currently residing in the city of Sikasso. He brings this
action on behalf of himself and all other former child
slaves trafficked into Cote d’ Ivoire from Mali for purposes of working on a farm and/or farmer cooperative
that provided cocoa beans to any one and/or more of
the Defendants named herein.
9. Plaintiff John Doe II is an adult citizen of
Mali currently residing in the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves of Malian origin forced to work on
a farm and/or farmer cooperative that provided cocoa

29
beans to any one and/or more of the Defendants
named herein.
10. Plaintiff John Doe III is an adult citizen of
Mali currently residing in the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves of Malian origin forced to work on
a farm and/or farmer cooperative that provided cocoa
beans to any one and/or more of the Defendants
named herein.
B. Former Child Slave Plaintiffs Class Action Allegations
11. The Former Child Slave Plaintiffs bring this
action individually, and pursuant to Fed. R. Civ. P.
23(a), 23(b)(2), and 23(b)(3), on behalf of the following
class:
All individuals during the period 1996
through the present who reside or did reside
in the country of Mali, West Africa, and who
were trafficked from Mali to any cocoa producing region of Cote d’Ivoire and forced to perform labor as children under the age of 18 on
any farm and/or farmer cooperative within
any cocoa producing region of Cote d’ Ivoire,
including but not limited to the geographical
regions of Bouake, Bouaflé, Man, Daloa, and
San Pédro, for the purpose of harvesting
and/or cultivating cocoa beans that were supplied, either directly or indirectly, to any of the
named Defendants herein.
12. The class is so numerous that joinder of all
members is impractical. The Former Child Slave
Plaintiffs believe that there are thousands of class
members.

30
13. There are questions of law and fact common
to the class. Key common questions include, but are
not limited to, the following:
a) Whether Plaintiffs and Proposed Class Members were unlawfully trafficked for purposes of forced
child labor, in violation of International Labor Conventions 138 and 182, so as to work on cocoa farms,
which supplied cocoa beans to the named Defendants
herein?
b) Whether Defendants caused and/or aided
and abetted the forced labor and torture imposed on
Plaintiffs by either providing logistical support to the
supplier farms and/or failing to provide sufficient logistical support and/or take adequate action to prevent and stop such forced child labor in violation of
international law, federal law and California state
law?
14. The Former Child Slave Plaintiffs’ claims are
typical of the claims of the class. They seek redress for
the same conduct that has affected all class members
and press legal claims which are the same for all class
members.
15. The Former Child Slave Plaintiffs named
herein will fairly and adequately represent the class.
These Plaintiffs do not have conflicts of interest with
members of the class and have retained counsel who
are experienced in complex litigation, including class
actions and international litigation, who will vigorously prosecute this action.
16. A class action is the superior method for adjudication of this controversy. In the absence of a class
action, courts will be unnecessarily burdened with
multiple, duplicative individual actions, particularly

31
in the case of Mali where class claims are not recognized. Moreover, if a class is not certified, many meritorious claims will go un-redressed as the individual
class members are not able to prosecute complex litigation against large defendant corporations.
C. Global Exchange
17. Plaintiff Global Exchange is a San Francisco
based human rights organization dedicated to promoting environmental, political and social justice globally. Global Exchange’s mission includes: 1) educating
the U.S. public about critical global issues; 2) promoting respect for the rights outlined in the Universal
Declaration of Human Rights; 3) encouraging both the
U.S. government and private institutions, including
corporations, to support policies that promote democratic and sustainable development; 4) linking people
in the U.S. with people in the global South who are
working for political, social and environmental justice.
Its membership includes American consumers of,
among other things, chocolate, and other cocoa-based
products. Plaintiff Global Exchange brings this action
on behalf of itself and its members injured by Defendants’ unfair business practices.
D. Chocolate Importer Defendants
18. Defendant Nestlé, SA, is the world’s largest
food and beverage company involved primarily in the
manufacture and sale of beverages, milk products,
chocolate, confectionery and biscuits. Based in Switzerland, it employs around 253,000 people and has
factories or operations in almost every country in the
world. Its stock is traded in the United States in the
form of American Depositary Receipts (ADR), which is
a negotiable security representing ownership of publicly traded shares in a non-US corporation. Nestlé’s

32
ADRs are held through Citibank, N.A., a major U.S.
banking institution, and together with its ADR receipts and the sale of Nestlé brand products in the forum constitute significant contacts with the United
States, including the forum.
19. Nestlé, USA is a wholly-owned subsidiary of
Nestlé, SA. Headquartered in California, it is one of
the largest food and beverage companies in the U.S.
with 21,000 employees nationwide, 42 manufacturing
facilities, 6 distribution centers, and 58 sales offices
across the country, including California. It is one of
the largest purchasers, manufacturers, and retail
sellers of cocoa products in North America.
20. Defendant Nestlé Cote d’Ivoire, SA (or Nestle
Ivory Coast) is a subsidiary of Nestlé, SA. Its purpose
within the Nestlé enterprise is to process cocoa beans
for export globally, including North America and California specifically.
21. Defendant Archer-Daniels-Midland Company (ADM) is a publicly held Delaware corporation
with its principal place of business in Decautur, Illinois. It is engaged in the business of procuring, transporting, storing, processing and merchandising agricultural commodities and products. This includes specifically the processing of cocoa beans from Cote d’
Ivoire and the production of cocoa liquor, cocoa butter,
cocoa powder, chocolate and various cocoa compounds
for the food processing industry primarily in the
United States market, including California. In addition to providing cocoa products to California manufacturers and processors, ADM owns and operates
several processing plants in California which process
rice, bakery mix and specialty ingredients.

33
22. Defendant Cargill, Incorporated Company
(“Cargill, Inc.”) is one of the largest privately held corporate providers of food and agricultural products and
services worldwide with over 100,000 employees in 59
countries. Its activities include cultivating and processing grain, oilseeds and other agricultural commodities, including cocoa for distribution to food producers. Headquartered in Minneapolis, it is a family
business that is tightly controlled and centrally managed.
23. Cargill Cocoa is a subsidiary of Cargill, Inc.
incorporated in Pennsylvania. It is a major cocoa bean
originator and processor. It offers a wide range of
high-quality cocoa powder, butter and liquor products
under the Gerkens and Wilbur brands to leading manufacturers of food, chocolate and confectionery products worldwide, including processors and manufacturers of cocoa and cocoa products in California. Products
are sold through an international network of offices,
agents and distributors. Its facilities include a production facility in Cote d’Ivoire for the production of cocoa
liquor, butter and powder and origination of cocoa
beans.
24. Cargill West Africa, SA is a subsidiary of
Cargill, Inc. and a member of the Cargill Group
headed by Cargill, Inc. Formed in 1986, its purpose
within the Cargill Group is to process and/or export
cocoa beans supplied to it by farms and/or farmer cooperatives in Cote d’Ivoire. Upon information and belief, Cargill West Africa, SA exports cocoa to the
United States, including California, either directly or
indirectly through other Cargill Group affiliates.

34
E. Unknown Corporate Defendants
25. Plaintiffs are currently unaware of the true
names and capacities of Defendants sued herein as
Corporate DOES 1-10, and therefore sue these Defendants by using fictitious names. Plaintiffs will
amend this complaint to allege their true names and
capacities when ascertained. Upon information and
belief each fictitiously named Defendant is responsible in some manner for the occurrences herein alleged
and that the injuries to Plaintiffs herein alleged were
proximately caused in relation to the conduct of the
named Defendants, as well as Corporate Does 1-10.
IV. AGENCY
26. Plaintiffs contend that each of the subsidiaries identified herein is and was, at all relevant times,
the agent of the parent companies identified herein.
Specifically, the parent entities control the subsidiaries’ operations, particularly with respect to the sourcing, purchasing, manufacturing, distribution, and/or
retailing of cocoa and cocoa derived products from the
Cote d’ Ivoire.
27. Plaintiffs further contend that each of the
parent entities identified herein control and/or have
the ability to control their subsidiaries’ actions with
respect to labor practices on the farms and/or farmer
cooperatives from which cocoa products are sourced.
28. Plaintiffs are informed and believe that at all
material times each of the parent defendants and
their relevant subsidiaries were the agent or otherwise working in concert with each other and that each
such subsidiary was acting within the course and
scope of such agency or concerted activity. To the ex-

35
tent that said conduct was perpetrated by certain subsidiary defendants, the parent defendant corporations
confirmed and ratified the same.
V. ALTER EGO
29. Plaintiffs contend that each of the subsidiaries identified herein is and was, at all relevant times,
the alter-ego of the parent companies identified
herein. Specifically, the parent entities control every
aspect of the subsidiaries’ operations, particularly
with respect to the sourcing, purchasing, manufacturing, distribution, and/or retailing of cocoa and cocoa
derived products, and have used them merely as conduits for the receipt or transfer of funds and/or products with respect to cocoa products derived from the
Cote d’ Ivoire.
30. Upon information and belief, the subsidiary
and parent corporations named herein have common
ownership, common board of directors, are inadequately capitalized for the risks at hand, and have
failed to observe corporate formalities with respect to
their operations. The inherent and pervasive failure
to maintain separate identities constitutes improper
conduct and disrespects the privilege of using the corporate form to conduct business.
VI. AIDING AND ABETTING
31. Cote d’Ivoire is a country struggling to recover from years of civil conflict. Active hostilities
ended in January 2003, leaving the country divided
into three zones of control: the government-controlled
south, the rebel-held north and the Zone of Confidence, which was formally patrolled by international
troops. Although several peace agreements have been
signed, and the Zone of Confidence dismantled, acts of

36
violence continue. Cote d’Ivoire’s cocoa-producing regions, which lie mostly with the government controlled southern zone, are at the heart of the Ivorian
conflict. In this conflict, the cocoa hierarchy has been
described by the International Crisis Group as an “Enron-type structure” of front companies with secret
bank accounts used to transfer funds with multiple
layers of insulation between the criminal acts and
their eventual beneficiaries.
32. It is in this often lawless and clandestine
backdrop that Cote d’Ivoire has emerged as the largest exporter of cocoa in the world, providing 70% of the
world’s supply. A majority of this cocoa is imported to
the US by the named Defendants herein. Indeed, journalist Carol Off explains in her 2006 book “Bitter
Chocolate: Investigating the Dark Side of the World’s
Most Seductive Sweet” that the “dirty work” of buying
and selling cocoa beans in this conflict ridden country
has become the domains of large multinationals such
as Nestle, ADM, and Cargill and that since the 1990s,
Cote d’Ivoire cocoa production has been controlled by
these companies with the unilateral goal of finding
the cheapest sources of cocoa.
33. Defendants are able to obtain this ongoing,
cheap supply of cocoa by maintaining exclusive supplier/buyer relationships with local farms and/or
farmer cooperatives in Cote d’Ivoire. Through these
exclusive supplier/buyer relationships, maintained in
the form of memorandums of understanding, agreements, and/or contracts, both written and oral, Defendants are able to dictate the terms by which such
farms produce and supply cocoa to them, including
specifically the labor conditions under which the
beans are produced.

37
34. Defendants control such conditions by
providing local farmers and/or farmer cooperatives
with inter alia ongoing financial support, including
advance payments and personal spending money to
maintain the farmers’ and/or the cooperatives’ loyalty
as exclusive suppliers; farming supplies, including
fertilizers, tools and equipment; training and capacity
building in particular growing and fermentation techniques and general farm maintenance, including appropriate labor practices, to grow the quality and
quantity of cocoa beans they desire. The training and
quality control visits occur several times per year and
require frequent and ongoing visits to the farms either
by Defendants directly or via their contracted agents.
35. Specifically, Defendant Nestlé is directly involved in the purchasing and processing of cocoa
beans from Cote d’ Ivoire. Among its exclusive supplier/buyer relationships were agreements with suppliers Keita Ganda and Keita Baba from plantations
in Daloa; Lassine Kone from plantations in Sitafa.
36. Nestlé’s 2006 “Principles of Purchasing”
states “purchasing should, wherever possible, be part
of the Supply Chain . . . and that Strategic Buyers perform strategic activities such as market research or
analysis [and] supplier profiling and selection.” Under
the section “Raw Materials”, Nestlé states it “provides
assistance in crop production.” Under the section,
“Traceability,” Nestlé states “[t]raceability includes
tracking inside our company supply chain, i.e. from
the reception of raw and packaging materials, production of finished products to delivery to customers.” Indeed, Nestlé states that “[t]raceability of incoming
materials is of the utmost importance to Nestlé. In
dealing with suppliers, Purchasing must insist on
knowing the origin of incoming materials and require

38
suppliers to communicate the origin of their materials.” Nestlé’s Principles of Purchasing also states that
it “actively participate[s] as the first link in an integrated supply chain”; that it “develop[s] supplier relationships”; and that it “continually monitor[s] the performance, reliability and viability of suppliers”
37. Nestle’s 2005 Webpage on Suppliers Management also discusses the importance of the Nestle
Supply Chain for production operations. “The Nestle
Quality System covers all steps in the food supply
chain, from the farm to the consumer of the final products. Quality assurance activities are not confined to
production centers and head offices. They include
working together with producers and suppliers of raw
. . . materials .”
38. Nestlé’s Commitment to Africa Brochure further states that “[w]hile we do not own any farmland,
we use our influence to help suppliers meet better
standards in agriculture. . . . Working directly in our
supply chain, we provide technical assistance to farmers.” Nestlé goes on to state that the “[s]upport provided to farmers ranges from technical assistance on
income generation to new strategies to deal with crop
infestation, to specific interventions designed to address issues of child labour.” “Specific programmes directed at farmers in West Africa include field schools
to help farmers with supply chain issues, as well as a
grassroots ‘training of trainers’ programme to help
eliminate the worst forms of child labour.”
39. Defendant ADM is also directly involved in
the purchasing and processing of cocoa beans from
Cote d’ Ivoire. Among its exclusive suppliers is a
farmer cooperative known as SIFCA. In a 2001 article
found in Biscuit World, ADM explains that its acquisition of SIFCA in Cote d’Ivoire “gives ADM Cocoa an

39
unprecedented degree of control over it raw material
supply, quality and handling”. In the same article, an
ADM executive states that “ADM Cocoa can deliver
consistent top quality products by control of its raw
materials”, and that “ADM is focused on having direct
contact with farmers in order to advise and support
them to produce higher quality beans for which they
will receive a premium.”
40. ADM’s 2004 Cocoa Webpage openly states
that ADM Cocoa has a “strong presence in origin regions,” and in a section entitled “Farmers as Partners,” ADM further states that “[t]he success of the
thousands of small, family-owned farms on which cocoa is typically grown is vital to the cocoa industry.
That is why ADM is working hard to help provide certain farmer organizations with the knowledge, tools,
and support they need to grow quality cocoa responsibly and in a sustainable manner. . . . ADM is providing
much needed assistance to organizations representing
thousands of farmers and farming communities.
These efforts are making an impact at the farm level.”
41. The ADM Cocoa Brochure, states that
“[t]hrough its support of the World Cocoa Foundation,
the European Cocoa Association, the US Chocolate
Manufacturers Association and other programs, ADM
is actively involved in long-term efforts to ensure that
cocoa is grown responsibly and sustainably. Such efforts include research into environmentally sound
crop management practices, plant breeding work to
develop disease-resistant varieties and farmer field
schools to transfer the latest know-how into the hands
of millions of cocoa farmers around the world. Starting
from the cocoa growers through to the world’s top food

40
and beverage manufacturers, ADM Cocoa is committed to delivering the best in product quality and service at every stage.”
42. Like Nestlé and ADM, Defendant Cargill has
a direct presence in Cote d’Ivoire cocoa farms. Carol
Off notes that Cargill is possibly the largest privately
owned corporation in the world and that its influence
over the food we eat, in terms of where it comes from
and how its produced, is staggering. Among its exclusive supplier/buyer relationships are Dôté Colibaly,
Soro Fonipoho, Sarl Seki, Lenikpo Yéo (alias “the Big
One”) from which 19 Malian child slaves were rescued, Keita Ganda, and Keita Hippie, who produce the
bulk of the cocoa in the Bouaflé region.
43. Cargill’s Cote d’Ivoire Country Webpage
states that in 2000/01, Cargill opened two up-country
buying stations in Daloa and Gagnoa in the western
cocoa belt, and that Cargill’s Micao cocoa processing
plant has obtained ISO 9002 certification, which is a
system of quality standards for food processing from
sourcing through processing that inherently requires
detailed visits and monitoring of farms.
44. As part of Defendants’ ongoing and continued presence on the cocoa farms, Defendants had first
hand knowledge of the widespread use of child labor
on said farms, in addition to the numerous, well-documented reports of child labor by both international
and U.S. organizations.
45. The U.S. State Department, the International Labor Organization (ILO), and UNICEF,
among others, have confirmed since the late 1990s the
existence of child slavery with documented reports
and statistics. Notable non-governmental organizations have also independently confirmed that many, if

41
not most, of the children working on Ivorian cocoa
plantations are being forced to work as slaves without
any remuneration.
46. In 1997, UNICEF reported that children
from the neighboring countries of Mali and Burkina
Faso are being trafficked to Cote d’Ivoire to harvest
cocoa beans. See Carol Ballamy, The State of the
World’s Children 1997: Focus on Child Labour, Oxford
University Press for UNICEF (1996). The ILO estimates there are 378,000 children working in Cote
d’Ivoire in various sectors of the economy. International Programme on the Elimination of Child Labour,
ILO, Combating Trafficking in Children for Labour
Exploitation in West and Central Africa (2001). The
U.S. State Department has also estimated that there
are at least 15,000 child laborers working on cocoa,
coffee, and cotton farms. Bureau of Democracy, Human Rights and Labor, U.S. Dep’t of State, Country
Reports on Human Rights Practices, 2004: Cote
d’Ivoire.
47. Despite the well-documented use of child labor on cocoa farms in Cote d’Ivoire, Defendants not
only purchased cocoa from farms and/or farmer cooperatives which they knew or should have known relied
on forced child labor in the cultivating and harvesting
of cocoa beans, but Defendants provided such farms
with money, supplies, and training to do so with little
or no restrictions from the government of Cote
d’Ivoire. Upon information and belief, several of the
cocoa farms in Cote d’Ivoire from which Defendants
source are owned by government officials, whether directly or indirectly, or are otherwise protected by government officials either through the provision of direct
security services or through payments made to such

42
officials that allow farms and/or farmer cooperatives
to continue the use child labor.
48. Defendants, because of their economic leverage in the region and exclusive supplier/buyer agreements each had the ability to control and/or limit the
use of forced child labor by the supplier farms and/or
farmer cooperatives from which they purchased their
cocoa beans, and indeed maintained specific policies
against the use of such forced labor practices.
49. Defendant Nestlé’s Standards of Business
Conduct states that “Nestlé is against all forms of exploitation of children. Nestlé does not provide employment to children before they have reached the age to
have completed their compulsory education . . . and
expects its suppliers to apply the same standards.
Nestlé abides by national laws in all countries in
which it has operations and complies with the International Labour Organisation (ILO) Convention 138
on Minimum Age for Employment and the ILO Convention 182 on the Worst Forms of Child Labour.”
Nestle also requires all of its subcontractors and Outsourcing Contractors to adhere to Nestlé’s Corporate
Business Principles, and chooses its Suppliers based
on, inter alia, their “minimum corporate social responsibility standards”.
50. Defendant ADM’s Business Code of Conduct
and Ethics, known as “The ADM Way,” states with respect to Child Labor that “ADM will not condone the
employment or exploitation of legally underage workers or forced labor and will not knowingly use suppliers who employ such workers or labor.” ADM further
states that its Code, including its Child Labor provision, is “a statement of the values to be recognized in
the conduct of ADM’s business by its employees, offic-

43
ers, directors and other agents. “It is [also] the responsibility of all . . . its subsidiaries worldwide to comply
with this Business Code of Conduct and Ethics . . .
[and that] the values explained in this [Code] are to
be consistently applied throughout the world in
ADM’s business, not only when it’s convenient or consistent with other business objectives, but in all situations.” ADM also asserts that it “will deal fairly with
its customers, suppliers and business partners [and
that] no ADM representative should take unfair advantage of anyone through. . . misrepresentation of
material facts or any other unfair dealing practice.”
51. Like Nestlé and ADM, Defendant Cargill’s
Position Paper on cocoa industry labor explicitly
states that “[a]busive treatment towards children in
agriculture or in any other industry is not acceptable.”
Cargill’s International Code of Conduct also states
that Cargill will “comply with the letter and spirit of
all applicable . . . laws designed to accomplish equal
and fair opportunities in employment.”
52. Despite Defendants’ knowledge of the widespread use of forced child labor on the cocoa farms
from which they source and their specific policies prohibiting child labor, Defendants not only continued to
provide cocoa farms money, supplies, and training to
grow cocoa beans for their exclusive use knowing that
their assistance would necessarily facilitate child labor, but they actively lobbied against all legal enforcement mechanisms that would have curbed forced child
labor.
53. In 2001, following news reports that child
slavery was a key ingredient of American chocolate,
U.S. Congressman Eliot Engel introduced a bill that
would have forced U.S. chocolate importers and manufacturers to adhere to a certification and labeling

44
system that their chocolate was “slave free”. The bill
passed the House of Representatives with a vote of
291 to 115 in favor of the measure.
54. The U.S. chocolate industry immediately
moved to eradicate the bill urging the legislatures,
concerned non-governmental organizations, and the
public at large that there was no need for concrete,
enforceable legislation against child slavery because
they would instead implement a private, voluntary
mechanism to ensure child labor free chocolate.
55. Their multi-million dollar lobbying effort
paid off by resulting in the Harkin-Engle Protocol, an
entirely voluntary agreement whereby the chocolate
industry would essentially police itself and in effect
guarantee the continued use of the cheapest labor
available to produce its product -- that of child slaves.
56. By providing the logistical and financial assistance described herein across a period of years, Defendants knew that the farmers they were assisting
were using and continued to use forced child labor, but
nevertheless continued to provide such assistance.
But for Defendants’ knowing and substantial assistance and their efforts to derail enforceable legal
mechanisms via the Harkin-Engle Protocol, the farmers would not have been able to operate their cocoa
plantations using forced child labor.
VII. HARM TO THE INDIVIDUAL PLAINTIFFS
A. Former Child Slave Plaintiffs
57. Plaintiff John Doe I was trafficked into Cote
d’Ivoire at age fourteen (14) to work on a large cocoa
plantation located in Abobogou, near the town of
Bouafle in Cote d’Ivoire. He was forced to work on the

45
plantation until the age of nineteen (19), between the
period of 1994 and 2000, when he finally escaped.
During the four year period, he was forced to work
harvesting and cultivating cocoa beans for up to
twelve (12) hours a day and sometimes as many as
fourteen (14) hours, six days a week. This work included cutting, gathering, and drying the cocoa beans
for processing. Upon information and belief, the cocoa
cultivated on this plantation is supplied to any one
and/or more of the Defendants herein. He was not
paid for his work and only given scraps of food to sustain him. He, along with the other children on the
plantation, were heavily guarded at all times and at
night kept in a locked room to prevent escape. When
the guards felt he was not working quickly enough, he
was often beaten with tree branches. He was beaten
so hard that he suffered cuts on his hands and legs.
Plaintiff John Doe I brings this action on behalf of
himself and all other similarly situated former child
slaves in Mali.
58. Plaintiff John Doe II was forced to work as a
child slave on a cocoa plantation for approximately 2
1/2 years between the period of 1998-2000. During
this time, he was between the age of 12-14 years old,
below the legal working age in Cote d’Ivoire. The plantation was located in the Region de Man, Cote d’Ivoire.
During the 2 1/2 years, he was forced to work harvesting and cultivating cocoa beans for up to twelve (12)
hours a day and sometimes as many as fourteen (14)
hours, six days a week. This work included cutting,
gathering, and drying the cocoa beans for processing.
Upon information and belief, the cocoa cultivated on
this plantation is supplied to any one and/or more of
the Defendants herein. Once on the plantation, his
movements were strictly controlled and he was not
permitted to leave under the threat that he would be

46
severely beaten and his feet cut open, as he had witnessed with the other children who attempted escape.
At night, he, along with the other children working on
the farm, were forced to sleep on the floor of a locked
room until morning when they were again gathered
for work. Plaintiff John Doe II was not paid, provided
with only the bare minimum of food, and beaten with
a whip when the guards felt he was not performing
adequately. Plaintiff John Doe II brings this action on
behalf of himself and all other similarly situated former child slaves in Mali.
59. Plaintiff John Doe III was forced into slavery
at age 14 on a cocoa plantation located in the Bengalo
Region de Man, Cote d’Ivoire. He was forced to work
on the plantation for approximately four (4) years until he was 18 years old from 1996-2000. During this
time, he worked between twelve (12) and fourteen (14)
hours, six days a week cutting, gathering, and drying
cocoa beans and was not paid for his work. Upon information and belief, the cocoa cultivated on this plantation is supplied to any one and/or more of the Defendants herein. John Doe III could not leave the plantation under fear that he would be severely beaten
and forced to drink urine, as had been done with other
the children who attempted escape. He was watched
at gun point at all times and at night was forced to
sleep in a small locked room with no windows and several other children on the floor. When he did not perform adequately, he was often whipped by the overseer. Plaintiff John Doe III brings this action on behalf
of himself and all other similarly situated former child
slaves in Mali.

47
B. Global Exchange
60. Global Exchange is a San Francisco based
human rights organization dedicated to promoting environmental, political and social justice globally.
Global Exchange’s members, who are American consumers of cocoa-based products, have suffered specific
and concrete injuries due to Defendants’ use of slave
child labor on farms from which their cocoa is sourced.
In addition, Global Exchange has fair trade stores
(both physical and on the internet) selling fair trade
chocolate, and have been forced to pay a premium for
this chocolate due to the unfair competition of slave
produced chocolate.
61. Global Exchange’s members have expressed
a clear desire to purchase products that are not made
under exploitative conditions but are incapable of determining whether products contain slave labor produced cocoa or non-slave labor produced cocoa. The
members’ interests are being harmed by having to
purchase products containing illegally imported, slave
labor produced cocoa against their clearly expressed
wishes.
62. Global Exchange has also been forced to
spend significant resources in providing fairly traded
chocolate, educating members of the public, and monitoring Defendants’ corporate obligation not to use
child labor.
VIII. DEFENDANTS’ VIOLATIONS OF LAW
63. The causes of action maintained herein arise
under and violate the following laws, agreements, conventions, resolutions and treaties:
(a)

Alien Tort Statute (ATS), 28 U.S.C. § 1350;

48
(b) Torture Victim Protection Act, 28 U.S.C. §
1350, note;
(c) Protocol Amending the Slavery Convention,
done Dec. 7, 1953, 7 U.S.T. 479 (entered into force Dec.
7, 1953);
(d) Slavery Convention, concluded Sept. 1926,
46 Stat. 2183, T.S. No. 788. 60 I.N.T.S 253 (entered
into force Mar. 9, 1927);
(e) Supplementary Convention on the Abolition
of Slavery, the Slave Trade, and Institutions and
Practices Similar to Slavery;
(f) International Labour Organisation Convention No. 29 Concerning Forced or Compulsory Labor
(1930), 39 U.N.T.S. 55 (entered into force May 1, 1932);
(g) International Labour Organisation Convention No. 105 Concerning the Abolition of Forced Labour Convention;
(h) International Labour Organisation (ILO)
Convention 138 on Minimum Age for Employment
(1973) 1015 U.N.T.S. 297 (entered into force June 19,
1976);
(i) ILO Convention 182 on the Worst Forms of
Child Labour (1999) 38 I.L.M. 1207 (entered into force
November 19, 2000);
(j) United Nations Charter, 59 Stat. 1031, 3
Bevans 1153 (1945);
(k) Universal Decl. of Human Rights, G.A. Res.
217A(iii), U.N. Doc. A/810 (1948);
(l) International Covenant on Civil and Political
Rights, G.A. Res. 2220A(xxi), 21 U.N. Doc., GAOR
Supp. (No. 16) at 52, U.N. Doc. A/6316 (1966);

49
(m) Convention Against Torture and Other
Cruel, Inhuman or Degrading Treatment or Punishment, G.A. res. 39/46, 39 U.N. Doc., GAOR Supp. (No.
51) at 197, U.N. Doc. A/39/51 (1984);
(n) Declaration on the Protection of All Persons
From Being Subjected to Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, G.A.
Res. 3452, 30 U.N. Doc., GAOR Supp. (No. 34) at 91,
U.N. Doc. A/10034 (1976);
(o)

Customary international law;

(p)

Federal Common and Statutory Law;

(q) California state law, including the Code of
Business & Professional Conduct, §§17200, et. seq.
IX. CLAIMS FOR RELIEF
COUNT I
FORCED LABOR BY ALL FORMER CHILD
SLAVE PLAINTIFFS
AGAINST ALL DEFENDANTS
THE ALIEN TORT STATUTE, 28 U.S.C. § 1350
64. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1-63 of this Complaint
as if fully set forth herein.
65. The Former Child Slave Plaintiffs were
placed in fear for their lives, were deprived of their
freedom, separated from their families and forced to
suffer severe physical and mental abuse.
66. Defendants’ use of forced labor under these
conditions of torture violate the law of nations, customary international law, and worldwide industry
standards and practices, including, but not limited to
those identified in paragraph 63.

50
67. To the extent necessary, Defendants’ actions
occurred under color of law and/or in conspiracy or on
behalf of those acting under color of official authority,
such that the injuries inflicted on these Plaintiffs as a
result of the forced labor were inflicted deliberately
and intentionally through the acts and/or omission of
responsible state officials and/or their agents to act in
preventing and/or limiting the trafficking or otherwise the use of child slaves. Upon information and belief, there are also several farms which are owned by
government officials, whether directly or indirectly, or
are otherwise protected by government officials either
through the provision of security services or through
payments made to such officials that allow farms
and/or farmer cooperatives to continue the use of child
labor.
68. Defendants’ conduct in violation of customary international law either directly caused these injuries, or Defendants are liable for these injuries because they provided knowing, substantial assistance
to the direct perpetrators, or because the direct perpetrators were agents, and/or employees of Defendants
or of companies that are the alter egos of Defendants.
69. The conduct of Defendants was malicious,
fraudulent and/or oppressive and done with a willful
and conscious disregard for the Former Child Slave
Plaintiffs’ rights and for the deleterious consequences
of Defendants’ actions. As a result, the Former Child
Slave Plaintiffs have sustained significant injuries
and these Plaintiffs will continue to experience pain
and suffering and extreme and severe mental anguish
and emotional distress. The Former Child Slave
Plaintiffs are thereby entitled to compensatory and
punitive damages in amounts to be proven at trial.

51
COUNT II
CRUEL, INHUMAN, OR DEGRADING TREATMENT BY ALL FORMER CHILD SLAVE
PLAINTIFFS AGAINST ALL DEFENDANTS
THE ALIEN TORT STATUTE, 28 U.S.C. § 1350
70. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1-69 of this Complaint
as if fully set forth herein.
71. The acts described herein had the intent and
the effect of grossly humiliating and debasing the Former Child Slave Plaintiffs, forcing them to act against
their will and conscience, inciting fear and anguish,
and breaking their physical and/or moral resistance.
72. Defendants’ actions forced the Former Child
Slave Plaintiffs against their will and under fear of
harm, to labor for Defendants’ economic benefit and in
doing so the Former Child Slave Plaintiffs were placed
in great fear for their lives and forced to suffer severe
physical and psychological abuse and agony.
73. In acting through the implicit sanction of the
state, Defendants acted under color of law and/or in
conspiracy or on behalf of those acting under color of
official authority, and the injuries inflicted on the Former Child Slave Plaintiffs as a result of the cruel, inhuman and degrading treatment were inflicted deliberately and intentionally through the omission of responsible state officials and/or their agents to act in
preventing and/or limiting the trafficking or otherwise the use of child slaves. Upon information and belief, there are also several farms which are owned by
government officials, whether directly or indirectly, or
are otherwise protected by government officials either
through the provision of security services or through
payments made to such officials that allow farms

52
and/or farmer cooperatives to continue the use of child
labor.
74. The acts described herein constitute cruel,
inhuman or degrading treatment in violation of the
law of nations under the ATS and Defendants are liable because they directly caused these injuries or they
provided knowing, substantial assistance to the direct
perpetrators, or because the direct perpetrators were
agents, and/or employees of Defendants or of companies that are the alter egos of Defendants.
75. Former Child Slave Plaintiffs are thereby entitled to compensatory and punitive damages in
amounts to be proven at trial.
COUNT III
TORTURE BY ALL FORMER CHILD SLAVE
PLAINTIFFS AGAINST ALL DEFENDANTS
THE ALIEN TORT STATUTE, 28 U.S.C. § 1350
TORTURE VICTIMS PROTECTION ACT, 28
U.S.C. § 1350, NOTE
76. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1-75 of this Complaint
as if fully set forth herein.
77. Defendants’ actions were undertaken under
the color of foreign authority as that term is specifically defined under the TVPA. Specifically, Defendants acted under color of law, and/or in conspiracy or
on behalf of those acting under color of official authority, by acting with the implicit sanction of the state
and/or through the intentional omission of responsible
state officials and/or their agents to act in preventing
and/or limiting the trafficking or otherwise the use of
child slaves into Cote d’ Ivoire. Upon information and
belief, there are also several farms which are owned

53
by government officials, whether directly or indirectly, or are otherwise protected by government officials, either through the provision of security services
or through payments made to such officials that allow
farms and/or farmer cooperatives to continue the use
of child labor.
78. Defendants’ conduct in violation of the TVPA
either directly caused Plaintiffs’ injuries, or they are
liable for Plaintiffs’ injuries because they provided
knowing, substantial assistance to the direct perpetrators, or because the direct perpetrators were
agents, and/or employees of Defendants or of companies that are the alter egos of Defendants.
79. The acts described herein were inflicted deliberately and intentionally for purposes which included, among others, punishing the victim or intimidating the victim or third persons, and constitute torture in violation of the law of nations under both the
ATS and the TVPA.
80. Defendants’ tortious acts described herein
placed all members of the Former Child Slave Plaintiffs in great fear for their lives and caused them to
suffer severe physical and mental pain and suffering.
The Former Child Slave Plaintiffs are thereby entitled
to compensatory and punitive damages in amounts to
be proven at trial.
COUNT IV
BREACH OF CONTRACT UNDER CORPORATE CODE OF CONDUCT
BY ALL FORMER CHILD SLAVE PLAINTIFFS
AGAINST ALL DEFENDANTS
81. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1 to 80 of this Complaint
as if set forth herein.

54
82. As stated in paragraphs 49-51 of this Complaint, each of the Defendants maintain strict business practices, as incorporated into their code of conduct and/or code of ethical business practices, which
prohibit the use of forced child labor and that requires
compliance with all local and international laws on
the issue of child labor.
83. Upon information and belief, such ethical
business practices regarding forced child labor are incorporated into exclusive buyer contracts, agreements, and/or memorandum of understandings
(MOUs) that Defendants maintain with their supplier
farms and/or farmer cooperatives, whether directly or
indirectly through specified buyers, agents, or middlemen, and that such provisions were intended to specifically benefit children who would be subject to
forced labor.
84. In failing to leverage their economic power
and operative control over supplier farms and/or buyers to adequately monitor the working conditions on
said farms, take adequate steps to ensure compliance
by supplier farms, and/or to terminate their business
relationship with farms found to be in non-compliance
with obligations prohibiting forced child labor, Defendants breached their contractual obligations under
their code of conduct or code of ethical business practice to the direct detriment of Plaintiffs and similarly
situated Proposed Class Members. Plaintiffs are accordingly entitled to compensatory damages for Defendants’ breach in amounts to be ascertained at trial.
COUNT V
NEGLIGENCE AND RECKLESSNESS

55
BY ALL FORMER CHILD SLAVE PLAINTIFFS
AGAINST ALL DEFENDANTS
85. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1 to 84 of this Complaint
as if set forth herein.
86. Defendants owed a duty to the Former Child
Slave Plaintiffs to exercise due care in conducting its
international ventures. Defendants breached their
duty of care by engaging in business activities which
failed to adequately monitor and prevent the use of
forced child labor on the farms from which they source
cocoa beans.
87. Defendants knew or should have known,
through due diligence, that the use of forced child labor was prevalent in the West Africa region and likely
to be used by the farmers from which they sourced cocoa beans. Documented reports of child labor in the
region were publicly available as early 1994. Accordingly, Defendants knew or should have known that
specific and concrete actions would be necessary to ensure compliance with local law and with international
human rights conventions that prohibit the use of
forced child labor.
88. As a direct and proximate result of Defendants’ breaches of duties, the Former Child Slave
Plaintiffs have suffered injuries to their persons as described herein. Such Plaintiffs are thereby entitled to
compensatory and punitive damages in amounts to be
ascertained at trial.
COUNT VI
UNJUST ENRICHMENT

56
BY ALL FORMER CHILD SLAVE PLAINTIFFS
AGAINST ALL DEFENDANTS
89. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1 to 88 of this Complaint
as if set forth herein.
90. As a result of the forced labor practices utilized by farms and/or farmer cooperatives from which
Defendants sourced cocoa beans, Defendants received
benefits by being able to purchase cocoa beans from
such farms at significantly lower prices as the farms’
total labor costs were greatly diminished by reliance
on forced child labor.
91. Defendants’ conduct thereby constitutes unjust enrichment and Defendants are under a duty of
restitution to the Former Child Slave Plaintiffs for the
benefits received therefrom and these Plaintiffs are
entitled to compensatory and punitive damages in
amounts to be ascertained at trial.
COUNT VII
VIOLATION OF CALIFORNIA BUSINESS
AND PROFESSIONS CODE § 17200, et. seq.
BY ALL PLAINTIFFS AGAINST ALL DEFENDANTS
92. Both the Former Child Slave Plaintiffs and
Global Exchange incorporate by reference paragraphs
1-91 of this Complaint as if set forth herein.
93. Together all Plaintiffs bring a cause of action
pursuant to California’s 26 Business and Professions
Code § 17204. The conduct of the Defendants named
herein has and continues to be detrimental to the general public, and Plaintiffs are seeking to enforce important rights affecting the public interest within the
meaning of the Code of Civil Procedure § 1021.5.

57
94. The fraudulent and deceptive practices of
Defendants alleged herein constitute ongoing and continuous unfair business practices within the meaning
of California’s Business and Professions Code § 17200.
Such practices include, but are not limited to, the
knowing use of forced labor in the cultivating and harvesting of cocoa beans by child slaves in Cote d’Ivoire,
and the making of material misrepresentations and
omissions, whether directly or indirectly, through various trade associations including, but not limited to,
the National Confectionary Association, the Chocolate
Manufacturers Associations, and the World Cocoa
Foundation.
95. These material misrepresentations and
omissions include, but are not limited to: statements
made to either deny the use of child slaves and/or to
create the false impression that the problem of child
slaves is being adequately addressed, either directly
by Defendants and/or through their various trade associations, including that an independent, credible
system of monitoring, certification, and verification
would be in place by July 1, 2005.
96. The conduct as alleged herein constitutes a
violation of California laws relating to labor practices,
criminal statutes, as well as obligations under customary international law. The use of such unfair, illegal, and forced child labor creates an unfair business
advantage over competitors within California and the
United States, and members of the public have been
in the past and will likely be in the future damaged by
these practices, as such persons were falsely made to
believe that the chocolate produced by Defendants
was either not made with child labor and/or that the
use of child labor was being adequately addressed.

58
97. Plaintiff Global Exchange was forced to expend significant resources in educating their members and the general public about the use of child labor by Defendants, by promoting and selling “fairly
traded” chocolate, and effectively monitoring the corporate commitments made by Defendants, whether
directly or indirectly. As a result of Defendants’ failure to adequately address the issue of child labor, utilize fair trade cooperatives, and compensate the Former Child Slaves, Plaintiff Global Exchange has lost
significant resources. In addition, Global Exchange
has fair trade stores (both physical and on the internet) selling fair trade chocolate, and it has been forced
to pay a premium for this chocolate due to the unfair
competition of slave produced chocolate.
98. Plaintiffs therefore collectively seek injunctive relief, disgorgement of all profits resulting from
these unfair business practices, restitution and other
appropriate relief on behalf of themselves and members of the general public as provided in Business and
Professions Code § 17203.
X. LIABILITY
99. Both the Former Child Slave Plaintiffs and
Global Exchange incorporate by reference paragraphs
1-98 of this Complaint as if set forth herein.
100. Defendants are directly liable for any actions
that they aided and abetted by knowingly providing
financial support, supplies, training, and/or other substantial assistance that contributed to the ability of
their agents, employees and/or partners to use and/or
facilitate the use of child slave labor, including but not
limited to any farm and/or farmer cooperative that
held any agreement, contract, and/or memorandum of
understanding, written or oral, to supply cocoa beans.

59
101. To the extent that Defendants can be said to
have acted indirectly, Defendants are vicariously liable for the actions of their agents, employees, co-venturers and/or partners, including specifically any farm
and/or farmer cooperative which held any agreement,
contract, and/or memorandum of understanding, written or oral, to supply cocoa beans to such Defendants.
102. To the extent that any such agent, employee,
co-venturers and/or partner used and/or facilitated
the use of child slave labor and/or made material misrepresentations and omissions, such entity was acting
within the course and scope of such agency, enterprise, or venture and Defendants confirmed and ratified such conduct.
103. Defendants are further liable for the acts of
any and all corporations and/or entities found to be
their alter ego. Defendants’ control over these entities’
operations, particularly with respect to the sourcing,
purchasing, manufacturing, distribution, and/or retailing of cocoa and cocoa derived products, renders
them mere conduits for the receipt or transfer of funds
and/or products with respect to cocoa products derived
from the Cote d’ Ivoire. Such inherent and pervasive
failure to maintain separate identities constitutes improper conduct and disrespects the privilege of using
the corporate form to conduct business.
XI. DEMAND FOR JURY TRIAL
104. Plaintiffs demand a trial by jury on all issues
so triable.
XII.

PRAYER FOR RELIEF

105. WHEREFORE, Plaintiffs respectfully request the Court to:

60
(a) enter judgment in favor of the Former Child
Slave Plaintiffs on all counts of the Complaint;
(b) award the Former Child Slave Plaintiffs
compensatory and punitive damages;
(c) grant the Former Child Slave Plaintiffs equitable relief including, but not limited to, an injunction
prohibiting further damage to their persons, and their
rights under the laws of California and customary international law;
(d) award all Plaintiffs injunctive relief, disgorgement of all profits resulting from these unfair
business practices alleged herein such that restitution
is made to the general public and Global Exchange;
(e) award Plaintiffs the costs of suit including
reasonable attorneys’ fees; and
(f) award Plaintiffs such other and further relief
as the Court deems just under the circumstances.
Dated: July 10, 20009
/s/Terry Collingsworth
Terry Collingsworth
(DC Bar # 471830)
CONRAD & SCHERER, LLP
Attorneys for All Plaintiffs

61
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
_______________
No. CV 05–5133 SVW (JTLx)
_______________
John Doe I, Individually and on behalf of Proposed
Class Members; John Doe II, Individually and on behalf of Proposed Class Members; John Doe III, Individually and on behalf of Proposed Class Members;
Global Exchange, Plaintiffs,
v.
Nestle, S.A.; Nestle U.S.A.; Nestle Ivory Coast;
Archer Daniels Midland Co.; Cargill, Inc.; Cargill Cocoa; Cargill West Africa, S.A.;
And Corporate Does 1–10, Defendants.
_______________
No. CV 05–5133 SVW (Jtlx)
Sept. 8, 2010
Order Granting Defendants Archer–Daniels–
Midland Co., Nestle U.S.A., And Cargill Inc.’s
Motion To Dismiss Plaintiffs’ First Amended
Complaint Pursuant To Fed. R. Civ. P. 12(B)(6)
For Failure To State A Claim
STEPHEN V. WILSON, District Judge.
I.

INTRODUCTION

On July 14, 2005, Plaintiffs John Doe I, John Doe
II, John Doe III, and Global Exchange (collectively

62
“Plaintiffs”)1 filed this class action for damages and
injunctive relief. On July 10, 2009, Plaintiffs filed a
first amended complaint. The amended complaint asserts causes of action under the Alien Tort Statute, 28
U.S.C. § 1350; the Torture Victim Protection Act, Pub.
L. 102–256, 106 Stat. 73 (1992); state-law unjust enrichment; and Cal. Bus. & Prof. Code §§ 17200 et seq.2
Defendants are Nestle, S.A. (based in Switzerland), Nestle, U.S.A., and Nestle Cote d’Ivoire, S.A.
(collectively “Nestle”); Cargill, Incorporated (“Cargill,
Inc.”), Cargill Cocoa (based in the United States), and
Cargill West Africa, S.A. (collectively “Cargill”); and
Archer Daniels Midland Company (“Archer Daniels
Midland”) (collectively “Defendants”).3
Defendants Nestle U.S.A., Cargill Inc., and
Archer Daniels Midland have filed a Motion to Dismiss the First Amended Complaint for failure to state
a claim upon which relief can be granted.
II. LEGAL STANDARD
In order to survive a Rule 12(b)(6) Motion to Dismiss, a plaintiff’s complaint “must contain sufficient
factual matter, accepted as true, to ‘state a claim to

Global Exchange brings only a single cause of action (Cal. Bus.
& Prof. Code § 17200). The Court’s use of the term “Plaintiffs”
generally refers only to the “Doe” plaintiffs.
1

In their Opposition, Plaintiffs have conceded their fourth and
fifth causes of action for breach of contract and negligence/recklessness under California state law.
2

Plaintiffs allege that the subsidiary defendants were acting as
agents of the parent defendants, and that the parent defendants
controlled and ratified the actions of their subsidiaries. Plaintiffs
also allege that the subsidiary defendants were alter egos of the
parents. Plaintiffs also sue ten unnamed “Corporate Does.”
3

63
relief that is plausible on its face.’ ” Ashcroft v. Iqbal,
556 U.S. ____, 129 S.Ct. 1937, 1949 (2009) (quoting Bell
Atlantic Corp. v. Twombly, 550 U.S. 544 (2007)). “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id. “Factual allegations must be
enough to raise a right to relief above the speculative
level on the assumption that all of the complaint’s allegations are true.” Twombly, 550 U.S. at 555. A complaint that offers mere “labels and conclusions” or “a
formulaic recitation of the elements of a cause of action will not do.” Iqbal, 129 S.Ct. at 1951; see also Moss
v. U.S. Secret Service, 572 F.3d 962, 969 (9th Cir.
2009) (citing Iqbal, 129 S.Ct. at 1951). Courts should
not “unlock the doors of discovery for a plaintiff armed
with nothing more than conclusions.” Iqbal, 129 S.Ct.
at 1950.
III. FACTS
The individual Plaintiffs are Malians who allege
that they were forced to labor on cocoa fields in Cote
d’Ivoire. Plaintiffs seek class status on behalf of similarly situated Malians who were forced to labor in
Cote d’Ivoire. The remaining Plaintiff, Global Exchange, is a San Francisco-based human rights organization that promotes social justice.
Plaintiffs allege that they have filed suit in the
United States because: (1) there is no law in Mali allowing civil damages for their injuries caused by nonMalian cocoa exporters (as all Defendants are American, European, or Ivorian corporations); (2) no suit
can be brought in Cote d’Ivoire because “the judicial
system is notoriously corrupt and would likely be unresponsive to the claims of foreign children against
major cocoa corporations operating in and bringing

64
significant revenue to Cote d’Ivoire” (FAC ¶ 2); (3)
Plaintiffs and their attorneys would be subjected to
possible harm in Cote d’Ivoire on account of general
civil unrest and “the general hostility by cocoa producers in the region”; and (4) the United States has provided an appropriate forum for these claims through
the Alien Tort Statute and the Torture Victim Protection Act, 28 U.S.C. § 1350.
Plaintiffs claim that Defendants have aided and
abetted violations of international law norms that
prohibit slavery; forced labor; child labor; torture; and
cruel, inhuman, or degrading treatment. Plaintiffs
also seek relief under state-law unjust enrichment. All
Plaintiffs (including Global Exchange) allege violations of Cal. Bus. & Prof. Code § 17200.
Plaintiffs allege that Defendants obtain an “ongoing, cheap supply of cocoa by maintaining exclusive
supplier/buyer relationships with local farms and/or
farmer cooperatives in Cote d’Ivoire.” (FAC ¶ 33.)4
These exclusive contractual arrangements allow Defendants “to dictate the terms by which such farms

Plaintiffs identify certain of Defendant Nestle’s exclusive relationships with suppliers Keita Ganda and Keita Baba from plantations in Daloa, and supplier Lassine Kone from plantations in
Sitafa. (FAC ¶ 35.) Plaintiffs identify certain of Defendant
Archer Daniels Midland’s exclusive relationships with suppliers
including a farmer cooperative called “SIFCA.” (FAC ¶ 39.)
Plaintiffs identify certain of Defendant Cargill’s exclusive relationships with Dote Colibaly, Soro Fonipoho, Sarl Seki, Lenikpo
Yeo (“from which 19 Malian child slaves were rescued,” FAC ¶
42), Keita Ganda, and Keita Hippie. (FAC ¶ 42.) The Court notes
that among the allegedly “exclusive” suppliers identified by
Plaintiffs, one—Keita Ganda—is alleged to be an “exclusive” supplier of both Nestle and Cargill. (FAC ¶¶ 35, 42.)
4

65
produce and supply cocoa to them, including specifically the labor conditions under which the beans are
produced.” (Id.) Defendants control the farms’ labor
conditions “by providing local farmers and/or farmer
cooperatives inter alia ongoing financial support, including advance payments and personal spending
money to maintain the farmers’ and/or the cooperatives’ loyalty as exclusive suppliers; farming supplies,
including fertilizers, tools and equipment; training
and capacity[-]building in particular growing and fermentation techniques and general farm maintenance,
including appropriate labor practices, to grow the
quality and quantity of cocoa beans they desire.” (FAC
¶ 34.) This oversight requires Defendants to engage in
“training and quality control visits [that] occur several
times per year and require frequent and ongoing visits
to the farms either by Defendants directly or via their
contracted agents.” (Id.)
Plaintiffs identify certain of Nestle’s representations in which Nestle states that it “‘provides assistance in crop production’” and performs “‘tracking inside our company supply chain, i.e. from the reception
of raw and packaging materials, production of finished products to delivery to customers.’” (FAC ¶ 36
(quoting Nestle “Principles of Purchasing,” 2006).)
Nestle also states that “‘[i]n dealing with suppliers,
Purchasing must insist on knowing the origin of incoming materials and require suppliers to communicate the origin of their materials,’” and that it “‘actively participate[s] as the first link in an integrated
supply chain,’ ‘develop[s] supplier relationships,’ and
‘continually monitor[s] the performance, reliability
and viability of suppliers.’” (Id.) Nestle also states that
its “‘Quality System covers all steps in the food supply
chain, from the farm to the consumer of the final products ..., includ[ing] working together with producers

66
and suppliers of raw ... materials.’” (FAC ¶ 37.) Finally, Nestle has stated that “‘[w]hile we do not own
any farmland, we use our influence to help suppliers
meet better standards in agriculture.... Working directly in our supply chain we provide technical assistance to farmers.’” (FAC ¶ 38.) This assistance
“‘ranges from technical assistance on income generation to new strategies to deal with crop infestation, to
specific interventions designed to address issues of
child labour,’” including “‘[s]pecific programmes directed at farmers in West Africa [such as] field schools
to help farmers with supply chain issues, as well as a
grassroots ‘training of trainers’ programme to help
eliminate the worst forms of child labour.’” (Id.)
Plaintiffs identify certain of Archer Daniels Midland’s representations in which the company states
that its relationship5 with the SIFCA cooperative
“‘gives ADM Cocoa an unprecedented degree of control
over its raw material supply, quality and handling.’”
(FAC ¶ 39 (quoting ADM statements contained in
2001 article in Biscuit World ).) An Archer Daniels
Midland executive has been quoted as saying “‘ADM
Cocoa can deliver consistent top quality products by
control of its raw materials,’ and that ‘ADM is focused
on having direct contact with farmers in order to advise and support them to produce higher quality beans
for which they will receive a premium.’” (Id.) Archer
Daniels Midland has represented that it has a “

In a conclusory manner, Plaintiffs identify Archer Daniels Midland’s exclusive supplier relationship with SIFCA as involving
an “acquisition,” without explaining whether this “acquisition”
involves an exclusive contract or a formal integration of SIFCA
into Archer Daniels Midland’s corporate structure. (See FAC ¶
39.)
5

67
‘strong presence in [cocoa] origin regions,’ ” and that “
‘ADM is working hard to help provide certain farmer
organizations with the knowledge, tools, and support
they need to grow quality cocoa responsibly and in a
sustainable manner.... ADM is providing much
needed assistance to organizations representing thousands of farmers and farming communities. These efforts are making an impact at the farm level.’ ” (FAC
¶ 40.) It has also stated that it “ ‘is actively involved
in long term efforts to ensure that cocoa is grown responsibly and sustainably. Such efforts include research into environmentally sound crop management
practices, plant breeding work to develop disease-resistant varieties, and farmer field schools to transfer
the latest know-how into the hands of millions of cocoa
farmers around the world. Starting from the cocoa
growers through to the world’s top food and beverage
manufacturers, ADM Cocoa is committed to delivering the best in product quality and service at every
stage.’ ” (FAC ¶ 41 (quoting ADM Cocoa Brochure).)
Plaintiffs allege that Cargill opened cocoa buying
stations in Daloa and Gognoa, and that Cargill’s Micao cocoa processing plant has obtained ISO 9002 certification. Plaintiffs allege that the ISO 9002 certification “is a system of quality standards for food processing from sourcing through processing that inherently requires detailed visits and monitoring of
farms.” (FAC ¶ 43.)
With respect to all Defendants, Plaintiffs allege
generally that “Defendants’ ongoing and continued
presence on the cocoa farms” provided “Defendants”
with “first hand knowledge of the widespread use of
child labor on said farms.” (FAC ¶ 44.) Plaintiffs also
allege that various governmental and non-govern-

68
mental actors have provided “numerous, well-documented reports of child labor.” (Id.) Plaintiffs allege
that “Defendants not only purchased cocoa from farms
and/or farmer cooperatives which they knew or should
have known relied on forced child labor in the cultivating and harvesting of cocoa beans, but Defendants
provided such farms with money, supplies, and training to do so with little or no restrictions from the government of Cote d’Ivoire.” (FAC ¶ 47.) Plaintiffs allege
that Defendants provided this “money, supplies, and
training ... knowing that their assistance would necessarily facilitate child labor.” (FAC ¶ 52.)
Plaintiffs also allege that some of the cocoa farms
are linked to the Ivorian government: “Upon information and belief, several of the cocoa farms in Cote
d’Ivoire from which Defendants source are owned by
government officials, whether directly or indirectly, or
are otherwise protected by government officials either
through the provision of direct security services or
through payments made to such officials that allow
farms and/or farmer cooperatives to continue the use
of child labor.” (FAC ¶ 47.)
Plaintiffs allege that “Defendants, because of
their economic leverage in the region and exclusive
supplier/buyer agreements, each had the ability to
control and/or limit the use of forced child labor by the
supplier farms and/or farmer cooperatives from which
they purchased their cocoa beans, and indeed maintained specific policies against the use of such forced
labor practices.” (FAC ¶ 48.) Plaintiffs identify various
representations in which Defendants asserted that
they abide by international standards, do not use
child labor, and take efforts to prevent their business
partners from using child labor. (FAC ¶¶ 49–51.)

69
Plaintiffs also allege that Defendants lobbied
against a 2001 United States Congressional proposal
to require chocolate manufacturers and importers to
certify and label their products as “slave free.” (FAC
¶¶ 53–54.) As a result of Defendants’ lobbying efforts,
the mandatory law was replaced by a voluntary arrangement known as the Harkin-Engel protocol, in
which the chocolate industry agreed upon certain
standards by which it would self-regulate its labor
practices. (FAC ¶ 55.) Plaintiffs allege that “but for”
this lobbying effort, Defendants’ cocoa plantations
would not have been able to use child labor.6
Plaintiff Global Exchange asserts a cause of action
under Cal. Bus. & Prof. Code § 17200. Plaintiffs allege
that Global Exchange’s members are American chocolate consumers who “have expressed a clear desire to
purchase products that are not made under exploitative conditions but are incapable of determining
whether products contain slave labor produced cocoa
or non-slave labor produced cocoa.” (FAC ¶ 61.) Their
“interests are being harmed by having to purchase
products containing illegally imported, slave labor
produced cocoa against their clearly expressed
wishes,” (FAC ¶ 61), thus causing them to “suffer[ ]
specific and concrete injuries.” (FAC ¶ 60.) Additionally, Plaintiffs allege that Global Exchange “has fair
trade stores” that sell “fair trade chocolate,” and as a
result of Defendants’ actions, Global Exchange’s
stores “have been forced to pay a premium for this
chocolate due to the unfair competition of slave produced chocolate.” (FAC ¶ 60.) Plaintiffs also allege

The Court notes that the Congressional effort took place in
2001, but the named Plaintiffs ceased working on the cocoa plantations in 2000. (FAC ¶¶ 57–59.)
6

70
that Global Exchange “has ... been forced to spend significant resources in providing fairly traded chocolate,
educating members of the public, and monitoring Defendants’ corporate obligation not to use child labor.”
(FAC ¶ 62.)
IV. SOSA
V.
ALVAREZ–MACHAIN
INTERNATIONAL LAW

AND

A. CAUSES OF ACTION FOR VIOLATIONS
OF INTERNATIONAL LAW
1. SOSA v. ALVAREZ–MACHAIN
In Sosa v. Alvarez–Machain, 542 U.S. 692 (2004),
the Supreme Court established the requirements for
bringing an action under the Alien Tort Statute, 28
U.S.C. § 1350.7 The Court held that § 1350 is solely a
jurisdictional statute and does not create any causes
of action. Instead, a limited number of internationallaw based causes of action are provided by the common law. Thus, although the Alien Tort Statute provides broad federal court jurisdiction for any tort
committed in violation of customary international
law, Sosa sharply circumscribed the availability of
private causes of action that are cognizable in federal courts under § 1350.
Not all international law norms provide a common
law cause of action under § 1350—to be actionable, it

Courts refer to 28 U.S.C. § 1350 as the Alien Tort Statute, Alien
Tort Claims Act, or the Alien Tort Act. This Court adopts the
Supreme Court’s preferred version, the Alien Tort Statute.
7

In its entirety, the Alien Tort Statute provides: “The district
courts shall have original jurisdiction of any civil action by an
alien for a tort only, committed in violation of the law of nations
or a treaty of the United States.” 28 U.S.C. § 1350.

71
must be a well-defined and universally recognized
norm of international law. As explained by the Court,
“the ATS was meant to underwrite litigation of a narrow set of common law actions derived from the law of
nations.” Sosa, 542 U.S. at 721. In determining the
scope of this “narrow set” of actions, courts must engage in a two-part analysis: “courts should require
any claim based on the present-day law of nations to
rest on [1] a norm of international character accepted
by the civilized world and [2] defined with a specificity
comparable to the features of the 18th-century paradigms we have recognized”—that is, the three common law international law wrongs identified by Blackstone, “violation of safe conducts, infringement of the
rights of ambassadors, and piracy.” Id. at 725–26.8
The Court added that federal courts “have no congres-

Commentators have suggested that only one of these three violations is the true inspiration for the Alien Tort Statute. See
Sosa, 542 U.S. at 716–17 (discussing 1784 Marbois affair, which
involved private citizen’s infringement of rights of French diplomatic representative); Thomas H. Lee, The Safe–Conduct Theory
of the Alien Tort Statute, 106 Colum. L. Rev. 830 (2006) (discussing safe conduct as inspiration of Alien Tort Statute); Eugene
Kontorovich, The Piracy Analogy: Modern Universal Jurisdiction’s Hollow Foundation, 45 Harv. Int’l L.J. 183 (2004) (discussing piracy as proper basis of Alien Tort Statute); see also Joseph
Modeste Sweeney, A Tort Only in Violation of the Law of Nations,
18 Hastings Int’l & Comp. L. Rev. 445 (1995) (asserting that Alien Tort Statute applies only to the law of prize; that is, capture
of enemy merchant vessels on high seas).
8

In other words, “it is fair to say that a consensus understanding of what Congress intended has proven elusive.” Sosa, 542
U.S. at 718–19. This Court agrees with the Supreme Court’s observation that “we would welcome any congressional guidance”
in this area of law. Id. at 731.

72
sional mandate to seek out and define new and debatable violations of the law of nations,” id. at 728, and
firmly cautioned that “federal courts should not recognize private claims under federal common law for violations of any international law norm with less definite content and acceptance among civilized nations
than the historical paradigms familiar when § 1350
was enacted.” Id. at 732. In a footnote, the Court noted
that “[a] related consideration is whether international law extends the scope of liability for a violation
of a given norm to the perpetrator being sued, if the
defendant is a private actor such as a corporation or
individual.” Id. at 732 n. 20.
2. SOURCES
LAW

OF

INTERNATIONAL

With these basic rules in mind, it is important to
have a clear understanding of the sources of international law upon which courts must rely in determining
whether a particular norm is universally accepted and
defined with the requisite specificity. As explained in
The Paquete Habana, 175 U.S. 677, 700, 20 S.Ct. 290,
44 L.Ed. 320 (1900) (cited in Sosa, 542 U.S. at 734,
“international law is part of our law,” and courts
should look to the following sources for guidance:
where there is no treaty and no controlling executive or legislative act or judicial decision,
resort must be had to the customs and usages
of civilized nations, and, as evidence of these,
to the works of jurists and commentators who
by years of labor, research, and experience
have made themselves peculiarly well acquainted with the subjects of which they treat.
Such works are resorted to by judicial tribunals, not for the speculations of their authors

73
concerning what the law ought to be, but for
trustworthy evidence of what the law really is.
The Paquete Habana, 175 U.S. at 700 (citing Hilton v.
Guyot, 159 U.S. 113, 163, 164, 214, 215 (1895)). The
Court also stated that international law norms must
be agreed upon “by the general consent of the civilized
nations of the world,” id. at 708, or, as phrased in international law, opinio juris.
The approach set out in The Paquete Habana is
consistent with the modern view of customary international law. As stated in the Statute of the International Court of Justice (the authoritative institution
in adjudicating international law), the sources of international law are:
a. international conventions, whether general or
particular, establishing rules expressly recognized by
the contesting states;
b. international custom, as evidence of a general
practice accepted as law;
c. the general principles of law recognized by civilized nations;
d. subject to the provisions of Article 59,9 judicial
decisions an the teachings of the most highly qualified
publicists of the various nations, as subsidiary means
for the determination of rules of law.

Article 59 provides that “[t]he decision of the Court has no binding force except between the parties and in respect of that particular case.” ICJ Statute, art. 59.
9

74
ICJ Statute, June 26, 1945, art. 38(1), 59 Stat. 1055,
1060, U.S.T.S. 993.10

The Restatement (Third) of Foreign Relations outlines a similar
set of guidelines:
10

(1) A rule of international law is one that has been accepted as
such by the international community of states
(a) in the form of customary law;
(b) by international agreement; or
(c) by derivation from general principles common to the major
legal systems of the world.
(2) Customary international law results from a general and
consistent practice of states followed by them from a sense of
legal obligation.
(3) International agreements create law for the states parties
thereto and may lead to the creation of customary international law when such agreements are intended for adherence
by states generally and are in fact widely accepted.
(4) General principles common to the major legal systems, even
if not incorporated or reflected in customary law or international agreement, may be invoked as supplementary rules of
international law where appropriate.
Restatement, § 102. And as further explained in Section 103(2):
In determining whether a rule has become international law,
substantial weight is accorded to
(a) judgments and opinions of international judicial and arbitral tribunals;
(b) judgments and opinions of national judicial tribunals;
(c) the writings of scholars;
(d) pronouncements by states that undertake to state a rule of
international law, when such pronouncements are not seriously challenged by other states.

75
In practice, this requires an exhaustive examination of treaties, court decisions, and leading treatises.11 As a model example, the Supreme Court in
Sosa, 542 U.S. at 732, referred to the lengthy, polyglot
footnote in United States v. Smith, 18 U.S. (5 Wheat.)
153 (1820). The Smith Court examined over a dozen
treatises in English, Latin, French, and Spanish, as
well as English caselaw, and determined that these
various sources all agreed upon the same basic definition of piracy under international law. Smith, 18 U.S.
at 163–80 n.h.

Id. at § 103(2); see also id. at § 112 (noting that United States
courts follow the approach contained in § 103, but that the Supreme Court’s interpretations are binding upon lower courts).
The Restatement, § 103 n. 1, helpfully explains the role of
scholarly sources as evidence of customary international law:
11

Such writings include treatises and other writings of authors
of standing; resolutions of scholarly bodies such as the Institute of International Law (Institut de droit international) and
the International Law Association; draft texts and reports of
the International Law Commission, and systematic scholarly
presentations of international law such as this Restatement.
Which publicists are “the most highly qualified” is, of course,
not susceptible of conclusive proof, and the authority of writings as evidence of international law differs greatly. The views
of the International Law Commission have sometimes been
considered especially authoritative.
In other words, it is important to exercise care when citing secondary sources as authorities on the meaning of international
law. Accordingly, the Court has endeavored to rely on primary
sources as much as possible.

76
3. INTERNATIONAL LAW CAUSES OF
ACTION AFTER SOSA
Ultimately, Sosa provides that international law
norms are only actionable if they are specifically defined and universally adhered to out of a sense of mutual obligation. Other courts, quoted in Sosa, 542 U.S.
at 732, have explained that this requires a showing
that the violation is one of a “handful of heinous actions,” Tel–Oren v. Libyan Arab Republic, 726 F.2d
774, 781 (D.C. Cir. 1984) (Edwards, J., concurring), involving a norm that is “specific, universal, and obligatory,” In re Estate of Marcos Human Rights Litigation,
25 F.3d 1467, 1475 (9th Cir. 1994), resulting in a finding that the actor is “hostis humani generis, an enemy
of all mankind.” Filartiga v. Pena–Irala, 630 F.2d 876,
890 (2d Cir. 1980).
In defining the relevant norms of international
law, domestic courts should carefully distinguish the
substance of international law from the procedures of
international law. See Sosa, 542 U.S. at 729–30 & n.
18 (referring to Erie R. Co. v. Tompkins, 304 U.S. 64
(1938), and discussing Alien Tort Statute as incorporating “substantive rules” of international law12). For

The relevance of Erie appears to animate the majority opinion
in Sosa—but the Court certainly could have made this analogy
more apparent. See, e.g., Craig Green, Repressing Erie’s Myth, 96
Cal. L. Rev. 595, 598 (2008) (“In Sosa v. Alvarez–Machain, Erie
was a touchstone of the Court’s ATS analysis, and not one Justice
questioned Erie’ s relevance.”); William R. Castro, The New Federal Common Law of Tort Remedies for Violations of International Law, 37 Rutgers L.J. 635, 842–43 (2006) (“The federal
courts’ administration of state law under the Erie doctrine pre12

77
example, the Ninth Circuit’s lead en banc opinion in
Sarei v. Rio Tinto, addressing the issue of exhaustion
of remedies, noted that Sosa requires an inquiry into
“whether exhaustion is a substantive norm of international law, to which the ‘requirement of clear definition’ applies; or if it is nonsubstantive, what source of
law—federal common law or international law—illuminates its content.” Sarei v. Rio Tinto, PLC, 550 F.3d
822, 828 (9th Cir. 2008) (en banc) (internal footnote
and citations omitted).13 In other words, courts applying the Alien Tort Statute must determine whether
the rule at issue is substantive or non-substantive
(i.e., procedural), and then must determine whether

sents a useful model for thinking about international law as federal common law.... In ATS litigation, the most obvious divide
between international and pure United States domestic law is
the separation of substance from procedure.... [In examining international law’s] substance, the norm for which a remedy is provided in ATS litigation is clearly governed by international law.
All questions as to whether the defendant has acted unlawfully
must be answered by recourse to rules of decision found in international law.”).
The Sarei majority ultimately held that Alien Tort Statute
claims include an exhaustion requirement; this majority was
split, however, over whether exhaustion was substantive or procedural in nature. Three judges held that exhaustion was a “prudential” requirement of domestic law, 550 F.3d at 828, 830–31,
two held that it was a substantive element of the international
law claim, id. at 834–36, and one concurred in the result for other
reasons, id. at 840–41. A dissenting opinion asserted that neither
domestic nor international law requires exhaustion of remedies
prior to filing an Alien Tort Statute action. Id. at 843–45.
13

The Court notes that Defendants’ Motion does not raise the
exhaustion issues discussed in Sarei.

78
that substantive international law is sufficiently definite and universal to satisfy the requirements of
Sosa.14
In distinguishing between the substance and procedure of international law, it is helpful to consider
the guidelines set out by a leading expert on international criminal law. According to M. Cherif Bassiouni,
who is among the most prolific and prominent authorities on international criminal law, “the penal aspects
of international [criminal] law include: international
crimes, elements of international criminal responsibility, the procedural aspects of the ‘direct enforcement system’ of international criminal law, and certain aspects of the enforcement modalities of the ‘indirect enforcement system’ of the International Criminal Court.” M. Cherif Bassiouni, 1 International
Criminal Law 5 (2008). Customary international law
defines the substantive elements of the crimes and
the elements of criminal responsibility, whereas the
procedural enforcement mechanisms are established largely on a case-by-case basis in response to

The Ninth Circuit’s lead opinion in Sarei somewhat enigmatically held “that we may freely draw from both federal common
law and international law without violating the spirit of Sosa’ s
instructions or committing ourselves to a particular method regarding other nonsubstantive aspects of ATS jurisprudence left
open after Sosa.” Sarei, 550 F.3d at 828. On its face, this language suggests that Sosa did not establish a clear substance-procedure distinction, and that general federal common law can be
incorporated into an Alien Tort Statute analysis.

14

Notably, however, the Sarei opinion specifically addressed exhaustion of remedies, which was explicitly left open by the Supreme Court as an area of law that is not necessarily governed
by the Court’s discussion of the proper method of substantive
international law analysis. Sosa, 542 U.S. at 733 n. 21.

79
particular atrocities (though today, the International
Criminal Court is meant to provide a permanent forum for enforcement actions). Id. at 7–8. The Supreme
Court in Sosa instructed federal courts to look to the
substantive aspects of international law, not the
procedural details of particular international law
enforcement mechanisms. Because the Alien Tort
Statute itself provides an independent domestic enforcement mechanism, federal courts should not be
distracted by the procedural quirks of foreign and international legal systems. Federal courts must be
careful to apply only substantive international law—
that is, the elements of the criminal acts and the nature of criminal responsibility—rather than the procedural elements of international law. See Bassiouni,
1 International Criminal Law at 5–8.
It is important for courts to apply international
law with a careful eye on its substantive provisions,
as Sosa repeatedly insisted that only clearly defined,
universally recognized norms are actionable under
the Alien Tort Statute. Though courts must look to
various sources to determine the scope of international law, courts should not just “pick and choose
from this seemingly limitless menu of sources” and
create a hybrid form of domestic common law that
merely draws on customary international law when
convenient. See Abdullahi v. Pfizer, Inc., 562 F.3d 163,
194 (2d Cir. 2009) (Wesley, J., dissenting), cert. denied, 130 S.Ct. 3541 (2010). The Alien Tort Statute,
as interpreted in Sosa, does not permit federal courts
to codify a new form of what International Court of
Justice Judge Philip Jessup termed “transnational
law,” which, as he explained, “includes both civil and
criminal aspects, [ ] includes what we know as public
and private international law, and [ ] includes national law both public and private.” Philip Jessup,

80
Transnational Law 106 (1956). Jessup justified his
proposed legal mélange on the ground that “[t]here is
no inherent reason why a judicial tribunal, whether
national or international, should not be authorized to
choose from all these bodies of law the rule considered
to be most in conformity with reason and justice for
the solution of any particular controversy.” Id. But, as
made abundantly clear in Sosa, such an idealized and
ungrounded form of international law is not a permissible source of authority for Alien Tort Statute cases.
Sosa requires that federal courts cannot look to general principles of “reason and justice” drawn ad hoc
from international and domestic rules; rather, courts
must look carefully to the substantive norms of international law that are clearly defined and universally agreed-upon. To do otherwise is to misapply
Sosa and “open the door” far too wide for Alien Tort
Statute litigation. Sosa, 542 U.S. at 729 (“[T]he judicial power should be exercised on the understanding
that the door is still ajar subject to vigilant doorkeeping, and thus open to a narrow class of international
norms today.”).
B. THE DISTINCTION BETWEEN CIVIL
AND CRIMINAL INTERNATIONAL LAW
NORMS
In its June 9, 2009 Order for further briefing, the
Court requested that the parties address the question
of whether the standards for liability under international law distinguish between civil and criminal
causes of action. In particular, the Court was concerned with whether Sosa requires international law
to establish well-defined norms of civil liability in order for an Alien Tort Statute action to lie. In light of
this briefing, the Court has reached the following conclusions.

81
There is no meaningful distinction in Alien Tort
State litigation between criminal and civil norms of
international law. See, e.g., Presbyterian Church of
Sudan v. Talisman Energy, Inc., 582 F.3d 244, 257 n.
7 (2d Cir. 2009) (citations omitted), pet’n for cert. filed,
Apr. 15, 2010, May 20, 2010; Khulumani v. Barclay
Nat. Bank Ltd., 504 F.3d 254, 270 n.5 (2d Cir. 2007)
(Katzmann, J., concurring) (citations omitted). This is
supported by the Sosa opinion, by the historical materials relevant to the Sosa Court’s construction of the
Alien Tort Statute, and by Justice Breyer’s concurrence in Sosa.
The majority opinion in Sosa pointedly quoted the
proposition from international scholar Beth Stephens
that a “mixed approach to international law violations, encompassing both criminal prosecution ... and
compensation to those injured through a civil suit,
would have been familiar to the founding generation.”
Sosa, 542 U.S. at 724 (quoting Beth Stephens, Individuals Enforcing International Law: The Comparative and Historical Context, 52 DePaul L. Rev. 433,
444 (2002)). In other words, the Court suggested that
international criminal law at the time of the founding also contained a civil component.
This conclusion is supported by an examination of
Blackstone, upon whom the Sosa Court relied heavily.
Notably, Blackstone discussed the three “common
law” international law violations (piracy, offenses on
the high seas, and offenses against ambassadors) as
being criminal offenses rather than civil offenses.
Blackstone did not suggest that these offenses could
be redressed through common-law civil actions. See
Blackstone, 4 Commentaries, Ch. 5; see also Sosa, 542
U.S. at 723 (“It is true that Blackstone [ ] refer[red] to
what he deemed the three principal offenses against

82
the law of nations in the course of discussing criminal sanctions.”) (emphasis added). However, Blackstone did explain that violations of an ambassador’s
safe-conduct were subject to statutory restitution.
See Blackstone, 4 Commentaries, Ch. 5 (“if any of the
king’s subjects attempt or offend, upon the sea, or in
port within the king’s obeisance, against any stranger
in amity, league, or under safe-conduct; and especially
by attaching his person, or spoiling him, or robbing
him of his goods; the lord chancellor, with any of the
justices of either the king’s bench or common pleas,
may cause full restitution and amends to be
made to the injured.”) (emphasis added) (citing
Statute of 31 Hen. VI., ch. 4).
As the Supreme Court recognized in Sosa, the Alien Tort Statute requires that federal courts provide
civil redress for these criminal offenses. Sosa, 542
U.S. at 724 (“We think it is correct ... to assume that
the First Congress understood that the district courts
would recognize private causes of action for ... torts
corresponding to Blackstone’s three primary offenses.”). If we are to use Blackstone’s treatise as the
lodestar of Alien Tort Statute analysis (as the Supreme Court did in Sosa ), then we must necessarily
conclude that the Alien Tort Statute exists precisely
for the purpose of providing civil redress to victims of
violations of international criminal law. See generally
Jaykumar A. Menon, The Alien Tort Statute: Blackstone and Criminal/Tort Law Hybridities, 4 J. Int’l
Crim. Just. 372 (2006) (discussing implications of Alien Tort Statute’s status as a hybrid of criminal law
and tort law).
Justice Breyer went further than the Sosa majority in discussing the relationship between international criminal law and civil causes of action. He noted

83
that criminal punishment contains an element of restitution in many legal systems.15 Sosa, 542 U.S. at
762–63 (Breyer, J., concurring). Notably, the International Criminal Court provides for reparations and
restitution as part of its jurisdiction over international criminal law. See Rome Statute of the International Criminal Court, July 17, 1998, 2187 U.N.T.S.
90, at arts. 75(2) (“The Court may make an order directly against a convicted person specifying appropriate reparations to, or in respect of, victims, including
restitution, compensation and rehabilitation.”),
77(2)(b) (“In addition to imprisonment, the Court may
order ... [a] forfeiture of proceeds, property and assets
derived directly or indirectly from that crime, without
prejudice to the rights of bona fide third parties.”).
In short, even in the absence of a universally recognized civil cause of action that exists under international law, the Alien Tort Statute provides a domestic civil cause of action which incorporates the
universally recognized norms of international law, regardless of whether they are criminal or civil. To hold
otherwise would render Sosa’ s references to Blackstone superfluous and, indeed, would cause the entire
foundation of the Alien Tort Statute to crumble, given
that there is no universally recognized norm of private
civil liability for international law violations. See generally Christine Gray, Judicial Remedies in Interna-

For example, an Italian court recently held American CIA operatives criminally liable (in absentia) for the abduction and extraordinary rendition of an Egyptian while he was in Italy. See
Italy Rules in Rendition Case, Wall St. J., Nov. 5, 2009, at A12.
In the verdict, the court also imposed a collective restitution obligation on the defendants in the amount of 1.5 million euros.
15

84
tional Law (1987) (noting, inter alia, that international law traditionally provides only for reparations
between states, not private civil remedies).
Accordingly, the Court concludes that the Alien
Tort Statute provides a civil cause of action for international law violations even if international law itself
does not clearly recognize a civil cause of action for violations of that norm.
V. THE ALLEGED PRIMARY VIOLATIONS OF
INTERNATIONAL LAW
Plaintiffs allege that Cote d’Ivoire farmers are responsible for the following violations of Plaintiffs’
rights under international law. Plaintiffs further allege that Defendants have aided and abetted these violations.
Defendants’ Motion to Dismiss is aimed at the adequacy of Plaintiffs’ allegations of aiding and abetting.
Because the Motion is not directed at the underlying
primary violations of international law (i.e., the conduct of the Ivorian farmers), the Court assumes for
purposes of this Order that Plaintiffs have adequately
alleged primary violations of the following norms. The
Court summarizes the applicable facts and legal
standards in order to provide context for the discussion of Defendants’ contribution (or lack thereof) to
those violations. It is helpful to thoroughly examine
the details of the alleged primary violation prior to addressing the parties’ arguments regarding secondary
liability.
A. FORCED LABOR
It is widely acknowledged that the use of forced
labor violates international law. See Adhikari v.
Daoud & Partners, 697 F. Supp. 2d 674, 687 (S.D. Tex.

85
2009) (“trafficking and forced labor ... qualify as universal international norms under Sosa ”); John Roe I
v. Bridgestone Corp., 492 F. Supp. 2d 988, 1014 (S.D.
Ind. 2007) (“some forms of forced labor violate the law
of nations”); Jane Doe I v. Reddy, No. C 02–05570
WHA, 2003 WL 23893010, at *9 (N.D. Cal. Aug. 4,
2003) (“forced labor ... is prohibited under the law of
nations); Iwanowa v. Ford Motor Co., 67 F. Supp. 2d
424, 441 (D.N.J. 1999) ( “[T]he case law and statements of the Nuremberg Tribunals unequivocally establish that forced labor violates customary international law.”); see also In re World War II Era Japanese
Forced Labor Litig., 164 F. Supp. 2d 1160, 1179 (N.D.
Cal. 2001) (“this court is inclined to agree with the
Iwanowa court’s conclusion that forced labor violates
the law of nations”).
For present purposes, the Court adopts the definition of “forced labor” supplied by the International Labour Organization Forced Labor Convention of 1930:
“all work or service which is exacted from any person
under the menace of any penalty and for which the
said person has not offered himself voluntarily.” International Labour Organization Convention No. 29
Concerning Forced or Compulsory Labor, art. 2., 39
U.N.T.S. 55, entered into force, May 1, 1932. More
thorough definitions may be found in the treaties and
conventions identified in the Complaint (FAC ¶ 63), in
the expert declaration of Lee Swepston [docket no. 93],
and in the Victims of Trafficking and Violence Protection Act of 2000.16

The Act provides that a person has engaged in forced labor if
he:
16

86
There are various examples of forced labor cases
being brought under the Alien Tort Statute (many of
which, it should be noted, predate Sosa ). In one case,
the district court held that the plaintiffs’ allegations
were insufficient to state a claim under international
law where:
Plaintiffs allege that they have nothing left after they spend their wages at [the defendant’s]
company stores and other company facilities
(such as schools), but they do not allege induced indebtedness. Plaintiffs allege that they
are physically isolated at the Plantation, but
they do not allege that [the defendant] keeps
them physically confined there. To the extent
plaintiffs allege psychological compulsion,
they are clearly alleging what the [International Labor Organization] report calls “pure
economic necessity, as when a worker feels
unable to leave a job because of the real or perceived absence of employment alternatives,”

knowingly provides or obtains the labor or services of a person
by any one of, or by any combination of, the following means—
(1) by means of force, threats of force, physical restraint, or
threats of physical restraint to that person or another person;
(2) by means of serious harm or threats of serious harm to
that person or another person;
(3) by means of the abuse or threatened abuse of law or legal
process; or
(4) by means of any scheme, plan, or pattern intended to
cause the person to believe that, if that person did not perform such labor or services, that person or another person
would suffer serious harm or physical restraint.
18 U.S.C. § 1589(a).

87
which is not forced labor under international
law.
John Roe I v. Bridgestone Corp., 492 F. Supp. 2d 988,
1014 (S.D. Ind. 2007).
In another case, the allegations were sufficient
where the plaintiffs alleged that they “were brought
to the United States and forced to work involuntarily
[,] and [that] defendants reinforced their coercive conduct through threats, physical beatings, sexual battery, fraud and unlawful substandard working conditions.” Jane Doe I v. Reddy, 2003 WL 23893010, at *9.
Similarly, in Licea v. Curacao Drydock Co., Inc., 584
F. Supp. 2d 1355 (S.D. Fla. 2008), the plaintiffs established that they were forced to work on oil platforms
after having been trafficked from Cuba to Curacao under threats of physical and emotional harm.
In the present case, Plaintiffs allege that they
were forced to labor on cocoa fields. (FAC ¶¶ 57–59.)
At least one Plaintiff (John Doe I) alleges that he was
trafficked from Mali to Cote d’Ivoire. (FAC ¶ 57.) All
three Plaintiffs were locked on their respective farms
and plantations and monitored at night by guards
armed with guns and whips. (FAC ¶¶ 57–59.) They
were subjected to physical violence and related psychological abuse that had the effect of forcing them to
work and remain on the farms. (FAC ¶¶ 57–59.) They
were threatened with severe beatings from whips and
tree branches, being forced to drink urine, and having
their feet cut open. (Id.) They were not paid for their
work, were given inadequate amounts of food, and
were forced to sleep in groups in locked rooms, and at
least one plaintiff was forced to sleep on the floor. (Id.)
Because Defendants have not disputed that adequacy of these allegations, the Court concludes for

88
present purposes that these allegations are sufficient
constitute forced labor under international law.
B. CHILD LABOR
It is clear that in some instances “child labor” constitutes a violation of an international law norm that
is specific, universal, and well-defined. “Yet whatever
one’s initial reaction is to the broad phrase ‘child labor,’ reflection shows that national and international
norms accommodate a host of different situations and
balance competing values and policies.... It is not always easy to state just which practices under the label
‘child labor’ are the subjects of an international consensus.” John Roe I v. Bridgestone, 492 F. Supp. 2d at
1020.
Plaintiffs submit an expert declaration from a former member of the International Labour Organization, Lee Swepston. [Docket no. 93.] Swepston’s declaration reveals that the definitional concerns identified
by the John Roe I v. Bridgestone court apply with
equal force in the present case.17 Nevertheless, for
present purposes, the Court assumes that the allegations in the First Amended Complaint are analogous
to the allegations at issue in John Roe I v. Bridgestone,

For example, a number of countries allow children of the age
of 14 or 15 to engage in most or all types of labor. (See Swepston
Decl. Ex. B (Australia, Ethiopia, Fiji, Finland, India, Pakistan,
Sri Lanka, Trinidad & Tobago).) A number of states in the U.S.
are similar. (See id. (Illinois, Indiana, Nevada, Pennsylvania).)
17

In addition, although most countries have adopted regulations
prohibiting children of varying ages from engaging in “hazardous” work activities, the precise definition of “hazardous” remains unclear. (See id.)

89
a case involving allegations of forced labor and child
labor on a Liberian rubber plantation:
[T]he Complaint states that defendants are
actively encouraging—even tacitly requiring—the employment of six, seven, and ten
year old children. Giving plaintiffs the benefit
of their factual allegations, the defendants are
actively encouraging that these very young
children perform back-breaking work that exposes them to dangerous chemicals and tools.
The work, plaintiffs allege, also keeps those
children out of the [company-provided]
schools. The court understands that defendants deny the allegations, but defendants
have chosen to file a motion that requires the
court to accept those allegations as true, at
least for now. [¶] The circumstances alleged
here include at least some practices that could
therefore fall within the “worst forms of child
labor” addressed in ILO Convention 182. The
conditions of work alleged by plaintiffs (and
reported by the UN investigators) are likely to
harm the health and safety of at least the very
youngest of the child plaintiffs in this case.
John Roe I v. Bridgestone Corp., 492 F. Supp. 2d at
1021.18
The plaintiffs in the present case allege that they
were forced to work “cutting, gathering, and drying”

It should be noted that John Roe I v. Bridgestone involved
claims for the defendants’ direct violations of international law,
not for the defendant’s aiding and abetting third parties’ violations. The plaintiffs in that case had alleged that the defendants
“own and control the plantation.” 492 F. Supp. 2d at 990.
18

90
cocoa beans for twelve to fourteen hours a day, six
days a week. (FAC ¶¶ 57–59.) The plaintiffs were between twelve and fourteen years old at the time they
first began working at the farms. (Id.)
Because Defendants have not disputed the adequacy of these allegations, the Court assumes for present purposes that Plaintiffs’ allegations establish violations of universal, well-defined international law
norms prohibiting child labor.19
C. TORTURE
Torture is a well-established norm of international law that is actionable under the Alien Tort Statute. See In re Marcos Human Rights Litig., 25 F.3d
1467, 1475 (9th Cir.1994) (collecting authorities);
Filartiga v. Pena–Irala, 630 F.2d 876, 880–84 (2d
Cir.1980); see also Sosa, 542 U.S. at 732 (citing those
cases with approval).
A helpful working definition of “torture” can be
found in the Torture Victim Protection Act:
the term ‘torture’ means any act, directed
against an individual in the offender’s custody
or physical control, by which severe pain or
suffering (other than pain or suffering arising

The Court notes, however, that Plaintiffs’ allegations are readily distinguishable from the allegations at issue in John Roe I v.
Bridgestone, which involved the employment of significantly
younger children (six to ten years old, as opposed to twelve to
fourteen in the present case) and contained specific factual allegations that they were not allowed to attend school and were
forced to perform “back-breaking work that expose[d] them to
dangerous chemicals and tools.” See John Roe I v. Bridgestone,
492 F. Supp. 2d at 1021.
19

91
only from or inherent in, or incidental to, lawful sanctions), whether physical or mental, is
intentionally inflicted on that individual for
such purposes as obtaining from that individual or a third person information or a confession, punishing that individual for an act that
individual or a third person has committed or
is suspected of having committed, intimidating or coercing that individual or a third person, or for any reason based on discrimination
of any kind[.]
Torture Victim Protection Act, Pub. L. 102–256, 106
Stat. 73 (1992), § 3(b)(1), reprinted in 28 U.S.C.A.
§ 1350 note. In addition, the Torture Victim Protection Act contains a state-action requirement, such
that liability only exists if the act of torture is done
“under actual or apparent authority, or color of law, of
any foreign nation.” Id. at § 2(a)(1).20
Plaintiffs allege that they were severely beaten
and/or threatened with severe beatings in order to
prevent them from leaving the cocoa plantations.
Plaintiffs also allege that they were given inadequate
food, were forced to sleep in tightly-packed locked
rooms, and were threatened with being forced to drink
urine. (FAC ¶¶ 57–59.)
The Court will assume for purposes of this motion
that these allegations are sufficient to state the basic

This definition of torture is nearly identical, word-for-word, as
the leading international law definition found in the Convention
Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, art. 1(1), S. Treaty Doc. No. 100–20 (1988),
1465 U.N.T.S. 113, reprinted in 23 I.L.M. 1027 (1984), modified
in 24 I.L.M. 535 (1985).
20

92
elements of torture: “severe pain or suffering” was “intentionally inflicted on” Plaintiffs for the “purposes” of
“punishing” Plaintiffs for acts that Plaintiffs committed, and/or for the “purposes” of “intimidating or coercing” Plaintiffs. Allegations of severe beatings, extended confinements, and deprivation of food—causing both physical and mental injury—generally constitute torture. See, e.g., Doe v. Qi, 349 F. Supp. 2d
1258, 1267–70, 1314–18 (N.D. Cal. 2004) (collecting
cases).21
To the extent that the international law definition
of torture contains additional requirements (most importantly, the state-action requirement), the Court
discusses these issues at greater length infra.
D. CRUEL, INHUMAN, AND DEGRADING
TREATMENT
“Cruel, inhuman, or degrading treatment or punishment is defined as acts which inflict mental or
physical suffering, anguish, humiliation, fear and debasement, which fall short of torture.” Sarei v. Rio
Tinto PLC, 650 F. Supp. 2d 1004, 1029 (C.D. Cal.
2009) (quoting Aldana v. Del Monte Fresh Produce,
N.A., Inc., 452 F.3d 1284, 1285 n.1 (11th Cir. 2006)
(Barkett, J., dissenting)), appeal pending, Nos. 02–
56256, 02–56390, 09–56381 (9th Cir.). “The principal
difference between torture and [cruel, inhuman, or degrading treatment] is ‘the intensity of the suffering inflicted.’ ” Id. (quoting Restatement (Third) of Foreign
Relations, § 702 n.5).

That said, in light of Twombly and Iqbal, the Court has serious
concerns about the adequacy of the factual details contained in
Plaintiffs’ First Amended Complaint.
21

93
The prevailing view in the caselaw is that “cruel,
inhuman, and degrading treatment” generally constitutes an actionable international law norm under
Sosa. See, e.g., Sarei, 650 F. Supp. 2d at 1028–29 (collecting cases). However, as with child labor, there is a
general consensus that only some types of activities
constitute cruel, inhuman, and degrading treatment;
and the central question is whether the “specific conduct at issue” fits within that core norm. Id. at 1029–
30 (“Because multiple elements of plaintiffs’ CIDT
claim do not involve conduct that has been universally
condemned as cruel, inhuman, or degrading, the court
concludes that the specific CIDT claim plaintiffs assert does not exclusively involve matters of universal
concern.”); Bowoto, 557 F. Supp. 2d at 1093–94; John
Roe I v. Bridgestone, 492 F. Supp. 2d at 1023–24 (recognizing cruel, inhuman, and degrading treatment as
actionable norm under customary international law,
but holding that “exploitative labor practices” do not
violate those norms); Doe v. Qi, 349 F. Supp. 2d at
1321–25.
As with the allegations of torture, the Court assumes for purposes of this Order that Plaintiffs have
adequately alleged cruel, inhuman, or degrading
treatment with respect to Defendants’ alleged severe
beatings, extended confinements, and deprivation of
food.
VI. LEGAL STANDARD REGARDING LIABILITY FOR AIDING AND ABETTING VIOLATIONS OF INTERNATIONAL LAW
A. INTRODUCTION
There is an extensive body of precedent supporting aiding and abetting-liability for violations of inter-

94
national law. Aiding and abetting liability is prominent in the Nuremberg Tribunals, the International
Criminal Tribunals for the Former Yugoslavia and
Rwanda (hereinafter “ICTY” and “ICTR”), and the
Rome Statute of the International Criminal Court.
See Khulumani v. Barclay Nat. Bank Ltd., 504 F.3d
254, 270 (2d Cir. 2007) (Katzmann, J., concurring)
(“the individual responsibility of a defendant who aids
and abets a violation of international law ... has been
frequently invoked in international law instruments
as an accepted mode of liability [and] has been repeatedly recognized in numerous international treaties.”).
International conventions such as the Supplementary
Convention on the Abolition of Slavery require the
punishment of aiders and abetters. See Supplementary Convention on the Abolition of Slavery, the Slave
Trade, and Institutions and Practices Similar to Slavery, Sept. 7, 1956, 18 U.S.T. 3201, 226 U.N.T.S. 3.22
Similarly, domestic criminal law provides for aiding
and abetting liability, see 18 U.S.C. § 2, and has done
so for centuries with respect to aiding and abetting
particular violations of international law such as piracy.23 There is little doubt, then, that certain Alien

The Convention requires member states to prohibit “being accessory” to and “being a party to a conspiracy to accomplish” acts
including “enslaving another person” and separating a child from
his parents “with a view to the exploitation of the child[’s] ... labour.” 18 U.S.T. 3201, arts. 1(d), 6(1)-(2).
22

In light of Sosa’ s emphasis on Blackstone and the law of piracy, it is interesting to note the centuries-old domestic statutory
provisions in England and the United States that criminalized
aiding and abetting piracy. See United States v. Palmer, 16 U.S.
610, 629 (1818) (discussing Apr. 30, 1790 Act providing for punishment by death for those who “knowingly and wittingly aid and
23

95
Tort Statute defendants may potentially be held liable
under an aiding and abetting theory of liability.
B. WHICH SOURCE OF LAW TO APPLY?
The key question is whether to examine domestic
law or international law to derive the proper legal
standard for determining aiding and abetting liability. Plaintiffs assert that the proper source of aiding
and abetting liability is domestic law. Defendants assert that international law is the proper source.
Ultimately, the Court agrees with and adopts the
Second Circuit’s resolution of this question: international law provides the appropriate definition of aiding and abetting liability. See Presbyterian Church of
Sudan v. Talisman Energy, Inc., 582 F.3d 244, 258–
59 (2d Cir. 2009) (discussing Khulumani v. Barclay
Nat. Bank Ltd., 504 F.3d 254 (2d Cir. 2007)). The central principles are as follows.

assist, procure, command, counsel, or advise, any person or persons, to do or commit any murder, robbery, or other piracy,” or
who after the fact “furnish aid to those by whom the crime has
been perpetrated”) (citing 1 Stat. 112, 113–14, §§ 10–11); Blackstone, 4 Commentaries, Ch. 5 (discussing statute of 2 Hen. V. St.
1, ch. 6, by which the “breaking of truce and safe-conduct, or abetting and receiving the truce breakers, was (in affirmance and
support of the law of nations) declared to be high treason against
the crown and dignity of the king,” and statutes of 11 & 12 Wm.
III., ch. 7 and 8 Geo. I., ch. 24, which established criminal liability for “conspiring” to commit piracy and for “trading with known
pirates, or furnishing them with stores or ammunition, or fitting
out any vessel for that purpose, or in any wise consulting, combining, confederating, or corresponding with them,” and further
establishing that “all accessories to piracy, are declared to be
principal pirates, and felons without benefit of clergy”).

96
The Supreme Court in Sosa repeatedly insisted
that United States courts must follow international
law in defining the nature of violative acts and the
scope of liability. See, e.g., Sosa, 542 U.S. at 732 (“federal courts should not recognize private claims under
federal common law for violations of any international
law norm with less definite content and acceptance
among civilized nations than the historical paradigms
familiar when § 1350 was enacted.”). Though Plaintiffs argue that federal law should be used to fill the
gaps where international law is silent, it is clear that
international law provides sufficiently well-established norms of secondary liability to satisfy Sosa’ s
requirement of norms containing “definite content
[that are] accept[ed] among civilized nations.” See id.
There is simply no reason to alter the well-defined
scope of international law by introducing domestic law
into the Alien Tort Statute.
It is clear from the authorities identified by the
parties and discussed at greater length infra that international law recognizes aiding and abetting liability. Because the act of aiding and abetting a human
rights violation constitutes an independent violation
of international law, the Court concludes that international law is the appropriate source of law under
Sosa.
C. WHAT IS THE SCOPE OF AIDING AND
ABETTING LIABILITY UNDER INTERNATIONAL LAW?
There is little doubt that aiding and abetting liability is a part of international law. Aiding and abet-

97
ting liability is prominent in the Nuremberg Tribunals,24 the International Criminal Tribunals for the
Former Yugoslavia and Rwanda,25 and the Statute of
the International Criminal Court. See generally Khulumani, 504 F.3d at 270 (Katzmann, J., concurring).
Although there are various formulations of the
proper standard of aiding and abetting liability in international law, it is important to remember Sosa’s instruction that norms are only actionable if they are

The London Charter that created the Nuremberg Tribunals
provided for secondary as well as primary liability for the atrocities committed by the Axis Powers during the Second World
War. Article Six provided that “Leaders, organizers, instigators
and accomplices participating in the formulation or execution of
a common plan or conspiracy to commit any of the foregoing
crimes [crimes against peace, war crimes, and crimes against humanity] are responsible for all acts performed by any persons in
execution of such plan.” Agreement for the Prosecution and Punishment of Major War Criminals of the European Axis, and Establishing the Charter of the International Military Tribunal,
Aug. 8, 1945, art. 6, 82 U.N.T.S. 279 (hereinafter “London Charter”).
24

ICTY and ICTR allow for aiding and abetting liability by virtue
of their enabling statutes, which create liability for those who
have “planned, instigated, ordered, committed, or otherwise
aided and abetted in the planning, preparation or execution of a
crime.” Statute of the International Tribunal for the Former Yugoslavia, art. 7, adopted May 25, 1993, S.C. Res. 827, U.N. Doc.
S/RES/827 (hereinafter “ICTY Statute”); Statute of the International Criminal Tribunal for Rwanda, art. 6, adopted Nov. 8,
1994, S.C. Res. 955, U.N. Doc. S/RES/955 (hereinafter “ICTR
Statute”). The ICTY and ICTR Statutes were drafted and approved by the Security Council of the United Nations. See Presbyterian Church of Sudan v. Talisman Energy, Inc., 374 F. Supp.
2d 331, 338 (S.D.N.Y.2005).
25

98
universally recognized and defined with specificity.
For example, as noted by Justice Story in United
States v. Smith, 18 U.S. 153, 161, 5 Wheat. 153, 5
L.Ed. 57 (1820), “whatever may be the diversity of definitions, ... all writers concur, in holding, that robbery
or forcible depredations upon the sea, animo furandi
[with the intention to steal] is piracy.”26 In other
words, where there are a variety of formulations, the
court should look to the formulation that is agreed
upon by all—a lowest common denominator or a common “core definition” of the norm. See Khulumani, 504
F.3d at 277 n. 12 (Katzmann, J., concurring). This approach has been adopted by the Ninth Circuit in
Abagninin v. AMVAC Chem. Corp., 545 F.3d 733,
738–40 (9th Cir. 2008), which concluded that customary international law imposes a specific intent standard for genocide, despite an alternative “knowledge”
standard established by one particular treaty. In addition, this lowest common denominator approach has
been adopted by other federal courts dealing with the
question of aiding and abetting liability. See Presbyterian Church of Sudan, 582 F.3d at 259 (concluding
that the relevant “standard has been largely upheld
in the modern era, with only sporadic forays in the direction of a [different] standard.”).
1. ACTUS REUS
With respect to the actus reus element of the violation, the Court, having examined the applicable authorities, believes that the International Criminal Tribunal for the former Yugoslavia has accurately and

The Smith Court’s analysis of piracy was cited with approval
in Sosa, 542 U.S. at 732.
26

99
concisely restated the governing international law
rule:
an aider and abettor carries out acts specifically directed to assist, encourage, or lend
moral support to the perpetration of a certain
specific crime, which have a substantial effect on the perpetration of the crime. The actus reus need not serve as condition precedent
for the crime and may occur before, during, or
after the principal crime has been perpetrated.
Prosecutor v. Blagojevic, No. IT–02–60–A, at ¶ 127
(ICTY Appeals Chamber, May 9, 2007) (collecting
cases) (citations and footnotes omitted, emphasis
added), available at http://www.icty.org/x/cases/blagojevic_jokic/acjug/en/blajok-jud070509.pdf.27 This for-

Plaintiffs argue that the actus reus element does not require
that the acts are “specifically directed” to a “certain specific
crime.” But as Plaintiffs concede (see 8/6/09 Opp. at 12), the
Blagojevic tribunal carefully explained that international law
has always required that the acts be “specifically directed” to
assist in a “certain specific crime”; however, the tribunal also
noted that some courts have implicitly concluded that this
standard was satisfied when the facts showed that the actor’s
conduct was undertaken knowingly and had a “substantial effect
on the perpetration of the crime.” Blagojevic, at ¶¶ 189, 193. The
Court agrees with the Blagojevic tribunal’s summary of the international caselaw, which unanimously supports the conclusion
that the actus reus of aiding and abetting in international law
requires that the assistance is “specifically directed” to a “certain
specific crime.” As explained in Blagojevic, alternative formulations of this standard generally constitute dictum that is not uniformly accepted. The alternative formulations therefore fail to
27

100
mulation requires that the defendant must do something more than “[a]iding a criminal” generally—the
defendant must aid the commission of a specific
crime. As other District Courts have aptly explained,
“[a]iding a criminal ‘is not the same thing as aiding
and abetting his or her alleged human rights
abuses.’ ” In re South African Apartheid Litig., 617 F.
Supp. 2d 228, 257 (S.D.N.Y. 2009) (emphasis added)
(quoting Mastafa v. Australian Wheat Bd. Ltd., No. 07
Civ. 7955(GEL), 2008 WL 4378443, at *3 (S.D.N.Y.
Sept. 25, 2008)). In other words, the aider and abettor’s assistance must bear a causative relationship to
the specific wrongful conduct committed by the
principal. Id. The assistance need not necessarily constitute a “but-for” cause or conditio sine qua non, but
it must have an actual effect on the principal’s criminal act. Id.
This definition of the actus reus standard is consistent with the caselaw summarized infra and, notably, retains a meaningful and clear distinction between aiding and abetting liability and conspiracy/joint criminal enterprise liability. As explained by
the International Criminal Tribunal for the Former
Yugoslavia, the distinctions between aiding and abetting and joint criminal enterprise are as follows:
Participation in a joint criminal enterprise is
a form of “commission” [of a crime] under Article 7(1) of the [ICTY] Statute. The participant therein is liable as a co-perpetrator of the
satisfy Sosa’s requirement that the international law norm must
be universally accepted. See Presbyterian Church of Sudan, 582
F.3d at 259 (adopting approach of looking to common core definition to determine appropriate choice among competing articulations of a standard); Abagninin, 545 F.3d at 738–40 (same).

101
crime(s). Aiding and abetting the commission
of a crime is usually considered to incur a
lesser degree of individual criminal responsibility than committing a crime. In the context
of a crime committed by several co-perpetrators in a joint criminal enterprise, the aider
and abettor is always an accessory to these coperpetrators, although the co-perpetrators
may not even know of the aider and abettor’s
contribution. Differences exist in relation to
the actus reus as well as to the mens rea requirements between both forms of individual
criminal responsibility:
(i) The aider and abettor carries out acts specifically directed to assist, encourage or lend
moral support to the perpetration of a certain
specific crime (murder, extermination, rape,
torture, wanton destruction of civilian property, etc.), and this support has a substantial
effect upon the perpetration of the crime. By
contrast, it is sufficient for a participant in a
joint criminal enterprise to perform acts that
in some way are directed to the furtherance of
the common design.
(ii) In the case of aiding and abetting, the requisite mental element is knowledge that the
acts performed by the aider and abettor assist
the commission of the specific crime of the
principal. By contrast, in the case of participation in a joint criminal enterprise, i.e. as a coperpetrator, the requisite mens rea is intent to
pursue a common purpose.
Vasiljevic, 2004 WL 2781932, at ¶ 102. In other words,
the aider and abettor must do something more than
commit acts that “in some way” tenuously “further[ ]

102
... the common design” of a criminal organization; that
actus reus standard applies only to co-conspirators
who knowingly and actively join in the criminal conspiracy and share its criminal purpose. To establish
aiding and abetting liability, generalized assistance is
not enough: the assistance must be “specifically directed”—i.e., bear a direct causative relationship—to
a specific wrongful act, and the assistance must have
a substantial effect on that wrongful act. Blagojevic,
at ¶ 127.
This aiding and abetting actus reus standard necessarily “requires a fact-based inquiry” that is context-specific. See id. at ¶ 134. However, one important
issue must be noted at the outset of the discussion.
There is a great deal of uncertainty about the actus
reus of “tacit approval and encouragement” —a theory
of liability that, according to Plaintiffs, dates back to
Nuremberg-era precedents such as The Synagogue
Case and United States v. Ohlendorf (“The
Einsatzgruppen Case”), in 4 Trials of War Criminals
Before the Nuremberg Military Tribunals Under Control Council Law No. 10 (“T.W.C.”), at 570–72 (William S. Hein & Co., Inc. 1997). To the extent this form
of liability even exists, the modern caselaw supports
liability only where the defendant has “a combination
of a position of authority and physical presence at the
crime scene[, which] allows the inference that non-interference by the accused actually amounted to tacit
approval and encouragement.” Prosecutor v. Oric, No.
IT–03–68–A, at ¶ 42 (ICTY Appeals Chamber, July 3,
2008), available at 2008 WL 6930198. As with all aiding and abetting, it must be shown that the encouragement was “substantial”—which necessarily requires that the “principal perpetrators [were] aware
of it,” because otherwise, the support and encourage-

103
ment would not have had any effect (let alone a substantial one) on the principal offense. Prosecutor v.
Brdjanin, No. IT–99–36–A, at ¶ 277 (ICTY Appeals
Chamber, April 3 2007), available at 2007 WL
1826003. The specific situations in which courts have
imposed such liability are identified infra.
2. MENS REA
The Court is aware that there is an ongoing debate among courts, litigants, and commentators regarding the proper definition of aiding and abetting
liability. See, e.g., Pet’n for Writ of Cert., Presbyterian
Church of Sudan v. Talisman Energy, Inc., No. 09–
1262, 2010 WL 1602093, at *27–33 (Apr. 15, 2010)
(collecting cases). The Court concurs with the five
judges on the Second Circuit who have concluded that
the appropriate mens rea for aiding and abetting violations of international law requires that the defendant act with “the purpose of facilitating the commission of that crime.” Khulumani, 504 F.3d at 277
(Katzmann, J., concurring); see also Presbyterian
Church of Sudan, 582 F.3d at 259 (adopting Judge
Katzmann’s formulation); Khulumani, 504 F.3d at
332–33 (Korman, J., concurring in relevant part). As
the Second Circuit explained in its recent Presbyterian Church of Sudan decision, a plaintiff must show
that the defendant acted with “purpose rather than
knowledge alone” because only a “purpose” standard
“has the requisite ‘acceptance among civilized nations’
” to satisfy Sosa’ s stringent requirements. Presbyterian Church of Sudan, 582 F.3d at 259 (quoting Sosa,
542 U.S. at 732). The less-stringent “knowledge”
standard, although it has often been invoked, has not
obtained universal recognition and acceptance. See
generally Prosecutor v. Furundzija, IT–95–17/1–T, at

104
¶¶ 190–249 (ICTY Trial Chamber, Dec. 10, 1998) (surveying
international
caselaw
and
adopting
“knowledge” mens rea standard), reprinted in 38
I.L.M. 317 (1999), aff’d, No. IT–95–17/1–A (ICTY Appeals Chamber, July 21, 2000), available at 2000 WL
34467822. As such, the “knowledge” standard is an
improper basis for bringing an Alien Tort Statute action.
However, to the extent that a “knowledge” mens
rea standard applies (a conclusion that the Court rejects), the Court believes that the proper articulation
of the aiding and abetting standard would be the formulation adopted by the Appeals Chambers of the International Criminal Tribunals for the former Yugoslavia and Rwanda: “the requisite mental element of
aiding and abetting is knowledge that the acts performed assist the commission of the specific crime
of the principal perpetrator.” Blagojevic, at ¶ 127 (collecting cases) (citations and footnotes omitted, emphasis added); see also Prosecutor v. Ntagerura, No.
ICTR–99–46–A, at ¶ 370 (ICTR Appeals Chamber,
July 2006) (same), available at 2006 WL 4724776;
*1083 Prosecutor v. Blaskic, No. IT–95–14–A, at ¶ 45
(ICTY Appeals Chamber, July 2004) (same), available
at 2004 WL 2781930; Prosecutor v. Vasiljevic, No. IT–
98–32–A, at ¶ 102 (ICTY Appeals Chamber, Feb. 25,
2004) (same), available at 2004 WL 2781932. To the
extent that the International Criminal Tribunals for
the former Yugoslavia and Rwanda have occasionally
adopted a less stringent standard, see, e.g., Mrksic, at
¶ 159; Furundzija, 38 I.L.M. 317 at ¶ 249, the Court
believes that the standard articulated in Blagojevic,

105
Ntagerura, Blaskic, and Vasiljevic best reflects the
relevant caselaw discussed infra.28
Accordingly, to the extent that the “purpose” specific intent mens rea standard does not apply and a
“knowledge” general intent mens rea standard does
apply, the Court would apply the dominant approach
taken in the recent international appellate tribunal
decisions. This approach requires that the aider and
abettor must know or have reason to know of the relationship between his conduct and the wrongful acts. See Oric, 2008 WL 6930198, at ¶ 45. It is not
enough, as explained by the Oric appeals tribunal,
that the aider and abetter knew or had reason to know
that crimes were being committed—the aider and
abetter must know or have reason to know that his
own acts or omissions “assisted in the crimes.” Id. at
¶¶ 43, 45 & n. 104.
That said, the Court concludes that the “purpose”
mens rea standard is the proper standard to use in Alien Tort Statute litigation. The less-stringent
“knowledge” standard that was originally synthesized
by the International Criminal Tribunal for the former

The Court also notes that, in the present context, the specific
articulation of the mens rea standard is not necessarily determinative. At the pleading stage, the “purpose” standard is similar
to the Blagojevic tribunal’s “knowledge that the acts assist a specific crime” standard. A defendant’s purposeful intent might potentially be inferred from factual allegations that establish that
a defendant knew his action would substantially assist a certain
specific crime (consistent with the actus reus principles articulated supra and developed further infra ). In light of this consideration, the Court believes that the best resolution of the present
case can be obtained by way of analogy to the facts of existing
international-law precedents. The relevant cases are discussed
at length infra.
28

106
Yugoslavia in Furundzija rests on a number of premises that, while perhaps acceptable under that Tribunal’s enacting authority, fail to satisfy the requirements set forth by the Supreme Court in Sosa.
The appropriateness of the “purpose” standard is
supported by the following authorities. As an initial
matter, it is particularly notable that the International Court of Justice—the central expositor of international law, see Restatement (Third) of Foreign Relations, § 103 cmt. (b) (“The judgments and opinions of
the International Court of Justice are accorded great
weight”)—recently declined to decide whether the
crime of aiding and abetting genocide requires that
the aider and abettor share the perpetrator’s criminal
intent or merely know of the perpetrator’s criminal
intent. Application of the Convention on the Prevention and Punishment of the Crime of Genocide (Bosnia
and Herzegovina v. Serbia and Montenegro), 2007
I.C.J. No. 91, at ¶ 421 (“the question arises whether
complicity presupposes that the accomplice shares the
specific intent (dolus specialis) of the principal perpetrator”),
available
at
http://www.icjcij.org/docket/files/91/13685.pdf. The fact that the International Court of Justice refrained from addressing
this question supports the conclusion that the appropriate definition remains subject to reasonable debate.29 In light of Sosa, any doubts about the standard

It is true that the International Court of Justice was only addressing allegations regarding aiding and abetting the crime of
genocide, which is not at issue in the present case. See Khulumani, 504 F.3d at 332 (Korman, J., concurring) (noting that
Sosa “requires an analysis of the particular norm the defendant is accused of violating to determine whether a private party
29

107
should be resolved in favor of the most stringent version. See, e.g., Presbyterian Church of Sudan, 582 F.3d
at 259 (adopting approach of looking to common core
definition to determine appropriate choice among
competing articulations of a standard); Abagninin,
545 F.3d at 738–40 (same).
The Court notes that a Nuremberg-era precedent
supports the view that the aider and abetter must act
with the purpose of aiding the principal offender. In
the Hechingen case, a number of German citizens
were accused of aiding and abetting the deportation of
the Jewish population of two German towns. See The
Hechingen and Haigerloch Case, translated in Modes
of Participation in Crimes Against Humanity, 7 J. Int’l
Crim. Just. 131, 132 (2009). The Gestapo had issued
orders for the towns’ Jewish populations to be deported and for their persons and luggage to be
searched. Id. Two of the defendants, “Ho.” and “K.,”
had participated in the searches and had collected the
victims’ jewelry to give to the town’s mayor. Id. at
may be held responsible as an aider and abettor”) (emphasis
added). However, the Court believes that the International Court
of Justice’s refusal to address the question undermines the analysis and conclusions reached by the ad hoc International Criminal Tribunals both with respect to genocide cases specifically, see,
e.g., Prosecutor v. Ntakirutimana, ICTR–96–10–A, ICTR–96–17–
A, at ¶¶ 500–01 & nn. 855–56 (ICTR Appeals Chamber Dec. 13,
2004) (collecting cases), available at 2004 WL 2981767, and all
cases discussing the aiding and abetting mens rea more generally. The International Court of Justice’s refusal to adopt the ad
hoc tribunals’ conclusions provides compelling evidence of the
tribunals’ inadequacies as precedents for Alien Tort Statute litigation, an issue that is thoroughly and persuasively addressed
in the concurring opinions in Khulumani. See Khulumani, 504
F.3d at 278–79 (Katzmann, J., concurring); id. at 336–37 (Korman, J., concurring).

108
144–45. The trial court held that on account of these
acts the defendants were guilty as accessories of participating “in a persecution on racial grounds and thus
in a crime against humanity.” Id. at 145. The trial
court’s conclusion was based on its view that the
“knowledge” mens rea standard applied: “Intent as an
accessory requires, first, that the accused knew what
act he was furthering by his participation; he must
have been aware that the actions ordered from him by
the Gestapo served persecution on racial grounds....
[And] second, that the accused knew that through his
participation he was furthering the principal act.” Id.
at 139.
This conclusion was reversed on appeal. The appellate court explained that the underlying offense,
“[p]ersecution on political, racial and religious
grounds,” may only be committed if the defendant
“acted out of an inhumane mindset, derived from a politically, racially or religiously determined ideology.”
Id. at 150. The court explained that the aider and
abettor must share this criminal intent—i.e., must act
with the intention of bringing about the underlying
crime: “[t]he accessory [ ] to a crime against humanity
is ‘regarded as guilty of a crime against humanity,
without regard to the capacity in which he acted.’
From this complete equation with the perpetrator it
follows that the accessory must have acted from the
same mindset as the perpetrator himself, that is, from
an inhumane mindset and in persecutions under politically, racially or religiously determined ideologies.”
Id. at 150. The court then concluded that “[t]he accused Ho. and K. were, according to the [trial court’s]
findings, involved only in a subordinate manner in the
deportations. In doing so they behaved particularly leniently and sympathetically, i.e. humanely [toward
the victims]. Their attitudes were not anti-Jewish.

109
Moreover, as the [trial court] judgment also explicitly
finds, they did not have an awareness of the illegality
of what they were doing.” Id. at 151. Accordingly, the
court of appeal reversed their convictions. Id.
In light of the Hechingen case—which has received surprisingly little attention from courts and litigants under the Alien Tort Statute, cf. Brief of Amici
Curiae International Law Scholars William Aceves, et
al., in support of Pet’n for Writ of Cert., Presbyterian
Church of Sudan v. Talisman Energy, Inc., No. 09–
1262, 2010 WL 1787371, at *7 & n. 4 (Apr. 30, 2010)
(arguing that “a single deviation from a long line of
precedent does not modify customary international
law”)—the Court is compelled to conclude that the
“purpose” mens rea standard is the correct standard
for Alien Tort Statute purposes and the Furundzija
“knowledge” standard is not. The Hechingen precedent was simply brushed aside by the ICTY Trial
Chamber in Furundzija, see 38 I.L.M. 317, at ¶ 248
(“the high standard proposed by [Hechingen ] is not
reflected in the other cases”). But in light of Sosa, this
Court is not in a position to ignore international precedent so easily.30
Notably, this conclusion is further supported by
the Rome Statute of the International Criminal Court,
July 17, 1998, 2187 U.N.T.S. 90, which “has been
signed by 139 countries and ratified by 105, including

It might be argued that the Hechingen court’s opinion was directed toward “joint criminal enterprise” (i.e., conspiracy) liability rather than aiding and abetting liability. But this argument
is belied by the fact that the Hechingen court stated that the defendants were accused of being an “accessory [ ] to a crime
against humanity.” The Hechingen and Haigerloch Case, 7 J.
Int’l Crim. Just. at 150 (emphasis added).
30

110
most of the mature democracies of the world,” Khulumani, 504 F.3d at 333 (Korman, J., concurring), and
which “by and large may be taken as constituting an
authoritative expression of the legal views of a great
number of States.” Furundzija, 38 I.L.M. 317, at ¶
227. Importantly, the Rome Statute, unlike many
other international law sources, specifically and
clearly “articulates the mens rea required for aiding
and abetting liability” and harmonizes all of the relevant caselaw from international tribunals. Khulumani, 504 F.3d at 275 (Katzmann, J., concurring);
cf. Abagninin, 545 F.3d at 738–40 (rejecting plaintiffs’
reliance on Rome Statute with respect to genocide because Rome Statute’s definition of genocide conflicted
with definition that was uniformly adopted by other
authorities).
The Rome Statute provides that “a person shall be
criminally responsible and liable for punishment for a
crime within the jurisdiction of the Court31 if that person[,] ... [f]or the purpose of facilitating the commission of such a crime, aids, abets or otherwise assists
in its commission or its attempted commission, including providing the means for its commission.” Article
25(3)(c) (emphasis added). The “purpose” mens rea

The Rome Statute establishes jurisdiction for “the most serious
crimes of concern to the international community as a whole,”
art. 5(1), namely, genocide, crimes against humanity, war
crimes, and aggression. “Crimes against humanity” include
many of the claims at issue in this case, including enslavement,
severe deprivation of physical liberty, and torture. Art.
7(1)(c),(e),(f).
31

111
standard should be contrasted with the treaty’s general “intent and knowledge” standard, art. 30(1),32 the
criminal negligence standard applicable to military
commanders’ liability for subordinates’ actions, art.
28(a),33 the criminal recklessness standard applicable

32

Article 30 provides:
1. Unless otherwise provided, a person shall be criminally responsible and liable for punishment for a crime within the jurisdiction of the Court only if the material elements are committed with intent and knowledge.
2. For the purposes of this article, a person has intent where:
(a) In relation to conduct, that person means to engage in the
conduct;
(b) In relation to a consequence, that person means to cause
that consequence or is aware that it will occur in the ordinary
course of events.
3. For the purposes of this article, “knowledge” means awareness that a circumstance exists or a consequence will occur in
the ordinary course of events. “Know” and “knowingly” shall
be construed accordingly.

33

Article 28(a) provides:
A military commander or person effectively acting as a military commander shall be criminally responsible for crimes
within the jurisdiction of the Court committed by forces under
his or her effective command and control, or effective authority and control as the case may be, as a result of his or her
failure to exercise control properly over such forces, where:
(i) That military commander or person either knew or, owing
to the circumstances at the time, should have known that the
forces were committing or about to commit such crimes; and
(ii) That military commander or person failed to take all necessary and reasonable measures within his or her power to
prevent or repress their commission or to submit the matter

112
to other superiors for their subordinates’ actions, art.
28(b),34 and the intent and knowledge standard applicable to conspirators (that is, members of “groups acting with a common purpose”).35 It is also noteworthy
that the “purpose” standard “was borrowed from the
to the competent authorities for investigation and prosecution.
34

Article 28(b) provides:
With respect to superior and subordinate relationships not described in paragraph (a), a superior shall be criminally responsible for crimes within the jurisdiction of the Court committed by subordinates under his or her effective authority
and control, as a result of his or her failure to exercise control
properly over such subordinates, where:
(i) The superior either knew, or consciously disregarded information which clearly indicated, that the subordinates were
committing or about to commit such crimes;
(ii) The crimes concerned activities that were within the effective responsibility and control of the superior; and
(iii) The superior failed to take all necessary and reasonable
measures within his or her power to prevent or repress their
commission or to submit the matter to the competent authorities for investigation and prosecution.

35

Article 25(3)(d) provides:
[A] person shall be criminally responsible and liable for punishment for a crime with the jurisdiction of the Court if that
person ... [i]n any other way contributes to the commission or
attempted commission of such a crime by a group of persons
acting with a common purpose. Such contribution shall be intentional and shall either:
(i) Be made with the aim of furthering the criminal activity or
criminal purpose of the group, where such activity or purpose
involves the commission of a crime within the jurisdiction of
the Court; or
(ii) Be made in the knowledge of the intention of the group to
commit the crime.

113
Model Penal Code of the American Law Institute and
generally implies a specific subjective requirement
stricter than knowledge.” See International Commission of Jurists, Expert Legal Panel on Corporate Complicity in International Crimes, 2 Corporate Complicity & Legal Accountability 22 (2008) (citing Kai Ambos, “Article 25: Individual Criminal Responsibility,”
in Otto Triffterer, ed., Commentary on the Rome Statute (1999)).
Much like the Nuremberg-era Hechingen case, the
Rome Statute’s “purpose” standard, was largely ignored by the Furundzija tribunal. The Furundzija tribunal cited Article 30 of the Rome Statute for the
proposition that “knowledge” is the default mens rea
for violations of human rights law, and wholly failed
to mention the more specific “purpose” standard set
forth for aiding and abetting liability under Article 25
of the Rome Statute. See Furundzija, 38 I.L.M. 317, at
¶ 244 & n. 266; Rome Statute, at art. 25(3)(c) (establishing aiding and abetting liability where defendant
acts “[f]or the purpose of facilitating the commission
of” the principal offense) (emphasis added). Yet as the
Furundzija court recognized, “[i]n many areas the
[Rome] Statute may be regarded as indicative of the
legal views, i.e. opinio juris of a great number of
States.” Furundzija, 38 I.L.M. 317, at ¶ 227; see also
Prosecutor v. Tadic, No. IT–94–1–A, at ¶ 223 & n. 282
(ICTY Appeals Chamber, July 15, 1999) (same), available at 1999 WL 33918295. The Rome Statute’s “purpose” standard must be given great weight. It should
be noted as well that the Rome Statute’s standard is
not a lone outlier: the same articulation appears in the
United Nations’s regulations governing human rights
tribunals in East Timor. See United Nations Transitional Administration in East Timor, “On the Establishment of Panels with Exclusive Jurisdiction Over

114
Serious Criminal Offenses,” § 14.3(c), UNTAET Reg.
NO.2000/15
(June
6,
2000),
available
at
http://www.un.org/en/peacekeeping/missions/past/etimor/untaetR/Reg0015E.pdf.
Some (including Plaintiffs) have argued that the
Rome Statute does not abrogate prior customary international law. (See 2/23/09 Opp. at 13 n. 16.) However, this argument rests in part on a misreading of
the Rome Statute itself. This argument rests on Article 10 of the Statute, which provides that “[n]othing in
this Part shall be interpreted as limiting or prejudicing in any way existing or developing rules of international law for purposes other than this Statute.”
Based on this provision, Plaintiffs argue that the
Rome Statute does not override international caselaw
to the contrary. But Article 10 only establishes that
nothing “in this Part” affects existing customary international law. Rome Statute, art. 10 (emphasis
added). Article 10 appears in Part II, which governs
“Jurisdiction, admissibility and applicable law.” On
the other hand, Article 25, which establishes the rules
regarding individual criminal responsibility (including aiding and abetting liability), appears in Part III
of the Treaty, under the heading “General principles
of criminal law.” See Rome Statute, arts. 22–33 (“Part
III”); see also Tadic, 1999 WL 33918295, at ¶ 223 n.
282 (making same observation). As such, Article 10
does not apply to the present analysis, and it is therefore appropriate that the Rome Statute’s articulation
of the relevant mens rea standard—which has been
approved by the majority of nations in the world—

115
should prevail
caselaw.36

over

conflicting

international

Accordingly, in light of Sosa’ s requirement that
international law norms must be “accepted by the civilized world” and “defined with a specificity comparable to” the eighteenth-century norms recognized by
Blackstone, Sosa, 542 U.S. at 725, the Court concludes
that it is appropriate to adopt the “purpose” mens rea
standard rather than the “knowledge” standard. See
Presbyterian Church of Sudan, 582 F.3d at 259; Khulumani, 504 F.3d at 277 (Katzmann, J., concurring),
332–33 (Korman, J., concurring in relevant part).
3. SUMMARY OF AIDING AND ABETTING STANDARD
In sum, the Court concludes that the “core” definition of aiding and abetting under international law requires the following. A person is legally responsible
for aiding and abetting a principal’s wrongful act
when the aider and abettor (1) carries out acts that
have a substantial effect on the perpetration of a specific crime, and (2) acts with the specific intent (i.e.,
for the purpose) of substantially assisting the commission of that crime. See Presbyterian Church of Sudan,
582 F.3d at 259 (articulating mens rea standard);
Blagojevic, at ¶ 127 (articulating actus reus standard
). The Court concludes that the relevant international
caselaw, as construed in accordance with Sosa, supports this articulation of the aiding and abetting
standard.

In any event, as discussed throughout this Order, the Court
concludes that, even if the Rome Statute is not determinative,
only the “purpose” standard has achieved the requisite universal
consensus to satisfy Sosa.
36

116
D. NUREMBERG–ERA
ILLUSTRATIONS
OF AIDING AND ABETTING UNDER INTERNATIONAL LAW
The seminal cases discussing aiding and abetting
liability were issued following the Second World War
by military tribunals operating under the rules of the
London Charter of the International Military Tribunal at Nuremberg.37
The most important illustration of aiding and
abetting liability involves the prosecution of a bank
officer named Karl Rasche in United States v. von
Weizsaecker et al. (“The Ministries Case” ), 14 T.W.C.
at 308, 621–22.38 The three-judge military tribunal
These cases were decided by British and American military
tribunals and by British, German, and French courts operating
under the standards set forth in the London Charter (which was
incorporated by reference into Control Council Law Number 10,
which established and governed the tribunals). See Flick v. Johnson, 174 F.2d 983, 984–86 (D.C.Cir.1949) (dismissing a petition
for habeas corpus and holding that the Control Council military
tribunals were international rather than national judicial bodies); United States v. Flick (“The Flick Case”), 6 T.W.C. at 1198
(“The Tribunal ... is an international tribunal established by the
International Control Council, the high legislative branch of the
four Allied Powers now controlling Germany (Control Council
Law No. 10, 20 Dec. 1945).... The Tribunal administers international law. It is not bound by the general statutes of the United
States.”).
37

It is unclear whether this case addresses the mens rea element
of aiding and abetting, see Presbyterian Church of Sudan, 582
F.3d at 259; Khulumani, 504 F.3d at 276 (Katzmann, J., concurring), 292–93 (Korman, J., concurring); or the actus reus element,
see In re South African Apartheid Litig., 617 F. Supp. 2d 228,
258, 260 (S.D.N.Y.2009). Regardless of how the case is categorized, its holding is plainly relevant with respect to the facts of
38

117
declined to impose criminal liability with respect to
the bank’s loans of “very large sums of money” to various SS enterprises that used slave labor and engaged
in the forced migration of non-German populations.
Id. at 621. The court held that it was insufficient that
the defendant knew that the loan would be used for
criminal purposes by the SS enterprises. In full, the
court held:
The defendant is a banker and businessman
of long experience and is possessed of a keen
and active mind. Bankers do not approve or
make loans in the number and amount made
by the Dresdner Bank without ascertaining,
having, or obtaining information or
knowledge as to the purpose for which the
loan is sought, and how it is to be used. It is
inconceivable to us that the defendant did not
possess that knowledge, and we find that he
did.39
The real question is, is it a crime to make a
loan, knowing or having good reason to believe
that the borrower will use the funds in financing enterprises which are employed in using
labor in violation of either national or interna-

the present case, particularly when taken in conjunction with
similar Nuremberg-era precedents.
In a separate part of the opinion which held Rasche liable as a
member of the SS, the tribunal concluded that Rasche “knew of
the Germanization and resettlement program, knew that it was
accomplished by forcible evacuation of the native populations
and the settlement of ethnic Germans on the farms and homes
confiscated from their former owners, and knew it was one of the
SS programs and projects.” Ministries Case, 14 T.W.C. at 863.
39

118
tional law? Does he stand in any different position than one who sells supplies or raw materials to a builder building a house, knowing
that the structure will be used for an unlawful
purpose? A bank sells money or credit in the
same manner as the merchandiser of any
other commodity. It does not become a partner
in enterprise, and the interest charged is
merely the gross profit which the bank realizes from the transaction, out of which it must
deduct its business costs, and from which it
hopes to realize a net profit. Loans or sale of
commodities to be used in an unlawful enterprise may well be condemned from a moral
standpoint and reflect no credit on the part of
the lender or seller in either case, but the
transaction can hardly be said to be a crime.
Our duty is to try and punish those guilty of
violating international law, and we are not
prepared to state that such loans constitute a
violation of that law, nor has our attention
been drawn to any ruling to the contrary.
Ministries Case, 14 T.W.C. at 622. The court accordingly acquitted Rasche on the charge of aiding and
abetting the SS’s use of slave labor and forced migration. Id. The court applied an identical analysis in acquitting Rasche on an additional count of aiding and
abetting spoliation (plundering) activities by financing the German government’s “spoliation agencies.”
Id. at 784.
Rasche’s case must be contrasted with the The
Flick Case, 6 T.W.C. at 1187. The defendants Flick
and Steinbrinck were charged with being “members of
the Keppler Circle or Friends of Himmler, [and] with
knowledge of its criminal activities, contributed large

119
sums to the financing of” the SS. Id. at 1190. Both
Flick and Steinbrinck gratuitously donated 100,000
Reichsmarks annually to a “cultural” fund headed by
Himmler (the head of the SS). Id. at 1219–20. The
amount was “a substantial contribution”—“even [for]
a wealthy man”—and plainly could have not have
been used by Himmler solely for cultural purposes. Id.
at 1220. The court explained that al-though Flick and
Steinbrinck might have plausibly argued that they
were initially ignorant of the true purposes of their
donations, they continued making donations well after “the criminal character of the SS ... must have
been known” to them. Id. at 1220. The court held that
Flick and Steinbrinck had effectively given Himmler
“a blank check,” by which “[h]is criminal organization
was maintained.” Id. at 1221. When a donor provides
extensive sums of money to a criminal organization
without asking for anything in return, it is “immaterial whether [the money] was spent on salaries or for
lethal gas.” Id. The donor becomes guilty of aiding and
abetting the organization’s criminal acts: “One who
knowingly by his influence and money contributes to
the support [of a criminal organization] must, under
settled legal principles, be deemed to be, if not a principal, certainly an accessory to such crimes.” Id. at
1217. Yet, at the same time, the tribunal also found
that Flick and Steinbrinck had not joined in the Nazi
Party’s ideologies: “Defendants did not approve nor do
they now condone the atrocities of the SS.” Id. at 1222.
The defendants “were not pronouncedly anti-Jewish,”
and in fact “[e]ach of them helped a number of Jewish
friends to obtain funds with which to emigrate.” Id.
The tribunal found it “unthinkable that Steinbrinck,
a V-boat commander who risked his life and those of
his crew to save survivors of a ship which he had sunk,

120
would willingly be a party to the slaughter of thousands of defenseless persons.” Id. Similarly Flick
“knew in advance of the plot on Hitler’s life in July
1944, and sheltered one of the conspirators.” Id. It
thus cannot reasonably be argued that the defendants
made their contributions for the purpose of assisting
the SS’s acts.
The distinctions between Flick and Steinbrinck in
The Flick Case and Rasche in The Ministries Case are
narrow, but important. Neither Flick nor Steinbrinck
acted with the purpose of furthering the Nazi cause;
indeed, the tribunal explicitly concluded that neither
defendant shared the German government’s genocidal
intent. However, by gratuitously donating money to
the Nazi party with full knowledge of the fact that the
money would be used to further the German government’s atrocities, they were found guilty as accessories to those atrocities. In The Ministries Case, the
banker Rasche also acted with full knowledge that his
loans would be used to benefit enterprises that used
slave-labor and engaged in forced migrations. 14
T.W.C. at 622, 863. But Rasche was acquitted. Regardless of whether the holdings are categorized as
turning on the defendant’s actus reus or the mens
rea,40 the ultimate conclusion is clear: ordinary commercial transaction, without more, do not violate international law. In one case, the defendant provided
payments without asking for anything in return; in

As noted in footnote 38 supra, the Second Circuit in Khulumani and Presbyterian Church of Sudan has characterized
these cases as reflecting a “purpose” mens rea standard, whereas
the District Court in In re South African Apartheid has characterized them as reflecting the “substantial effect” actus reus
standard.

40

121
the other case, the defendant engaged in commercial
transactions by lending money. One is guilty of violating international law, and the other is not.
A similar distinction can be found by contrasting
another pair of Nuremberg-era precedents, the Zyklon
B Case, in 1 Law Reports of Trials of War Criminals
93 (1947), and The I.G. Farben Case, 8 T.W.C. 1081.
In the Zyklon B Case, defendant Bruno Tesch and a
colleague were engaged in the business of providing
gasses and equipment for use in exterminating lice.
See 1 Law Reports of Trials of War Criminals at 94.
Tesch and his colleague provided the German government with “expert technicians to carry out ... gassing
operations” as well as training to the German government on using the gasses. Id. They did not physically
supply the gas itself, but were exclusive sales agents
for the gas in the relevant region of Germany. Id. The
evidence showed not only that Tesch provided the gas,
the training, and the tools for using the gas to carry
out genocide; the evidence also showed that Tesch had
suggested to the German government that the Germans use the gas in the first place. Id. at 95. Following
the close of evidence, the prosecutor argued that “[t]he
essential question was whether the accused knew of
the purpose to which their gas was being put,” because
“by supplying gas, knowing that it was to be used for
murder, the [ ] accused had made themselves accessories before the fact to that murder.” Id. at 100–01.
Both Tesch and his colleague (who was personally responsible for operating the business for approximately
200 days a year while Tesch was traveling) were convicted of being accessories to murder. Id. at 102.
In contrast, in The I.G. Farben Case, various executives and directors of I.G. Farben were charged with
supplying Zyklon B gas to the Germans for use in the

122
concentration camps. 8 T.W.C. at 1168. The defendants were directors of a company called “Degesch,”
which was 45% owned by I.G. Farben and which was
one of two companies that manufactured and sold the
Zyklon B gas. Id. at 1168–69. The tribunal explained
that the evidence showed that the directors were not
closely involved in the management of the company,
and also that the German government’s use of the
Zyklon B gas in the concentration camps was kept top
secret. Id. The court summarized the relevant considerations:
The proof is quite convincing that large quantities of Cyclon–B were supplied to the SS by
Degesch and that it was used in the mass extermination of inmates of concentration
camps, including Auschwitz. But neither the
volume of production nor the fact that large
shipments were destined to concentration
camps would alone be sufficient to lead us to
conclude that those who knew of such facts
must also have had knowledge of the criminal
purposes to which this substance was being
put. Any such conclusion is refuted by the
well-known need for insecticides wherever
large numbers of displaced persons, brought
in from widely scattered regions, are confined
in congested quarters lacking adequate sanitary facilities.
Id. at 1169.
Accordingly, the I.G. Farben court held that the
defendants, unlike Bruno Tesch in the Zyklon B Case,
were not guilty as accessories to the gassing of the victims in the concentration camps. Id. In one case, the
defendants had provided the tools and the training on
using those tools for illegal purposes; in the other case,

123
the defendants provided only the tools and were unaware of the illegal acts being done.
Having set forth these basic contours of aiding
and abetting liability, it is useful to turn to the cases
that Plaintiffs argue are most factually analogous,
given that they involve businesspeople who directly
benefitted from the use of forced labor.
In The Flick Case, defendant Flick, in addition to
being convicted for contributing to Himmler and the
SS, was also convicted of “participation in the slavelabor program of the Third Reich” because he acted
with “knowledge and approval” of his co-defendant
Weiss’s decision to order additional freight-car production from a facility that utilized slave-labor. 6
T.W.C. at 1190, 1198. Plaintiffs argue that this conviction resulted from aiding and abetting or accessorial liability. However, Plaintiffs fail to note that Flick
was the controlling owner of an industrial empire
that included coal and iron mining companies, steelproduction companies, and finished-goods companies
that made machinery out of the raw steel produced by
the other companies. Id. at 1192. The indictment
charged that Flick and his co-defendants “sought and
utilized ... slave labor program [by using] tens of thousands of slave laborers, including concentration camp
inmates and prisoners of war, in the industrial enterprises and establishments owned, controlled, or influenced by them.” Id. at 1194 (addition in original). The
indictment further charged that Flick “participated in
the formulation and execution of such slave-labor program.” Id.
The tribunal held that Flick and the co-defendants were not guilty of most of the charged offenses
because “the slave-labor program had its origin in
Reich governmental circles and was a governmental

124
program, and ... the defendants had no part in creating or launching this program.” Id. at 1196. The German government had required the companies to employ “voluntary and involuntary foreign civilian workers, prisoners of war and concentration camp inmates,” and “the defendants had no actual control of
the administration of such program.” Id. The government allocated the involuntary labor and set production quotas for the mines and factories. Id. at 1197.
Accordingly, the tribunal acquitted the defendants on
the basis of necessity and duress because they had
acted under government compulsion. Id. at 1201–02.
There was, however, a single exception to the acquittal: defendant Weiss had actively solicited an “increased freight car production quota” and “took an active and leading part in securing an allocation of Russian prisoners of war for use in the work of manufacturing such increased quotas.” Id. at 1198. This
decision was “initiated not in governmental circles but
in the plant management ... for the purpose of keeping
the plant as near capacity production as possible.” Id.
at 1202. The necessary effect of the increased production quota was to lead directly to “the procurement of
a large number of Russian prisoners of war” to carry
out the production. Id. The tribunal accordingly found
Weiss guilty of participation in the unlawful employment of slave labor.
The tribunal also found Flick guilty for the same
acts because “[t]he active steps taken by Weiss [were
made] with the knowledge and approval of Flick.” Id.
at 1202; see also id. at 1198 (noting “the active participation of defendant Weiss, with the knowledge and
approval of defendant Flick, in the solicitation of increased freight car production quota”). It must be emphasized that Flick was the controlling owner of the

125
entire industrial enterprise, and Weiss was Flick’s
nephew and chief assistant. Id. at 1192–93. Given the
close relationship between Flick and the direct perpetrator Weiss, and given Flick’s central role in the industrial enterprise that directly employed the slave
labor, the case is better viewed as imposing direct liability on Flick as a personal participant in the employment of slave labor. See, e.g., In re Agent Orange Product Liability Litig., 373 F. Supp. 2d 7, 98 (E.D.N.Y.
2005) (“Flick was found guilty of charges reflecting his
commercial activities and those of his corporations.”).
Alternatively, Flick’s liability could viewed as an example of the operation of respondeat superior liability
under agency principles, or command responsibility,
or, perhaps, aiding and abetting liability of the type
described in The Einsatzgruppen Case, where a toplevel commanding authority fails to prevent a known
violation. See Einsatzgruppen Case, 4 T.W.C. at 572;
see also Delalic, 1998 WL 34310017, at ¶ 360 (“Noting
th[e] absence of explicit reasoning [in Flick ], the
United Nations War Crimes Commission has commented that it ‘seems clear’ that the tribunal’s finding
of guilt was based on an application of the responsibility of a superior for the acts of his inferiors which he
has a duty to prevent.”) (citing Trial of Friedrich Flick
et al., in 9 Law Reports of Trials of War Criminals 54
(1949)); accord Hilao v. Estate of Marcos, 103 F.3d
767, 777–78 (9th Cir.1996) (discussing principles of
command responsibility).
The same conclusion may be drawn from the I.G.
Farben Case’ s discussion of slave labor (which is also
relied upon by Plaintiffs). The I.G. Farben company
had undertaken a construction project in Auschwitz to
build a rubber factory. I.G. Farben Case, 8 T.W.C.
1081, 1180–84. Defendant Krauch was the Plenipotentiary General for Special Questions of Chemical

126
Production, and was responsible for “pass[ing] upon
the applications for workers made by the individual
plants of the chemical industry.” Id. at 1187. The tribunal held that, although Krauch was not responsible
for certain wrongful acts in which he was not personally involved,
he did, and we think knowingly, participate in
the allocation of forced labor to Auschwitz and
other places where such labor was utilized
within the chemical field.... In view of what he
clearly must have known about the procurement of forced labor and the part he voluntarily played in its distribution and allocation,
his activities were such that they impel us to
hold that he was a willing participant in the
crime of enslavement.
Id. at 1189. Plaintiffs argue that Krauch’s case illustrates the scope of aiding and abetting liability under
international law, and that the tribunal’s discussion
reflects a “knowledge” mens rea standard. However,
the tribunal’s decision plainly rests on the fact that
Krauch “knowingly [ ] participate[d] in the allocation of forced labor to Auschwitz,” and “was a willing
participant in the crime of enslavement.” Id. at 1189
(emphasis added). The case is plainly not an example
of aiding and abetting liability.
These same observations regarding direct personal involvement apply equally to the third major
Nuremberg-era case involving German industrialists.
In United States v. Krupp (“The Krupp Case”), the tribunal convicted various directors and officers of the
Krupp corporation for using forced labor in their factories. The tribunal cited evidence such as a letter
from the Board of Directors to the German Army High

127
Command stating that “we are ... very anxious to employ Russian prisoners of war in the very near future,
[and] we should be grateful if you would give us your
opinion on this matter as soon as possible.” Krupp, 9
T.W.C. at 1439. In this and other instances, “the
Krupp firm had manifested not only its willingness
but its ardent desire to employ forced labor.” Id. at
1440. All but three of the defendants had “participated in the establishment and maintenance” of a particularly brutal forced labor camp at Dechenschule.
Id. at 1400–02. Of the three who were not involved
with Dechenschule, one (Pfirsch) was acquitted of
forced labor charges because he was not involved in
any of the company’s forced labor activities. See generally id. at 1402–49 (court’s factual summary and legal analysis is silent as to Pfirsch). One of the other
three (Loeser) was found guilty because he had participated directly in the creation of a forced-labor factory
at Auschwitz. Id. at 1414, 1449. The third (Korschan)
was found guilty because he had directly supervised a
large contingent of Russian laborers and had signed a
letter proposing the use of concentration-camp labor
to increase the production of armaments toward the
end of the war. Id. at 1405, 1418–19, 1449. The court
accordingly rejected the Krupp employees’ necessity
defense and found all but one of them (Pfirsch) guilty
of employing forced labor in their business. Id. at
1441–49.
Thus, like the Krauch case, Krupp does not provide any discussion of secondary liability for the underlying violations. Contrary to Plaintiffs’ characterization, the defendants in these two cases were direct
participants in the illegal acts, and these cases are inapposite to the present case.

128
E. ILLUSTRATIONS UNDER THE ALIEN
TORT STATUTE41
These foundational principles of aiding and abetting liability are illustrated in the Second Circuit’s recent decision in Presbyterian Church of Sudan v. Talisman Energy, Inc., 582 F.3d 244 (2d Cir. 2009). The
Presbyterian Church of Sudan court held on summary
judgment that a Canadian energy firm had not purposefully aided and abetted the Sudanese government
in committing crimes against humanity. The court examined the evidence and determined that there was
no reasonable inference that the defendants acted
with the purpose of furthering the Sudanese government’s policies of clearing out the disfavored ethnic
groups. Specifically, the defendants’ actions included
the following: “(1) upgrading the Heglig and Unity airstrips; (2) designating areas ‘south of the river’ in
Block 4 for oil exploration; (3) providing financial assistance to the Government through the payment of
royalties; and (4) giving general logistical support to

The Court notes that the present Order largely avoids discussing international-law precedents from the International Criminal Tribunals for the Former Yugoslavia and Rwanda. The Court
has examined these cases and finds that they are factually inapposite because they discuss aiding and abetting liability in the
context of civil war and military control of the population. None
of the International Criminal Tribunal cases offer analogous discussions of aiding and abetting liability with respect to business
transactions.
41

For a thorough discussion of the limitations of the International Criminal Tribunal cases, see Khulumani, 504 F.3d at 334–
37 (Korman, J., concurring).

129
the Sudanese military.” Id. at 261 (quoting Presbyterian Church of Sudan, 453 F. Supp. 2d at 671–72) (alterations omitted).
The first issue involved the assistance with building roads and airstrips despite knowing that this infrastructure might be used by the government to conduct attacks on civilians. The court recognized that
the defendants “had a legitimate need to rely on the
[Sudanese] military for defense” because of the unrest
in the region; given this legitimate need, the evidence
that the defendant was “coordinating with the military supports no inference of a purpose to aid atrocities.” Id. at 262. As for the second sets of acts—designating certain areas for oil exploration—there was no
evidence that the oil exploration even occurred or that
any international law violations took place. Id. With
respect to royalty payments to the government, the
court explained that “[t]he royalties paid by [defendant] may have assisted the Government in its abuses,
as it may have assisted any other activity the Government wanted to pursue. But there is no evidence that
[defendants] acted with the purpose that the royalty
payments be used for human rights abuses.” Id. Finally, the act of providing fuel to the military was not
criminal because “there is no showing that Talisman
was involved in such routine day-to-day [defendant]
operations as refueling aircraft. Second, there is no evidence that [defendant’s] workers provided fuel for the
purpose of facilitating attacks on civilians; to the contrary, an e-mail from a Talisman employee to his supervisor, which plaintiffs use to show that the military
refueled at a [defendant] airstrip, expresses anger and
frustration at the military using the fuel.” Id. at 262–
63. In short, none of the purported acts of aiding and
abetting were supported by the necessary “purpose”
mens rea.

130
Notably, the court stated that something more
than mere knowledge and assistance are required to
hold commercial actors liable for third parties’ violations of international law. The court explained:
There is evidence that southern Sudanese
were subjected to attacks by the Government,
that those attacks facilitated the oil enterprise, and that the Government’s stream of oil
revenue enhanced the military capabilities
used to persecute its enemies. But if ATS liability could be established by knowledge of
those abuses coupled only with such commercial activities as resource development, the
statute would act as a vehicle for private parties to impose embargos or international sanctions through civil actions in United States
courts. Such measures are not the province of
private parties but are, instead, properly reserved to governments and multinational organizations.
Id. at 264.
The Presbyterian Church of Sudan court’s ultimate conclusion is in full accord with the trend identified supra with respect to the Nuremberg-era cases
involving German industrialists. When a business engages in a commercial quid pro quo—for example, by
making a loan to a third party—it is insufficient to
show merely that the business person knows that the
transaction will somehow facilitate the third party’s
wrongful acts. See The Ministries Case, 14 T.W.C. at
621–22. Rather, the business person must participate
more fully in the wrongful acts—most obviously, in
the cases involving the primary liability of the industrialists who personally participated in planning and
using of slave labor. See, e.g., Krupp, 9 T.W.C. at

131
1439–49; The I.G. Farben Case, 8 T.W.C. at 1189; The
Flick Case, 6 T.W.C. at 1190–93. Or, alternatively, the
business person must be acting in a non-commercial,
non-mutually-beneficial manner, as with the banker
in The Flick Case who gratuitously funded the SS’s
criminal activities, 6 T.W.C. at 1219–20, or the chemical-company employees in the Zyklon B Case who
provided the gas, tools, and specific training that facilitated the Germans’ genocidal acts. Zyklon B Case,
in 1 Law Reports of Trials of War Criminals, at 95,
100–01.
This conclusion is supported by the domestic
caselaw applying the Alien Tort Statute. In Corrie v.
Caterpillar, Inc., 403 F. Supp. 2d 1019 (W.D. Wash.
2005), aff’d on other grounds, 503 F.3d 974, 977 (9th
Cir. 2007) (holding that case presented nonjusticiable
political question), the district court held that a bulldozer manufacturer could not be held liable for aiding
and abetting the Israeli military in demolishing residences and causing deaths and injuries to the residents. The court explained that even if the defendant
“knew or should have known” (as the plaintiff conclusorily alleged in the pre-Twombly era, see id. at 1023)
that the bulldozers would be used to commit those illegal acts, “[o]ne who merely sells goods to a buyer is
not an aider and abettor of crimes that the buyer
might commit, even if the seller knows that the buyer
is likely to use the goods unlawfully, because the seller
does not share the specific intent to further the
buyer’s venture.” Id. at 1027 (citing United States v.
Blankenship, 970 F.2d 283, 285–87 (7th Cir.1992) (“a
supplier joins a venture only if his fortunes rise or fall
with the venture’s, so that he gains by its success”)).
A relevant contrast to Presbyterian Church of Sudan and Corrie may be found in the allegations

132
against automakers Daimler, Ford, and General Motors in In re South African Apartheid Litig., 617 F.
Supp. 2d 228 (S.D.N.Y. 2009), on remand from Khulumani, 504 F.3d 254. The plaintiffs in that case alleged that the automakers “aided and abetted extrajudicial killing through the production and sale of specialized military equipment.” Id. at 264; see also id. at
266–67. The defendants were not selling ordinary vehicles to the South African government; they were
selling “heavy trucks, armored personnel carriers, and
other specialized vehicles,” including “military vehicles.” Id. at 264, 266. “These vehicles were the means
by which security forces carried out attacks on protesting civilians and other antiapartheid activists.”
Id. at 264. The plaintiffs also alleged that the automakers both knew of and affirmatively expressed
their support for the South African government’s illegal activities. Id. Accordingly, the court held that the
automakers could be held liable for selling these military-type products to the South African government,
thereby aiding and abetting the government’s atrocities. On the other hand, the court held that the automakers could not be liable for selling “passenger vehicles” and mass-market light trucks to the government, because the “[t]he sale of cars and trucks without military customization or similar features that
link them to an illegal use does not meet the actus reus
requirement of aiding and abetting a violation of the
law of nations.” Id. at 267.
The South African Apartheid plaintiffs introduced
similar allegations with respect to computer manufacturer IBM. The plaintiffs alleged that IBM provided
computers to the South African regime and that the
computers were used to further the regime’s policies
of apartheid because the computers allowed the re-

133
gime to create a registry of individuals in order to relocate them and change their citizenship. Id. at 265.
Importantly, the plaintiffs alleged that “IBM employees also assisted in developing computer software and
computer support specifically designed to produce
identity documents and effectuate denationalization.”
Id. at 265; see also id. at 268. These “customized computerized systems were indispensable to the organization and implementation of a system of geographic
segregation and racial discrimination in a nation of
millions.” Id. at 265.42

The plaintiffs brought additional claims against the automakers and also brought claims against an arms manufacturer
whose weapons were used by the South African government.
42

The plaintiffs alleged that the automakers “provided information about anti-apartheid activists to the South African Security Forces, facilitated arrests, provided information to be used
by interrogators, and even participated in interrogations.” In re
South African Apartheid, 617 F. Supp. 2d at 264. These allegations were clearly analogous to defendant Ohlendorf’s case in The
Einsatzgruppen Case, 4 T.W.C. at 569, in which the tribunal
found the “defendant guilty of aiding and abetting Nazi war
crimes by turning over a list of individuals who he knew ‘would
be executed when found.’ ” In re South African Apartheid, 617 F.
Supp. 2d at 264 n.192 (quoting The Einsatzgruppen Case, 4
T.W.C. at 569).
In obiter dicta, the district court addressed those allegations
against the arms manufacturer despite the fact that the arms
manufacturer had not brought a motion to dismiss. Id. at 269–
70 & n. 231. The court suggested that the allegations sufficiently
stated aiding and abetting claims with respect to the arms manufacturer’s provision of equipment used to commit extrajudicial
killings and enforcing apartheid. Id. at 270. The court suggested
that the allegations were insufficient with respect to acts of torture, unlawful detention, and cruel, inhuman, and degrading

134
The distinction between Corrie and In re South African Apartheid is instructive. In one case (Corrie), a
manufacturer sold its ordinary goods to a foreign government and the foreign government, with the manufacturer’s knowledge, used the goods to commit alleged atrocities. In the other case (In re South African
Apartheid ), manufacturers sold custom-made goods
to a foreign government with the knowledge that
those goods were an essential element of the foreign
government’s wrongful conduct. The manufacturers
in South African Apartheid affirmatively evidenced
their support for the government’s conduct, either implicitly by intentionally creating custom equipment or
explicitly by expressing their support for the government. As reflected in this comparison, a plaintiff must
allege something more than ordinary commercial
transactions in order to state a claim for aiding and
abetting human rights violations. Indeed, consistent
with the generally aiding and abetting standard articulated supra, a plaintiff must allege that the defendant’s conduct had a substantial effect on the principal’s criminal acts. Mere assistance to the principal
is insufficient.43
Another example can be found in Almog v. Arab
Bank, PLC, 471 F. Supp. 2d 257 (E.D.N.Y. 2007).

treatment, apparently because the complaint did not allege that
the weapons were used to perpetrate those crimes. See id.
The Court does not intend to suggest that the South African
Apartheid decision was correctly decided. It is unclear to this
Court whether (to take one example) an auto-manufacturer’s act
of selling military vehicles constitutes aiding and abetting human rights violations under established and well-defined international law.
43

135
There, the plaintiffs sued the defendant bank for aiding and abetting various terrorist activities by Hamas
and other radical groups in violation of international
law. The plaintiffs alleged that the defendant bank
knew of Hamas’s terrorist activities, knew that the
bank accounts were being used to fund the terrorist
activities directly, and even “solicited and collected
funds for” organizations that were known to be fronts
for Hamas. Id. at 290. The plaintiffs also alleged that
the bank was directly involved with Hamas’s creation
of bank accounts to provide for the families of suicide
bombers. Id. at 291. The bank allegedly knew about
the nature of the accounts, which “facilitated and provided an incentive for the suicide bombings and other
murderous attacks,” and the bank both maintained
the accounts and “consulted with” a Hamas-related
organization “to finalize the lists of beneficiaries” of
the funds. Id. at 291–92. In light of these allegations,
the court held that the defendant bank did not “merely
provide [ ] routine banking services” that benefitted
the terrorist organization. Id. at 291. Rather, the bank
“active[ly] participat[ed]” in the terrorist organization’s activities. Id. at 292; see also Lev v. Arab Bank,
PLC, No. 08 CV 3251 (NG) (VVP), 2010 WL 623636,
at *2 (E.D.N.Y. Jan. 29, 2010) (holding that Presbyterian Church of Sudan’ s “purpose” mens rea standard
was satisfied by the allegations in Almog because
“Plaintiffs’ plausible factual allegations here permit
the reasonable inference that Arab Bank was not
merely the indifferent provider of ‘routine banking
services’ to terrorist organizations, but instead purposefully aided their violations of international law”).
A useful factual contrast to the Almog case can be
found in part of the South African Apartheid case. In
South African Apartheid, the plaintiffs alleged that a
pair of banks had provided loans to the South African

136
government and purchased “South African defense
forces bonds.” 617 F. Supp. 2d at 269. The court, relying heavily on the Nuremberg-era Ministries Case in
which the tribunal acquitted the banker Karl Rasche,
held that “supplying a violator of the law of nations
with funds—even funds that could not have been obtained but for those loans—is not sufficiently connected to the primary violation to fulfill the actus reus
requirement of aiding and abetting a violation of the
law of nations.” Id.
As a final pertinent example under the Alien Tort
Statute, the Ninth Circuit has analyzed a specific intent mens rea standard in Abagninin v. AMVAC
Chemical Corp., 545 F.3d 733 (9th Cir. 2008).44 The
plaintiffs’ allegations in Abagninin related to the defendants’ alleged genocide through their use of agricultural pesticides that caused male sterility in villages in the Ivory Coast. Id. at 735–36. As defined in
international law, genocide requires a showing of
“specific intent” (which appears analogous to the “purpose” mens rea in the aiding and abetting context) to
achieve the particular wrongful result—namely,
to destroy a particular national or ethnic group as
such. Id. at 739–40. The court specifically rejected a
“knowledge” or general intent standard, which would
have required a showing of the defendant’s “awareness that a consequence will occur in the ordinary

The Abagninin case involved allegations that the defendant
directly participated in the crime of genocide. The case is relevant because of the court’s discussion of the specific intent standard under the law of genocide, which is generally analogous to
the “purpose” or “specific intent” mens rea standard under the
law of aiding and abetting.
44

137
course of events.” Id. at 738. Instead, the court required plaintiff to allege that defendants intended to
cause the particular (genocidal) harm. Even though
plaintiff alleged that the defendant knew of the likelihood that the chemicals caused this particular harm,
the court found significant the fact that the plaintiff
“fail[ed] to allege that [the defendant] intended to
harm him through the use of chemicals.” Id. at 740.
The court refused to infer from the plaintiff’s allegations of knowledge, and rejected the plaintiff’s conclusory statements that the defendant “acted with intent.” Id. Finally, although one of the defendant’s employees allegedly stated “[f]rom what I hear, they
could use a little birth control down there,” the court
refused to attribute this statement to the corporate
employer and also determined that the statement was
not directed at the Ivory Coast (as is required to show
genocidal intent with respect to Ivorians). Id.
VII. DISCUSSION REGARDING AIDING AND
ABETTING ALLEGATIONS
A. BACKGROUND
Plaintiffs describe their allegations as encompassing three types of activities: financial assistance; provision of farming supplies, technical assistance, and
training; and failure to exercise economic leverage.
Defendants break down the alleged conduct into
five groups: financial assistance; providing farming
supplies and technical farming assistance; providing
training in labor practices; failing to exercise economic
leverage; and lobbying the United States government
to avoid a mandatory labeling scheme.
Because Plaintiffs bear the burden of pleading
sufficient “factual content that allows the court to
draw the reasonable inference that the defendant is

138
liable for the misconduct alleged,” the Court will adopt
Plaintiffs’ preferred approach. See Ashcroft v. Iqbal,
556 U.S. ___, 129 S.Ct. 1937, 1949, 173 L.Ed.2d 868
(2009). As will be shown, the First Amended Complaint fails to allege that Defendants’ conduct was
“specifically directed to assist [or] encourage ... the
perpetration of a certain specific crime,” and “ha[d] a
substantial effect of the perpetration of the crime.” See
Blagojevic (ICTY Appeals Chamber), at ¶ 127. Additionally, the First Amended Complaint fails to allege
that Defendants acted with the “purpose” of facilitating the Ivorian farm owners’ wrongful acts. See Presbyterian Church of Sudan, 582 F.3d at 259.45
B. DISCUSSION OF ACTUS REUS
Plaintiffs assert that Defendants’ conduct was
“not only substantial, it was essential” to the existence
of child slavery in Ivorian cocoa farming. (8/6/09 Opp.
at 2.) Plaintiffs’ fundamental premise is that Defendants were not engaged in ordinary commercial transactions; rather, Plaintiffs emphasize that Defendants
“maintain[ ] exclusive supplier/buyer relationships
with local farms and/or farmer cooperatives in Cote
d’Ivoire,” and that these exclusive relationships allow
Defendants “to dictate the terms by which such farms
produce and supply cocoa to them, including specifically the labor conditions under which the beans are
produced.” (FAC ¶ 33.) Plaintiffs further contend that
“Defendants, because of their economic leverage in the
region and exclusive supplier/buyer agreements[,]
each had the ability to control and/or limit the use of

And even if the Court were to apply the “knowledge” mens rea
standard, Plaintiffs’ allegations fail to satisfy the applicable
standard as set forth infra.
45

139
forced child labor by the supplier farms and/or farmer
cooperatives from which they purchased their cocoa
beans.” (FAC ¶ 48.)
In support of their claims, Plaintiffs detail three
types of conduct: financial assistance; provision of
farming supplies, technical assistance, and training;
and failure to exercise economic leverage. The Court
addresses each form of assistance in turn.
1. FINANCIAL ASSISTANCE
Plaintiffs allege that Defendants “provide ongoing
financial support, including advance payments and
personal spending money to maintain the farmers’
and/or the cooperatives’ loyalty as exclusive suppliers.” (FAC ¶ 34.) Plaintiffs argue that Defendants’ financial support “provide[d] the financial means ... to
commit international human rights violations” and
provided the “incentive for these farmers to employ
slave-labor.” (8/6/09 Opp. at 14–15.)
As is repeatedly illustrated in the caselaw discussed supra, merely “supplying a violator of the law
of nations with funds” as part of a commercial transaction, without more, cannot constitute aiding and
abetting a violation of international law. In re South
African Apartheid, 617 F. Supp. 2d at 269. The central
example of this principle is provided in the discussion
of banker Karl Rasche in The Ministries Case, 14
T.W.C. at 621–22. Rasche provided a loan of “very
large sums of money” to enterprises that used slave
labor, but was acquitted of aiding and abetting the enterprises’ wrongdoing. Id. at 621. Likewise, the banks
in South African Apartheid provided loans to the
South African government and purchased government bonds. 617 F. Supp. 2d at 269. The act of providing financing, without more, does not satisfy the actus

140
reus requirement of aiding and abetting under international law.
On the other hand, if defendant engages in additional assistance beyond financing, or engages in financing that is gratuitous or unrelated to any commercial purpose, the actus reus element has been satisfied. So, for example, the bank in Almog v. Arab
Bank did not just hold and transfer funds on behalf of
the terrorist organization Hamas; rather, the bank
took the extra step of “solicit[ing] and collect[ing]”
those funds for Hamas. Almog, 471 F. Supp. 2d at 290.
As another example, the industrials Flick and Steinbrinck in The Flick Case did not provide hundreds of
thousands of Reichsmarks to Himmler and the SS as
part of a mutually beneficial commercial transaction;
rather, the funds were donated gratuitously, and
served as “a blank check” that ensured the “maintain[ence]” of the criminal organization. The Flick
Case, 6 T.W.C. at 1220–21.
These observations are summarized in the District Court opinion in In re South African Apartheid:
It is (or should be) undisputed that simply doing business with a state or individual who violates the law of nations is insufficient to create liability under customary international
law. International law does not impose liability for declining to boycott a pariah state or to
shun a war criminal....
Money [as in The Ministries Case] is a fungible
resource, as are building materials [which
were also mentioned in The Ministries Case].
However, poison gas [as in the Zyklon B Case]
is a killing agent, the means by which a violation of the law of nations was committed. The

141
provision of goods specifically designed to kill,
to inflict pain, or to cause other injuries resulting from violations of customary international
law bear a closer causal connection to the
principal crime than the sale of raw materials
or the provision of loans. Training in a precise
criminal use only further supports the importance of this link. Therefore, in the context
of commercial services, provision of the means
by which a violation of the law is carried out
is sufficient to meet the actus reus requirement of aiding and abetting liability under
customary international law.
In re South African Apartheid, 617 F. Supp. 2d at 257–
59 (citing The Ministries Case, 14 T.W.C. at 621–22;
The Zyklon B Case, in 1 Law Reports of Trials of War
Criminals, at 100–01). In contrast, “supplying a violator of the law of nations with funds—even funds that
could not have been obtained but for those loans—is
not sufficiently connected to the primary violation to
fulfill the actus reus requirement of aiding and abetting a violation of the law of nations.” Id. at 269.
Here, it is clear from Plaintiffs’ allegations that
Defendants were engaged in commercial transactions.
Plaintiffs do not allege that Defendants gratuitously
gave large sums of money to the Ivorian farmers in
the manner that Flick and Steinbrinck gave money to
the SS in The Flick Case. Rather, Plaintiffs’ allegations specifically state that Defendants provided
money to the farmers in order to obtain cocoa and to
ensure a future cocoa supply. (FAC ¶ 34.) Even if the
payments are described as “advance payments” (FAC
¶ 34), this is another way of stating that Defendants
were paying for cocoa. See Black’s Law Dictionary
1243 (9th ed. 2009) (defining “advance payment” as a

142
“payment made in anticipation of a contingent or fixed
future liability or obligation”). And to the extent that
Plaintiffs allege that Defendants provided “personal
spending money” to the farmers, Plaintiffs themselves
assert that these payments were made “to maintain
the farmers’ and/or the cooperatives’ loyalty as exclusive suppliers.” (FAC ¶ 34.) Again, Plaintiffs’ own
Complaint identifies the commercial quid pro quo in
which Defendants were engaged.
In short, Plaintiffs fail to allege any facts showing
that Defendants’ transfers of money were “specifically
directed to assist ... a certain specific crime” and had
a “substantial effect on the perpetration of that
crime.” See Blagojevic (Appeals Chamber), at ¶ 127.
Defendants’ “financial assistance” does not constitute
a sufficient actus reus under international law.
2. PROVISION OF FARMING SUPPLIES, TECHNICAL ASSISTANCE,
AND TRAINING
Plaintiffs assert that Defendants provided “farming supplies, including fertilizers, tools and equipment; training and capacity[-]building in particular
growing and fermentation techniques and general
farm maintenance, including appropriate labor practices, to grow the quality and quantity of cocoa beans
they desire.” (FAC ¶ 34.) “The training and quality
control visits occur several times per year.” (Id.) Plaintiffs cite to Nestle’s representation that it “provides
assistance in crop production,” and “provide[s] technical assistance to farmers.” (FAC ¶¶ 36, 38.) This assistance “ranges from technical assistance on income
generation to new strategies to deal with crop infestation.” (FAC ¶ 38.) Similarly, Plaintiffs cite to Archer
Daniels Midland’s representation that “ADM is working hard to help provide certain farmer organizations

143
with the knowledge, tools, and support they need to
grow quality cocoa responsibly and in a sustainable
manner.” (FAC ¶ 40.) Archer Daniels Midland provides “research into environmentally sound crop management practices, plant breeding work to develop
disease-resistant varieties and farmer field schools to
transfer the latest know-how into the hands of millions of cocoa farmers around the world.” (FAC ¶ 41.)
Plaintiffs argue that these allegations show that
“Defendant were providing the [Ivorian] farmers the
necessary means by which to carry out slave labor.”
(Pls. Opp. (8/6/09), at 17.) Plaintiffs describe Defendants’ actions as providing “logistical support and supplies essential to continuing the forced labor and torture.” (Id. at 18.)
This line of argument is unavailing. Plaintiffs contend that Defendants’ logistical support and other assistance generally furthered the Ivorian farmers’ ability to continue using forced labor. However, Plaintiffs
do not allege that Defendants provided supplies, assistance, and training that was “specifically directed”
to assist or encourage “the perpetration of a certain
specific crime,” or that Defendants’ conduct had a
“substantial effect” on the specific crimes of forced labor, child labor, torture, and cruel, inhuman, and degrading treatment. Plaintiffs simply do not allege
that Defendants’ conduct was specifically related to
those primary violations. Plaintiffs do not allege, for
example, that Defendants provided the guns and
whips that were used to threaten and intimidate the
Plaintiffs, or that Defendants provided the locks that
were used to prevent Plaintiffs from leaving their respective farms, or that Defendants provided training
to the Ivorian farmers about how to use guns and
whips, or how to compress a group of children into a

144
small windowless room without beds, or how to deprive children of food or water, or how to psychologically abuse and threaten them.46 That is the type of
conduct that gives rise to aiding and abetting liability
under international law—conduct that has a substantial effect on a particular criminal act. See,
e.g., Vasiljevic, 2004 WL 2781932, at ¶¶ 41, 133–34
(affirming defendant’s guilt for aiding and abetting
murder where defendant, armed with a gun, escorted
victims to murder site and pointed his gun at victims
to prevent them from fleeing).
Plaintiffs’ allegations do not identify any specific
criminal acts that were substantially furthered by Defendants’ general farming assistance. It is useful to
compare Plaintiffs’ allegations to the relevant
caselaw. The defendants in the Zyklon B Case provided the gas that was used to commit murder and the
training on how to use that gas; the automakers in In
re South African Apartheid provided the specialized
military vehicles that were used to further extrajudicial killings, 617 F. Supp. 2d at 264, 266; and the computer company in that case provided customized software and technical support designed to facilitate a
centralized identity database that supported the government’s segregation, denationalization, and racial
discrimination activities, id. at 265, 268. In contrast
to those examples, the heavy-equipment manufacturer in Corrie sold its ordinary product to an alleged
human-rights abuser, 403 F. Supp. 2d at 1027, and
the automakers in South African Apartheid were not

This list of illustrations is not meant to be exhaustive, nor is it
meant to suggest that Plaintiffs’ Complaint would adequately
state a claim for relief if it included such allegations.
46

145
liable for their sales of ordinary passenger vehicles to
the apartheid regime, 617 F. Supp. 2d at 267.
Another salient example is Prosecutor v. Delalic,
in which the ICTY acquitted the defendant on aiding
and abetting charges based on his “logistical support”
to a prison that engaged in the unlawful confinement
of civilians. Delalic, No. IT–96–21–T, at ¶ 1144 (Trial
Chamber Nov. 16, 1998), available at 1998 WL
34310017, aff’d, No. IT–96–21–A, at ¶ 360 (Appeals
Chamber Fed. 20, 2001), available at 2001 WL
34712258. The trial court concluded that the defendant had no authority over the prison camp, 1998 WL
34310017, at ¶ 669, and the appeals court agreed that
“he was not in a position to affect the continued detention of the civilians at the [prison] camp.” Delalic,
2001 WL 34712258, at ¶ 355. The appeals court explained that “the primary responsibility of Delalic in
his position as co-ordinator was to provide logistical
support for the various formations of the armed forces;
that these consisted of, inter alia, supplies of material,
equipment, food, communications equipment, railroad
access, transportation of refugees and the linking up
of electricity grids.” Id. at ¶ 355 (citing Trial Chamber
Judgment, at ¶ 664). The courts concluded that
Delalic’s involvement in the camp—although essential to its functioning—was unrelated to the specific
offense of unlawful confinement of civilians. Delalic,
1998 WL 34310017, at ¶ 669, 2001 WL 34712258, at ¶

146
355. Accordingly, he was acquitted of aiding and abetting the crimes of unlawful confinement.47
Here, Plaintiffs allege that Defendants engaged in
general assistance to the Ivorian farmers’ farming activities-mainly, assisting crop production and providing training in labor practices. Plaintiffs do not allege
that Defendant provided any specific assistance to the
farmers’ specific acts of slavery, forced labor, torture,
and the like. In light of the international caselaw described supra, Plaintiffs’ allegations do not give rise to
a plausible inference that Defendants’ conduct had a
substantial effect on the Ivorian farmers’ specific human rights abuses. As Defendants rightly point out,

Plaintiffs unpersuasively argue that Delalic occupied “a role
equivalent to the prison camp’s electrician and maintenance provider.” (8/6/09 Opp. at 18.) This description of Delalic is plainly
contradicted by the facts of the case. The Trial Chamber noted
that some of “his duties were to operate as an effective mediator
between the War Presidency, which is a civilian body, and the
Joint Command of the Armed Forces. His regular intervention
was designed to facilitate the work of the War Presidency with
the different formations constituting the defence forces in Konjic.... Mr. Delalic was accountable to, and would report orally or
in writing to, the body within the War Presidency which gave
him the task.” Delalic, 1998 WL 34310017, at ¶ 662. Delalic also
helped prepare for military operations by “provid[ing] supplies to
[a military] unit, including communications equipment, quartermaster supplies, uniforms and cigarettes,” and “ma[king] arrangements for the relevant needs for first aid equipment,
transport conveyance and such supplies and facilities as could be
provided by the civilian authorities.” Id. at ¶¶ 666, 668.
47

It should go without saying that these are odd responsibilities
to give to a mere “electrician and maintenance provider.” The
Court is unpersuaded by Plaintiffs’ attempt to downplay Delalic’s
responsibilities.

147
“providing a farmer with ... fertilizer does not substantially assist forced child labor on his farm.” (Defs. Reply (8/24/09, at 13.)48 Plaintiffs’ allegations establish,
at most, that Defendants generally assisted the Ivorian farmers in the act of growing crops and managing
their business—not that Defendants substantially assisted the farmers in the acts of committing human
rights abuses.
3. FAILURE TO EXERCISE ECONOMIC
LEVERAGE
Plaintiffs’ final set of allegations focus on Defendants’ implicit moral encouragement and failures to act
to prevent the Ivorian farmers’ abuses. Plaintiffs assert that “Defendants, because of their economic leverage in the region and exclusive supplier/buyer
agreements each had the ability to control and/or limit
the use of forced child labor by the supplier farms
and/or farmer cooperatives from which they purchased their cocoa beans.” (FAC ¶ 48.) Plaintiffs argue
that the international law actus reus standard is satisfied if “a different course of conduct could have been
pursued that would have mitigated or prevented the
[primary] offense.” (Pls. Opp. (8/6/09), at 20.)
a.

LEGAL AUTHORITY

The precise nature of aiding and abetting liability
for omissions, moral support, and tacit approval and
encouragement is uncertain. As noted by the District
Court in Presbyterian Church of Sudan v. Talisman

Indeed, the most reasonable conclusion is that Defendants’
conduct reduced the extent of labor abuses on the Ivorian farms.
Defendants’ training in crop production techniques would have
increased the efficiency of the Ivorian cocoa farms, thereby reducing the need for forced labor and child labor.
48

148
Energy, omissions, moral support, and tacit approval
and encouragement fall outside the “core” definition of
aiding and abetting liability under international law.
That court proceeded as this Court is proceeding—it
applied the “core” notion of aiding and abetting but
refrained from reaching into the outer fringes of international law to identify a novel and debatable aiding
and abetting standard. As the court explained:
Talisman [the defendant] also attempts to
demonstrate that the actus reus standard for
liability based on aiding and abetting is a
source of disagreement in international law.
Talisman points to a 1998 ICTY Trial Chamber decision that extended aiding and abetting
liability in “certain circumstances” to “moral
support or encouragement of the principals in
their commission of the crime.” Prosecutor v.
Furundzija, No. IT–95–17/1–T, 1998 WL
34310018, para. 199 (Trial Chamber, Int’l
Crim. Trib. for the Former Yugoslavia, Dec.
10, 1998). Discussing this standard, a Ninth
Circuit panel decided to leave “the question
whether such liability should also be imposed
for moral support which has the required substantial effect to another day.” Doe I [v. Unocal Corp.], 395 F.3d [932,] 951 [(9th Cir.
2002), vacated on grant of rehearing en banc,
395 F.3d 978, 979 (9th Cir. 2003) ]. Talisman
draws liberally from a concurring opinion in
Doe I which noted that the inclusion of moral
support is “far too uncertain and inchoate a
rule for us to adopt without further elaboration as to its scope by international jurists,”
id. at 969–70 [Reinhardt, J., concurring], and

149
that “it is a novel standard that has been applied by just two ad hoc international tribunals.” Id. at 969.
The question of whether the “novel” moral
support standard should be included in the
definition of aider and abettor liability, however, did not prevent the Ninth Circuit from
imposing liability for aiding and abetting another’s violation of international law under a
settled, core notion of aider and abettor liability in international law “for knowing practical
assistance or encouragement which has a substantial effect on the perpetration of the
crime.” Id. at 951 [maj. op.]. Therein lies the
flaw in Talisman’s argument. The ubiquity of
disagreement among courts and commentators regarding the fringes of customary international legal norms is unsurprising. The existence of such peripheral disagreement does
not, however, impugn the core principles that
form the foundation of customary international legal norms—principles about which
there is no disagreement.
Presbyterian Church of Sudan, 374 F. Supp. 2d 331,
340–41 (S.D.N.Y. 2005) (order denying defendants’
motion for judgment on the pleadings).
The international tribunals themselves have recognized the uncertainty in this area of law. As explained by the prominent ICTY decision in Prosecutor
v. Tadic:
“mere presence [at the crime scene] seems not
enough to constitute criminally culpable conduct, “[b]ut what further conduct would constitute aiding and abetting the commission of

150
war crimes or some accessory responsibility is
not known with sufficient exactitude for ‘linedrawing’ purposes.”
Tadic, No. IT–94–1–T, at ¶ (Trial Judgment May 7,
1997) (internal footnote omitted) (quoting Jordan
Paust, My Lai and Vietnam, 57 Mil. L. Rev. 99, 168
(1972)), available at 1997 WL 33774656. The tribunal
then summarized Nuremberg-era cases and emphasized that the cases “fail[ed] to establish specific criteria” governing this form of liability. Id.
The state of the law has not cleared up in the
years following that decision. The International Tribunals for the Former Yugoslavia and Rwanda have
engaged in a great deal of discussion of omissions,
moral support, and tacit approval and encouragement, but have reached only a few concrete conclusions. The law in this area is simply too unclear to satisfy Sosa’ s requirements of definiteness and universality. The Court therefore refrains from applying this
“uncertain and inchoate” rule. See Presbyterian
Church of Sudan, 374 F. Supp. 2d at 340–41 (quotations omitted). In support of this conclusion, the Court
notes four additional observations regarding this body
of law.
First, one must attempt to distinguish omissions,
moral support, and tacit approval and encouragement
from the concept of “command responsibility,” which
“holds a superior responsible for the actions of subordinates.” Hilao v. Estate of Marcos, 103 F.3d 767, 777
(9th Cir.1996). Under command responsibility, “a
higher official need not have personally performed or
ordered the abuses in order to be held liable. Under
international law, responsibility for [jus cogens violations] extends beyond the person or persons who actu-

151
ally committed those acts—anyone with higher authority who authorized, tolerated or knowingly ignored those acts is liable for them.” Id. (quoting S.
Rep. No. 249, 102d Cong., 1st Sess. at 9 (1991)).
For example, in a case relied upon by Plaintiffs,
United States v. Ohlendorf (“The Einsatzgruppen
Case”), the defendant Fendler, the second in command
in his unit, was convicted of aiding and abetting war
crimes and crimes against humanity because he was
aware of the large number of executions and murders
being committed by the subordinates in his unit. Despite his knowledge of his subordinates’ wrongful acts,
“there [wa]s no evidence that he ever did anything
about it.” Einsatzgruppen Case, 4 T.W.C. at 572. The
court emphasized that “[a]s the second highest ranking officer in the Kommando [unit], his views could
have been heard in complaint or protest against what
he now says was a too summary [execution] procedure, but he chose to let the injustice go uncorrected.”
Id. Had Fendler not been in such a high-level “position
of authority,” see Oric, 2008 WL 6930198, at ¶ 42, his
inaction would not have been sufficient to establish
his guilt.
Second, an “omission” or “failure to act” only gives
rise to aiding and abetting liability if “there is a legal
duty to act.” Prosecutor v. Mrksic, No. IT–95–13/1–A,
at ¶ 134 & n. 481 (ICTY Appeals Chamber, May 5,
2009) (collecting cases) (quoting Oric, at ¶ 43) (emphasis
added),
available
at
http://www.icty.org/x/cases/mrksic/acjug/en/090505.p
df. The most obvious “duty to act” is the commander’s
“affirmative duty to take such measures as were
within his power and appropriate in the circumstances to protect prisoners of war and [ ] civilian population[s].” In re Yamashita, 327 U.S. 1, 16 (1946). In

152
this regard, “command responsibility” can be viewed
as a form of aiding and abetting liability in which a
commander fails to satisfy his legal duty of exercising
his power to control his subordinates. See generally
Prosecutor v. Aleksovski, No. IT–95–14/1–T, at ¶ 72
(ICTY Trial Chamber, June 25, 1999) (“Superior responsibility derives directly from the failure of the
person against whom the complaint is directed to honour an obligation.”), available at 1999 WL 33918298,
aff’d in relevant part and rev’d in part, No. IT–95–
14/1–A, at ¶ 76 (ICTY Appeals Chamber, Mar. 24,
2000) (“command responsibility ... becomes applicable
only where a superior with the required mental element failed to exercise his powers to prevent subordinates from committing offences or to punish them afterwards.”), available at 2000 WL 34467821; see also
Prosecutor v. Kayishema, ICTR–95–1–T, at ¶ 202
(Trial Chamber May, 1999) (comparing aiding and
abetting through tacit approval and encouragement
with command responsibility), available at 1999 WL
33288417, aff’d, No. ICTR–95–1–A (ICTR Appeals
Chamber
July
2,
2001),
available
at
http://www.unictr.org/Portals/0/Case/English/Kayishema_F/decisions/index.pdf.49
In cases involving “omissions” by actors other
than commanders, “the question remains open as to

The central readily identifiable distinction between command
responsibility and aiding and abetting liability is that command
responsibility requires a finding of formal or actual control; that
is, an agency (or similar) relationship between the primary
wrongdoer and the defendant. See generally Blagojevic (Appeals
Chamber), at ¶¶ 300–03; see also Doe v. Qi, 349 F. Supp. 2d 1259,
1329–33 (N.D. Cal. 2004) (summarizing doctrinal elements of
command responsibility).
49

153
whether the duty to act must be based on criminal
law, or may be based on a general duty” under other
bodies of law. Mrksic, at ¶ 149 (quoting prosecutor’s
brief); see also id. at ¶ 151 (refraining from answering
question posed in prosecutor’s brief); see also Oric,
2008 WL 6930198, at ¶ 43 (“The Appeals Chamber has
never set out the requirements for a conviction for
omission in detail.”). The only courts to reach definitive conclusions on this question have held that the
duty to act may arise under either criminal law or the
“laws and customs of war.” See Mrksic, at ¶ 151 &
n.537 (citing Blaskic appeal judgment, at ¶ 663
n.1384). However, there are no cases holding that
omissions of other duties (such as non-criminal duties
existing under statute or common law) will give rise
to aiding and abetting liability. In light of this uncertainty, the Court will assume that the requisite “universal consensus of civilized nations” for purposes of
the Alien Tort Statute only recognizes liability in
cases where the duty to act arises from an obligation
imposed by criminal laws or the laws and customs of
war. See Presbyterian Church of Sudan, 582 F.3d at
259 (adopting approach of looking to common core definition to determine appropriate choice among competing articulations of a standard); Abagninin, 545
F.3d at 738–40 (same).
Third, it must be emphasized that aiding and
abetting by way of “moral support” and “tacit approval
and encouragement” is a rare breed (and, in fact, a
non-existent breed for purposes of the Alien Tort Statute). To the extent this type of liability even exists, all
of the international tribunal cases reviewed by the
Court involve defendants who held a position of formal authority. In many ways, the discussions in these
cases tend to overlap with discussions of command re-

154
sponsibility and/or joint criminal enterprise. See generally Khulumani, 504 F.3d at 334–37 (Korman, J.,
concurring) (discussing inadequacies of International
Tribunal decisions). To the extent that these cases
purport to identify an independent international law
norm regarding “moral support” and “tacit approval
and encouragement,” there simply is not a sufficiently
well-defined, universally recognized norm to satisfy
Sosa’ s requirements.
As an initial matter, it is important to note that
all of the “moral support” cases involve a defendant
who held formal military, political, or administrative
authority. As summarized by the recent Appeals
Chamber decision in Oric, in the cases that have “applied the theory of aiding and abetting by tacit approval and encouragement, ... the combination of a position of authority and physical presence at the crime
scene allowed the inference that non-interference by
the accused actually amounted to tacit approval and
encouragement.” Oric, 2008 WL 6930198, at ¶ 42 & n.
97 (citing Brdjanin, ¶ 273 nn. 553, 555). It is important to remember that “authority” requires a high
degree of control, either de jure or de facto, over the
perpetrators. See generally Kayishema, 1999 WL
33288417, at ¶¶ 479–507 (discussing concepts of de
jure and de facto control in context of command responsibility); see also Black’s Law Dictionary 152 (9th
ed. 2009) (defining “authority,” in pertinent part, as
“[g]overment power or jurisdiction”).50 In this vein, all

It is appropriate to cite Black’s Law Dictionary when interpreting the decisions of the international tribunals. See, e.g., Prosecutor v. Naletilic, No. IT–98–34–A, at ¶ 24 & nn. 1400–01 (ICTY
Appeals Chamber May 3, 2006) (citing Black’s to define crime of
50

155
of the cases cited by the recent Appeals Chamber decisions in Oric and Brdjanin support the conclusion
that only a formal authority figure’s presence and
inaction may constitute tacit approval and encouragement. See Aleksovski, 2000 WL 34467821, at ¶¶ 76,
170–72 (defendant was prison warden); Kayishema,
1999 WL 33288417, at ¶¶ 479–81 (defendant was prefect—i.e., top regional executive); Prosecutor v.
Akayesu, No. ICTR–96–4–T, at ¶ 77 (ICTR Trial
Chamber Sept. 2, 1998), (defendant was bourgmestre—i.e., town mayor with control over police), available at 1998 WL 1782077, aff’d, No. ICTR–96–4 (ICTR
Appeals Chamber June 1, 2001), available at 2001 WL
34377585; Furundzija, 38 I.L.M. 317, at ¶¶ 122, 130
(defendant was police commander); see also Tadic,
1997 WL 33774656, at ¶ 686 (discussing Nurembergera case in which the mayor and members of German
guard failed to intervene when civilians beat and
killed American pilots parading in Germany) (citing
United States v. Kurt Goebell (“Borkum Island case”),
in Report, Survey of the Trials of War Crimes Held at
Dachau, Germany, Case. no. 12–489, at 2–3 (Sept. 15,
1948)). In other words, “tacit approval or encouragement” requires that the defendant must hold a position of formal or de facto military, political, or administrative authority. The rationale for this rule is that
“it can hardly be doubted that the presence of an individual with authority will frequently be perceived by

“deportation”); ¶¶ 674–75 & nn. 1332–34 (ICTY Trial Chamber
July 31, 2003) (same); Prosecutor v. Semanza, No. ICTR–97–20–
T, at ¶¶ 380, 384 & nn. 629, 637–38 (ICTR Trial Chamber May
15, 2003) (citing, inter alia, Black’s for definitions of “plan” and
“aid and abet”), available at 2003 WL 23305800.

156
the perpetrators of the criminal act as a sign of encouragement likely to have a significant or even decisive effect on promoting its commission.” Aleksovski,
1999 WL 33918298, at ¶ 65.
Plaintiffs rely heavily on a Nuremberg-era case
that lies at the outer fringe of this line of cases, The
Synagogue Case. As an initial matter, the Court notes
that The Synagogue Case is not an appropriate authority for purposes of the Alien Tort Statute. The
Court agrees with Defendants that The Synagogue
Case “does not reflect customary international law.”
(8/24/09 Reply at 15 n. 9.) The ICTY in Furundzija explained that The Synagogue Case was decided “under
the provision on co-perpetration of a crime (‘Mittäterschaft’ ) of the then German penal code (Art. 47 Strafgesetzbuch).” Furundzija, 38 I.L.M. 317, at ¶ 206. In
other words, The Synagogue Case reflects German domestic law and is therefore an inappropriate source of
authority for purposes of the Alien Tort Statute under
Sosa.
However, even if the Court were to consider The
Synagogue Case as a valid international law authority, the case stands for the general proposition that
defendants are only responsible for “moral support” if
they occupy a position of formal military, political, or
administrative authority vis-a-vis the perpetrators.
Specifically, in The Synagogue Case, the defendant
was found guilty of aiding and abetting the destruction of a Jewish synagogue. Although “he had not
physically taken part in” the acts of destruction, “[h]is
intermittent presence on the crime-scene, combined
with his status as an ‘alter Kämpfer,’ ” was a sufficient
actus reus to establish his guilt. Furundzija, 38 I.L.M.
317, at ¶ 205. Notably, an “ ‘alter Kämpfer’ ” is a “longtime militant of the Nazi party,” a fact that places this

157
case in line with the cases from the ICTY and ICTR.
See id. Secondary authorities reveal that “alter
Kämpfer” were not mere party members; rather, they
were the core members of the Nazi security and intelligence apparatus.51 As explained by an expert on German history, the alter Kämpfer were “men who without exception had willingly joined the SS and who
most clearly personified its philosophy.” David Clay
Large, Reckoning without the Past: The HIAG of the
Waffen–SS and the Politics of Rehabilitation in the
Bonn Republic, 1950–1961, 59 Journal of Modern History 79, 90 (1987). It should be recalled that “[t]he SS
was the elite guard of the Nazi party” and was responsible for policing, intelligence, and security operations
in Nazi Germany. United States v. Geiser, 527 F.3d
288, 290 (3d Cir. 2008); see also United States v. Negele, 222 F.3d 443, 445 (8th Cir. 2000) (“The SS, an organ of the Nazi party, acted as the federal police force
in Germany.”); United States v. Kwoczak, 210 F. Supp.
2d 638, 641 (E.D. Pa. 2002) (describing testimony of
history expert, who described the SS as “Hitler[’s] own
elite guard,” which he used “to consolidate police
power in Germany” in the 1930s and which “controlled
networks of concentration camps”); United States v.
Hajda, 963 F. Supp. 1452, 1462 (N.D. Ill. 1997) (“The
SS was the elite guard and intelligence unit of the
Nazi Party of Germany.”); see generally The Nuremberg Trial, 6 F.R.D. 69, 140–43 (1946) (summarizing
the history of the SS and its criminal activities). The
The Court notes that The Synagogue Case does not appear to
be widely available in English translation, and courts have been
forced to rely on the second-hand discussion contained in Furundzija. Because of the unavailability of the original text of The
Synagogue Case, the Court has resorted to secondary authorities
to uncover the factual context of the decision.
51

158
alter Kämpfer therefore were not civilians—they were
members of the state security and police forces (the
SS) and were, in fact, the most prominent members of
those organizations. In other words—and this is a
point that Plaintiffs have apparently overlooked (see
8/6/09 Opp. at 19)—the defendant in The Synagogue
Case possessed formal political and administrative
authority. Indeed, the Furundzija court emphasized
that the defendant’s status as an authority figure was
a necessary element of his guilt. Furundzija, 38 I.L.M.
317 at ¶ 209 (“The supporter must be of a certain status for [moral support] to be sufficient for criminal responsibility.”). Plaintiffs’ own expert declaration concurs. (See Collingsworth Decl. (2/23/09), Ex. A, Brief
Amicus Curiae of International Law Scholars Philip
Alston, et al., Khulumani v. Barclay National Bank,
Nos. 05–2141, 05–2326 (2d Cir.) (“ ‘[S]ilent approval’
or mere presence is not a convictable offense, at least
among civilians, though a spectator may aid and abet
illegal conduct if he occupies some position of authority.”).) In short, a defendant is only guilty of “tacit approval and encouragement” if the defendant occupies
a position of formal authority.
As a fourth and final observation about “moral
support” and “tacit approval and encouragement,” it
is important to distinguish aiding and abetting
through omissions, moral support, and tacit approval
and encouragement from other forms of secondary liability such as joint criminal enterprises and conspiracies. As discussed supra, the relevant distinctions
are that:
(i) The aider and abettor carries out acts specifically directed to assist, encourage or lend
moral support to the perpetration of a certain
specific crime (murder, extermination, rape,

159
torture, wanton destruction of civilian property, etc.), and this support has a substantial
effect upon the perpetration of the crime. By
contrast, it is sufficient for a participant in a
joint criminal enterprise to perform acts that
in some way are directed to the furtherance of
the common design.
(ii) In the case of aiding and abetting, the requisite mental element is knowledge that the
acts performed by the aider and abettor assist
the commission of the specific crime of the
principal. By contrast, in the case of participation in a joint criminal enterprise, i.e. as a coperpetrator, the requisite mens rea is intent to
pursue a common purpose.
Vasiljevic, 2004 WL 2781932, at ¶ 102.
To summarize, to the extent that “moral support”
and “tacit approval and encouragement” are even actionable under the Alien Tort Statute (and the Court
concludes that they are not adequately well-defined
and widely adopted to satisfy Sosa ), there are four
important points to keep in mind. First, some cases,
such as the Einsatzgruppen Case relied upon by Plaintiffs, tend to blur the distinction between “command
responsibility” and aiding and abetting. Second, a person is liable for an “omission” or “failure to act” only if
that person owes an affirmative duty under criminal
law or the laws and customs of war. Third, the concept
of “moral support” has only been applied in cases involving persons possessing administrative, political,
or military authority and who are personally present
at the crime scene while the overt criminal acts are
taking place. Fourth, and finally, it is important to
distinguish between the aiding and abetting actus

160
reus and the conspiracy/joint-criminal-enterprise actus reus. Unlike conspiracy cases, aiding and abetting
requires that the assistance must bear a direct causative relationship to the underlying crime.
This discussion of “moral support” and “tacit encouragement and approval” ought to demonstrate that
this area of law lacks the “specificity” and “definite
content and acceptance among civilized nations” to
support a cause of action under Sosa, 542 U.S. at 732,
738. The Court therefore agrees with the Southern
District of New York’s observations quoted supra: “the
inclusion of moral support is far too uncertain and inchoate a rule for us to adopt without further elaboration as to its scope by international jurists, and ... it is
a novel standard that has been applied by just two ad
hoc international tribunals. The question of whether
the ‘novel’ moral support standard should be included
in the definition of aider and abettor liability ... does
not, however, impugn the core principles that form the
foundation of customary international legal norms—
principles about which there is no disagreement.”
Presbyterian Church of Sudan, 374 F. Supp. 2d at
340–41 (internal citations and quotations omitted).
It is telling that no Alien Tort Statute case has
permitted a plaintiff to proceed on the theory of aiding
and abetting through “moral support” or “tacit encouragement and approval.” Those words are often quoted
as part of the general aiding and abetting legal standard, but there are simply no holdings that apply that
portion of the standard. See, e.g., In re South African
Apartheid, 617 F. Supp. 2d at 257 (quoting standard
without applying it); Almog, 471 F. Supp. 2d at 286–
87 (same); Presbyterian Church of Sudan v. Talisman
Energy, 453 F. Supp. 2d 633, 666–67 (S.D.N.Y. 2006)
(order granting summary judgment) (same); Bowoto,

161
2006 WL 2455752, at *4 (same); In re Agent Orange,
373 F. Supp. 2d at 54 (same); Presbyterian Church of
Sudan v. Talisman Energy, 244 F. Supp. 2d 289, 324–
25 (S.D.N.Y. 2003) (order denying motion to dismiss)
(same). The Presbyterian Church of Sudan came the
closest to reaching such a holding, as it concluded on
a motion to dismiss that the defendants had “encouraged Sudan” to “carry out acts of ‘ethnic cleaning.’ ”
Presbyterian Church of Sudan, 244 F. Supp. 2d at 324.
However, that case does not support the proposition
that “moral support” or “tacit encouragement and approval” are actionable under the Alien Tort Statute.
The allegations in the Presbyterian Church of Sudan
complaint showed that the defendants were not mere
bystanders—in addition to “encourag [ing]” Sudan’s
actions, the defendants had also “worked with Sudan”
and “provided material support to Sudan” in committing genocide. Id. at 324. Specifically, the complaint
alleged that the defendants had worked in concert
with Sudanese government to engage in ethnic cleansing, held “regular meetings” with Sudanese government, developed a “joint ... strategy ... to execute, enslave or displace” civilians, and issued “directives”
and “request[s]” to the Sudanese government. Id. at
300–01. Such conduct constitutes overt acts of assistance, not moral support or tacit encouragement.
The Court accordingly concludes that the actus
reus of “moral support” and “tacit encouragement and
approval” is not sufficiently well-defined and universally accepted to constitute an actionable international law norm under Sosa.
b.

FURTHER
SION

DISCUS-

If, however, “moral support” and “tacit encouragement and approval” were actionable under the Alien

162
Tort Statute (and the Court firmly disagrees with
such a proposition), Plaintiffs’ allegations would fail
to meet the standard articulated in the international
caselaw discussed supra. There is absolutely no legal
authority—let alone well-defined and universally
accepted legal authority—to support the proposition
that an economic actor’s long-term exclusive business
relationship constitutes aiding and abetting, either as
tacit “moral support” or as overt acts of assistance.
Although Plaintiffs argue that Defendants are liable
on account of their “failure to exercise economic leverage” (8/6/09 Opp. at 19–21), there is absolutely no international law authority to support such a legal
standard-let alone the type of authority that is welldefined and universally agreed-upon to satisfy Sosa.
The Court refrains from extending the existing
caselaw (much of which consists of dicta rather than
holdings) to recognize such an unprecedented form of
liability.
Plaintiffs have not, therefore, alleged a sufficient
actus reus in the form of tacit encouragement or moral
support on account of Defendants’ failure to exercise
their economic leverage over Ivorian farmers who
committed human rights abuses.
4. SUMMARY OF ACTUS REUS
Plaintiffs insist that it is inappropriate to undertake a “divide-and-conquer” analysis of the Complaint. They assert that Defendants’ conduct must be
viewed as a whole, and that even if each individual
element of Defendants’ conduct does not rise to the
level of an actionable international law violation, Defendants’ conduct as a whole does reach that level.
However, even viewing Plaintiffs’ allegations collectively rather than separately, the overwhelming conclusion is that Defendants were purchasing cocoa

163
and assisting the production of cocoa. It is clear from
the caselaw that ordinary commercial transactions do
not lead to aiding and abetting liability. Even if Defendants were not merely engaged in commercial conduct, something more is required in order to find a violation of international law—the defendants’ conduct
must have a substantial effect on the perpetration of
the specific crime. Plaintiffs in this case have not identified any of Defendants’ conduct, taken separately or
holistically, that had a material and direct effect on
the Ivorian farmers’ specific wrongful acts. In short,
Plaintiffs “have not nudged their claims across the
line from conceivable to plausible.” Twombly, 550 U.S.
at 570. The actus reus allegations are insufficient as a
matter of law.
C. DISCUSSION OF MENS REA
In addition to the actus reus element of aiding and
abetting, Defendants also challenge the adequacy of
Plaintiffs’ allegations regarding the mens rea standard.
Plaintiffs’ Complaint adequately alleges that Defendants knew or should have known of the labor violations on the Ivorian farms. Defendants engaged in a
long-term relationship with these farmers and had occasional ground-level contact with the farms. (FAC ¶
34.) Defendants undertook a number of activities that
reflected an awareness of the labor problems. Defendants represented to the public that Defendants were
concerned about the farmers’ labor practices and that
Defendants were taking affirmative steps to reduce
the amount of child labor/forced labor used on Ivorian
farms. (FAC ¶¶ 38, 49–51.) Defendants even took efforts to prevent Congress from enacting a stringent
importation regime that would have required imported chocolate to be certified as “slave free.” (FAC

164
¶¶ 54–55.) In light of these allegations, as well as allegations about the existence of various reports from
public organizations documenting labor abuses in
Cote d’Ivoire (FAC ¶¶ 45–46, 51), Plaintiffs have plausibly alleged that Defendants knew or reasonably
should have known about the child-labor abuses on
the Ivorian farms.
However, these allegations are insufficient to establish that Defendants acted with the mens rea required by international law.
Applying the “purpose” standard adopted in Presbyterian Church of Sudan, 582 F.3d at 259—which is,
as noted, supported by the Rome Statute, art. 25(3)(c),
the Hechingen Case, in 7 J. Int’l Crim. Just. at 150,
and the International Court of Justice’s recent agnosticism in Bosnia and Herzegovina v. Serbia and Montenegro, 2007 I.C.J. No. 91, at ¶ 421—Plaintiffs’ allegations are inadequate to establish the requisite mens
rea. Plaintiffs do not—and, as they conceded at oral
argument on November 10, 2009, cannot—allege
that Defendants acted with the purpose and intent
that their conduct would perpetuate child slavery on
Ivorian farms.52
The Ninth Circuit’s analysis of the genocide allegations in Abagninin, 545 F.3d at 740, provides a relevant analogy regarding pleading standards. The
plaintiff in Abagninin had alleged that the defendant
knew that its chemicals could cause reproductive

Specifically, Plaintiffs’ counsel stated: “Now, if what was required was a state of mind that the defendants wanted child
slave labor to go on, you know, positively desired it, which is what
I think you’re saying ... [t]hen we would not be able to allege
that.”
52

165
harms; however, the Ninth Circuit held that the plaintiff “fail[ed] to allege that [the defendant] intended
to harm him through the use of [those] chemicals.” Id.
(emphasis added). Where a specific intent mens rea is
required (as in Abagninin ), it is insufficient to allege
the defendant’s knowledge of likely consequences.
Purpose or specific intent must be shown, and
Plaintiffs’ allegations fail to meet this standard.
Plaintiffs’ allegations do not support the conclusion
that Defendants intended and desired to substantially assist the Ivorian farmers’ acts of violence, intimidation, and deprivation.
Even if the Court were to apply the “knowledge”
mens rea standard articulated in certain international
caselaw (an approach which the Court has rejected,
see supra ), Plaintiffs’ allegations would fail to move
“across the line from conceivable to plausible.”
Twombly, 550 U.S. at 570. As noted supra, the leading
international law “knowledge” standard requires that
the defendant “know[s] that the acts performed assist the commission of the specific crime of the
principal perpetrator.” Blagojevic, at ¶ 127 (emphasis
added).
Plaintiffs’ allegations fail to raise a plausible inference that Defendants knew or should have known
that the general provision of money, training, tools,
and tacit encouragement (assuming, that is, that such
acts even satisfied the actus reus standard discussed
supra) helped to further the specific wrongful acts
committed by the Ivorian farmers. Again, it must be
recalled that the specific alleged wrongs include the
Ivorian farmers’ acts of whipping, beating, threatening, confining, and depriving Plaintiffs. (See FAC ¶¶
57–59.) There are no allegations that Defendants
knew that their conduct substantially assisted those

166
wrongful acts. Instead, the allegations, and the plausible inferences drawn from them, show that Defendants knew about the general problem of child labor on
certain Ivorian farms and engaged in general commercial transactions with those farmers. Such allegations do not constitute aiding and abetting under international law. Plaintiffs have not alleged that Defendant possessed “knowledge that the[ir] acts ... assist[ed] the commission of the specific crime of the
principal perpetrator.” Blagojevic, at ¶ 127. Thus,
even if the “knowledge” mens rea standard applies,
Plaintiffs’ Complaint fails to state a claim upon which
relief may be granted.
D. SUMMARY OF AIDING AND ABETTING
LIABILITY
Plaintiffs’ First Amended Complaint fails to state
a viable cause of action with respect to Defendants’ alleged aiding and abetting human rights violations by
cocoa farmers in Cote d’Ivoire. Plaintiffs have not alleged facts from which one may plausibly conclude
that Defendants’ conduct violated a universally accepted and well-defined international law norm. See
Sosa, 542 U.S. at 732. Plaintiffs’ allegations fail to satisfy either the actus reus or mens rea standards illustrated in the leading international and domestic
caselaw that discuss aiding and abetting under international law. Accordingly, Defendants’ Motion to Dismiss Plaintiffs’ cause of action alleging violations of
customary international law is GRANTED.
E. AGENCY THEORIES
As an alternative to the aiding and abetting theories of liability, Plaintiffs also attempt to hold Defendants directly liable as the principals of the Ivorian

167
farmers who allegedly violated Plaintiffs’ human
rights.
As an initial matter, the Court disagrees with
Plaintiffs’ reliance on domestic-law agency principles.
See generally infra Part X (holding that international
law, not domestic law, must provide substantive rules
of agency attribution). However, the Court also concludes that Plaintiffs’ allegations are insufficient even
under the domestic agency law cited by Plaintiffs.
Plaintiffs cite to cases involving an employer-employee relationship, Quick v. Peoples Bank of Cullman
County, 993 F.2d 793, 797 (11th Cir. 1993), an alleged
parent-subsidiary corporate relationship, Bowoto v.
Chevron Texaco Corp., 312 F. Supp. 2d 1229, 1241–46
(N.D. Cal. 2004), and a case that offered no substantive discussion whatsoever regarding agency, Aldana
v. Del Monte Fresh Produce, N.A., Inc., 416 F.3d 1242
(11th Cir. 2005). (See 2/23/09 Opp. at 19.)
Plaintiffs insist that Defendants can be liable as
principals because “[u]nder general agency rules, a
principal is liable for the actions of its agents when
the acts are: (1) related to and committed within the
course of the agency relationship; (2) committed in
furtherance of the business of the principal; and (3)
authorized or subsequently acquiesced in by the principal.” (2/23/09 Opp. at 19.) Plaintiffs assert that their
Complaint adequately “allege[s] that Defendants had
a long term relationship with their farmers, and provided direction and support. This would allow an inference that the farmers were Defendants’ agents.
Further, that the Defendants continued to work with
and support their farmers even though they had specific knowledge of the farmers’ use of forced child labor, would constitute acquiescence or subsequent ratification.” (Id.)

168
The Court disagrees with Plaintiffs’ analysis.
First, the Court concludes that, under Sosa, international law rather than domestic law must provide the
relevant body of agency rules. Plaintiffs have failed to
identify any international law in cases, treaties, or
any other authority that recognizes an agency relationship between a purchaser of goods and a supplier
of goods. Furthermore, the Court disagrees with
Plaintiffs’ assertion that a “long-term” and “exclusive”
buyer-supplier relationship transforms an armslength commercial relationship into an agency relationship in which the buyer is liable for the suppliers’
actions.53 Such a conclusion would be contrary to general principles of agency law and would eviscerate the

The Court finds persuasive the illustrations provided in the
Restatement (Third) of Agency regarding the basic rules of commercial relationships:
53

10. P Corporation designs and sells athletic footwear using a
registered trade name and a registered trademark prominently displayed on each item. P Corporation licenses A Corporation to manufacture and sell footwear bearing P Corporation’s trade name and trademark, in exchange for A Corporation’s promise to pay royalties. Under the license agreement,
P Corporation reserves the right to control the quality of the
footwear manufactured under the license. A Corporation enters into a contract with T to purchase rubber. As to the contract with T, A Corporation is not acting as P Corporation’s
agent, nor is P Corporation the agent of A Corporation by virtue of any obligation it may have to defend and protect its
trade name and trademark. P Corporation’s right to control
the quality of footwear manufactured by A Corporation does
not make A Corporation the agent of P Corporation as to the
contract with T.
11. Same facts as Illustration 10, except that P Corporation
and A Corporation agree that A Corporation will negotiate

169
well-established international law rules discussed supra that limit secondary liability to certain specific situations.
Finally, the Court disagrees with Plaintiffs’ assertions regarding agency liability because Plaintiffs
misstate both the relevant law and the operative allegations of the Complaint. The appropriate standard
under federal common law54 is that an agency relationship is created “when one person (a ‘principal’)
manifests assent to another person (an ‘agent’) that
and enter into contracts between P Corporation and retail
stores for the sale of footwear manufactured by P Corporation.
A Corporation is acting as P Corporation’s agent in connection
with the contracts....
13. P owns a shopping mall. A rents a retail store in the mall
under a lease in which A promises to pay P a percentage of A’s
monthly gross sales revenue as rent. The lease gives P the
right to approve or disapprove A’s operational plans for the
store. A is not P’s agent in operating the store.
14. Same facts as Illustration 13, except that A additionally
agrees to collect the rent from the mall’s other tenants and
remit it to P in exchange for a monthly service fee. A is P’s
agent in collecting and remitting the other tenants’ rental
payments. A is not P’s agent in operating A’s store in the mall.
Restatement (Third) of Agency, § 1.01 cmt. g, ill. 10–14.
In light of these illustrations, it is noteworthy that Plaintiffs’
Complaint fails to include any facts suggesting that Defendants
and the Ivorian farmers agreed that the farmers would act as
Defendants’ agents with respect to Defendants’ procurement and
maintenance of its labor force (or for any other matters).
See United States v. Bonds, 608 F.3d 495, 504–05 (9th Cir.
2010) (suggesting that the Third Restatement is the appropriate
source of federal agency law); see also Schmidt v. Burlington
Northern and Santa Fe Ry. Co., 605 F.3d 686, 690 n. 3 (9th Cir.
2010) (noting that the Third Restatement has “superceded” the
Second Restatement).
54

170
the agent shall act on the principal’s behalf and subject to the principal’s control, and the agent manifests
assent or otherwise consents so to act.” Restatement
(Third) of Agency § 1.01 (2006); see also id. at § 3.01
(“[a]ctual authority ... is created by a principal’s manifestation [through either words or conduct, see § 1.03]
to an agent that, as reasonably understood by the
agent, expresses the principal’s assent that the agent
take action on the principal’s behalf.”). Plaintiffs have
not even attempted to argue that an agency relationship has been created according to these rules. (See
2/23/09 Opp. at 19.) Contrary to Plaintiffs’ conclusory
assertions in their Opposition, Plaintiffs have not alleged any facts from which it may be plausibly inferred that Defendants manifested an intent to the
Ivorian farmers that the farmers would act on Defendants’ behalf. Nor have Plaintiffs alleged any facts from
which it may be plausibly inferred that the Ivorian
farmers manifested their assent to Defendants’ control of the farmers’ conduct. Absent such allegations,
there is no agency relationship between Defendants
and the Ivorian farmers. Accord Bowoto, 312 F. Supp.
2d at 1241 (“To establish actual agency a party must
demonstrate the following elements: (1) there must be
a manifestation by the principal that the agent shall
act for him; (2) the agent must accept the undertaking; and (3) there must be an understanding between
the parties that the principal is to be in control of the
undertaking. There is no agency relationship where
the alleged principal has no right of control over the
alleged agent.”) (quotations and citation omitted).
Similarly, Plaintiffs’ allegations fail to show that
the Ivorian farmers are Defendants’ agents under
rules of ratification and acquiescence. “Although a
principal is liable when it ratifies an originally unauthorized tort, the principal-agent relationship is still

171
a requisite, and ratification can have no meaning
without it.” Batzel v. Smith, 333 F.3d 1018, 1036 (9th
Cir. 2003) (footnote omitted); see also Restatement
(Third of Agency) § 4.03 (“A person may ratify an act
if [and only if, see § 4.01(3)(a),] the actor acted or purported to act as an agent on the person’s behalf.”). In
other words, absent a preexisting principal-agent relationship, the concept of “ratification” cannot operate
independently to create such a principal-agent relationship.
Accordingly, the Court rejects Plaintiffs’ arguments that the Defendants are liable for the Ivorian
farmers’ actions under an agency theory.
VIII. TORTURE VICTIM PROTECTION ACT
Plaintiffs’ third cause of action alleges that Defendants aided and abetted acts of torture. This cause
of action is brought under both the Alien Tort Statute
and the Torture Victim Protection Act, Pub. L. 102–
256, 106 Stat. 73 (1992), reprinted in 28 U.S.C.A. §
1350 note. The Torture Victim Protection Act provides:
Section 1. Short Title.
This Act may be cited as the ‘Torture Victim Protection Act of 1991’
Sec. 2. Establishment of civil action.
(a) Liability.—An individual who, under actual or apparent authority, or color of law, of
any foreign nation—
(1) subjects an individual to torture shall, in a
civil action, be liable for damages to that individual; or

172
(2) subjects an individual to extrajudicial killing shall, in a civil action, be liable for damages to the individual’s legal representative,
or to any person who may be a claimant in an
action for wrongful death.
(b) Exhaustion of remedies.—A court shall
decline to hear a claim under this section if the
claimant has not exhausted adequate and
available remedies in the place in which the
conduct giving rise to the claim occurred.
(c) Statute of limitations.—No action shall
be maintained under this section unless it is
commenced within 10 years after the cause of
action arose.
Sec. 3. Definitions.
“(a) Extrajudicial killing.—For the purposes of this Act, the term ‘extrajudicial killing’ means a deliberated killing not authorized by a previous judgment pronounced by a
regularly constituted court affording all the
judicial guarantees which are recognized as
indispensable by civilized peoples. Such term,
however, does not include any such killing
that, under international law, is lawfully carried out under the authority of a foreign nation.
“(b) Torture.—For the purposes of this Act—
“(1) the term ‘torture’ means any act, directed
against an individual in the offender’s custody
or physical control, by which severe pain or
suffering (other than pain or suffering arising
only from or inherent in, or incidental to, lawful sanctions), whether physical or mental, is
intentionally inflicted on that individual for

173
such purposes as obtaining from that individual or a third person information or a confession, punishing that individual for an act that
individual or a third person has committed or
is suspected of having committed, intimidating or coercing that individual or a third person, or for any reason based on discrimination
of any kind; and
“(2) mental pain or suffering refers to prolonged mental harm caused by or resulting
from—
“(A) the intentional infliction or threatened
infliction of severe physical pain or suffering;
“(B) the administration or application, or
threatened administration or application, of
mind altering substances or other procedures
calculated to disrupt profoundly the senses or
the personality;
“(C) the threat of imminent death; or
“(D) the threat that another individual will
imminently be subjected to death, severe
physical pain or suffering, or the administration or application of mind altering substances
or other procedures calculated to disrupt profoundly the senses or personality.”
28 U.S.C.A. § 1350 note.
Defendants argue that the Torture Victim Protection Act supercedes the Alien Tort Statute with respect to torture and related offenses. This is the approach taken by the divided panel in Enahoro v. Abubakar, 408 F.3d 877, 884–85 (7th Cir. 2005), a much-

174
criticized case55 which concluded that the Torture Victim Protection Act’s statutory exhaustion requirement would be rendered meaningless if plaintiffs
could simply plead torture-related violations under
customary international law.
The Court disagrees with Defendants’ assertion.
While it is true that the Torture Victim Protection Act
“was intended to codify judicial decisions recognizing
such a cause of action under the Alien Tort [Statute],”
Hilao v. Estate of Marcos, 103 F.3d 767, 778 (9th Cir.
1996), there is no clear congressional intent that the
Alien Tort Statute cannot also provide a cause of action for torture and related acts. Notably, the Ninth
Circuit affirmed a judgment which contained causes
of action for torture brought under both the Alien Tort
Statute and the Torture Victim Protection Act. See Hilao v. Estate of Marcos, 103 F.3d at 777–78.
The Court agrees with and adopts the discussion
of this question in Bowoto v. Chevron Corp., 557 F.
Supp. 2d 1080, 1084–86 (N.D. Cal. 2008), and Mujica

See, e.g., Philip Mariani, Comment, Assessing the Proper Relationship Between the Alien Tort Statute and the Torture Victim
Protection Act, 156 U. Pa. L. Rev. 1383, 1386 (2008) (“the Seventh
Circuit’s preclusive interpretation ... produces an inappropriate
result for courts to follow); Ved P. Nanda & David K. Pansius, 2
Litigation of International Disputes in U.S. Courts, § 9:9, at n.
366 and accompanying text (2010 supp.) (“The text projects that
in the long run Judge Cudahy’s [dissenting] argument [from
Enahoro ] will prevail in most circuits. Congress did not repeal
the AT[S]. Sosa did not reject the proposition that torture was an
actionable norm under the AT[S]. Sosa also indicated no disagreement with the case law that had consistently treated the
AT[S] and TVPA as mutually coexisting.”); see also Adhikari v.
Daoud & Partners, 697 F. Supp. 2d 674, 687–88 (S.D. Tex. 2009)
(pointedly refusing to adopt holding of Enahoro).
55

175
v. Occidental Petroleum Corp., 381 F. Supp. 2d 1164,
1179 n. 13 (C.D. Cal. 2005) (explaining that Torture
Victim Protection Act was intended to enhance, not
limit, remedies available to torture victims, and that
“repeals by implication are not favored”) (collecting
authorities), remanded on other grounds by 564 F.3d
1190, 1192 (9th Cir. 2009) (ordering district court to
consider applicability of prudential exhaustion requirement articulated in Sarei v. Rio Tinto, 550 F.3d
822 (9th Cir. 2008) (en banc)); see generally Philip
Mariani, Comment, Assessing the Proper Relationship
Between the Alien Tort Statute and the Torture Victim
Protection Act, 156 U. Pa. L. Rev. 1383 (2008) (closely
examining the question and rejecting Seventh Circuit’s contrary conclusion).
In any event, even if the Court were to follow the
reasoning of the Seventh Circuit in Enahoro, the concerns motivating the Seventh Circuit (namely, the interaction between the Torture Victim Protection Act
and the Alien Tort Statute regarding exhaustion of
remedies) are not present in the instant case. Defendants have not argued that the Torture Victim Protection Act’s statutory exhaustion requirement would be
eviscerated if the Court applied the Alien Tort Statute
in this case. Accordingly, Enahoro’ s reasoning is inapposite.
A. PLAINTIFFS’ ALLEGATIONS FAIL TO
STATE A VIABLE CAUSE OF ACTION
FOR AIDING AND ABETTING TORTURE
The Court assumes for purposes of this Order that
the Torture Victim Protection Act creates a cause of
action relating to a defendant’s act of aiding and abetting torture. Because the Act creates a statutory

176
cause of action, this question is distinct from the common law-based Alien Tort Statute analysis discussed
supra. Whereas Alien Tort Statute claims are derived
from international law, a Torture Victim Protection
Act claim derives from federal statute. The existence
of aiding and abetting liability is therefore a matter of
statutory interpretation. The Court refrains from engaging in this exercise at the present juncture. See
generally Ved P. Nanda & David K. Pansius, 2 Litigation of International Disputes in U.S. Courts, § 9:9, at
nn. 257–29 and accompanying text (2010 supp.) (“In a
TVPA case complicity liability would derive from the
terms of that statute to the extent that a court may
consider the issue addressed in the statute or its legislative history.... Under the ATS the cause of action
must arise from a norm of international law.”).
However, even assuming that the Torture Victim
Protection Act recognizes aiding and abetting liability, the Court grants Defendants’ Motion to Dismiss
the Torture Victim Protection Act cause of action for
the same reasons that it grants the motion on the common-law international law causes of action brought
under the Alien Tort Statute. As discussed supra,
Plaintiffs have not alleged sufficient facts to establish
a plausible inference that Defendants aided and abetted third parties’ torture of Plaintiffs.
B. CORPORATE LIABILITY UNDER THE
TORTURE VICTIM PROTECTION ACT
In addition, the Court grants Defendants’ Motion
to Dismiss the Torture Victim Protection Act cause of
action because Congress only extended liability to natural persons, not corporations.
The overwhelming majority of courts have concluded that only natural persons, not corporations,

177
may be held liable under the Torture Victim Protection Act. See Ali Shafi v. Palestinian Authority, 686 F.
Supp. 2d 23, 28 (D.D.C. 2010) (“Defendants correctly
assert that Ali may not plead a cause of action against
non-natural persons under the TVPA.”); Bowoto v.
Chevron Corp., No. C 99–02506–SI, 2006 WL
2604591, at *1–2 (N.D. Cal. Aug. 22, 2006); Corrie v.
Caterpillar, Inc., 403 F. Supp. 2d 1019, 1026 (W.D.
Wash. 2005), aff’d on other grounds, 503 F.3d 974 (9th
Cir. 2007); Doe v. Exxon Mobil Corp., 393 F. Supp. 2d
20, 28 (D.D.C. 2005); In re Terrorist Attacks on September 11, 2001, 392 F. Supp. 2d 539, 565 (S.D.N.Y.
2005); Mujica v. Occidental Petrol. Corp., 381 F. Supp.
2d 1164, 1175 (C.D. Cal. 2005); In re Agent Orange
Prod. Liability Litig., 373 F. Supp. 2d 7, 55–56
(E.D.N.Y. 2005); Arndt v. UBS AG, 342 F. Supp. 2d
132, 141 (E.D.N.Y. 2004); Friedman v. Bayer Corp.,
No. 99–CV–3675, 1999 WL 33457825, at *2 (E.D.N.Y.
Dec. 15, 1999); Beanal v. Freeport–McMoRan, Inc.,
969 F. Supp. 362, 381–82 (E.D. La. 1997), aff’d on
other grounds, 197 F.3d 161, 169 (5th Cir. 1999) (holding that complaint failed to allege facts sufficient to
show that torture occurred); but see Sinaltrainal v.
Coca–Cola Co., 256 F. Supp. 2d 1345, 1358–59 (S.D.
Fla. 2003) (reaching contrary conclusion); Estate of
Rodriquez v. Drummond Co., Inc., 256 F. Supp. 2d
1250, 1266–67 (N.D. Ala. 2003) (same)
The central animating logic behind these decisions is that the Act prohibits individuals from inflicting torture on other individuals. See 28 U.S.C.A.
§ 1350 note § 2(a)(1) (“An individual who ... subjects
an individual to torture shall, in a civil action, be liable for damages to that individual.”) (emphasis
added). Because a corporation cannot be tortured, it
appears that the Act’s use of word “individual” refers
only to natural persons, not corporations. As noted in

178
Mujica, corporations are quite obviously incapable of
being “tortured”:
The Court does not believe it would be possible
for corporations to be tortured or killed. The
Court also does not believe it would be possible for corporations to feel pain and suffering.
See Leocal [v. Ashcroft, 543 U.S. 1,] 125 S.Ct.
[377,] 382 [160 L.Ed.2d 271 (2004) ] (“When
interpreting a statute, we must give words
their ‘ordinary or natural’ meaning.”). Thus,
the only manner in which the statute does not
reach an ‘absurd result,’ is by excluding corporations from the scope of the statute’s liability.
Mujica, 381 F. Supp. 2d at 1176.
Another strand of reasoning involves reference to
the default rules of linguistic interpretation set forth
by Congress itself. Congress’s Dictionary Act defines
“person” as including both “corporation” and “individuals.” See 1 U.S.C. § 1 (“In determining the meaning
of any Act of Congress, unless the context indicates
otherwise—... the words ‘person’ and ‘whoever’ include corporations, companies, associations, firms,
partnerships, societies, and joint stock companies, as
well as individuals”). “[T]he Dictionary Act’s definition of ‘person’ implies that the words ‘corporations’
and ‘individuals’ refer to different things,” and that
implied meaning should govern as long as the context
does not indicate otherwise. United States v. Middleton, 231 F.3d 1207, 1211 (9th Cir. 2000). Here, context
supports the implied meaning given in the Dictionary
Act—that is, that “individual” refers to “natural persons”—and there is no reason to hold otherwise.
Bowoto, 2006 WL 2604591, at *1–2.

179
As persuasive authority in favor of holding corporations liable under the Torture Victim Protection
Act, Plaintiffs point to the statement of Sen. Specter,
the bill’s sponsor, who said that the bill would allow
suits against “persons” who were involved in committing torture. (See 2/23/09 Opp. at 22.) This single
statement is an insufficient basis for reaching a conclusion that is contrary to basic principles of statutory
construction. See generally United States v. Tabacca,
924 F.2d 906, 910–911 (9th Cir.1991) (“The remarks
of a legislator, even those of the sponsoring legislator,
will not override the plain meaning of a statute.”); see
also Weinberger v. Rossi, 456 U.S. 25, 35 n.15 (1982)
(“The contemporaneous remarks of a sponsor of legislation are not controlling in analyzing legislative history.”); Bath Iron Works Corp. v. Director, Office of
Workers’ Compensation, 506 U.S. 153, 166 (1993)
(where the language of the statute was unambiguous
on the issue, the Court gave “no weight” to a single
senator’s reference during a floor debate in the Senate). Furthermore, no court has relied on Sen. Specter’s statement as dispositive; to the extent that courts
have relied on the legislative history to show that corporations may be sued, they have concluded that this
history “does not reveal an intent to exempt private
corporations from liability.” Sinaltrainal v. Coca–Cola
Co., 256 F. Supp. 2d 1345, 1358–59 (S.D. Fla. 2003)
(emphasis added); see also Estate of Rodriquez v.
Drummond Co., Inc., 256 F. Supp. 2d 1250, 1266–67
(N.D. Ala. 2003) (following Sinaltrainal).56 But in

The Eleventh Circuit has affirmed both of these decisions and
extended liability to corporations, but has never explicitly stated
its reasoning for permitting a corporation to be sued under the
56

180
light of the plain statutory language of the Act, the
Court concludes that the majority of courts are correct
that the Act does not extend liability to corporations.
Congress simply has not provided for corporate liability.
C. STATE ACTION
As a final matter, the Court grants Defendants’
Motion to Dismiss the Torture Victim Protection Act
cause of action because Plaintiffs have not adequately
alleged “state action” for purposes of the Act. The Act
establishes liability where “[a]n individual who, under actual or apparent authority, or color of
law, of any foreign nation—subjects an individual
to torture.” 28 U.S.C.A. § 1350 note § 2(a)(1) (emphasis added). This statutory provision requires that the
principal offender committing torture—here, the Ivorian farmers—was acting under color of law.
Unlike the Alien Tort Statute, the Torture Victim
Protection Act contains an explicit reference to domestic law to define the state-action requirement of the
Torture Victim Protection Act. As explained in a recent en banc decision issued by the Second Circuit’s
decision, “[i]n construing the term ‘color of law,’ courts

Act. In Romero v. Drummond Co., Inc., 552 F.3d 1303, 1315 (11th
Cir. 2008), the court stated that “we are bound by th[e] precedent” of Aldana v. Del Monte Fresh Produce, Inc., 416 F.3d 1242
(11th Cir. 2005), that a plaintiff may “state[ ] a claim against a
corporate defendant” under the Torture Victim Protection Act.
However, the Aldana court did not expressly address the issue.
See generally Aldana, 416 F.3d at 1244–53. Later, in Sinaltrainal v. Coca–Cola Co., 578 F.3d 1252, 1263 (11th Cir.
2009), the court suggested that Romero, not Aldana, was the operative precedent regarding corporate liability under the Torture
Victim Protection Act.

181
are instructed to look to jurisprudence under 42
U.S.C. § 1983.” Arar v. Ashcroft, 585 F.3d 559, 568 (2d
Cir. 2009) (en banc) (citing H.R. Rep. No. 367, 102d
Cong., 2d Sess., at 5 (1991) reprinted in 1992
U.S.C.C.A.N. 84, 87) (alterations omitted), cert. denied, 130 S.Ct. 3409 (2010). Accordingly, the Court
will consider precedents construing both the Torture
Victim Protection Act and 42 U.S.C. § 1983.
The essence of Plaintiffs’ state-action argument is
that some farms were owned by government officials,
or were protected by government-based security services, or were insulated from government attention
through payments to government officials. (FAC ¶¶
47, 67, 73, 77.) Specifically, Plaintiffs allege that “several of the cocoa farms in Cote d’Ivoire from which Defendants source [cocoa] are owned by government officials, whether directly or indirectly, or are otherwise
protected by government officials either through the
provision of direct security services or through payments made to such officials that allow farms and/or
farmer cooperatives to continue the use child labor.”
(Id. at ¶ 47.) Plaintiffs also assert that the farmers’
wrongful actions were done with the “implicit sanction
of the state” or through “the intentional omission of
responsible state officials ... to act in preventing
and/or limiting the trafficking” of child slaves into
Cote d’Ivoire. (Id. at ¶ 77.)
Plaintiffs assert that these allegations establish a
form of “joint action” between the state actors and the
private defendants. (2/23/09 Opp. at 23.) Plaintiffs cite
to Dennis v. Sparks, 449 U.S. 24, 27–28, 101 S.Ct. 183,
66 L.Ed.2d 185 (1980), which explained that “[p]rivate
persons, jointly engaged with state officials in the
challenged action, are acting ‘under color’ of law for

182
purposes of § 1983 actions.” Dennis involved allegations that a private party had entered into a “corrupt
conspiracy involving bribery of [a] judge.” The Court
explained that “the private parties conspiring with
the judge were acting under color of state law.” Id. at
28.
The “joint-action” principle is further illustrated
in a number of Torture Victim Protection Act cases. In
Mujica v. Occidental Petroleum, the plaintiffs alleged
that the Colombian Air Force, while providing paidfor security services at one of the defendant’s oil production facilities and oil pipelines, committed torture
by dropping cluster bombs on groups of civilians in a
residential area. Mujica, 381 F. Supp. 2d at 1168. The
court held that these allegations were sufficient to satisfy the Torture Victim Protection Act’s requirement
that the wrongful conduct be done under color of law.
Similarly, in Wiwa v. Royal Dutch Petrol. Co., No.
96 CIV. 8386(KMW), 2002 WL 319887 (S.D.N.Y. Feb.
28, 2002), the court held that the allegations were sufficient to satisfy the state action requirement where
the plaintiff alleged that the defendants “jointly collaborated” with a foreign government “in committing
several of the claimed violations of international law.”
Id. at *14. The court explained that “individuals engaged in a conspiracy with government actors to deprive others of their constitutional rights act ‘under
color of law’ to commit those violations.” Id.
In Aldana v. Del Monte Fresh Produce, the plaintiffs alleged that they had been taken hostage and
were threatened with death during labor negotiations
in Guatemala. Aldana, 416 F.3d at 1245. The Eleventh Circuit reversed the district court’s dismissal of
the Torture Victim Protection Act claims to the extent
that the plaintiffs alleged that the local mayor had

183
personally acted as an “one of the armed aggressors”
who personally participated in taking the plaintiffs
hostage and threatening them with death. Id. at 1249.
(The court noted that the private-party defendants
were secondarily liable for the mayor’s conduct because the mayor was acting “at the urging of [the] Defendants.” Id.) Because the mayor was personally involved in the underlying wrongdoing, the plaintiffs
had adequately alleged state action. Id.
In contrast to the allegations involving the mayor,
the Aldana court held that there was no state action
where the government provided “registration and toleration” of the organizations responsible for the
wrongful acts. Id. at 1248. The court cited the Supreme Court’s decision in Moose Lodge No. 107 v. Irvis, 407 U.S. 163, 175–78, 92 S.Ct. 1965, in which the
Court held that a “state’s alcohol licensing and regulatory scheme did not transform a private club with a
liquor license into a state actor.” Aldana, 416 F.3d at
1248.
In Sinaltrainal v. Coca–Cola, the plaintiffs alleged that private “paramilitary forces” engaged in
torture. The Eleventh Circuit explained that “[m]ere
toleration of the paramilitary forces does not transform such forces’ acts into state acts.” Sinaltrainal,
578 F.3d at 1270. Relying on the pleading rules as construed in Iqbal, the court rejected the plaintiffs’ conclusory allegations that “the paramilitary are ‘permitted to exist’ and are ‘assisted’ by the Colombian government.” Id. at 1266. The court explained that the
plaintiffs offered only the “naked allegation the paramilitaries were in a symbiotic relationship with the
Colombian government and thus were state actors,”

184
and “absent any factual allegations to support this legal conclusion,” the motion to dismiss was properly
granted. Id.
The present case, in contrast to Dennis, Mujica,
Wiwa, and the portion of Aldana addressing the
mayor’s conduct, does not involve any allegations that
Ivorian government officials jointly conspired or participated with the farmers who were directly engaged
in wrongdoing. Rather, Plaintiffs allege in a wholly
conclusory fashion that the Ivorian government somehow “protected” the farmers and otherwise allowed
them “to continue to use child labor.” (FAC ¶ 47.) Like
the complaint in Sinaltrainal, Plaintiffs’ Complaint
lacks any factual allegations showing that the Ivorian
government jointly participated in the underlying human rights abuses, as was the case with the mayor in
Aldana and the corrupt judge in Dennis. See also
Romero, 552 F.3d at 1317 (granting summary judgment to defendant because “proof of a general relationship [between the Colombian government and alleged wrongdoer] is not enough. The relationship
must involve the subject of the complaint.... [T]he [evidence] do[es] not even suggest that the Colombian
military was involved in those crimes.”); Alomang v.
Freeport–McMoran Inc., Civ. A. No. 96–2139, 1996
WL 601431 (E.D. La. Oct. 17, 1996) (plaintiff’s complaint failed to satisfy state action requirement because it “does not explicitly link the alleged human
rights violations to the alleged presence of Indonesian
troops at the Grasberg Mine site”).
To the extent that Plaintiffs allege that Ivorian
government officials owned the farms on which the
violations took place, it is well established that government officials’ private conduct does not satisfy the
state action requirement. See, e.g., Screws v. United

185
States, 325 U.S. 91, 111, 65 S.Ct. 1031, 89 L.Ed. 1495
(1945) (“acts of officers in the ambit of their personal
pursuits are plainly excluded ... [from] the words ‘under color of any law’ ”); see also Gritchen v. Collier, 254
F.3d 807, 812 n.6 (9th Cir. 2001) (collecting cases).
Plaintiffs fail to allege any facts establishing that the
Ivorian farms were operated by or for the benefit of
the government.
Finally, the Court rejects Plaintiffs’ argument
that these state action issues should be left to the
summary judgment stage of litigation rather than the
motion to dismiss stage. Plaintiffs’ authority predates
the Supreme Court’s clear authority in Twombly and
Iqbal, requiring plaintiffs to allege facts supporting
their claim for relief. The cases cited by Plaintiffs apply a different legal standard. See National Coalition
Government of Union of Burma v. Unocal, Inc., 176
F.R.D. 329, 346 (C.D. Cal. 1997) (“[T]he Court considers Unocal’s argument that plaintiffs cannot possibly prevail on a joint action theory based on the allegations of the complaint.”) (emphasis added). Admittedly, it is somewhat difficult for the Court to analyze
the sufficiency of Plaintiffs’ legal theory at the present
stage of litigation—but that is only because the Complaint contains conclusory assertions rather than factual allegations. On that basis alone, the Motion to
Dismiss must be granted.
D. SUMMARY OF TORTURE VICTIM PROTECTION ACT
Accordingly, the Court concludes that: Plaintiffs’
Complaint fails to allege sufficient facts from which it
may be reasonably inferred that Defendants aided
and abetted torture; corporations cannot be held liable
under the Torture Victim Protection Act because the

186
statute precludes such a result; and Plaintiffs’ Complaint fails to allege sufficient facts from which it may
be reasonably inferred that the Ivorian farmers acted
under “color of law.”
IX. STATE–LAW CAUSES OF ACTION
Plaintiffs’ Complaint alleges four causes of action
under California law: breach of contract, negligence,
unjust enrichment, and unfair business practices.
Plaintiffs concede that the Ninth Circuit’s decision in
Doe I v. Wal–Mart Stores, Inc., 572 F.3d 677 (9th Cir.
2009), forecloses the contract and negligence claims.
(See 8/6/09 Opp. at 2.)57
A. UNJUST ENRICHMENT
With respect to the unjust enrichment cause of action, Plaintiffs allege that:
As a result of the forced labor practices utilized by farms and/or farmer cooperatives
from which Defendants sourced cocoa beans,
Defendants received benefits by being able to
purchase cocoa beans from such farms at significantly lower prices as the farms’ total labor
costs were greatly diminished by reliance on
forced child labor. Defendants’ conduct
thereby constitutes unjust enrichment and
Defendants are under a duty of restitution to

Doe I v. Wal–Mart Stores addressed causes of action arising out
of Wal–Mart’s public relations statements about its human
rights standards (it had issued a “code of conduct” regarding its
labor practices). The court rejected the plaintiffs’ contract and
negligence claims arising out of the code of conduct because Wal–
Mart was an indirect purchaser of the goods manufactured by
the laborer-plaintiffs. As Plaintiff concede, the same type of analysis applies in the present case.
57

187
the Former Child Slave Plaintiffs for the benefits received therefrom.
(FAC ¶¶ 90–91.)
A thorough and relevant discussion of California’s
law of unjust enrichment appears in Doe I v. Wal–
Mart Stores:
We turn finally to Plaintiffs’ claim of unjust
enrichment. Plaintiffs allege that Wal–Mart
was unjustly enriched at Plaintiffs’ expense by
profiting from relationships with suppliers
that Wal–Mart knew were engaged in substandard labor practices. Unjust enrichment
is commonly understood as a theory upon
which the remedy of restitution may be
granted. See 1 GEORGE E. PALMER, LAW OF
RESTITUTION § 1.1 (1st ed. 1978 & Supp.
2009); Restatement of Restitution § 1 (1937)
(“A person who has been unjustly enriched at
the expense of another is required to make
restitution to the other.”). California’s approach to unjust enrichment is consistent
with this general understanding: “The fact
that one person benefits another is not, by itself, sufficient to require restitution. The person receiving the benefit is required to make
restitution only if the circumstances are such
that, as between the two individuals, it is unjust for the person to retain it.” First Nationwide Sav. v. Perry, 11 Cal.App.4th 1657, 15
Cal.Rptr.2d 173, 176 (1992) (emphasis in original).
The lack of any prior relationship between
Plaintiffs and Wal–Mart precludes the application of an unjust enrichment theory here.

188
See Smith v. Pac. Props. & Dev. Corp., 358
F.3d 1097, 1106 (9th Cir. 2004) (noting that a
party generally may not seek to disgorge another’s profits unless “a prior relationship between the parties subject to and benefitting
from disgorgement originally resulted in unjust enrichment”). Plaintiffs essentially seek
to disgorge profits allegedly earned by Wal–
Mart at Plaintiffs’ expense; however, we have
already determined that Wal–Mart is not
Plaintiffs’ employer, and we see no other plausible basis upon which the employee of a manufacturer, without more, may obtain restitution from one who purchases goods from that
manufacturer. That is, the connection between Plaintiffs and Wal–Mart here is simply
too attenuated to support an unjust enrichment claim. See, e.g., Sperry v. Crompton
Corp., 8 N.Y.3d 204, 831 N.Y.S.2d 760, 863
N.E.2d 1012, 1018 (2007) (holding that “the
connection between the purchaser of tires and
the producers of chemicals used in the rubbermaking process is simply too attenuated to
support” the purchaser’s claim of unjust enrichment).
Doe I v. Wal–Mart Stores, 572 F.3d at 684–85.
The Ninth Circuit’s observations about the “attenuated” nature of the relationship between the plaintiffs and the defendant applies with equal force in the
present case. Plaintiffs assert that Doe v. Wal–Mart is
not controlling because the present case involves a
“long term exclusive relationship” between Defendants and the “specific farmers that enslaved Plaintiffs
and other children.” (8/6/09 Opp. at 2.) However,
Plaintiffs fail to identify any legal authority for their

189
conclusion that Defendants’ long-term exclusive relationship with the Ivorian farmers constitutes a
“prior relationship” between Plaintiffs and Defendants. In Doe v. Wal–Mart, the Ninth Circuit affirmed
the dismissal of an unjust enrichment claim where
there was no “prior relationship” between the plaintiffs and defendant, and Plaintiffs have failed to identify any such relationship between Plaintiffs and Defendants in this case. The Motion to Dismiss the unjust enrichment cause of action is therefore granted.
B. UNFAIR BUSINESS PRACTICES
All Plaintiffs—both the Malian child-laborer
Plaintiffs and the Global Exchange Plaintiffs—allege
unfair competition violations under Cal. Bus. & Prof.
Code §§ 17200 et seq. The basic allegations are that
Defendants engaged in fraudulent and deceptive business practices by making materially false misrepresentations and omissions that:
den[ied] the use of child slaves and/or [ ] create[d] the false impression that the problem of
child slaves is being adequately addressed, either directly by Defendants and/or through
their various trade associations, including
that an independent, credible system of monitoring, certification, and verification would be
in place by July 1, 2005.
(FAC ¶ 95.) Defendants also allegedly engaged in unfair business practices by “us[ing] ... unfair, illegal,
and forced child labor” to gain an unfair business advantage over competitors. (FAC ¶ 96.)

190
1. ALLEGATIONS BY FORMER CHILD
LABORERS
The child-laborer Plaintiffs fail to allege any facts
showing that they suffered harm on account of Defendants’ conduct in California.
Plaintiffs correctly recognize that the Unfair Competition Law allows claims by “non-California plaintiffs when the alleged misconduct or injuries occurred in California.” (2/23/09 Opp. at 36 (collecting
cases) (emphasis added).) California courts have consistently held that out-of-state plaintiffs may not
bring Unfair Competition Law claims for out-of-state
misconduct or injuries. See, e.g., Churchill Village,
L.L.C. v. General Elec. Co., 169 F. Supp .2d 1119, 1126
(N.D. Cal. 2000) (“section 17200 does not support
claims by non-California residents where none of the
alleged misconduct or injuries occurred in California”)
(citing Norwest Mortgage, Inc. v. Superior Court, 72
Cal.App. 4th 214, 85 Cal.Rptr.2d 18 (1999)), aff’d, 361
F.3d 566 (9th Cir. 2004).
Plaintiffs fail to articulate any theory through
which the child-laborer Plaintiffs were harmed by Defendants’ California-based conduct. Plaintiffs assert
that “Plaintiffs allege that Defendants have been
making false and misleading statements in California” (2/23/09 Opp. at 36), but Plaintiffs fail to explain
how the child-laborer Plaintiffs were harmed by
those false and misleading statements.
Absent allegations that the child-laborer Plaintiffs suffered injuries based on Defendants’ conduct in
California, the Unfair Competition Law claims of the
child-laborer Plaintiffs are dismissed. See Jane Doe I
v. Wal–Mart Stores, Inc., No. CV 05–7307 AG (MANx),
2007 WL 5975664, at *6 (C.D. Cal. Mar. 30, 2007)

191
(holding that no “case supports finding an injury in
fact in a consumer deception case when the plaintiff is
not a consumer. Plaintiffs have not shown any legal
authority for such an extension of a consumer protection law.”).58
2. ALLEGATIONS
CHANGE

BY

GLOBAL

EX-

The Court declines to exercise supplemental jurisdiction over Global Exchange’s Unfair Competition
Law claims against Defendants. Global Exchange’s
claims relate to Defendants’ marketing and sales conduct, not Defendants’ alleged aiding and abetting human rights abuses. (See FAC ¶¶ 90–91.) The Court
concludes that Global Exchange’s Unfair Competition
Law claims are not “so related to claims in the action
within such original jurisdiction that they form part
of the same case or controversy under Article III of the
United States Constitution.” 28 U.S.C. § 1367(a).
“Nonfederal claims are part of the same ‘case’ as federal claims when they ‘derive from a common nucleus
of operative fact’ and are such that a plaintiff ‘would
ordinarily be expected to try them in one judicial proceeding.’ ” Trustees of Construction Industry and Laborers Health and Welfare Trust v. Desert Valley
Landscape & Maintenance, Inc., 333 F.3d 923, 925
(9th Cir. 2003) (quoting Finley v. United States, 490
U.S. 545, 549 1989)). Here, Global Exchange’s claims
do not “derive from a common nucleus of operative
fact” as the child-laborers’ claims. See id. at 925.
The Court also concludes that even if supplemental jurisdiction were appropriate under 28 U.S.C.

The Doe v. Wal–Mart plaintiffs did not appeal this portion of
the district court’s holding.
58

192
§ 1367(a), the Court would decline to exercise supplemental jurisdiction because “the claim raises a novel
or complex issue of State law.” 28 U.S.C. § 1367(c)(1);
see also Medrano v. City of Los Angeles, 973 F.2d 1499,
1506 (9th Cir. 1992) (affirming dismissal of claims involving “complicated state law issues”). California’s
Unfair Competition Law is in a state of flux and the
Court concludes that the state courts, not federal
courts, should resolve the statute’s uncertainties. See
generally Clayworth v. Pfizer, Inc., 49 Cal.4th 758, 111
Cal.Rptr.3d 666, 233 P.3d 1066 (2010); In re Tobacco
II Cases, 46 Cal. 4th 298, 93 Cal.Rptr.3d 559, 207 P.3d
20 (2009); see also Janda v. T–Mobile USA, Inc., No.
09-15770, 2010 WL 1849028, at *2 (9th Cir. 2010) (“In
the context of a UCL consumer claim it is unclear
whether a plaintiff must (1) show that the harm to the
consumer of a particular practice outweighs its utility
to defendant, or (2) allege unfairness that is tethered
to some legislatively declared policy.”) (citations and
quotations omitted) (citable pursuant to Fed. R. App.
P. 32.1(a); 9th Cir. R. 36–3(b)).59
In addition, the Court would also decline to exercise supplemental jurisdiction under 28 U.S.C.
§ 1367(c)(3). See, e.g., Construction Industry and Laborers Health and Welfare Trust, 333 F.3d at 926 (“we
[have] held that it was appropriate for the district
court to decline jurisdiction over the supplemental
state claims because the federal claim had proven to
be unfounded.”).

The Court further notes that the precise basis of Plaintiffs’ Unfair Competition Law claim is unclear given the paucity of the
factual allegations. It is unclear whether Plaintiffs’ claims are
governed by cases discussing injuries to competitors or by cases
discussing injuries to consumers.
59

193
Although Defendants did not argue for the dismissal of Global Exchange’s claims on jurisdictional
grounds, “[c]ourts have an independent obligation to
determine whether subject-matter jurisdiction exists.” Hertz Corp. v. Friend, 559 U.S. ____, 130 S.Ct.
1181, 1193, 175 L.Ed.2d 1029 (2010) ((citing Arbaugh
v. Y & H Corp., 546 U.S. 500, 514, 126 S.Ct. 1235, 163
L.Ed.2d 1097 (2006)). Here, the Court concludes that
subject matter jurisdiction does not exist because
Global Exchange’s claims are not part of the same
“case or controversy.” Furthermore, even if subject
matter jurisdiction would be permissible under 28
U.S.C. § 1367, the Court exercises its discretion to decline to exercise supplemental jurisdiction. See Estate
of Amergi v. The Palestinian Authority, __ F.3d __
2010 WL 2898991, at *14-15 (11th Cir. 2010) (affirming district court’s dismissal of supplemental wrongful-death claim where federal claims were premised
on Alien Tort Statute).
Plaintiffs have not pled any alternative bases
other than 28 U.S.C. § 1367 that would support subject matter jurisdiction. Although they assert that jurisdiction is proper under 28 U.S.C. § 1332 (see FAC ¶
6), they have failed to allege the citizenship of the individual members of Global Exchange. See, e.g., Stark
v. Abex Corp., 407 F. Supp. 2d 930, 934 (N.D. Ill .2005)
(plaintiff bears burden of showing complete diversity
between plaintiff and individual members of defendant trade association); see generally Walter W. Jones,
Annotation, Determination of citizenship of unincorporated associations, for federal diversity of citizenship purposes, in actions by or against such associations, 14 A.L.R. Fed. 849 (1973, 2010 supp.). Plaintiffs
bear the burden of alleging diversity, and they have
failed to meet this burden. See Bautista v. Pan American World Airlines, Inc., 828 F.2d 546, 552 (9th Cir.

194
1987). Plaintiffs may amend their Complaint to remedy this deficiency. See Snell v. Cleveland, Inc., 316
F.3d 822, 828 n. 6 (9th Cir. 2002). However, it appears
that Plaintiffs are likely fail on this ground because
by their own admission Plaintiff Global Exchange is
based in California and Defendant Nestle USA is
headquartered in California. (FAC ¶¶ 17–19.)
X. CORPORATE LIABILITY
ALIEN TORT STATUTE

UNDER

THE

Although the foregoing discussion resolves Plaintiffs’ international law claims in Defendants’ favor,
the Court wishes to address an issue that was fully
briefed for the Court and will require further attention if Plaintiffs elect to file an amended complaint.
Defendants argue that international law does not
extend liability to corporations. (2/9/09 Mot. at 5–6.)
With a single exception, this argument has been uniformly rejected or ignored by other courts. This Court,
however, agrees with Defendants. For the following
reasons, the Court concludes that international law
does not recognize corporate liability for violations of
international law. Accordingly, the Court concludes
that the Alien Tort Statute, as interpreted in Sosa,
does not recognize an international law cause of action
for corporate violations of international law.
A. SOSA’ S REQUIREMENTS AND INTERNATIONAL LAW
First and foremost, the Court is guided by the
choice-of-law principles enunciated in Sosa: federal
common law (actionable under this Court’s jurisdiction conferred by the Alien Tort Statute) only recognizes causes of action derived from (1) universal and
(2) well-defined norms of (3) international law. Sosa,
542 U.S. at 725 (“[C]ourts should require any claim

195
based on the present-day law of nations to rest on a
norm of international character accepted by the civilized world and defined with a specificity comparable
to the features of the 18th-century paradigms we have
recognized.”). Thus, this Court must rely on international rather than domestic law; and must rely on
norms that are universally accepted by a consensus
of civilized nations, rather than norms that are accepted by a select group of nations; and, finally, the
Court must rely on definite legal standards, not disputed or uncertain ones. See Sosa, 542 U.S. at 738
n.30 (noting “our demanding standard of definition”).
In undertaking an analysis of whether Sosa permits suits to be brought against corporate defendants,
other federal courts appear to be pushed and pulled
by two opposing concerns. First is the Sosa Court’s observation that “the First Congress did not pass the
ATS as a jurisdictional convenience to be placed on the
shelf for use by a future Congress or state legislature
that might, someday, authorize the creation of causes
of action or itself decide to make some element of the
law of nations actionable for the benefit of foreigners.”
Sosa, 542 U.S. at 719. In order to prevent the Alien
Tort Statute from “lying fallow indefinitely,” see id.,
lower courts occasionally appear eager to entertain
Alien Tort Statute claims. Perhaps these courts are
guided by Chief Justice Marshall’s declaration that
every “individual who considers himself injured, has a
right to resort to the laws ... for a remedy.” Marbury
v. Madison, 5 U.S. (1 Cranch) 137, 166, 2 L.Ed. 60
(1803). To these courts, it would be inequitable, and
perhaps even a bit unseemly, to bar the courthouse
doors simply because a particular international law
norm is not quite definite enough, or is not recognized
by a sufficient number of civilized nations as applying
to corporations.

196
In seeking to open the courthouse doors to Alien
Tort Statute litigants, courts have run up against the
second major concern raised by Sosa: courts are prohibited from being “aggressive” or “creativ[e]” in interpreting international law, because “Congress intended the ATS to furnish jurisdiction for a relatively
modest set of actions alleging violations of the law of
nations.” Sosa, 542 U.S. at 720, 726, 728 (emphasis
added). The emphasis must be placed on the word
modest. According to the Supreme Court, Congress
has implicitly commanded to the courts that there
must be a “restrained conception of the discretion a
federal court should exercise in considering a new
cause of action” under international law. Id. at 725.
As the Court explained, lower courts must exercise
“caution” when identifying actionable legal theories.60 The Court further stated that it was imposing
a “high bar to new private causes of action for violating international law,” and that courts must exercise
“vigilant doorkeeping” in allowing a “narrow class” of
appropriate cases. Id. at 727, 729.
Sosa’ s repeated use of words like “caution” and
“modest[y]” is particularly telling in light of the
Court’s discussion of the evolution in judicial thinking
toward the common law. In the past, the common law
was “found or discovered” by courts; but today we
acknowledge that the common law is “made or created” by judges through their exercise of “a substantial element of discretionary judgment in the decision.” Id. at 725–26. In order to restrain this judicial
discretion, “the general practice has been to look for

The Sosa majority uses the word “caution” (occasionally modified to read “great caution”) five separate times. Id. at 725, 727,
728.
60

197
legislative guidance before exercising innovative authority over substantive law.” Id. at 726. As the Court
explained, “we now tend to understand common law
not as a discoverable reflection of universal reason
but, in a positivistic way, as a product of human
choice.” Id. at 729.
Here, the “product of human choice” to which the
Court must defer is the Alien Tort Statute, 28 U.S.C.
§ 1350. And as explained by Sosa, this statute requires courts to look abroad to “f[ind] or discover[ ]”
only those international legal principles that are universal and well-defined. Domestic federal courts are
simply not authorized to create new international law,
nor are they authorized to push the boundaries of existing international law beyond those that have been
defined by other authorities. Notably, this narrowly
defined, positivistic view is in accord with the modern
conception of international law as being a product of
affirmative human choices rather than a form of “natural law” that exists somewhere in the ether. See, e.g.,
The Case of the S.S. “Lotus”, P.C.I.J., Ser. A., No. 10,
1927, at 18 (“The rules of law binding upon States
therefore emanate from their own free will as expressed in conventions or by usages generally accepted as expressing principles of law and established
in order to regulate the relations between these co-existing independent communities or with a view to the
achievement of common aims.”).
Accordingly, the Supreme Court concluded that
the appropriate source of law under the Alien Tort
Statute is well-defined, universally-accepted international law. In order to determine the details of this
source of law, it is necessary to apply the three-tiered
approach articulated by the Supreme Court in The

198
Paquete Habana, 175 U.S. at 700, 20 S.Ct. 290, codified by American academics in the Restatement
(Third) of Foreign Relations, § 102, and adopted as the
substantive foundation for the primary contemporary
authority on international law, the International
Court of Justice, see ICJ Statute, art. 38. The central
sources of law are treaties and customary international law; by way of analogy, these two bodies of law
may be viewed respectively as something like the statutes and common law in our domestic system. The secondary body of law is the gap-filling “general principles of law common to the major legal systems.” Restatement (Third) of Foreign Relations, § 102(4) & n.
7; see also ICJ Statute, art. 38(1)(c) (“the general principles of law recognized by civilized nations”).61
With those three sources of international law in
mind, it is important to refocus on Sosa’ s directive
that lower courts may only apply international law
that is universally accepted and well-defined. Notably, in addition to this general description of the Alien
Tort Statute, the Supreme Court in Sosa also stated
that lower courts must specifically examine “whether
international law extends the scope of liability for a
violation of a given norm to the perpetrator being
sued, if the defendant is a private actor such as a corporation or individual.” Sosa, 542 U.S. at 732 n.20.
Thus, in order to address Defendants’ argument that
corporations are not liable under the Alien Tort Statute for violations of international law, the Court con-

Secondary authorities are recognized as “as subsidiary means
for the determination of rules of law.” ICJ Statute, art. 38(1)(d).
Secondary authorities are not themselves a source of international law. See id.
61

199
cludes that the correct approach under Sosa is to determine whether universal, well-defined international
law “extends the scope of liability for a violation of a
given norm to ... corporation[s].” See Sosa, 542 U.S. at
732 n.20.
After Sosa, it is appropriate to look to international law rather than domestic law to provide standards governing corporate liability, agency attribution,
joint venture theories, piercing the corporate veil, and
the like. Some might argue that corporate liability can
be provided by operation of “federal common law.” See,
e.g., In re Agent Orange, 373 F. Supp. 2d at 59 (“In any
event, even if it were not true that international law
recognizes corporations as defendants, they still could
be sued under the ATS.... [T]he Supreme Court made
clear that an ATS claim is a federal common law claim
and it is a bedrock tenet of American law that corporations can be held liable for their torts.”) (quotation
omitted). However, such an approach improperly superimposes American legal rules on top of international law norms, which directly contravenes Sosa’ s
insistence that courts must determine “whether international law extends the scope of liability for a
violation of a given norm to the perpetrator being
sued.” Sosa, 542 U.S. at 732 n.20.
The following example will illustrate the logic animating the Court’s conclusion that international law,
not domestic common law, must provide for corporate
liability. At the time the Alien Tort Statute was enacted, the common law included a rule known as “coverture,” which treated husbands and wives as a single
legal entity. See generally Samantha Ricci, Note, Rethinking Women and the Constitution: An Historical
Argument for Recognizing Constitutional Flexibility
with Regards to Women in the New Republic, 16 Wm.

200
& Mary J. Women & L. 205, 212–21 (2009). As explained by Blackstone: “By marriage, the husband
and wife are one person in law: that is, the very being
or legal existence of the woman is suspended during
the marriage, or at least is incorporated and consolidated into that of the husband: under whose wing,
protection, and cover, she performs every thing; and
is therefore called in our law-french a feme-covert; is
said to be covert-baron, or under the protection and
influence of her husband, her baron, or lord; and her
condition during her marriage is called her coverture.”
Blackstone, 1 Commentaries, Ch. 15. Under this doctrine of coverture, according to one study of criminal
records in Pennsylvania, “[i]n a fifty-year span between 1750 and 1800, 276 wives were prosecuted
alongside their husbands, and 266 other wives were
charged independently with the same crime their
spouse had committed.” Ricci, Rethinking Women and
the Constitution, 16 Wm. & Mary J. Women & L. at
214 (citing G.S. Rowe, Femes Covert and Criminal
Prosecution in Eighteenth–Century Pennsylvania, 32
Am. J. L. Hist. 138, 142 (1988)). In other words,
women could be—and, based on the historical record,
apparently were—held legally responsible for acts
committed by their husbands.
In contrast to the common law rules, Blackstone
noted, coverture did not exist in civil law countries.
Blackstone, 1 Commentaries, Ch. 15. In those countries, “the husband and wife are considered as two distinct persons; and may have separate estates, contracts, debts, and injuries: and therefore, in our ecclesiastical courts, a woman may sue and be sued without her husband.” Id.
In light of these clear distinctions between the
common law tradition and the civil law tradition, it

201
would be quite inappropriate for a United States court
to apply principles of coverture under the Alien Tort
Statute. No one could reasonably argue that United
States courts should impose American views of marital relations on all international wrongdoers. There is
no authority in international law allowing for the wife
of a hostis humanis generis to be held equally liable
for her husband’s wrongdoing, and it would be judicial
imperialism at its worst for American courts to inject
coverture into the Alien Tort Statute absent some
clear authorization to do so from either Congress or
international law.
Of course, coverture no longer exists in domestic
law, so there is little risk that courts will engage in
such absurdity. But the purpose of this discussion is
to illustrate the nature of agency attribution in a circumstance that is much less familiar than corporate
liability, joint venture liability, and general principalagent liability. See generally Blackstone 1 Commentaries Chs. 14–17 (discussing four types of agency relationships: master-servant, husband-wife, parentchild, and guardian-ward). Although no Alien Tort
Statute court would think it appropriate to hold a wife
liable for her husband’s wrongdoing based on idiosyncratic domestic rules such as coverture, Alien Tort
Statute courts routinely apply domestic conceptions
of agency liability with respect to corporations, joint
venturers, and others who have entered into commercial principal-agent relationships. Such an approach
is, in this Court’s view, improper. Under Sosa, corporate liability and other types of agency liability must
be created by international law. And as the following
discussion demonstrates, there is not a well-defined
consensus regarding corporate liability in international law.

202
B. OTHER COURTS’ CONCLUSIONS
Despite the stringent standards set forth in Sosa,
domestic courts have almost uniformly concluded that
corporations may be held liable for violations of international law. See Romero v. Drummond Co., Inc., 552
F.3d 1303, 1315 (11th Cir. 2008) (“The text of the Alien Tort Statute provides no express exception for corporations, and the law of this Circuit is that this statute grants jurisdiction from complaints of torture
against corporate defendants.”) (citations omitted);
Khulumani v. Barclay Nat. Bank Ltd., 504 F.3d 254,
282 (2d Cir. 2007) (Katzmann, J., concurring) (“the issue of whether corporations may be held liable under
the Alien Tort Statute is indistinguishable from the
question of whether private individuals may be”); Al–
Quraishi v. Nakhla, __ F. Supp. 2d __, 2010 WL
3001986, at *39–41 (D. Md. 2010); In re XE Services
Alien Tort Litigation, 665 F. Supp. 2d 569, 588 (E.D.
Va. 2009) (“Nothing in the ATS or Sosa may plausibly
be read to distinguish between private individuals
and corporations.”); In re South African Apartheid,
617 F. Supp. 2d at 254–55 (“On at least nine separate
occasions, the Second Circuit has addressed ATCA
cases against corporations without ever hinting—
much less holding—that such cases are barred....
[T]his Court is bound by the decisions of the Second
Circuit.”); Arias v. Dyncorp, 517 F. Supp. 2d 221, 227
(D.D.C. 2007) (“It is clear that the ATCA may be used
against corporations acting under ‘color of state law,’
or for a handful of private acts, such as piracy and
slave trading.”) (alterations omitted); Bowoto v. Chevron Corp., No. C 99–02506 SI, 2006 WL 2455752, at
*9 (N.D. Cal. Aug. 22, 2006) (“The dividing line for international law has traditionally fallen between
states and private actors. Once this line has been

203
crossed and an international norm has become sufficiently well established to reach private actors, there
is very little reason to differentiate between corporations and individuals.”); Presbyterian Church of Sudan v. Talisman Energy Inc., 374 F. Supp. 2d 331,
335–37 (S.D.N.Y. 2005); In re Agent Orange Prod.
Liab. Litig., 373 F. Supp. 2d 7, 58–59 (E.D.N.Y. 2005)
(“Limiting civil liability to individuals while exonerating the corporation directing the individual’s action
through its complex operations and changing personnel makes little sense in today’s world.”). Other courts
have held corporations liable without specifically addressing the issue. See Abdullahi v. Pfizer, Inc., 562
F.3d 163 (2d Cir. 2009); Aldana v. Del Monte Fresh
Produce, N.A., Inc., 416 F.3d 1242 (11th Cir. 2005);
John Roe I v. Bridgestone Corp., 492 F. Supp. 2d 988
(S.D. Ind. 2007); Mujica v. Occidental Petroleum
Corp., 381 F. Supp. 2d 1164 (C.D. Cal. 2005).
The two most thorough opinions on this question
were issued by a pair of district courts in the Second
Circuit. In Presbyterian Church of Sudan v. Talisman
Energy, Inc., 244 F. Supp. 2d 289 (S.D.N.Y. 2003), and
In re Agent Orange Product Liability Litig., 373 F.
Supp. 2d 7 (E.D.N.Y. 2005), Judge Schwartz and
Judge Weinstein respectively discussed corporate liability in detail and concluded that corporations may
be held liable for violating international law.62 Many

Shortly before passing away, Judge Schwartz wrote the initial
Presbyterian Church of Sudan opinion addressing corporate liability. The case was transferred to Judge Cote. Following Sosa,
Judge Cote reaffirmed the validity of Judge Schwartz’s reasoning
and added a few additional observations. See Presbyterian
62

204
other courts have relied almost exclusively on the reasoning employed by these two decisions. See, e.g., In
re XE Services, 665 F. Supp. 2d at 588; In re South
African Apartheid, 617 F. Supp. 2d at 255 (“[I]n Presbyterian Church of Sudan v. Talisman Energy, Inc.,
Judge Denise Cote of the Southern District of New
York wrote two lengthy and persuasive explanations
of the basis for corporate liability in ATCA cases. This
Court need not repeat her analysis.”) (footnote omitted); Bowoto, 2006 WL 2455752, at *9. Accordingly,
this Court’s analysis focuses heavily on the authorities and reasoning contained in Presbyterian Church
of Sudan and In re Agent Orange.
Having examined the reasoning of those two cases
and related authorities, the Court concludes there is
no well-defined international consensus regarding
corporate liability for violating international human
rights norms. Despite the weight of domestic authority supporting that conclusion, this issue remains
open to reasonable debate. Notably, the Second Circuit recently ordered further briefing on this issue,
which reveals that the question is not settled in that
Circuit. See In re South African Apartheid, 617 F.
Supp. 2d at 255 n.127; see also Docket no. 133 (Plaintiffs’ Filing of Supplemental Briefing in Presbyterian
Church of Sudan). After receiving (and presumably
reviewing) that briefing, the Second Circuit simply

Church of Sudan, 374 F. Supp. 2d at 335 (“The 2003 Opinion meticulously demonstrated that corporations may be held liable under international law for violations of jus cogens norms, citing
Second Circuit and other federal precedent, as well as a wide array of international law sources.”). The Court refers to Judge
Schwartz’s opinion as Presbyterian Church of Sudan I and Judge
Cote’s opinion as Presbyterian Church of Sudan II.

205
noted that Sosa specifically requires an inquiry into “
‘whether international law extends the scope of liability’ to corporations,” and assumed without deciding
that “corporations such as Talisman may be held liable for the violations of customary international law
that plaintiffs allege.” Presbyterian Church of Sudan,
582 F.3d at 261 n.12 (quoting Sosa, 542 U.S. at 732 n.
20). In addition, the Second Circuit again requested
briefing on this issue in a recent appeal of the South
African Apartheid decision. See Balintulo v. Daimler
AG, Case No. 09–2778–cv(L) (Dec. 4, 2009 order requesting further briefing). This Court therefore believes that, contrary to Plaintiffs’ assertions that this
issue is well-settled, corporate liability remains open
to scrutiny.
Accordingly, the Court wishes to undertake a critical examination of the legal arguments pro and con
regarding corporate liability under the Alien Tort
Statute. As noted supra, this discussion draws heavily
on the two key cases resolving the question in favor of
corporate liability (the Presbyterian Church of Sudan
and In re Agent Orange district court opinions). These
cases’ reasoning is contrasted with the only judicial
decision to the contrary, Judge Korman’s dissent in
Khulumani v. Barclay Nat. Bank Ltd., 504 F.3d 254,
321–26 (2d Cir. 2007). Having examined these and related authorities, the Court concludes that the existing cases have not adequately identified any international law norms governing corporations. Accordingly,
the Court concludes that corporations cannot be held
directly liable under the Alien Tort Statute for violating international law.

206
C. THE VARIOUS LINES OF REASONING
Simply put, the existing caselaw fails to provide
persuasive analysis of the question of corporate liability under international law. The courts have mainly
relied on the following lines of argument. The Court
examines the inadequacies of each argument, and
concludes that the existing cases fail to identify a universal, well-defined norm of corporate liability under
international law.
1. PRINCIPLE- AND
ARGUMENTS

LOGIC–BASED

One of the most prominent approaches to corporate liability rests on general principles of fairness
and logic. Courts have repeatedly justified corporate
liability on the ground that there is no reason why
corporations should not be liable for violating international law. See, e.g., Romero v. Drummond Co., Inc.,
552 F.3d 1303, 1315 (11th Cir. 2008) (“The text of the
Alien Tort Statute provides no express exception for
corporations.”); Khulumani v. Barclay Nat. Bank Ltd.,
504 F.3d 254, 282 (2d Cir. 2007) (Katzmann, J., concurring) (“the issue of whether corporations may be
held liable under the Alien Tort Statute is indistinguishable from the question of whether private individuals may be”); In re XE Services, 665 F. Supp. 2d
at 588 (“Nothing in the ATS or Sosa may plausibly be
read to distinguish between private individuals and
corporations.... [T]here is no identifiable principle
of civil liability which would distinguish between individual and corporate defendants in these circumstances.”) (emphasis added); Bowoto v. Chevron, 2006
WL 2455752, at *9 (“The dividing line for international law has traditionally fallen between states and
private actors. Once this line has been crossed and an

207
international norm has become sufficiently well established to reach private actors, there is very little reason to differentiate between corporations and individuals.”) (emphasis added); Presbyterian Church of Sudan II, 374 F. Supp. 2d at 336 n.10 (“there is no principled basis for contending that acts such as
genocide are of mutual and not merely several concern
to states when the acts are performed by some private
actors, like individuals, but not by other private actors, like corporations”) (emphasis added); In re Agent
Orange, 373 F. Supp. 2d at 58–59 (“Limiting civil liability to individuals while exonerating the corporation
directing the individual’s action through its complex
operations and changing personnel makes little
sense in today’s world.”) (emphasis added); Presbyterian Church of Sudan I, 244 F. Supp. 2d at 318
(“[T]here is no logical reason why corporations
should not be held liable, at least in cases of jus cogens
violations.”) (emphasis added).
The most thorough elaboration of this argument
appears in In re Agent Orange. Judge Weinstein explained:
Limiting civil liability to individuals while exonerating the corporation directing the individual’s action through its complex operations
and changing personnel makes little sense in
today’s world. Our vital private activities are
conducted primarily under corporate auspices, only corporations have the wherewithal to
respond to massive toxic tort suits, and changing personnel means that those individuals
who acted on behalf of the corporation and for
its profit are often gone or deceased before
they or the corporation can be brought to justice.... Defendants present no policy reason

208
why corporations should be uniquely exempt
from tort liability under the ATS, and no court
has presented one either.... Such a result
should hardly be surprising. A private corporation is a juridical person and has no per se
immunity under U.S. domestic or international law. Given that private individuals are
liable for violations of international law in certain circumstances, there is no logical reason
why corporations should not be held liable, at
least in cases of jus cogens violations.... Indeed, while [the defendant] disputes the fact
that corporations are capable of violating the
law of nations, it provides no logical argument
supporting its claim.
In re Agent Orange, 373 F. Supp. 2d at 58–59 (citations and quotations omitted).
This approach may be persuasive as a matter of
abstract reasoning, but it fails to comport with the Supreme Court’s directives in Sosa. Federal courts addressing claims under the Alien Tort Statute may only
recognize claims that “rest on a norm of international
character accepted by the civilized world and defined
with a specificity comparable to the features of the
18th-century paradigms we have recognized [that is,
piracy, safe-conduct violations, and infringements of
the rights of ambassadors].” Sosa, 542 U.S. at 725. As
the Sosa Court noted, “we now adhere to a conception
of limited judicial power ... that federal courts have no
authority to derive ‘general’ common law.” Id. at 729.
The Court emphasized that Alien Tort Statute claims
are not drawn from the ether but rather are “derived
from the law of nations.” Id. at 731 n.19. Thus, under
Sosa, federal judges may not rely on their own ideas
of what is right, fair, or logical. To paraphrase Justice

209
Scalia’s concurrence, although “we”—i.e., federal
judges—“know ourselves to be eminently reasonable,
self-awareness of eminent reasonableness is not really
a substitute for” universal and well-defined norms of
international law. Id. at 750 (Scalia, J., concurring).
Whatever the logical force of the domestic courts’ conclusions, Sosa simply prohibits that method of analysis. This Court therefore concurs with Judge Korman’s observation that “the issue here is not whether
policy considerations favor (or disfavor) corporate responsibility for violations of international law.” Khulumani, 504 F.3d at 325 (Korman, J., dissenting).63
Furthermore, the Court is not fully convinced that
reason and logic clearly compel the conclusion that
corporations should be liable under the Alien Tort
Statute. As noted by Judge Korman:
There is a significant basis for distinguishing
between personal and corporate liability.
Where the private actor is an individual, he is
held liable for acts which he has committed
and for which he bears moral responsibility.

It should be emphasized that Sosa requires the international
law norm to be well-defined and widely recognized. International
law may, as a general matter, allow jurists to apply basic principles of logic and reason. See, e.g., In re Piracy Jure Gentium,
[1934] A.C. 586, 595 (P.C.) (rejecting argument that actual robbery is a sine qua non of piracy, and noting with respect to this
argument that “their Lordships are almost tempted to say that a
little common sense is a valuable quality in the interpretation of
international law”). However, Sosa appears to bar domestic
courts from engaging in that mode of analysis. Under Sosa, applicable rules of international law must be derived from universally recognized, well-defined international-law sources, not federal judges’ particular notions of “common sense.”
63

210
On the other hand, “legal entities, as legal abstractions can neither think nor act as human
beings, and what is legally ascribed to them is
the resulting harm produced by individual
conduct performed in the name or for the benefit of those participating in them or sharing
in their benefits.”
Khulumani, 504 F.3d at 325 (Korman, J., dissenting)
(quoting M. Cherif Bassiouni, Crimes Against Humanity in International Criminal Law 378 (2d ed.
1999)). Ultimately, individuals, not legal entities,
perform the actions that violate international law.
Therefore, it stands to reason that the individuals
should be held responsible.
One of the central animating forces behind domestic courts’ conclusions is an aspirational view of what
the law should contain, not what the law actually
contains. However, Sosa prohibits courts from substituting abstract aspirations—or even pragmatic concerns—in place of specific international rules. See
Sosa, 542 U.S. at 738 (rejecting plaintiff’s argument
because it “expresses an aspiration that exceeds any
binding customary rule having the specificity we require.”). The real question is whether international
law actually provides for corporate liability.
2. STARE
MENTS

DECISIS–BASED

ARGU-

The second most prominent line of argument relies on the fact that domestic courts have consistently
upheld corporate liability under the Alien Tort Statute. For example, in Abdullahi v. Pfizer, the court
cited the per curiam decision in Khulumani for the
proposition that “we held that the ATS conferred ju-

211
risdiction over multinational corporations that purportedly” violated international law. Abdullahi v.
Pfizer, 562 F.3d 163, 174 (2d Cir. 2009), cert. denied,
130 S.Ct. 3541 (2010). The Abdullahi v. Pfizer court
accordingly treated the question as settled.64 District
courts in the Second Circuit have reached the same
conclusion. In re South African Apartheid, 617 F.
Supp. 2d at 254–55; Presbyterian Church of Sudan II,
374 F. Supp. 2d at 335 (noting that, after Presbyterian
Church of Sudan I, “the Second Circuit twice confronted ATS cases with corporate defendants, and neither time did it hold that corporations cannot be liable
under customary international law”); In re Agent Orange, 373 F. Supp. 2d at 58 (“The Second Circuit has
considered numerous cases where plaintiffs sued a
corporation under the ATCA for alleged breaches of
international law.”) (quotation omitted) (collecting
cases); Presbyterian Church of Sudan I, 244 F. Supp.
2d at 311–13 (“While the Second Circuit has not explicitly held that corporations are potentially liable for
violations of the law of nations, it has considered numerous cases ... where a plaintiff sued a corporation
under the ATCA for alleged breaches of international
law.... In each of these cases, the Second Circuit
acknowledged that corporations are potentially liable
for violations of the law of nations that ordinarily entail individual responsibility, including jus cogens violations.”) (collecting cases). Courts in other circuits
have adopted the same line of analysis. See Romero v.
Drummond Co., 552 F.3d 1303, 1315 (11th Cir. 2008)
(“[T]he law of this Circuit is that this statute grants

As noted supra, this question is decidedly not settled in the
Second Circuit. See Presbyterian Church of Sudan, 582 F.3d at
261 n.12.
64

212
jurisdiction from complaints of torture against corporate defendants.”); In re XE Services, 665 F. Supp. 2d
569, 588 (E.D. Va. 2009) (“all courts to have considered the question have concluded that” corporations
may be held liable under international law); In re
South African Apartheid, 617 F. Supp. 2d at 254–55
(“On at least nine separate occasions, the Second Circuit has addressed ATCA cases against corporations
without ever hinting—much less holding—that such
cases are barred.... [T]his Court is bound by the decisions of the Second Circuit.”); Bowoto v. Chevron, 2006
WL 2455752, at *9 (N.D. Cal. Aug. 22, 2006) (“Both
before and after Sosa, courts have concluded that corporations may be held liable under the ATS.”).
None of these cases identifies a universal and
well-defined standard of international law. In fact,
none of these cases quotes or cites an earlier case that
identifies a universal and well-defined standard of international law. Most of these cases refer to earlier
cases that did not even mention corporate liability.
Compare Romero v. Drummond Co., 552 F.3d at 1315
(citing Aldana v. Del Monte Fresh Produce, Inc., 416
F.3d 1242 (11th Cir. 2005), as binding circuit “precedent”) with Aldana v. Del Monte Fresh Produce, Inc.,
416 F.3d at 1244–53 (opinion is silent regarding corporate liability). This approach ignores the fundamental principle that “[q]uestions which merely lurk in
the record, neither brought to the attention of the
court nor ruled upon, are not to be considered as having been so decided as to constitute precedents.” Webster v. Fall, 266 U.S. 507, 511, 45 S.Ct. 148, 69 L.Ed.
411 (1925); see also E. & J. Gallo Winery v. EnCana
Corp., 503 F.3d 1027, 1046 n. 14 (9th Cir. 2007)
(same).

213
Accordingly, the Court affords little weight to the
fact that various domestic courts have contemplated
corporate liability (either explicitly or implicitly). Under Sosa, domestic precedents are only relevant to the
extent that they identify a well-defined international
law consensus.
3. EARLY HISTORICAL PRECEDENTS
As Sosa noted, piracy is one of the oldest and most
well-defined examples of international law. There is
some authority for the proposition that piracy can
only be committed by individuals, not legal entities.
As explained in Samuel Rutherford’s seventeenth century treatise Lex, Rex, which is quoted among the extensive citations in United States v. Smith, 18 U.S.
153 (1820):
A band of robbers or a company of pirates may
in fact be united to one another by compact, &
c. But they are still, by the law of nature, only
a number of unconnected individuals; and
consequently, in the view of the law of nations they are not considered as a collective body or public person. For the compact by which they unite themselves is void,
because the matter of it is unlawful, &c. &c.
The common benefit which a band of robbers
or a company of pirates propose to themselves
consists in doing harm to the rest of mankind.
Smith, 18 U.S. at 168–69 n.h quoting Rutherford, 2
Lex, Rex, ch. 9 (1644) (emphasis added). In other
words, a legal entity used for an illegal purpose is traditionally void in international law.
This same view is stated by Blackstone regarding
corporate crimes more generally. As Blackstone

214
wrote, “[a] corporation cannot commit treason, or felony, or other crime, in its corporate capacity: though
its members may, in their distinct individual capacities. Neither is it capable of suffering a traitor’s, or
felon’s punishment, for it is not liable to corporeal penalties, nor to attainder, forfeiture, or corruption of
blood.” Blackstone, 1 Commentaries, Ch. 18.
On the other hand, the early authorities do not
uniformly prohibit corporate liability. Notably, in the
early twentieth century the Attorney General of the
United States recommended that the Alien Tort Statute could be used to remedy harms caused by a corporation’s violation of a water-rights treaty between the
United States and Mexico. Charles J. Bonaparte, Mexican Boundary—Diversion of the Rio Grande, 26 Op.
Atty. Gen. 250 (1907). The attorney general stated
that the Alien Tort Statute provides both “a right of
action and a forum” for Mexican citizens to bring an
action against the corporation for the harm they may
have suffered from the diversion of the Rio Grande.
Id. at 252–53. The attorney general hedged a bit by
noting that he could not “undertake to say whether or
not a suit under ... the foregoing statute[ ] would be
successful,” as such questions “could only be determined by judicial decision.” Id. This opinion, although
somewhat ambiguous and certainly not binding on
this Court, provides at least some historical support
for the view that corporations may potentially be held
liable for violating international law.
4. NUREMBERG–BASED
DENTS

PRECE-

Another set of historical precedents is contained
in the decisions of the Nuremberg Tribunals, which
are generally viewed as the seminal authorities in
modern international criminal law.

215
The London Charter (the agreement through
which the Nuremberg Tribunals were formed and governed) explicitly recognized the existence of “criminal
organizations.” The Charter specifically provided that
the Tribunal was empowered to declare certain organizations to be “criminal organization[s].” London
Charter, Art. 9. The effect of this declaration was not
to impose liability upon the organization itself; rather,
the declaration, if unrebutted before the Tribunal, imposed automatic liability on the organization’s individual members. See Art. 9–10.65 (Notably, Karl
Rasche-the banker in “The Ministries Case”—was
found guilty of being a member of the SS, which had

65

In full, Article 9 reads:
At the trial of any individual member of any group or organization the Tribunal may declare (in connection with any act
of which the individual may be convicted) that the group or
organization of which the individual was a member was a
criminal organization.
After the receipt of the Indictment the Tribunal shall give
such notice as it thinks fit that the prosecution intends to ask
the Tribunal to make such declaration and any member of
the organization will be entitled to apply to the Tribunal for
leave to be heard by the Tribunal upon the question of the
criminal character of the organization. The Tribunal shall
have power to allow or reject the application. If the application is allowed, the Tribunal may direct in what manner the
applicants shall be represented and heard.

Article 10 reads:
In cases where a group or organization is declared criminal
by the Tribunal, the competent national authority of any Signatory shall have the right to bring individual to trial for
membership therein before national, military or occupation
courts. In any such case the criminal nature of the group or
organization is considered proved and shall not be questioned.

216
been deemed a “criminal organization” pursuant to
this provision. United States v. Von Weizsaecker, 14
T.W.C. at 863.)
Some courts have viewed this “criminal organization” provision as an example of corporate liability.
See Presbyterian Church of Sudan I, 244 F. Supp. 2d
at 315. The better view—expressed by the Nuremberg
Tribunal itself—is that the “criminal organization”
provision was a mechanism for holding individual
members of the organization liable for other members’
acts in the same manner that joint criminal enterprise
or conspiracy provides for such individual liability.
See The Nuremberg Trial, 6 F.R.D. 69, 132 (1946) (“A
criminal organization is analogous to a criminal conspiracy in that the essence of both is cooperation for
criminal purposes. There must be a group bound together and organized for a common purpose. The
group must be formed or used in connection with the
commission of crimes denounced by the Charter.”); see
generally Prosecutor v. Vasiljevic, 2004 WL 2781932,
at ¶ 102 (describing differences between aiding and
abetting liability and joint criminal enterprise liability). The London Charter did not provide for entity responsibility as such; rather, it only authorized the Tribunals to convict those person who “as individuals or
as members of organizations, committed” certain
crimes. London Charter, art. 6 (emphasis added). In
other words, the Charter recognized that some individuals were acting “as members of organizations,”
but determined that the individual members, rather
than the organizations themselves, were the proper
defendants. In short, the Tribunal was only authorized to establish “individual responsibility,” art. 6, and
simply could not punish organizations. See United
States v. Krauch, 8 T.W.C. at 1153 (“It is appropriate
here to mention that the corporate defendant, Farben,

217
is not before the bar of this Tribunal and cannot be
subjected to criminal penalties in these proceedings.”);
see generally Khulumani, 504 F.3d at 322 & n.10 (Korman, J., dissenting).
That said, the Tribunals occasionally suggested
that corporations and organizations could be held separately responsible. Domestic courts have relied heavily on these statements from the Tribunals. See In re
Agent Orange, 373 F. Supp. 2d at 57; Presbyterian
Church of Sudan I, 244 F. Supp. 2d at 315–16. The
Tribunals’ clearest discussion of corporations appears
in the United States v. Krauch decision, in which the
panel explicitly suggested that corporations may be liable for certain war crimes relating to wartime plunder (or “spoliation,” in the terms used by the tribunal):
Where private individuals, including juristic persons, proceed to exploit the military
occupancy by acquiring private property
against the will and consent of the former
owner, such action, not being expressly justified by any applicable provision of the Hague
Regulations, is in violation of international
law. The payment of a price or other adequate
consideration does not, under such circumstances, relieve the act of its unlawful character. Similarly where a private individual or a
juristic person becomes a party to unlawful
confiscation of public or private property by
planning and executing a well-defined design
to acquire such property permanently, acquisition under such circumstances subsequent
to the confiscation constitutes conduct in violation of the Hague Regulations.
Krauch, 8 T.W.C. at 1132–33 (emphasis added).

218
The tribunal went on to explain, however, that the
corporation could not be held responsible for violating
international law: “corporations act through individuals and, under the conception of personal individual guilt ..., the prosecution, to discharge the burden imposed upon it in this case, must establish by
competent proof ... that an individual defendant
was either a participant in the illegal act or that, being aware thereof, he authorized or approved it.”
Krauch, 8 T.W.C. at 1153 (emphasis added).66 The tribunal explained that its discussion of “corporations”
and “juristic persons” was mere obiter dictum that
was “descriptive of the instrumentality of cohesion in
the name of which the enumerated acts of spoliation
were committed.” See id. In other words, the tribunal’s
references to the company were placeholders meant as
shorthand for the individual members of the company.
The tribunal’s references to the company were not
substantive discussions regarding legal responsibility. Accord In re Agent Orange, 373 F. Supp. 2d at 57
(“In fact, in the Nuremberg trials, this point of lack of
corporate liability appeared to have been explicitly
stated.”).

In an oft-quoted statement, one of the post-Nuremberg tribunals expressed in strong, clear terms that only individuals were
capable of being punished for violating international law:
“Crimes against international law are committed by men, not by
abstract entities, and only by punishing individuals who commit
such crimes can the provisions of international law be enforced.”
The Nuremberg Trial, 6 F.R.D. 69, 110 (1946). The context of that
discussion, however, reveals that the tribunal was rejecting the
argument that international law applies only to sovereign
states. See id.; see also Krauch, 8 T.W.C. at 1125. The tribunal
was not referring specifically to questions of corporate liability.
66

219
An illustration of the tribunals’ “shorthand” approach can be found in United States v. Krupp. The
tribunal concluded “that the confiscation of the Austin
plant [a French tractor plant owned by the Rothschilds] ... and its subsequent detention by the
Krupp firm constitute a violation of Article 43 of the
Hague Regulations which requires that the laws in
force in an occupied country be respected; that it was
also a violation of Article 46 of the Hague Regulations
which provides that private property must be respected; [and] that the Krupp firm, through defendants Krupp, Loeser, Houdremont, Mueller,
Janssen, and Eberhardt, voluntarily and without
duress participated in these violations by purchasing
and removing the machinery and leasing the property
of the Austin plant and in leasing the Paris property.”
Krupp, 9 T.W.C. at 1352–53 (emphasis added). In
light of this factual conclusion, the tribunal held the
individual defendants—not the corporation itself—responsible for the wrongful acts. Id. at 1448–49; see
also Khulumani, 504 F.3d at 322 (Korman, J., dissenting) (noting similar discussion in United States v.
Krauch, 7 T.W.C. at 11–14, 39, 50, 59).
Based on these cases, the fundamental conclusion
is that the Nuremberg-era tribunals did not impose
any form of liability on corporations or organizations
as such. Rather, these tribunals were imposing liability solely on the individuals members of the corporations and organizations. The tribunals repeatedly
noted this fact, and their stray references to the contrary constitute nothing more than dicta. The courts
that have relied on this dicta have failed to identify a
sufficiently universal and well-defined international
law norm of corporate liability that satisfies Sosa. See
Khulumani, 504 F.3d at 321–22 (Korman, J., dissenting).

220
5. TREATY- AND CONVENTION–BASED
PRECEDENTS
With few exceptions, international treaties bind
sovereign states rather than private parties. See generally Presbyterian Church of Sudan I, 244 F. Supp.
2d at 317 (“Treaties, by definition, are concluded between states.”); see also Edye v. Robertson (Head
Money Cases), 112 U.S. 580, 598, 5 S.Ct. 247, 28 L.Ed.
798 (1884) (“A treaty is primarily a compact between
independent nations.”). In fact, the “major conventions protecting basic human rights, such as the Genocide Convention and common article 3 of the Geneva
Convention, do not explicitly reach corporations.”
Presbyterian Church of Sudan, 244 F. Supp. 2d at 317.
Instead, human rights conventions and treaties bind
states or, on occasion, natural persons. For example,
treaties bind nations by requiring them to enact domestic legislation outlawing slavery or the slave
trade, see 1926 Geneva Slavery Convention, arts. 2(b),
6; requiring nations to outlaw forced labor and other
wrongful labor practices, see, e.g., Convention Concerning Forced or Compulsory Labor, ILO no. 29, arts.
25–26, 39 U.N.T.S. 55, entered into force May 1, 1932;
or requiring nations to outlaw illegal shipments of
hazardous wastes, see, e.g., Basel Convention on the
Control of Transboundary Movements of Hazardous
Wastes and Their Disposal, Arts. 4(2), 4(4), 4(7), 9(5),
1673 U.N.T.S. 57. Of course, domestic laws that implement these treaties might be enforceable against
corporations; but this results from the operation of the
domestic implementing law, not international treaty
law. The treaties themselves are silent regarding corporate liability.

221
Despite these general principles of treaty law, the
district court in Presbyterian Church of Sudan identified a handful of treaties that explicitly contemplate
corporate liability. See generally Presbyterian Church
of Sudan, 244 F. Supp. 2d at 317. An oil pollution
treaty provides that a ship “owner” (defined as any
“person” registered as the owner) is liable for oil pollution damage caused by the ship’s discharge. Id. at
317 (citing International Convention on Civil Liability
for Oil Pollution Damage, Nov. 29, 1969, art. 3(1), 26
U.S.T. 765, 973 U.N.T.S. 3). Similarly, a nuclear
treaty provides that “[t]he operator of a nuclear installation” is liable for damage caused by the installation;
notably, the treaty specifically defines “operator” as
“any private or public body whether corporate or not.”
Id. (citing Vienna Convention on Civil Liability for
Nuclear Damage, May 21, 1963, art. 2(1), 1063
U.N.T.S. 265). The 1976 Convention on Civil Liability
for Oil Pollution Damage Resulting from Exploration
for and Exploitation of Seabed Mineral Resources contains an identical extension of liability to any person
“whether corporate or not.” Dec. 17, 1976, art. 5, reprinted at 16 I.L.M. 1450 (cited in Presbyterian
Church of Sudan I, 244 F. Supp. 2d at 317).
These treaties provide marginal authority at best
with respect to the relevant inquiry under Sosa of
identifying a universal and well-defined international
consensus regarding corporate liability for human
rights violations. These treaties involve transnational
environmental torts such as oil spills and nuclear accidents. See Steven R. Ratner, Corporations and Human Rights: A Theory of Legal Responsibility, 111
Yale L.J. 443, 479–81 (2001). The international community has a direct interest in regulating these forms
of private behavior, as the harms that flow from these
torts extend beyond the national borders of the situs

222
of the act. See id. In fact, many scholars view these
treaties as constituting rules of private law rather
than public international law. Id. at 481 & nn.152–54.
In any event, regardless of how these treaties are
characterized, they fail to identify a universal and
well-defined international law standard for holding
corporations responsible for human rights abuses.
In addition to the specific environmental tort treaties, domestic courts have also pointed to other international conventions and international rule-making
as indirect evidence of corporate liability. See Presbyterian Church of Sudan I, 244 F. Supp. 2d at 318. The
Presbyterian Church of Sudan court relied on the declaration of Professor Ralph G. Steinhardt for the proposition that the major human rights treaties “do not
distinguish between natural and juridical individuals,
and it is implausible that international law would protect a corporation” that violated fundamental norms
of international law. Id. The Presbyterian Church of
Sudan I court also looked to labor treaties—none of
which actually state that they apply to corporations—
which, in the court’s words, “clearly ‘presuppose[ ] ... a
duty on the corporation not to interfere with the ability of employees to form unions.’” Id. at 317 (quoting
Ratner, Corporations and Human Rights, 111 Yale
L.J. at 478–79). In light of Sosa, it should be clear that
Sosa’ s requirements are not satisfied by the possibility of corporate liability, id. at 316 (“corporations may
be liable under codified international law”) (emphasis
added), or by one professor’s suggestion as to what is
or is not plausible, id. (“it is implausible that international law would protect a corporation”) (emphasis
added), or by yet another professor’s conclusion that
labor treaties implicitly presuppose corporate liabil-

223
ity, id. at 317 (“a major International Labour Organization convention clearly ‘presupposes ... a duty on
the corporation’ ”) (emphasis added).
The Presbyterian Church of Sudan I court also relied on the Universal Declaration of Human Rights,
which the court asserted was “binding on states as
well as corporations.” Id. at 318. The Universal Declaration provides that “every individual and every organ
of society” shall “strive ... to promote respect” for the
fundamental human rights described in the Convention. Notably, the Sosa Court expressly rejected the
plaintiff’s reliance on the Universal Declaration of
Human Rights because “the Declaration does not of its
own force impose obligations as a matter of international law,” but rather is “‘a statement of principles’”
that are non-binding in nature. Sosa, 542 U.S. at 734–
35 (quoting Eleanor Roosevelt, cited in Humphrey,
The UN Charter and the Universal Declaration of Human Rights 39, 50 (E. Luard ed. 1967)). In any event,
even if the Universal Declaration were a binding
statement of international law, it is unclear that it actually applies to corporations. The Presbyterian
Church of Sudan I court relied on a short essay written by the prominent international law professor
Louis Henkin, which explains that “every individual
and every organ of society” as used in the Universal
Declaration “includes juridical persons. Every individual and every organ of society excludes no one, no company, no market, no cyberspace. The Universal Declaration applies to them all.” Louis Henkin, The Universal Declaration at 50 and the Challenge of Global Markets, 25 Brook. J. Int’l L. 17, 25 (1999) (quoted in
Presbyterian Church of Sudan I, 244 F. Supp. 2d at
318). But notably absent from the Presbyterian
Church of Sudan I’s discussion is the opening sentence of that paragraph of Henkin’s essay: “At this

224
juncture the Universal Declaration may also address
multinational companies.” Henkin, The Universal
Declaration at 50, 25 Brook. J. Int’l L. at 25 (emphasis
added). Needless to say, the mere possibility of corporate liability is different from a well-defined international consensus on the issue. See Khulumani, 504
F.3d at 324 (Korman, J., dissenting) (citing Carlos M.
Vázquez, Direct v. Indirect Obligations of Corporations Under International Law, 43 Colum. J. Transnat’l L. 927, 942 (2005)). The Universal Declaration of
Human Rights therefore stands among the other aspirational international attempts at identifying and
defining corporate liability for human rights violations.67 As the Supreme Court wrote in Sosa, “that a
rule as stated is as far from full realization as the one

For example, the United Nations Code of Conduct on Transnational Corporations has been through a pair of drafts (one in 1983
and another in 1990), but has never been formally adopted by
any nation. Similar efforts have likewise resulted in purely aspirational, theoretical documents that are non-binding and in no
way reflective of international law. See Development and International Economic Cooperation: Transnational Corporations,
U.N. ESCOR, 2d Sess., U.N. Doc. E/1990/94 (1990); Draft United
Nations Code of Conduct on Transnational Corporations, U.N.
ESCOR, Spec. Sess., Supp. No. 7, Annex II, U.N. Doc.
E/1983/17/Rev. 1 (1983); see also U.N. Econ. & Soc. Council
(ECOSOC), Sub-Comm’n on Promotion & Prot. of Human Rights,
Norms on the Responsibilities of Transnational Corporations
and Other Business Enterprises with Regard to Human Rights,
U.N. Doc. E/CN.4/Sub.2/2003/L.8 (Aug. 7, 2003); cf. Report of the
Special Representative of the Secretary–General on the Issue of
Human Rights and Transnational Corporations and Other Business Enterprises, Business and Human Rights: Mapping International Standards of Responsibility and Accountability for Corporate Acts, UN Doc. A/HRC/4/35, ¶ 20 (Feb. 19, 2007).
67

225
[plaintiff] urges is evidence against its status as binding law.” Sosa, 542 U.S. at 738 n.29 (emphasis added).
As a final source of international law, the Presbyterian Church of Sudan I court also relied on the
United Nations’ practice of imposing economic sanctions, which although “formally directed at states,
they also entail certain duties for corporations.” Presbyterian Church of Sudan I, 244 F. Supp. 2d at 318.
None of the sanctions were directly applied to corporations, though; if a corporate act violated the sanctions, the state of the corporation’s citizenship would
be held responsible for violating the sanctions. Id. The
court also pointed to United Nations General Assembly Resolutions, which by their very nature are nonbinding. See Flores v. Southern Peru Copper Corp.,
414 F.3d 233, 259–62 (2d Cir. 2003). In addition, the
court relied on the practice of the European Union,
which, under the 1957 Treaty of Rome (which established the Union) and subsequent treaties, has implemented regulations directly against corporations in
areas such as antitrust and socioeconomic discrimination. Presbyterian Church of Sudan I, 244 F. Supp. 2d
at 318.
In short, courts have identified various treaties,
conventions, and international proclamations as support for the view that international law recognizes corporate liability. However, none of these international
law sources provides a well-defined universal consensus regarding corporate liability. These authorities,
without more, fail to satisfy Sosa’s requirements.
On the contrary, treaty-based international law
provides a rather compelling (although not definitive)
argument against treating corporate liability as an
actionable rule of international law. The drafting history of the 1998 Rome Statute of the International

226
Criminal Court reveals that the global community of
nation-states in fact lacks a consensus regarding corporate liability for human rights violations. See Khulumani, 504 F.3d at 322–23 (Korman, J., dissenting).
Thus, not only have the supporters of corporate liability failed to meet their affirmative burden of identifying well-defined, universally acknowledged international norms of corporate liability, but the opponents of corporate liability have affirmatively shown
that such a well-defined global consensus does not
exist. “Since as a practical matter it is never easy to
prove a negative,” Bartnicki v. Vopper, 532 U.S. 514,
552, 121 S.Ct. 1753, 1775 (2001) (quoting Elkins v.
United States, 364 U.S. 206, 218, 80 S.Ct. 1437, 1445
(1960)), the Rome Statute negotiating history provides particularly compelling evidence that there is
not a global consensus of corporate responsibility for
human rights violations under international law.
The negotiating history of Rome Statute shows
that the global community has been unable to reach a
consensus regarding corporate responsibility for international human rights violations. Although the initial drafts of the Statute provided for corporate liability, this provision was specifically deleted from the
final version. See 2 United Nations Diplomatic Conference of Plenipotentiaries on the Establishment of an
International Criminal Court, Rome, 15 June—17
July 1998, at 135 (2002). There were a number of reasons for deleting the provision,68 and the most promi-

In full, the chairman summarized negotiations as centering on
these questions: “Many delegations had difficulty in accepting
any reference to ‘legal persons’ or ‘criminal organizations’, the
68

227
nent reason was the absence of international uniformity regarding “acceptable definitions” of corporate
liability. Delegates from China, Lebanon, Sweden,
Mexico, Thailand, Syria, Greece, Egypt, Poland, Slovenia, El Salvador, Yemen, and Iran firmly opposed
the inclusion of corporate liability. Delegates from
Australia, Ukraine, Cuba, Argentina, Singapore, Venezuela, Algeria, the United States, Denmark, Finland,
Portugal, and Korea expressed hesitation on account
of the disparity in practice among states. Id. at ¶¶ 35–
39, 43–48, 51, 53–65. One of the central points of concern involved the lack of a clear definition among
states (and indeed, the absence of corporate criminal
liability in many states). See id.69 As a result, the

reasons given being the problem of implementation in domestic
law, the difficulty of finding acceptable definitions, the implications for the complementarity principle, the possible creation of
new obligations for States, and the challenge to what was considered the exclusive focus of the Statute, namely individual criminal responsibility.” Id. at 135.
The negotiating history of the Rome Statute is further supported by specific evidence of legal practice among foreign nations. There is a wide variety of forms of corporate liability within
domestic legal systems. Some countries do not even recognize
corporations as being capable of committing crimes. See, e.g.,
Hans de Doelder & Klaus Tiedemann, eds., Criminal Liability of
Corporations 343 (1996) (Russia only recognizes natural persons
as capable of committing crimes). Even the countries that recognize corporate criminal liability are divided on the appropriate
rules of attributing conduct and culpability to the corporate entity. See id. at 104–05, 186–87, 131, 372, 398 (standards include
attribution through the acts of control persons [Australia, United
Kingdom], the acts of any agent [United States, Finland], or
other formulations of liability [Canada, Netherlands]). This di69

228
Rome Statute only applies to “natural persons.” Rome
Statute, art. 25(1).
The Rome Statute’s negotiating history therefore
reveals that corporate liability fails to satisfy either of
Sosa’ s two key requirements—that the norm must be
based on clearly defined and universally recognized
international law. As noted in Sosa, “we now tend to
understand common law not as a discoverable reflection of universal reason but, in a positivistic way, as a
product of human choice.” Sosa, 542 U.S. at 729. The
positivistic approach leads to a clear conclusion: there
has not been a clear “human choice” to impose liability
on corporations for violating international norms. Indeed, to the extent that there has been a choice, the
governments drafting the Rome Statute chose not to
extend liability to corporations.
Of course, the Court does not intend to suggest
that the Rome Statute is the sole authority for construing international law norms under Sosa. See, e.g.,
Abagninin, 545 F.3d at 738–40 (rejecting plaintiffs’ reliance on Rome Statute with respect to genocide because Rome Statute’s definition of genocide conflicted
with definition that was uniformly adopted by other
authorities). Nor does the negotiating history of the
Rome Statute provide a definitive international rejection of corporate liability in international law. A fair

vergence in opinion is not merely a disagreement on the procedural aspects of criminal punishment. It reflects a fundamental
disagreement on the legal capacity of corporations to commit particular acts and the substantive rules of attributing an agent’s
conduct to the principal. Given this widespread disagreement, it
seems clear that the relevant norms are not sufficiently well-defined among foreign nations to satisfy the requirements of Sosa.

229
amount of the delegates’ opposition to corporate liability arose from the eleventh-hour nature of the proposal to include corporate liability. See generally 2
United Nations Diplomatic Conference on the Establishment of an International Criminal Court, Rome,
15 June—17 July 1998, at 133–36. In addition, others
were concerned with the idea of imposing corporate
criminal responsibility, but were silent regarding the
possibility of corporate civil responsibility. Id. As international-crimes expert Professor Bassiouni has
emphasized, it is important to distinguish the substantive elements of international law from the
sometimes-idiosyncratic procedural systems that are
used to enforce those substantive rules. M. Cherif
Bassiouni, 1 International Criminal Law 5, 7–8
(2008). It is important not to place too much weight on
the Rome Statute, which defined certain crimes and
created certain enforcement mechanisms, but was not
intended to serve as an encyclopedic restatement of
the full body of international law. The negotiating history must therefore be viewed as persuasive rather
than conclusive authority for purposes of the Alien
Tort Statute.
In the end, though, international treaties and conventions reveal an absence of international human
rights norms governing corporate conduct. As noted
by the United Nations Special Representative of the
Secretary–General, “states have been unwilling to
adopt binding international human rights standards
for corporations.” Representative of the Secretary–
General, Business and Human Rights: Mapping International Standards of Responsibility and Accountability for Corporate Acts, at ¶ 44 (2007). Instead, the
only pertinent authorities are “soft law standards and
initiatives.” Id. Such non-binding, aspirational norms
are insufficient under Sosa.

230
6. INTERNATIONAL PRACTICE
Another line of reasoning was set forth in Judge
Cote’s decision in Presbyterian Church of Sudan II,
which re-affirmed Judge Schwartz’s prior decision
and, in light of the intervening Supreme Court decision in Sosa, supplemented Judge Schwartz’s reasoning.
In re-assessing the applicability of Alien Tort
Statute to corporations in light of Sosa, the Presbyterian Church of Sudan II court relied heavily on the fact
that no country had ever objected to domestic courts’
exercise of jurisdiction over corporations under the Alien Tort Statute. The court stated that “[o]ne of the
clearest means for determining the content of a rule
of customary international law is to examine situations where a governmental institution asserts a
claim purportedly based on the customary rule, and to
consider, as part of state practice, whether States with
competing interests object.” Presbyterian Church of
Sudan II, 374 F. Supp. 2d at 336. This proposition is
drawn from the general rule that there is “only [one]
way that customary international law can change—by
one state’s violating the old norm and other states’ acquiescing in the violation.” Phillip R. Trimble, The Supreme Court and International Law, 89 Am. J. Int’l L.
53, 55 (1995). However, this general rule presupposes
that a customary international law norm exists in the
first instance—i.e., that there is an “old norm” governing state behavior. Objections become relevant only
after that “old norm” exists; once the rule is established, the rule may be altered when other states deviate and no objections are lodged. This is the approach stated in the Restatement, which explains that
state practice is evidence of customary international
law only “where there is broad acceptance and no

231
or little objection” by other states. Restatement (Third)
of Foreign Relations Law, § 102 n.2 (emphasis added).
In other words, objections are only relevant if states
have already accepted a particular norm as constituting binding international law.
The Presbyterian Church of Sudan II court concluded that it was highly relevant that foreign governments acquiesced in the domestic courts’ exercise of
Alien Tort Statute jurisdiction over those governments’ corporations. Presbyterian Church of Sudan II,
374 F. Supp. 2d at 337. The court explained that those
governments presumably would have objected if domestic courts were incorrectly applying international
law against corporate defendants. Id. As the court explained: “Talisman has not cited a single case where
any government objected to the exercise of jurisdiction
over one of its national corporations based on the principle that it is not a violation of international law for
corporations to commit or aid in the commission of
genocide or other similar atrocities. If this issue was a
genuine source of disagreement in the international
community, it would be expected that the assertion of
such a rule as customary would provoke objections
from States whose interests were implicated by the
assertion of the rule in those cases against their nationals.” Id.
The Court recognizes that the Presbyterian
Church of Sudan II court’s analysis would be correct
if in fact there was, as that court suggested, “compelling evidence of state practice” holding corporations
responsible for international human rights violations.
Id. However, the Court disagrees with the premise
that there is “compelling evidence” of an international
consensus regarding corporate liability. See generally
supra. Absent any “old norm” of corporate liability, see

232
Trimble, 89 Am. J. Int’l L. at 55, that has achieved
“broad acceptance” among the international community, see Restatement, § 102 n. 2, the Court disagrees
with the Presbyterian Church of Sudan II court’s reliance on the absence of objections from foreign governments. Mere silence and acquiescence does not provide probative evidence of a well-defined universal
norm of international law.
7. SUMMARY OF DOMESTIC COURTS’
REASONING
Above all, domestic courts have been guided by a
single erroneous assumption: that the burden is on
corporations to show that international law does
not recognize corporate liability. See, e.g., In re Agent
Orange, 373 F. Supp. 2d at 59 (“Defendants present
no policy reason why corporations should be uniquely
exempt from tort liability under the ATS, and no court
has presented one either.”) (quotations omitted); Presbyterian Church of Sudan I, 244 F. Supp. 2d at 319
(“while Talisman disputes the fact that corporations
are capable of violating the law of nations, it provides
no logical argument supporting its claim.”). Instead,
this Court believes that Sosa requires courts to undertake the opposite analysis: the plaintiffs must bear
the burden to show that international law does recognize corporate liability. As the Supreme Court emphasized, “federal courts should not recognize private
claims under federal common law for violations of any
international law norm with less definite content and
acceptance among civilized nations than the historical
paradigms familiar when § 1350 was enacted.” Sosa,
542 U.S. at 732. Plaintiffs seeking to identify a cause
of action under international law bear the burden of
persuading the Court that international law contains

233
a norm with sufficiently “definite content and acceptance among civilized nations.” Id. If the Court is
not persuaded that international law satisfies this
standard, then the plaintiff’s claim must fail. This
burden-shifting approach is consistent with the general rule that plaintiffs bear the burden of proving the
elements of their claims. See generally Schaffer ex rel.
Schaffer v. Weast, 546 U.S. 49, 56–57 (2005) (collecting cases). Furthermore, this is the burden-shifting
approach applied by Sosa itself: because the plaintiff
Alvarez–Machain had not shown that he suffered an
injury in violation of international law, his claims
failed. See Sosa, 542 U.S. at 736 (“Alvarez cites little
authority that a rule so broad has the status of a binding customary norm today”), 737 (“Alvarez’s failure to
marshal support for his proposed rule is underscored
by the Restatement (Third) of Foreign Relations Law
of the United States” ), 738 (“Whatever may be said for
the broad principle Alvarez advances, in the present,
imperfect world, it expresses an aspiration that exceeds any binding customary rule having the specificity we require.”).
In other words, international law must contain
rules establishing corporate liability. This Court
therefore disagrees with the other courts that have inverted this legal standard and examined whether international law contains rules establishing corporate
immunity. See Romero v. Drummond Co., Inc., 552
F.3d at 1315 (“The text of the Alien Tort Statute provides no express exception for corporations.”) (emphasis added); In re Agent Orange, 373 F. Supp. 2d at
59 (“Defendants present no policy reason why corporations should be uniquely exempt from tort liability under the ATS, and no court has presented one either.”); Presbyterian Church of Sudan I, 244 F. Supp.

234
2d at 319 (“A private corporation ... has no per se immunity under U.S. domestic or international law.”)
(emphasis added); see also In re South African Apartheid, 617 F. Supp. 2d at 255 n.127 (noting that Second
Circuit could potentially “determine that corporations
are immune from liability under customary international law”) (emphasis added). These courts start
from the erroneous premise that international law
norms do apply to corporations, and then search for
significant international precedents that reject corporate liability. However, as demonstrated supra, no
court has yet identified a sufficiently well-defined and
universally recognized international law norm establishing corporate liability in the first place. In this
Court’s view, the Supreme Court’s guidance in Sosa
requires that, at present, corporations may not be held
liable under international law in an Alien Tort Statute action.
8. THIS COURT’S CONCLUSION
Having examined the legal arguments pro and con
regarding corporate liability for international human
rights violations, the Court concludes that corporations as such may not presently be sued under Sosa
and the Alien Tort Statute. There is no support in the
relevant sources of international law for the proposition that corporations are legally responsible for international law violations. International law is silent on
this question: no relevant treaties, international practice, or international caselaw provide for corporate liability. Instead, all of the available international law
materials apply only to states or natural persons.
Sosa’ s minimum standards of definiteness and consensus have not been satisfied. It is impossible for a
rule of international law to be universal and well-defined if it does not appear in anything other than a

235
handful of law review articles. Judicial diktat cannot
change the basic fact that international law does not
recognize corporate liability.
To the extent that corporations should be liable for
violating international law, that is a matter best left
for Congress to decide. See Sosa, 542 U.S. at 728 (“We
have no congressional mandate to seek out and define
new and debatable violations of the law of nations,
and modern indications of congressional understanding of the judicial role in the field have not affirmatively encouraged greater judicial creativity.”). However, to the extent that Congress has ever addressed
the question of corporate liability for violating international law, it has explicitly refrained from extending liability beyond natural persons under the Torture
Victim Protection Act. See supra Part VIII.B. Accordingly, the Court concludes that corporations as such
may not be sued under the Alien Tort Statute. Corporate agents—i.e., natural persons—are subject to civil
actions, but corporations themselves are not. Based on
the authorities identified by the parties and by other
courts, the Court concludes that corporations may not
be sued under the Alien Tort Statute.70

The Court is aware of potential arguments premised on the
existence of generally recognized principles of corporate liability
and/or principal-agent liability under domestic bodies of law. See,
e.g., Supp. Brief of Plaintiffs–Appellants/Cross–Appellees, Sarei
v. Rio Tinto, PLC, 2010 WL 804413, at *53 (9th Cir. Jan. 22,
2010); Brief of Amicus Curiae Earthrights International in Support of Plaintiffs–Appellants, Presbyterian Church of Sudan, No.
07–0016, 2007 WL 7073749, at *18–19 & nn. 5–7 (2d Cir. Mar. 9,
2007). The Court notes that international law sometimes looks
to “general principles common to the major legal systems of the
70

236

world” that operate “interstitially” to fill gaps in international
law “when there has not been practice by states sufficient to give
the particular principle status as customary law and the principle has not been legislated by general international agreement.”
Restatement (Third) of Foreign Relations, § 102(1)(c) & cmt. l.
However, the Court also notes that international law does not
address “[m]atters of ‘several’ concern among States”—that is,
“matters in which States are separately and independently
interested.” Flores, 414 F.3d at 249 (emphasis added). Accordingly, while theft and murder (for example) are prohibited
around the world, these rules do not constitute customary international law because the “nations of the world have not demonstrated that this wrong is of mutual, and not merely several, concern.” Id. (quotations omitted).
Furthermore, even if litigants attempted to identify general
international norms that might form the building blocks of corporate liability, the Court disagrees with the premise that Sosa
allows federal courts to build a new rule of international law by
combining separate and distinct rules. So even if a court were to
conclude that the “general principles” of law recognize corporations as legal persons, see, e.g., Case Concerning The Barcelona
Traction, Light & Power Co., 1970 I.C.J. 3, and were further to
conclude that the “general principles” of law incorporate general
principles of agency responsibility, see, e.g., Blackstone, 1 Commentaries, ch. 14; Vienna Convention on the Law of Treaties, art.
7, May 23, 1969, 1155 U.N.T.S. 331; International Law Commission, Draft Articles of State Responsibility, arts. 4, 5, 7, 8, 11; but
see Convention on the Law Applicable to Agency, Mar. 14, 1978
(only four countries have adopted international treaty regarding
agency law), the Court would be inclined to conclude that Sosa
requires plaintiffs to identify well-defined rules of law that have
already achieved clear recognition by a wide consensus of states
in the exact form in which they are being applied under the Alien
Tort Statute. Under Sosa, proponents of corporate liability are
faced with the steep hurdle of showing that not only that general
principles of agency liability exist, but that these principles are
well-defined and well-established in the corporate context.
Absent such a showing, domestic courts simply cannot conclude

237
D. SUMMARY OF CORPORATE LIABILITY
Having thoroughly considered the question of corporate liability under the Alien Tort Statute, the
Court concludes that the existing authorities fail to
show that corporate liability is sufficiently well-defined and universal to satisfy Sosa.
XI. CONCLUSION
In light of the foregoing analysis, the Court
GRANTS Defendants’ Motion to Dismiss. To the extent that the Court has not addressed any the parties’
remaining arguments, the Court’s analysis has rendered those issues moot.
Given Plaintiffs’ representations in its briefing
and at oral argument, it appears that further amendment of the Complaint would be futile. Plaintiffs have
already amended the Complaint in order to provide
additional factual details, and they have not suggested to the Court that they left out any material
facts. It appears to the Court that Plaintiffs hold a
very different view of the legal principles discussed in
this Order. If that is the case, Plaintiffs would be welladvised to consider filing an appeal rather than filing
an amended complaint. However, because the Ninth
Circuit has articulated a strong policy in favor of permitting complaints to be amended, e.g., Eminence
Capital, LLC v. Aspeon, Inc., 316 F.3d 1048, 1051–52
(9th Cir. 2003), the Court will provide Plaintiffs another opportunity to amend their Complaint.
Accordingly, Defendants’ Motion to Dismiss is
GRANTED with leave to amend. If Plaintiffs elect to

that rules of corporate agency attribution are clearly defined and
universally agreed-upon.

238
file an amended complaint, they shall do so no later
than September 20, 2010. If Plaintiffs fail to file an
amended complaint at that time, Defendants shall
submit a proposed final judgment no later than September 22, 2010.
IT IS SO ORDERED.

239
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
No. 10-56739
_______________
John Doe I; John Doe II; John Doe III,
individually and on behalf of proposed class
members; Global Exchange,
Plaintiffs-Appellants,
v.
Nestle USA, Inc.; Archer Daniels Midland Company;
Cargill Incorporated Company; Cargill Cocoa
Defendants-Appellees.
_______________
Appeal from the United States District Court
for the Central District of California
Stephen V. Wilson, District Judge, Presiding
(D.C. No. 2:05-CV-05133-SVW-JTL)
_______________
Argued and Submitted
December 2, 2013—Pasadena, California
Filed: September 4, 2014
_______________
Before: Dorothy W. Nelson, Kim McLane Wardlaw,
and Johnnie B. Rawlinson, Circuit Judges.
Order:
Opinion by Judge D.W. Nelson;
Partial Concurrence and Partial Dissent by Judge
Rawlinson
_______________

240
ORDER
The order filed December 19, 2013, and appearing
at 738 F.3d 1048, is withdrawn, Carver v. Lehman,
558 F.3d 869, 878–79 (9th Cir. 2009), and is replaced
by the opinion filed concurrently with this order. Our
prior order may not be cited as precedent to any court.
Moreover, with the original order withdrawn, we
deem the petition for rehearing and rehearing en banc
moot. The parties may file a petition for rehearing and
rehearing en banc with respect to the opinion filed together with this order.
IT IS SO ORDERED.
_______________
OPINION
D.W. NELSON, Senior Circuit Judge:
The plaintiffs in this case are former child slaves
who were forced to harvest cocoa in the Ivory Coast.
They filed claims under the Alien Tort Statute (ATS)
against defendants Nestle USA, Inc., Archer Daniels
Midland Company, Cargill Incorporated Company,
and Cargill Cocoa, alleging that the defendants aided
and abetted child slavery by providing assistance to
Ivorian farmers.
The district court dismissed their complaint, finding that the plaintiffs failed to state a claim upon
which relief can be granted. We reverse, vacate, and
remand for further proceedings.

241
I. Background1
The use of child slave labor in the Ivory Coast is a
humanitarian tragedy. Studies by International Labour Organization, UNICEF, the Department of
State, and numerous other organizations have confirmed that thousands of children are forced to work
without pay in the Ivorian economy. Besides the obvious moral implications, this widespread use of child
slavery contributes to poverty in the Ivory Coast, degrades its victims by treating them as commodities,
and causes long-term mental and physical trauma.
The plaintiffs in this case are three victims of child
slavery. They were forced to work on Ivorian cocoa
plantations for up to fourteen hours per day six days
a week, given only scraps of food to eat, and whipped
and beaten by overseers. They were locked in small
rooms at night and not permitted to leave the plantations, knowing that children who tried to escape
would be beaten or tortured. Plaintiff John Doe II witnessed guards cut open the feet of children who attempted to escape, and John Doe III knew that the
guards forced failed escapees to drink urine.
Though tarnished by these atrocities, the Ivory
Coast remains a critical part of the international chocolate industry, producing seventy percent of the
world’s supply of cocoa. The defendants in this case
dominate the Ivorian cocoa market. Although the defendants do not own cocoa farms themselves, they

The facts set forth in our background section are drawn from
the allegations in the plaintiffs’ First Amended Complaint, which
we must accept as true for purposes of evaluating a motion to
dismiss. Seven Arts Filmed Entm’t Ltd. v. Content Media Corp.
PLC, 733 F.3d 1251, 1254 (9th Cir. 2013).
1

242
maintain and protect a steady supply of cocoa by forming exclusive buyer/seller relationships with Ivorian
farms. The defendants are largely in charge of the
work of buying and selling cocoa, and import most of
the Ivory Coast’s cocoa harvest into the United States.
The defendants’ involvement in the cocoa market
gives them economic leverage, and along with other
large multinational companies, the defendants effectively control the production of Ivorian cocoa.
To maintain their relationships with Ivorian
farms, the defendants offer both financial assistance
and technical farming assistance designed to support
cocoa agriculture. The financial assistance includes
advanced payment for cocoa and spending money for
the farmers’ personal use. The technical support includes equipment and training in growing techniques,
fermentation techniques, farm maintenance, and appropriate labor practices. The technical support is
meant to expand the farms’ capacity and act as a quality control mechanism, and either the defendants or
their agents visit farms several times per year as part
of the defendants’ training and quality control efforts.
The defendants are well aware of the child slavery
problem in the Ivory Coast. They acquired this
knowledge firsthand through their numerous visits to
Ivorian farms. Additionally, the defendants knew of
the child slave labor problems in the Ivorian cocoa sector due to the many reports issued by domestic and
international organizations.
Despite their knowledge of child slavery and their
control over the cocoa market, the defendants operate
in the Ivory Coast “with the unilateral goal of finding
the cheapest sources of cocoa.” The defendants continue to supply money, equipment, and training to
Ivorian farmers, knowing that these provisions will

243
facilitate the use of forced child labor. The defendants
have also lobbied against congressional efforts to curb
the use of child slave labor. In 2001, the House of Representatives passed a bill that would have required
United States importers and manufacturers to certify
and label their products “slave free.” The defendants
and others in the chocolate industry rallied against
the bill, urging instead the adoption of a private, voluntary enforcement mechanism. A voluntary enforcement system was eventually adopted, a result that,
according to the plaintiffs, “in effect guarantee[d] the
continued use of the cheapest labor available to produce [cocoa]—that of child slaves.”
The plaintiffs filed a proposed class action in the
United States District Court for the Central District
of California, alleging that the defendants were liable
under the ATS for aiding and abetting child slavery in
the Ivory Coast. The district court granted the defendants’ motion to dismiss in a detailed opinion, which
concluded that corporations cannot be sued under the
ATS, and that even if they could, the plaintiffs failed
to allege the elements of a claim for aiding and abetting slave labor. The plaintiffs declined to amend their
complaint, and appeal the district court’s order.
II. Standard of Review
“A dismissal for failure to state a claim is reviewed
de novo. All factual allegations in the complaint are
accepted as true, and the pleadings construed in the
light most favorable to the nonmoving party.”
Abagnin v. AMVAC Chemical Corp., 545 F.3d 733, 737
(9th Cir. 2008) (internal citations omitted).
III. Discussion
The ATS, quoted in full, reads:

244
The district courts shall have original jurisdiction of any civil action by an alien for a tort
only, committed in violation of the law of nations or a treaty of the United States.
28 U.S.C. § 1350. For nearly two hundred years, the
ATS was almost never invoked. In Filartiga v. PenaIrala, however, the Second Circuit breathed life into
the statute by construing it to allow two Paraguayan
citizens to bring a civil action against a Paraguayan
police officer who had tortured and killed their son.
630 F.2d 876, 878 (2d Cir. 1980); Sosa v. AlvarezMachain, 542 U.S. 692, 724–25 (2004) (describing
Filartiga as “the birth of the modern line of [ATS]
cases.”). The Second Circuit in Filartiga reasoned that
the ATS was designed to “open[] the federal courts for
adjudication of the rights already recognized by international law,” and thus permitted the plaintiffs to
pursue their tort claim because torture is prohibited
by international law. Filartiga, 630 F.2d at 885, 887–
88. Filartiga concluded by observing that modern history had led the nations of the world to recognize the
collective interest in protecting fundamental human
rights, and commented that its holding was “a small
but important step in the fulfillment of the ageless
dream to free all people from brutal violence.” Id. at
890.
The Supreme Court reached a consonant result in
Sosa v. Alvarez-Machain, its first opinion addressing
the ATS. The Court first held that the text of the ATS
is focused solely on jurisdiction, and that the statute
itself does not create a tort cause of action arising out
of violations of international law. Sosa, 542 U.S. at
724. After reviewing the ATS’s history, however, the
Court also observed that “the statute was intended to
have practical effect the moment it became law,” and

245
thus held that “[t]he jurisdictional grant is best read
as having been enacted on the understanding that the
common law would provide a cause of action for the
modest number of international law violations with a
potential for personal liability at the time.” Id. Thus,
under Sosa, the federal courts are available to hear
tort claims based on violations of international law.
Specifically, Sosa held that federal common law creates tort liability for violations of international legal
norms, and the ATS in turn provides federal courts
with jurisdiction to hear these hybrid common law–
international law tort claims. Id.; Khulumani v. Barclay Nat’l Bank Ltd., 504 F.3d 254, 265 (2d. Cir. 2007)
(Katzmann, J., concurring) (“Sosa makes clear that all
[ATS] litigation is in fact based on federal common
law. . . .”).
At the time of its passage, the ATS was intended
to grant jurisdiction over tort claims seeking relief
only for three violations of international law: piracy,
violation of safe conducts, and infringement of the
rights of ambassadors. Sosa, 542 U.S. at 724. The
Court in Sosa held, however, that contemporary ATS
claims can invoke the rights created by the “presentday law of nations,” and thus are not limited to these
“historical paradigms.” Id. at 725, 732. Under contemporary international law, federal courts have permitted plaintiffs to pursue ATS claims based on a broad
range of misconduct, including genocide, war crimes,
torture, and supporting terrorism.
While Sosa therefore permits the application of
contemporary international law in an ATS claim, federal courts must exercise restraint when doing so.
Sosa described this restraint through a historically focused standard for determining when an ATS claim

246
may be based on contemporary international law. Under this test, “federal courts should not recognize private claims under federal common law for violations
of any international law norm with less definite content and acceptance among civilized nations than the
historical paradigms familiar when § 1350 was enacted.” Id. at 732. This standard “is suggestive rather
than precise,” and is perhaps “best understood as the
statement of a mood—and the mood is one of caution.”
Flomo v. Firestone Natural Rubber Co., LLC, 643 F.3d
1013, 1016 (7th Cir. 2011). Applying this standard,
courts focus on whether a contemporary international
legal norm underlying a proposed ATS claim is “specific, universal, and obligatory.” In re Estate of Marcos
Human Rights Litig., 25 F.3d 1467, 1475 (9th Cir.
1994); Sosa, 542 U.S. at 732 (citing this definition
with approval).
Additionally, Sosa held that the decision to recognize a new cause of action must “involve an element of
judgment about the practical consequences of making
that cause available to litigants in the federal courts.”
Sosa, 542 U.S. at 732–33. This inquiry focuses on “the
consequences that might result from making the
cause of action generally available to all potential
plaintiffs,” and permits courts “to consider other prudential concerns consistent with Sosa’s approach.”
Khulumani, 504 F.3d at 268 (Katzmann, J., concurring).
The body of international law that supplies the
norms underlying an ATS claim is often referred to as
“customary international law,” which consists of
“rules that States universally abide by, or accede to,
out of a sense of legal obligation and mutual concern.”
Id. at 267 (Katzmann, J., concurring) (quoting Flores
v. S. Peru Copper Corp., 414 F.3d 233, 248 (2d Cir.

247
2003)); see also The Paquete Habana, 175 U.S. 677,
707–08 (1900); Abagninin, 545 F.3d at 738. To determine the content of customary international law,
courts “look to the sources of law identified by the
Statute of the International Court of Justice.” Khulumani, 504 F.3d at 267 (Katzmann, J., concurring).
These sources include international conventions, international customs, “the general principles of law
recognized by civilized nations,” “judicial decisions,”
and the works of scholars. Id.; see also Restatement
(Third) of Foreign Relations Law § 102 (1987) (identifying similar sources). Courts also consult authorities
that provide an authoritative expression of the views
of the international community even if, strictly speaking, the authority is not meant to reflect customary
international law. Khulumani, 504 F.3d at 267
(Katzmann, J., concurring) (relying on the Rome Statute of the International Criminal Court).
Here, the parties look primarily to three sources
of customary international law. The first are decisions
of the post–World War II International Military Tribunal at Nuremberg, which are widely recognized as
a critical part of customary international law and regularly invoked in ATS litigation. See, e.g., Khulumani,
504 F.3d at 271 (Katzmann, J., concurring). The second are decisions issued by the International Criminal Tribunals for Rwanda and the former Yugoslavia
(ICTR and ICTY, respectively), which were convened
to prosecute violations of international humanitarian
law committed in Rwanda during 1994 and war
crimes that took place in the Balkans during the
1990s. These decisions are also recognized as authoritative sources of customary international law. Id. at
278–79; Abagninin, 545 F.3d at 739. The third is a recent decision issued by the Special Court for Sierra

248
Leone (SCSL), which was convened to address violations of international humanitarian law in Sierra Leone since November 30, 1996. Prosecutor v. Taylor,
Case No. SCSL-03-01-A (SCSL Sept. 26, 2013). We
consider this decision to be a proper source of international law for ATS claims. The parties also cite the
Rome Statute of the International Criminal Court in
their briefing, but, as discussed in more detail below,
dispute its relevance in this case.
The specific norms underlying the plaintiffs’ ATS
claim are the norms against aiding and abetting slave
labor, which the defendants allegedly violated by
providing financial and non-financial assistance to cocoa farmers in the Ivory Coast. The defendants argue
that this claim should be dismissed, for three reasons.
First, the defendants argue that there is no specific,
universal, and obligatory norm preventing corporations—as opposed to individuals—from aiding and
abetting slave labor. Second, the defendants argue
that the plaintiffs’ complaint fails to allege the actus
reus and mens rea elements of an aiding and abetting
claim. Finally, the defendants argue that the plaintiffs’ complaint improperly seeks extraterritorial application of federal law contrary to the Supreme
Court’s recent decision in Kiobel v. Royal Dutch Petroleum Co., 133 S. Ct. 1659 (2013) (“Kiobel II”). We consider each argument in turn.
A. Corporate Liability under the ATS
The primary focus of international law, although
not its exclusive focus, is the conduct of states. Kiobel
v. Royal Dutch Petroleum Co., 621 F.3d 111, 165 (2d.
Cir. 2010) (Leval, J., concurring) (“Kiobel I”). Many of
its prohibitions therefore only apply to state action,
and an important issue in ATS litigation can be determining whether the norm asserted by the plaintiff is

249
applicable to both state actors and private actors. This
issue is illustrated by the contrasting decisions of the
D.C. Circuit in Tel-Oren v. Libyan Arab Republic and
the Second Circuit in Kadic v. Karadzic. In Tel-Oren,
Judge Edwards concluded that the plaintiffs’ ATS
claim was barred because there was no consensus that
international law applied to torture carried out by
non-state actors. 726 F.2d 774, 791–95 (D.C. Cir.
1984). In Kadic, by contrast, the Second Circuit held
that international law’s prohibition on genocide applies regardless of whether the perpetrator is acting
on behalf of a state. 70 F.3d 232, 241–42 (2d. Cir.
1995).
The Supreme Court’s only allusion to corporate liability occurred in a footnote that referenced these
discussions in Tel-Oren and Kadic. Sosa, 542 U.S. at
732 n.20. In the footnote, the Court directed federal
courts contemplating the recognition of new ATS
claims to consider “whether international law extends
the scope of liability for a violation of a given norm to
the perpetrator being sued, if the defendant is a private actor such as a corporation or individual.” Id.
(emphasis added).
The issue of corporate liability has been more
thoroughly examined in the circuit courts, which have
disagreed about whether and under what circumstances corporations can face liability for ATS claims.
Kiobel I, 621 F.3d at 145; Doe v. Exxon Mobil Corp.,
654 F.3d 11, 57 (D.C. Cir. 2011), vacated on other
grounds by 527 F. App’x. 7 (D.C. Cir. 2013); Sarei v.
Rio Tinto, PLC, 671 F.3d 736, 747 (9th Cir. 2011) vacated on other grounds by 133 S. Ct. 1995 (2013);
Flomo, 643 F.3d at 1020–21. Here, we reaffirm the
corporate liability analysis reached by the en banc
panel of our circuit in Sarei v. Rio Tinto.

250
In Sarei, the plaintiffs sought to hold corporate defendants liable for aiding and abetting genocide and
war crimes. We first rejected the defendants’ argument that corporations can never be sued under the
ATS. Rather than adopting a blanket rule of immunity or liability, the Sarei court held that for each ATS
claim asserted by the plaintiffs, a court should look to
international law and determine whether corporations are subject to the norms underlying that claim.
Id. at 748 (“Sosa expressly frames the relevant international-law inquiry to be the scope of liability of private actors for a violation of the ‘given norm,’ i.e. an
international-law inquiry specific to each cause of action asserted.”). Thus, we adopted a norm-by-norm
analysis of corporate liability.
The Sarei court then conducted corporate liability
analyses for the two norms underlying the plaintiffs’
claims, the norm against genocide and the norm
against war crimes. Id. at 759–61, 764–65. The en
banc panel observed that both norms apply to states,
individuals, and groups, and that the applicability of
the norms turns on the “specific identity of the victims
rather than the identity of the perpetrators.” Id. at
760, 764–65 (emphasis added). Thus, we concluded
that the norms were “universal” or applicable to “all
actors,” and, consequently, applicable to corporations.
Id. at 760, 765. We reasoned that allowing an actor to
“avoid liability merely by incorporating” would be inconsistent with the universal quality of these norms.
See id. at 760 (discussing genocide).
In Sarei we also explained that a norm could form
the basis for an ATS claim against a corporation even
in the absence of a decision from an international tribunal enforcing that norm against a corporation. Id.
at 761 (“We cannot be bound to find liability only

251
where international fora have imposed liability.”);
contra Kiobel I, 621 F.3d at 131–45. We explained that
the absence of decisions finding corporations liable
does not imply that corporate liability is a legal impossibility under international law, and also noted that
the lack of decisions holding corporations liable could
be explained by strategic considerations. Sarei, 671
F.3d at 761 (citing Jonathan A. Bush, The Prehistory
of Corporations and Conspiracy in International
Criminal Law: What Nuremberg Really Said, 109
Colum. L. Rev. 1094, 1149–68 (2009)). Rejecting an
analysis that focuses on past enforcement, Sarei reaffirmed that corporate liability ultimately turns on an
analysis of the norm underlying the ATS claim. Id. at
760–61 (“We . . . believe the proper inquiry is not
whether there is a specific precedent so holding, but
whether international law extends its prohibitions to
the perpetrators in question.”).
We thus established three principles about corporate ATS liability in Sarei, that we now reaffirm.
First, the analysis proceeds norm-by-norm; there is no
categorical rule of corporate immunity or liability. Id.
at 747–48. Second, corporate liability under an ATS
claim does not depend on the existence of international precedent enforcing legal norms against corporations. Id. at 760–61. Third, norms that are “universal and absolute,” or applicable to “all actors,” can provide the basis for an ATS claim against a corporation.
Id. at 760. To determine whether a norm is universal,
we consider, among other things, whether it is “limited to states” and whether its application depends on
the identity of the perpetrator. Id. at 764–65.
We conclude that the prohibition against slavery
is universal and may be asserted against the corporate defendants in this case. Private, non-state actors

252
were held liable at Nuremberg for slavery offenses.
The Flick Case, 6 Trials of War Criminals (T.W.C.)
1194, 1202. Moreover, the statutes of the International Criminal Tribunals for Rwanda and the former
Yugoslavia are broadly phrased to condemn “persons
responsible” for enslavement of civilian populations.
ICTY Statute Art. 5(c), U.N. S/RES/827 (May 25,
1993); ICTR Statute Art. 3(c), U.N. S/RES/955 (Nov.
8, 1994). The prohibition against slavery applies to
state actors and non-state actors alike, and there are
no rules exempting acts of enslavement carried out on
behalf of a corporation. Indeed, it would be contrary to
both the categorical nature of the prohibition on slavery and the moral imperative underlying that prohibition to conclude that incorporation leads to legal absolution for acts of enslavement. Kiobel I, 621 F.3d at
155 (Leval, J., concurring) (“The majority’s interpretation of international law, which accords to corporations a free pass to act in contravention of international law’s norms, conflicts with the humanitarian
objectives of that body of law.”).
A final point of clarification is in order about the
role of domestic and international law. Although international law controls the threshold question of
whether an international legal norm provides the basis for an ATS claim against a corporation, there remain several issues about corporate liability which
must be governed by domestic law. This division of labor is dictated by international legal principles, because international law defines norms and determines
their scope, but delegates to domestic law the task of
determining the civil consequences of any given violation of these norms. Id. at 172 (Leval, J., concurring);
Exxon, 654 F.3d at 42–43; Flomo, 643 F.3d at 1020.
Thus, when questions endemic to tort litigation or
civil liability arise in ATS litigation—such as damages

253
computation, joint and several liability, and proximate causation—these issues must be governed by domestic law. Many questions that surround corporate
liability fall into this category, including, most importantly, the issue of when the actions of an individual can be attributed to a corporation for purposes of
tort liability. Determining when a corporation can be
held liable therefore requires a court to apply customary international law to determine the nature and
scope of the norm underlying the plaintiffs’ claim, and
domestic tort law to determine whether recovery from
the corporation is permissible.
Our holding that the norm against slavery is universal and thus may be asserted against the defendants addresses only the international legal issues related to corporate liability in this case. We do not address other domestic law questions related to corporate liability, and leave them to be addressed by the
district court in the first instance.
B. Aiding and Abetting Liability
We next consider whether the plaintiffs’ complaint alleges the elements of a claim for aiding and
abetting slavery. Customary international law—not
domestic law—provides the legal standard for aiding
and abetting ATS claims. Sarei, 671 F.3d at 765–66.
When choosing between competing legal standards,
we consider which one best reflects a consensus of the
well-developed democracies of the world. See Sosa,
542 U.S. at 732 (directing federal courts to apply legal
norms in ATS litigation that are accepted by “civilized
nations”); Khulumani, 504 F.3d at 276 (Katzmann, J.,
concurring) (consulting the Rome Statute’s aiding and
abetting legal standard in part due to its wide acceptance among “most of the mature democracies of
the world”).

254
1. Mens Rea
The plaintiffs argue that the required mens rea for
aiding and abetting is knowledge, specifically,
knowledge that the aider and abetter’s acts would facilitate the commission of the underlying offense. This
knowledge standard dates back to the Nuremberg tribunals, and is well illustrated by the Zyklon B Case, 1
LAW REPORTS OF TRIALS OF WAR CRIMINALS
93 (1946). There, the defendants supplied poison gas
to the Nazis knowing that it would be used to murder
innocent people, and were convicted of aiding and
abetting war crimes. Id. at 101. An analogous
knowledge standard is applied in The Flick Case,
where a defendant was convicted of aiding and abetting war crimes for donating money to the leader of
the SS, knowing that it would be used to support a
criminal organization. 6 T.W.C. 1216–17, 1220–21; see
also The Ministries Case, 14 T.W.C. 622 (concluding
that the defendant’s knowledge regarding the intended use of a loan was sufficient to satisfy the mens
rea requirement, but declining to find that the defendant satisfied the actus reus requirement).
As plaintiffs contend, this knowledge standard
has also been embraced by contemporary international criminal tribunals. The International Criminal
Tribunals for Rwanda and the former Yugoslavia consistently apply a knowledge standard. In Prosecutor v.
Blagojevic, for instance, the tribunal stated that “[t]he
requisite mental element of aiding and abetting is
knowledge that the acts performed assist the commission of the specific crime of the principal perpetrator.”
No. IT-02-60-A, ¶ 127 (ICTY, May 9, 2007) (“Blagojevic”); see also Prosecutor v. Kayishema, No. ICTR-951-T, ¶ 205 (ICTR, May 21, 1999); Khulumani, 504 F.3d
at 277–79 (Katzmann, J., concurring) (observing that
the ICTY and ICTR decisions apply a knowledge

255
standard); Exxon, 654 F.3d at 33–34 (same). Additionally, after conducting an extensive review of customary international law, the Appeals Chamber of the
Special Court for Sierra Leone recently affirmed this
knowledge standard, concluding that “an accused’s
knowledge of the consequence of his acts or conduct—
that is, an accused’s ‘knowing participation’ in the
crimes—is a culpable mens rea standard for individual criminal liability.” Taylor, ¶ 483.
However, two of our sister circuits have concluded
that knowledge is insufficient and that an aiding and
abetting ATS defendant must act with the purpose of
facilitating the criminal act, relying on the Rome Statute of the International Criminal Court, 37 I.L.M. 999
(1998) (“Rome Statute”)[FN callout]. See Aziz v. Alcolac, Inc., 658 F.3d 388, 399–400 (4th Cir. 2011);
Presbyterian Church of Sudan v. Talisman Energy,
Inc., 582 F.3d 244, 259 (2d Cir. 2009). These circuits
have interpreted the Rome Statute to bar the use of a
knowledge standard because it uses the term “purpose” to define aiding and abetting liability:
[A] person shall be criminally responsible and
liable for punishment for a crime within the
jurisdiction of the Court if that person . . . [f]or
the purpose of facilitating the commission of
such a crime, aids, abets, or otherwise assists
in its commission . . . .
Rome Statute, art. 25(3)(c) (emphasis added). Taking
this text at face value, as the Second and Fourth Circuits did, it appears that the Rome Statute rejects a
knowledge standard and requires the heightened
mens rea of purpose, suggesting that knowledge
standard lacks the universal acceptance that Sosa demands.

256
Here, we need not decide whether a purpose or
knowledge standard applies to aiding and abetting
ATS claims. We conclude that the plaintiffs’ allegations satisfy the more stringent purpose standard,
and therefore state a claim for aiding and abetting
slavery. All international authorities agree that “at
least purposive action . . . constitutes aiding and abetting[.]” Sarei, 671 F.3d at 765–66 (declining to determine whether the mens rea required for an aiding and
abetting claim is knowledge or purpose).
Reading the allegations in the light most favorable to the plaintiffs, one is led to the inference that the
defendants placed increased revenues before basic human welfare, and intended to pursue all options available to reduce their cost for purchasing cocoa. Driven
by the goal to reduce costs in any way possible, the
defendants allegedly supported the use of child slavery, the cheapest form of labor available. These allegations explain how the use of child slavery benefitted
the defendants and furthered their operational goals
in the Ivory Coast, and therefore, the allegations support the inference that the defendants acted with the
purpose to facilitate child slavery.
The defendants’ alleged plan to benefit from the
use of child slave labor starkly distinguishes this case
from other ATS decisions where the purpose standard
was not met. See Talisman, 582 F.3d at 262–64; Aziz,
658 F.3d at 390–91, 401. According to the allegations
here, the defendants have not merely profited by doing business with known human rights violators. Instead, they have allegedly sought to accomplish their
own goals by supporting violations of international
law. In Talisman, by contrast, the defendant did not
in any way benefit from the underlying human rights
atrocities carried out by the Sudanese military, and in

257
fact, those atrocities ran contrary to the defendant’s
goals in the area, and even forced the defendant to
abandon its operations. Talisman, 582 F.3d at 262.
Similarly, in Aziz, the plaintiffs alleged that the defendants sold chemicals knowing they would be used
to murder Kurds in northern Iraq, but failed to allege
that the defendants had anything to gain from the use
of chemical weapons. Aziz, 658 F.3d at 394, 401. Thus,
in Talisman and Aziz, the purpose standard was not
satisfied because the defendants had nothing to gain
from the violations of international law, and in Talisman, the violations actually ran counter to the defendants’ interest. Here, however, the complaint alleges
that the defendants obtained a direct benefit from the
commission of the violation of international law,
which bolsters the allegation that the defendants
acted with the purpose to support child slavery.
The defendants’ control over the Ivory Coast cocoa
market further supports the allegation that the defendants acted with the purpose to facilitate slavery.
According to the complaint, the defendants had
enough control over the Ivorian cocoa market that
they could have stopped or limited the use of child
slave labor by their suppliers. The defendants did not
use their control to stop the use of child slavery, however, but instead offered support that facilitated it.
Viewed alongside the allegation that the defendants
benefitted from the use of child slavery, the defendants’ failure to stop or limit child slavery supports the
inference that they intended to keep that system in
place. The defendants had the means to stop or limit
the use of child slavery, and had they wanted the slave
labor to end, they could have used their leverage in
the cocoa market to stop it. Their alleged failure to do
so, coupled with the cost-cutting benefit they allegedly

258
receive from the use of child slaves, strongly supports
the inference that the defendants acted with purpose.
The defendants’ alleged lobbying efforts also corroborate the inference of purpose. According to the
complaint, the defendants participated in lobbying efforts designed to defeat federal legislation that would
have required chocolate importers and manufacturers
to certify and label their chocolate as “slave free.” As
an alternative to the proposed legislation, the defendants, along with others from the chocolate industry,
supported a voluntary mechanism through which the
chocolate industry would police itself. The complaint
also alleges that when the voluntary enforcement system was eventually put into practice instead of legislation, it “in effect guaranteed the continued use of the
cheapest labor available to produce [cocoa]—that of
child slaves.”
Despite these detailed allegations, the dissent
contends that the complaint should be dismissed as
implausible under Ashcroft v. Iqbal, 556 U.S. 662
(2009). The allegation of purpose is not, however, a
bare and conclusory assertion that is untethered from
the facts underlying the plaintiffs’ claims. Instead, the
complaint specifically ties the defendants’ alleged purpose to the defendants’ economic goals in the Ivory
Coast, their control over the cocoa market, and their
lobbying efforts. The factual allegations concerning
the defendants’ goals and business operations give
rise to a reasonable inference that the defendants
acted with purpose, and that is enough to satisfy Iqbal. Id. at 678–79; Moss v. U.S. Secret Service, 572
F.3d 962, 969 (9th Cir. 2009) (“In sum, for a complaint
to survive a motion to dismiss, the non-conclusory ‘factual content,’ and reasonable inferences from that

259
content, must be plausibly suggestive of a claim entitling the plaintiff to relief.”).
We also disagree with the dissent’s assertion that
the plaintiffs have conceded that their allegations fail
to satisfy the purpose standard. The plaintiffs have
maintained throughout this appeal that the purpose
standard has been satisfied. They only conceded that
the defendants did not have the subjective motive to
harm children. Indeed, the complaint is clear that the
defendants’ motive was finding cheap sources of cocoa;
there is no allegation that the defendants supported
child slavery due to an interest in harming children in
West Africa.
This is not to say that the purpose standard is satisfied merely because the defendants intended to
profit by doing business in the Ivory Coast. Doing
business with child slave owners, however morally
reprehensible that may be, does not by itself demonstrate a purpose to support child slavery. Here, however, the defendants allegedly intended to support the
use of child slavery as a means of reducing their production costs. In doing so, the defendants sought a legitimate goal, profit, through illegitimate means, purposefully supporting child slavery.
Thus, the allegations suggest that a myopic focus
on profit over human welfare drove the defendants to
act with the purpose of obtaining the cheapest cocoa
possible, even if it meant facilitating child slavery.
These allegations are sufficient to satisfy the mens rea
required of an aiding and abetting claim under either
a knowledge or purpose standard.

260
2. Actus Reus
We next consider whether the plaintiffs have alleged the actus reus elements of an aiding and abetting claim. The actus reus of aiding and abetting is
providing assistance or other forms of support to the
commission of a crime. Blagojevic, ¶ 127; Taylor,
¶ 362; Rome Statute art. 25(3)(c). As both parties
agree, international law further requires that the assistance offered must be substantial. Blagojevic,
¶ 127; Taylor, ¶ 362. The parties dispute, however,
whether international law imposes the additional requirement that the assistance must be specifically directed towards the commission of the crime.
The “specific direction” requirement appears to
have originated in decisions issued by the International Criminal Tribunal for the former Yugoslavia.
See Prosecutor v. Tadic, Case No. IT-94-1-A (ICTY
July 15, 1999); Prosecutor v. Perisic, Case No. IT-0481-A, (ICTY Feb. 28, 2013) (“Perisic”). In Tadic, the
Appeals Chamber used the phrase “specifically directed” to distinguish joint criminal enterprise liability from aiding and abetting liability. Tadic, ¶¶ 227–
29. While joint criminal enterprise liability only requires an individual to engage in conduct that “in
some way” assisted the commission of a crime, the Appeals Chamber stated that aiding and abetting liability requires an individual to engage in conduct that is
“specifically directed” towards the commission of a
crime. Id. ¶ 229(ii). In Perisic, a later panel of the Appeals Chamber clarified that the specific direction requirement relates to the “link” between the assistance
provided and the principal offense, and requires that
“assistance must be ‘specifically’—rather than ‘in
some way’—directed towards the relevant crimes.”
Perisic ¶ 27, 37 (quoting Tadic, ¶ 229).

261
Some Appeals Chamber panels and other international tribunals have explicitly rejected the specific direction requirement. Prosecutor v. Mrksic, Case No.
IT-95-13/1-A, ¶ 159 (ICTY May 5, 2009) (“[T]he Appeals Chamber has confirmed that ‘specific direction’
is not an essential ingredient of the actus reus of aiding and abetting.”); Blagojevic, ¶ 189 (“[S]pecific direction has not always been included as an element of the
actus reus of aiding and abetting.”); Taylor, ¶ 481. Beneath this controversy, however, there is widespread
substantive agreement about the actus reus of aiding
and abetting. As the Special Court for Sierra Leone
Appeals Chambers recently affirmed, “[t]he actus reus
of aiding and abetting liability is established by assistance that has a substantial effect on the crimes, not
the particular manner in which such assistance is provided.” Taylor, ¶ 475. What appears to have emerged
is that there is less focus on specific direction and
more of an emphasis on the existence of a causal link
between the defendants and the commission of the
crime. However, we decline to adopt an actus reus
standard for aiding and abetting liability under the
ATS. Instead, we remand to the district court with instructions to allow plaintiffs to amend their complaint
in light of Perisic and Taylor, both of which were decided after the complaint in this case was dismissed
and this appeal had been filed.
C. Extraterritorial ATS Claims
The defendants’ final argument contends that the
plaintiffs’ ATS claim seeks an extraterritorial application of federal law that is barred by the Supreme
Court’s recent decision in Kiobel II, 133 S. Ct. at 1669.
We decline to resolve the extraterritoriality issue, and
instead remand to allow the plaintiffs to amend their
complaint in light of Kiobel II.

262
The Supreme Court’s decision in Kiobel II is concerned with the application of the presumption
against extraterritoriality to ATS claims. The presumption against extraterritoriality is a canon of statutory construction, and embodies the default assumption that legislation of Congress is only meant to apply
within the territory of the United States. Morrison v.
Nat’l Austl. Bank Ltd., 130 S. Ct. 2869, 2877 (2010).
Under this canon of construction, a statute should be
construed to reach only conduct within the United
States unless Congress affirmatively states that the
statute applies to conduct abroad. Id. (quoting EEOC
v. Arabian Am. Oil Co. (Aramco), 499 U.S. 244, 248
(1991)). The presumption is meant to provide “a stable
background against which Congress can legislate with
predictable effects,” Morrison, 130 S. Ct. at 2881, and
also “protect against unintended clashes between our
laws and those of other nations which could result in
international discord,” Aramco, 499 U.S. at 248.
Since the presumption against extraterritoriality
is a canon of statutory construction, it has no direct
application to ATS claims, which, as discussed above,
are claims created by federal common law, not statutory claims created by the ATS itself. Kiobel II, 133 S.
Ct. at 1664. In Kiobel II, however, the Supreme Court
explained that the prudential concerns about judicial
interference in foreign policy are particularly strong
in ATS litigation, and concluded that “the principles
underlying the presumption against extraterritoriality thus constrain courts exercising their power under
the ATS.” Id. The Court also concluded that nothing
in the text, history, and purpose of the ATS rebutted
the presumption of extraterritoriality. Id. at 1669.

263
Turning to the specific claims asserted by the Kiobel II plaintiffs, the Court observed that “all the relevant conduct took place outside the United States,”
and that the defendants were foreign corporations
whose only connection to the United States lay in
their presence in this country. Id. The Court held that
these claims were therefore barred, reasoning that
they sought relief for violations of international law
occurring outside the United States, and did not
“touch and concern the territory of the United States
. . . with sufficient force to displace the presumption
against extraterritorial application.” Id.
Kiobel II’s holding makes clear that the general
principles underlying the presumption against extraterritoriality apply to ATS claims, but it leaves important questions about extraterritorial ATS claims
unresolved. See id. (Kennedy, J., concurring) (“The
opinion for the Court is careful to leave open a number
of significant questions regarding the reach and interpretation of the Alien Tort Statute.”). In particular,
Kiobel II articulates a new “touch and concern” test
for determining when it is permissible for an ATS
claim to seek the extraterritorial application of federal
law. Id. But the opinion does not explain the nature of
this test, except to say that it is not met when an ATS
plaintiff asserts a cause of action against a foreign corporation based solely on foreign conduct. Id. (Alito, J.,
concurring) (observing that the Court’s formulation of
the touch and concern test “obviously leaves much unanswered”); see also Tymoshenko v. Firtash, 2013 WL
4564646, at *4 (S.D.N.Y. Aug. 28, 2013) (“[T]he Court
failed to provide guidance regarding what is necessary
to satisfy the ‘touch and concern’ standard.”).
The defendants argue that the touch and concern
test is substantially the same as the “focus” test set

264
out in Morrison v. National Australia Bank Ltd., 130
S. Ct. at 2884. Morrison’s focus test is a tool of statutory interpretation. It is used to determine when statutes without extraterritorial application can be applied to a course of conduct that occurred both domestically and abroad. Id. Under this test, courts first determine the “focus of congressional concern” for a
statute, and allow the statute to be applied to a course
of conduct if the events coming within the statute’s focus occurred domestically. Id. (internal quotation
marks omitted). In Morrison, for example, the Court
reasoned that the focus of the Exchange Act is the purchase and sale of securities, and therefore held that it
applies only to “transactions in securities listed on domestic exchanges, and domestic transactions in other
securities.” Id. The Court then held that the antifraud provisions of the Exchange Act did not apply to
a foreign sale of securities that were listed on an Australian exchange. Id. at 2888.
Morrison may be informative precedent for discerning the content of the touch and concern standard,
but the opinion in Kiobel II did not incorporate Morrison’s focus test. Kiobel II did not explicitly adopt Morrison’s focus test, and chose to use the phrase “touch
and concern” rather than the term “focus” when articulating the legal standard it did adopt. Moreover, the
assertion that Kiobel II meant to direct lower courts
to apply the familiar Morrison focus test is belied by
the concurring opinions, which note that the standard
in Kiobel II leaves “much unanswered.” Kiobel II, 133
S. Ct. at 1669 (Alito, J., concurring); see also id. (Kennedy, J., concurring). Additionally, since the focus test
turns on discerning Congress’s intent when passing a
statute, it cannot sensibly be applied to ATS claims,
which are common law claims based on international
legal norms.

265
Rather than attempt to apply the amorphous
touch and concern test on the record currently before
us, we conclude that the plaintiffs should have the opportunity to amend their complaint in light of Kiobel
II. It is common practice to allow plaintiffs to amend
their pleadings to accommodate changes in the law,
unless it is clear that amendment would be futile.
Moss v. U.S. Secret Serv., 572 F.3d 962, 972 (9th Cir.
2009) (“Having initiated the present lawsuit without
the benefit of the Court’s latest pronouncements on
pleadings, Plaintiffs deserve a chance to supplement
their complaint . . .”). Here, the plaintiffs seek to
amend their complaint to allege that some of the activity underlying their ATS claim took place in the
United States. On the record before us, we are unable
to conclude that amendment would be futile, because
unlike the claims at issue in Kiobel II, the plaintiffs
contend that part of the conduct underlying their
claims occurred within the United States. See Kiobel
II, 133 S. Ct. at 1669. Moreover, it would be imprudent
to attempt to apply and refine the touch and concern
test where the pleadings before us make no attempt
to explain what portion of the conduct underlying the
plaintiffs claims took place within the United States.
We therefore decline to determine, at present,
whether the plaintiffs’ ATS claim is barred by the Supreme Court’s holding in Kiobel II, and remand this
case to allow the plaintiffs to amend their complaint.

266
IV. Conclusion
The district court’s order is REVERSED, and we
VACATE for further proceedings consistent with this
opinion.2
IT IS SO ORDERED.
_______________RAWLINSON, Circuit Judge, concurring in part and dissenting in part:
I do not object to remanding this case to afford the
Plaintiffs an opportunity to further amend their Complaint in an attempt to state a cause of action under
the Alien Tort Statute (ATS), as recently interpreted
by the United States Supreme Court in Kiobel v. Royal
Dutch Petroleum Co., 133 S. Ct. 1659 (2013). I doubt
that their effort will be successful in view of their prior
candid acknowledgment in their Opening Brief on appeal that “they do not currently possess facts sufficient to support the district court’s standard that Defendants specifically intended the human rights violations at issue in this case. . . .” Nevertheless, because
I cannot say with certitude that any attempt to further amend the Complaint would be futile, I voice no
objection to a remand on that basis.
We all agree that the practice of engaging in child
slave labor is reprehensible, indefensible, and morally
abhorrent. Indeed, if that were the issue we were
called upon to decide, this would be an easy case. Instead, we must decide who bears legal responsibility
for the atrocities inflicted upon these Plaintiffs, forced
into slave labor as children. More precisely, we must

We need not reach the parties’ remaining arguments in light of
our decision to remand with instructions that the district court
allow leave to amend.
2

267
determine if the named Defendants in this case may
be held legally responsible for the injuries alleged by
the Plaintiffs.
I also agree that corporations are not per se excluded from liability under the ATS. See Majority
Opinion, pp. 16–18 (adopting the reasoning of our en
banc decision in Sarei v. Rio Tinto, PLC, 671 F.3d 736,
747 (9th Cir. 2011), vacated for further consideration
in light of Kiobel, 133 S. Ct. 1995 (2013); see also
Romero v. Drummond Co. Inc., 552 F.3d 1303, 1315
(11th Cir. 2008) (“The text of the Alien Tort Statute
provides no express exception for corporations . . .”)
(citation omitted).
I.
Mens Rea Requirement of the ATS
Unlike the majority, I would definitely and unequivocally decide that the purpose standard applies to
the pleading of aiding and abetting liability under the
ATS. In other words, Plaintiffs seeking to assert a
claim against Defendants on an aiding and abetting
theory of liability must allege sufficient facts to state
a plausible claim for relief, i.e., that the defendants
acted with the purpose3 of causing the injuries suffered by the Plaintiffs. See Ashcroft v. Iqbal, 556 U.S.

I use the term “purpose” interchangeably with the phrase “specific intent” because there is no material difference between the
two. See United States v. Gracidas-Ulibarry, 231 F.3d 1188, 1196
(9th Cir. 2000) (“In general, ‘purpose’ corresponds to the concept
of specific intent . . .”) (citations omitted); see also United States
v. Meredith, 685 F.3d 814, 826 (9th Cir. 2012) (“Jury Instruction
52 defines willfully as an act done voluntarily and intentionally
and with the specific intent to do something the law forbids; that
is to say with a purpose either to disobey or disregard the law. . .
.”) (internal quotation marks omitted).
3

268
662, 678–79 (2009) (delineating the pleading standard
under Rule 8 of the Federal Rules of Civil Procedure).
I am persuaded to this view in part by the rationale set forth by our sister circuits in the cases of
Presbyterian Church of Sudan v. Talisman Energy,
Inc., 582 F.3d 244, 259 (2d Cir. 2009) and Aziz v. Alcolac, Inc., 658 F.3d 388, 400–01 (4th Cir. 2011).
In Talisman, the Second Circuit considered the
claims of Sudanese citizens against the government of
Sudan and Talisman, a corporation that allegedly
aided and abetted the government of Sudan in its commission of human rights abuses against the Plaintiffs.
The Second Circuit expressly relied upon the principles for “imposing accessorial liability under the ATS”
previously articulated by the United States Supreme
Court in Sosa v. Alvarez-Machain, 542 U.S. 692
(2004), the first Supreme Court case interpreting the
ATS. See Talisman, 582 F.3d at 248, 255. The Second
Circuit referenced the language in Sosa clarifying
that the ATS was enacted with an understanding that
the number of actionable international law violations
would be “modest.” Id. at 255 (quoting Sosa, 542 U.S.
at 724). The Second Circuit also recounted the reasons
articulated by the Supreme Court in Sosa for exercising “great caution” before recognizing violations of international law that are not based on international
norms recognized in 1789. Id.
In Sosa, the Supreme Court first focused on the
need for exercising caution when considering the
availability of claims under the ATS, due to the
marked difference between the conception of the common law in 1789 when the ATS was enacted, and the
conception of the common law in more modern times.
See Sosa, 542 U.S. at 725–26. Prior to the Supreme
Court’s decision in Erie R. Co. v. Tompkins, 304 U.S.

269
64 (1938), the common law was conceived of as a nonpreemptive body of general (non-federal) common law.
See Curtis Bradley, International Law in the U.S. Legal System, 211 (Oxford University Press, 2013). Today, judicially recognized claims under the ATS would
be considered preemptive federal common law,
thereby extending the reach of federal law. See id.
Relatedly, the Supreme Court cautioned federal
courts to tread lightly when considering whether to
further expand the federal law in a manner “of particular importance to foreign relations.” Sosa, 542 U.S.
at 726. Rather than assuming an “aggressive role” in
recognizing claims under the ATS, a statute “that remained largely in shadow for much of the prior two
centuries,” the Supreme Court suggested looking to
guidance from the legislative branch before embarking on “innovative” substantive expansion of the ATS.
Id.
Next, the Supreme Court expressed reluctance to
create a private right of action in the absence of an
express legislative provision addressing private rights
of action, particularly when the effect is to render international rules subject to private action, thereby implicating the management of foreign affairs that are
generally best left to “the discretion of the Legislative
and Executive Branches.” Id. at 727. The Supreme
Court noted that international law “very much” concerns itself with defining permissible limits on the
power of sovereign governments over their own citizens, a notion that inherently merits the utmost trepidation. Id. at 727–28.
Finally, the Supreme Court recognized that it is
“particularly important” that the federal courts lack a
legislative “mandate to seek out and define new and
debatable violations of the law of nations.” Id. at 728.

270
For these reasons, the Supreme Court urged “great
caution in adapting the law of nations to private
rights.” Id. Indeed, the Supreme Court, in recognition
of the potential negative implications of construing
the ATS too broadly, construed the ATS as legislation
“meant to underwrite litigation of a narrow set of common law actions derived from the law of nations . . .”
Id. at 721 (emphasis added). The Supreme Court instructed that judicial power should be exercised to recognize causes of action under the ATS sparingly, “subject to vigilant doorkeeping” by the federal courts. Id.
at 729.
In Talisman, the Second Circuit absorbed the Supreme Court’s repeated emphasis on the “modest” and
“narrow” nature of the claims that should be recognized under the ATS, and rejected the Plaintiffs’ argument for a “broad and elastic” principle of aiding
and abetting liability under the ATS. 582 F.3d at 255,
259. Rather, in keeping with the “modest” and “narrow” approach described with approval in Sosa, the
Second Circuit adopted the purpose standard as the
applicable mens rea test for aiding and abetting liability under the ATS. See id. at 259. As the Second Circuit noted, there is no international consensus supporting the imposition of liability on individuals who
act with knowledge of the violation of international
law, but who harbor no intent or purpose to aid and
abet the violation. See id.
In a similar vein, the Fourth Circuit cited “the Supreme Court’s admonitions in Sosa that we should exercise great caution, before recognizing causes of action for violations of international law” and agreed
with the Second Circuit that aiding and abetting liability under the ATS must be predicated on a showing

271
of purposeful facilitation of the violation of international law. Aziz, 658 F.3d at 401 (internal quotation
marks omitted).
I agree with the Second and Fourth Circuits that
the principles set forth in Sosa militate in favor of the
application of a mens rea of purpose or specific intent
to impose aiding and abetting liability under the ATA,
and I would so hold.
Applying the proper mens rea standard of purpose, or specific intent, I strongly disagree that the allegations in Plaintiffs’ Amended Complaint satisfy
that standard. The contrary conclusion reached by the
majority is particularly curious in light of the Plaintiffs’ concession of their inability to meet the standard.
Nevertheless, the majority generally relies upon allegations in the Amended Complaint as sufficient to establish that Defendants acted with the purpose to aid
and abet child slavery. The majority focuses on inferences rather than on any particular allegations in the
Amended Complaint that reflect the purpose mens
rea. The only allegation from the Amended Complaint
that is specifically referenced is the allegation that
“[d]riven by the goal to reduce costs in any way possible, the defendants allegedly supported the use of
child labor, the cheapest form of labor available . . . .”
Majority Opinion, p. 22. The majority concludes that
“[r]eading the allegations in the light most favorable
to the plaintiffs, one is led to the inference that the
defendants placed increased revenues before basic human welfare, and intended to pursue all options available to reduce their cost for purchasing cocoa.” Id. at
22 Piling inference upon inference, the majority contends that the allegations that the defendants placed
increased revenues before human welfare and acted
with the intent to reduce the cost of purchasing cocoa,

272
“support the inference that the defendants acted with
the purpose to facilitate child slavery.” Id. at 22. But
is that inference plausible, as required by Iqbal? I
think not, because these allegations are remarkably
similar to those rejected by the Supreme Court in Iqbal.
The Plaintiff in Iqbal filed a Bivens2 action against
the Attorney General of the United States and the Director of the Federal Bureau of Investigations, asserting that the defendants violated his constitutional
rights by subjecting him to inhumane conditions of
confinement due to his race, national origin or religion. See Iqbal, 556 U.S. at 668–69. Iqbal alleged that
the Defendants “knew of, condoned, and willfully and
maliciously agreed to subject [Iqbal] to harsh conditions of confinement as a matter of policy, solely on
account of [Iqbal’s] religion, race, and/or national
origin . . .” Id. at 680 (internal quotation marks omitted). The Supreme Court rejected this allegation as a
“bare assertion [ ], amount[ing] to nothing more than
a formulaic recitation of the elements of a constitutional discrimination claim . . .” Id. at 681 (citation
and internal quotation marks omitted). The Supreme
Court added that the allegation was “conclusory” and
“disentitle[d] . . . to the presumption of truth.” Id.
The same can be easily said of the one specific allegation relied on by the majority in this case. The allegation that Defendants acted with the intent “to reduce costs in any way possible” is at best a feeble attempt to set forth the required mens rea of purpose, or
specific intent. However, as the Supreme Court noted

Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388 (1971).
2

273
in Iqbal, a conclusory statement of the elements of a
claim falls far short of stating a plausible claim. See
id.
The statement that child slavery is the cheapest
form of labor available does not even implicate the Defendants. This allegation in no way raises a plausible
inference that the Defendants acted with the purpose
to aid and abet child slave labor. It may well be true
that child slave labor is the cheapest form of labor for
harvesting cocoa. But that unvarnished statement in
no way supports the inferential leap that because
child slave labor is the cheapest form of labor, Defendants aided and abetted the cocoa farmers who allegedly operated the child slave labor system.
To bolster the inferences discussed, the majority
explains that Defendants’ “use of child slavery benefitted the defendants and furthered their operational
goals in the Ivory Coast . . .” Majority Opinion, pp. 22–
23. However, taking advantage of a favorable existing
market, while perhaps morally repugnant, does not
equate to the specific intent to aid and abet child slave
labor. In Aziz, 658 F.3d at 390–91, the corporate defendant sold restricted chemicals that ultimately
reached Iraq and were used to manufacture mustard
gas. The mustard gas in turn was used to attack
Kurds. Thousand of Kurds were killed, maimed, or left
with “physical and psychological trauma.” Id. at 391.
Plaintiffs, individuals of Kurdish descent, were victims of mustard gas attacks themselves, or family
members of deceased victims.
They brought claims under the ATS, alleging that
the corporate defendant “aided and abetted the Iraqi
regime’s use of mustard gas to attack the Kurds. . . .”
Id. at 395. Plaintiffs specifically alleged that the corporate defendant “placed [the restricted chemical]

274
into the stream of international commerce with the
purpose of facilitating the use of said chemicals in the
manufacture of chemical weapons to be used, among
other things, against the Kurdish population in northern Iraq.” Id. at 401 (citation omitted). Citing Iqbal,
the Fourth Circuit characterized the allegations as
“cursory” and “untethered to any supporting facts.” Id.
Unfortunately, that same characterization accurately
describes the allegations made by Plaintiffs in this
case.
The aiding and abetting claims asserted under the
ATS in Talisman met a similar fate in the Second Circuit. Plaintiffs alleged that Talisman, a corporation,
provided “substantial assistance” to the government
of Sudan, which assistance aided the government in
“committing crimes against humanity and war crimes
. . .” 582 F.3d at 261. The assistance provided by Talisman to the government included: 1) upgrading airstrips; 2) designating areas for oil exploration; 3) paying royalties to the government; and “giving general
logistical support to the Sudanese military . . . .” Id.
(citation and footnote reference omitted). The Second
Circuit observed that there was nothing inherently
nefarious about these activities. Rather, such activities “generally accompany any natural resource development business or the creation of any industry. . . .”
Id. (citation omitted). In essence, Plaintiffs argued
that Talisman should have made no financial investment in Sudan at all, lest the financial wherewithal
enable the government to abuse its citizenry. However, as in Aziz, the allegations were insufficient to
support a plausible inference that Talisman acted
with the required mens rea of purpose or specific intent. See id. at 263; see also Aziz, 658 F.3d at 401.

275
The majority seeks to distinguish Aziz and Talisman, but no principled distinction can be made. The
majority points to the fact that Defendants in this case
had sufficient control over the cocoa market “that they
could have stopped or limited the use of child slave
labor by their suppliers.” Majority Opinion, p. 23. Rather than doing so, the majority concludes, Defendants “instead offered support that facilitated” child
slavery. Id. at 24. This reasoning mirrors the argument rejected by the Second Circuit that Talisman
should never have made a financial investment in Sudan, thereby enabling that country to oppress its people. See Talisman, 582 F.3d at 262–63. Rejection of
this argument is particularly appropriate in the absence of evidence that Defendants intended that the
financial support be used for child slavery. See id. at
262.
The majority also points to Defendants’ lobbying
efforts to “corroborate the inference of purpose.” Majority Opinion, p. 24. “[T]he defendants participated in
lobbying efforts designed to defeat federal legislation
that would have required chocolate importers and
manufacturers to certify and label their chocolate as
slave free.” Id. at p. 24 (internal quotation marks
omitted). In the alternative, Defendants and others
with interest in the chocolate industry advocated for
the implementation of a voluntary compliance mechanism. See id. at p. 24. However, exercising their right
to petition the government does not reasonably support an inference that Defendants acted with the purpose to aid and abet child slavery. It is equally likely
that Defendants sought to avoid additional government regulation. As recognized by the Second Circuit,
if there is a benign explanation for the corporation’s
action, no plausible inference of purpose may be
drawn. See Talisman, 582 F.3d at 262.

276
Plaintiffs and the majority concede that any and
all actions taken by Defendants were motivated by the
desire for profits rather than an intent to enslave children. See Majority Opinion, pp. 22–24. This concession is fatal to the Amended Complaint as presently
couched. There is absolutely no allegation that Defendants have violated any governing law or regulation in their quest for profits. And profit-seeking is the
reason most corporations exist. To equate a profitmaking motive with the mens rea required for ATS
aiding and abetting liability would completely negate
the constrained concept of ATS liability contemplated
by the Supreme Court in Sosa. See 542 U.S. at 721,
724, 729 (construing the ATS as encompassing a
“modest” and “narrow” set of claims “subject to vigilant doorkeeping by the federal courts”) (internal quotation marks omitted).
One would hope that corporations would operate
their businesses in a humanitarian and morally responsible manner. It is indeed unfortunate that many
neglect to do so. However regrettable that circumstance may be, we cannot substitute the lack of humanitarianism for the pleading requirements that
govern the ATS. Following the reasoning of Sosa, Aziz
and Talisman, I would not conclude that the Plaintiffs
have stated a claim under the ATS.
II.
Extraterritorial Reach of the ATS
As stated earlier, I do not object to a remand to
allow Plaintiffs to seek to further amend their Complaint in light of the Supreme Court’s recent Kiobel
decision. However, in my view, Plaintiffs face a substantial hurdle in their effort to assert a viable claim
that the ATS applies to the admittedly extraterritorial

277
child slave labor that is the basis of this case. As noted
by the majority, Justice Kennedy observed that the
Kiobel opinion left open “a number of significant questions regarding the reach and interpretation of the Alien Tort Statute. . . .” Kiobel, 133 S. Ct. at 1669 (Kennedy, J. concurring). But a question not left open regarding the reach of the ATS was the presumption
against extraterritorial application of the statute. See
id. at 1664–67.
In Kiobel, Plaintiffs sued corporate defendants
who participated in oil exploration and production in
Nigeria. In their Complaint, Plaintiffs alleged that after they protested against the environmental effects
of the corporation’s practices, “Nigerian military and
police forces attacked . . . villages, beating, raping,
killing, and arresting residents and destroying or looting property.” Id. at 1662. According to Plaintiffs, the
corporate defendants aided and abetted their tormentors “by, among other things, providing the Nigerian
forces with food, transportation and compensation, as
well as by allowing the Nigerian military to use respondents’ property as a staging ground for attacks.”
Id. at 1662–63.
The Supreme Court explained that the presumption against extraterritorial application of federal
statutes avoids “unintended clashes between our laws
and those of other nations which could result in international discord.” Id. at 1664 (citation omitted). The
Supreme Court noted that the concern underlying the
presumption is heightened in cases brought under the
ATS because those cases seek relief based on courtcreated causes of action rather than for claims expressly provided for by Congress. See id. Referring
back to Sosa, the Supreme Court reiterated its emphasis on “the need for judicial caution in considering

278
which claims could be brought under the ATS . . .” Id.
Indeed, the foreign policy implications of recognizing
a claim under the ATS “are all the more pressing
when the question is whether a cause of action under
the ATS reaches conduct within the territory of another sovereign.” Id. at 1665.
The Supreme Court observed that “nothing in the
text of the [ATS] suggests that Congress intended
causes of action recognized under it to have extraterritorial reach. . . .” Id. Similarly, nothing in the historical backdrop of the statute overcomes the presumption against extraterritorial application of the ATS.
See id. at 1666. Finally, the Supreme Court emphasized that there was no indication that Congress intended to make this country the forum “for the enforcement of international norms. . . .” Id. at 1668.
Having articulated these underlying precepts, the
Supreme Court concluded that the ATS was subject to
the presumption against extraterritorial application
and that Plaintiffs’ “case seeking relief for violations
of the law of nations occurring outside the United
States [was] barred . . .” Id. at 1669. On the facts as
alleged by Plaintiffs, “all the relevant conduct took
place outside the United States.” Id. (emphasis
added). The Supreme Court further explained that
even in a case where the claims did “touch and concern
the territory of the United States, they must do so
with sufficient force to displace the presumption
against extraterritorial application. . . .” Id. (citing
Morrison v. Nat’l Australia Bank Ltd., 561 U.S. 247,
264–73 (2010)).
In Morrison, the Supreme Court held, in no uncertain terms, that when an allegation of domestic relationship is raised to defeat the presumption against
extraterritoriality, that domestic relationship must

279
coincide with “the focus of congressional concern . . .”
Id. at 266 (citation omitted). I do not agree with the
majority that the Supreme Court “did not incorporate
Morrison’s focus test.” Majority Opinion, p. 30. Why
else would the Supreme Court direct us to Morrison
precisely when it was discussing claims that allegedly
“touch and concern” the United States? Kiobel, 133 S.
Ct. at 1669. In any event, at a minimum, the Supreme
Court has made clear that not any old domestic contact will do. Rather, the Supreme Court has colorfully
informed us that the burden of showing sufficient domestic contact is substantial. See Morrison, 561 U.S.
at 266 (“[T]he presumption against extraterritorial
application would be a craven watchdog indeed if it
retreated to its kennel whenever some domestic activity is involved in the case . . . .”) (emphasis in the original).
In sum, I would affirm the district court’s ruling
that the Amended Complaint failed to state a claim
under the ATS. In reviewing the next amended Complaint, the district court should hew closely to the
guidance that the Supreme Court laid out in Morrison, Sosa and Kiobel that cautions federal court
judges to tread lightly both when determining
whether a claim has been stated under the ATS and
whether the presumption against extraterritorial application of a domestic statute has been rebutted.
These cases militate toward contraction rather than
expansion. Therefore, I concur in a remand to allow
Plaintiffs to further amend their Complaint in an effort to state a claim under the ATS. I dissent from any
holding that they have adequately done so.

280
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
No. 10-56739
D.C. No. 2:05-CV-05133-SVW-JTL
ORDER AND AMENDED ORDER
_______________
JOHN DOE I; JOHN DOE II; JOHN DOE III,
individually and on behalf of proposed class
members; GLOBAL EXCHANGE,
Plaintiffs-Appellants,
v.
NESTLE USA, INC.; ARCHER DANIELS MIDLAND COMPANY; CARGILL INCORPORATED COMPANY;
CARGILL COCOA,
Defendants-Appellees.
_______________
Filed: May 6, 2015
Amended: June 10, 2015
_______________
Before: Dorothy W. Nelson, Kim McLane
Wardlaw, and Johnnie B. Rawlinson, Circuit Judges
Order;
Amended Order;
Dissent by Judge Brea

281
ORDER
The order denying the petition for rehearing/rehearing en banc, filed on May 6, 2015, is hereby
amended at Page 2, Line 3, to add the sentence:
Judges Graber, Ikuta, Watford, Owens, and
Friedland did not participate in the deliberations or vote in this case.
SO ORDERED.

282
AMENDED ORDER
Judge Rawlinson voted to grant the petition for
rehearing and petition for rehearing en banc.
Judge Nelson and Judge Wardlaw voted to deny
the petition for panel rehearing. Judge Wardlaw voted
to deny the petition for rehearing en banc and Judge
Nelson so recommended.
The full court was advised of the petition for rehearing en banc. A judge requested a vote on whether
to rehear the matter en banc. The matter failed to receive a majority of the votes of the nonrecused active
judges in favor of en banc consideration. Fed. R. App.
P. 35.
Judges Graber, Ikuta, Watford, Owens, and
Friedland did not participate in the deliberations or
vote in this case.
The petition for panel rehearing and the petition
for rehearing en banc are DENIED.
Judge Bea’s dissent from the denial of rehearing
en banc is filed concurrently with this order.
BEA, Circuit Judge, with whom O’SCANNLAIN,
GOULD, TALLMAN, BYBEE, CALLAHAN, M.
SMITH, AND N.R. SMITH, Circuit Judges, join, dissenting from the denial of rehearing en banc:
Unfortunately, the panel majority here has substituted sympathy for legal analysis. I quite agree
plaintiffs are deserving of sympathy. They are alleged
former child slaves of Malian descent, dragooned from
their homes and forced to work as slaves on cocoa
plantations in the Ivory Coast. But they do not bring
this action against the slavers who kidnapped them,

283
nor against the plantation owners who mistreated
them. Instead the panel majority concludes that defendant corporations, who engaged in the Ivory Coast
cocoa trade, did so with the purpose that plaintiffs be
enslaved, hence aiding and abetting the slavers and
plantation owners. By this metric, buyers of Soviet
gold had the purpose of facilitating gulag prison slavery.
How was the cocoa buyers’ purpose shown? By
their purchase of cocoa and their conduct of “commercial activities [such] as resource development,” conduct one of our sister circuits has explained does not
establish that a defendant acted with the required
purpose.1 The panel majority’s conclusion is wrong.
Even the plaintiffs admit defendants intended only to
maximize profits, not harm children through slavery.2
It also creates a circuit split with the Second and
Fourth Circuits.
But the consequences of the majority’s decision do
not end there—the majority leads us into open conflict
with Supreme Court doctrine interpreting the Alien
Tort Statute (“ATS”). The Court unequivocally requires that federal judges who are fashioning federal
common law torts for violations of customary international law under the ATS operate under a “restrained
conception” of the extent of such liability. Sosa v. Alvarez-Machain, 542 U.S. 692, 725–26 (2004). The
panel majority flouts that requirement by permitting
a broad expansion of liability under the ATS. The
panel majority allows a single plaintiff’s civil action to

1

Presbyterian Church of Sudan v. Talisman Energy, Inc., 582

F.3d 244, 264 (2d. Cir. 2009).
2

Doe I v. Nestle USA, Inc., 766 F.3d 1013, 1025 (9th Cir. 2014).

284
effect an embargo of trade with foreign nations, forcing the judiciary to trench upon the authority of Congress and the President. And in the process, the majority creates a second circuit split by misinterpreting
the Supreme Court’s decision in Kiobel v. Royal Dutch
Petroleum, 133 S. Ct. 1659 (2013), as creating a new
test for when the presumption against extraterritorial
application of United States law is rebutted, rather
than incorporating the settled doctrine of Morrison v.
National Australia Bank Ltd., 561 U.S. 247 (2010).
For these reasons, our court should have corrected
the panel’s mistake by granting a hearing en banc,
and I respectfully dissent from the order denying rehearing.
I begin by bringing to mind the basic principles of
ATS litigation. The text of the ATS gives the federal
district courts “original jurisdiction of any civil action
by an alien for a tort only, committed in violation of
the law of nations or a treaty of the United States.” 28
U.S.C. § 1350. The Supreme Court has held that the
ATS does not create a substantive tort action; instead,
the statute is purely a grant of jurisdiction. Sosa v.
Alvarez-Machain, 542 U.S. 692, 724 (2004). ATS actions thus sound in federal common law. Id. But because there are “good reasons for a restrained conception of the discretion a federal court should exercise in
considering a new cause of action of this kind,” an ATS
claim must “rest on a norm of international character
accepted by the civilized world and defined with a specificity comparable to the features of the 18th-century
paradigms we have recognized.” Id. at 725–26.3 Those
“good reasons” include the general presumption against

Those paradigms are “violation of safe conducts, infringement
of the rights of ambassadors, and piracy.” Sosa, 542 U.S. at 724.
3

285
judge-made law, the paucity of early cases utilizing the
ATS’s jurisdictional grant, the disfavoring of court-created private rights of action, the risk that ATS litigation
poses to the foreign relations of the United States, and
the absence of an affirmative congressional mandate to
engage in “judicial creativity” by crafting new norms. Id.
at 726–28. Indeed, Sosa repeatedly emphasizes the need
for restraint in extending liability to a defendant who is
“a private actor such as a corporation or individual.” Id.
at 732 n.20.
As the majority opinion in this case recognizes,
the Supreme Court’s list of requirements for an ATS
action is not exhaustive; instead, the Sosa opinion’s
standard “is suggestive rather than precise, and is
perhaps best understood as the statement of a mood—
and the mood is one of caution.” Doe, 766 F.3d at 1019
(quoting Flomo v. Firestone Natural Rubber Co., LLC,
643 F.3d 1013, 1016 (7th Cir. 2011)). In light of its
recognition of these principles, the majority’s errors
are all the more curious.
I turn now to the particulars of this case. Plaintiffs, alleged former child slaves who worked on cocoa
plantations in the Ivory Coast, have sued the defendant chocolate companies on the theory that by purchasing the chocolate produced by Ivorian plantations, providing technical assistance4 to the plantations, and lobbying Congress for a voluntary alternative to the mandatory “slave-free” licensing scheme
Congress was considering, the defendants aided and
abetted a violation of customary international law:
child slavery.

The technical assistance is not alleged to have included whips,
chains, or other implements of slavery.
4

286
I agree with the majority and the plaintiffs that
child slavery is a violation of customary international
law. And I further agree that aiding and abetting a
crime is itself a crime, with its own actus reus and
mens rea elements. The parties in this case dispute
what is the correct mens rea standard for ATS aiding
and abetting liability. Defendants claim that a showing that they acted purposefully to bring about (or
maintain) the use of slavery to produce cocoa is required to confer liability. Plaintiffs claim that
knowledge that slavery was so employed, together
with acts of defendants which circumstantially benefit
the slaver, is enough; specific intent (purpose) that
slavery be facilitated need not be alleged. Plaintiffs
candidly admit they cannot in good faith allege defendants acted with the specific intent to promote
slavery and thus harm children.
The panel majority did not accept plaintiffs’ assertion that knowledge that cocoa growers employed
slavery makes out the mens rea element of aiding and
abetting liability. Rather, they recognized that “two of
our sister circuits have concluded that knowledge is
insufficient and that an aiding and abetting ATS defendant must act with the purpose of facilitating the
criminal act . . . .” Id. at 1023 (citing Aziz v. Alcolac,
Inc., 658 F.3d 388, 399–400 (4th Cir. 2011); Presbyterian Church of Sudan v. Talisman Energy, Inc., 582 F.3d
244, 259 (2d Cir. 2009)). However, the majority decided
that it need not reach the question whether knowledge
was a sufficient mens rea, because plaintiffs’ allegations
met the purpose standard. In particular, though plaintiffs “conceded that the defendants did not have the subjective motive to harm children,” and alleged only that
“the defendants’ motive was finding cheap sources of cocoa,” the majority found that plaintiffs sufficiently alleged defendants had the purpose of aiding child slavery

287
because of defendants’ “myopic focus on profit over human welfare.”5 Doe, 766 F.3d at 1025–26. Thus, pursuit
of profit over human welfare, in the majority’s eyes, allows a jury to find the defendants specifically intended
not merely to buy cocoa cheap, but to promote slavery as
a means of buying cheap.6
In so reasoning, regardless what the majority contends, it was most certainly not following Aziz. There,
the Fourth Circuit noted that defendant Alcolac had
sold chemicals that could be used to produce lethal
mustard gas with full knowledge of that possible use,

Plaintiffs allege four types of conduct that, taken together, are
meant to show the defendants acted with the purpose of aiding
and abetting slavery. First, the defendants bought the slavers’
cocoa. Second, the defendants supplied the plantation owners
with money, equipment and training for the cultivation of cocoa,
while defendants knew the continued and expanded profitability
of those farmers would facilitate the use of child slave labor; defendants continue to establish and honor those agreements today. Third, the defendants lobbied against Congressional efforts
to curb the use of child slaves by, for example, opposing a bill that
would require United States importers to certify and label their
products “slave free.” The companies instead urged and secured
the adoption of a private, voluntary enforcement mechanism for
“slave free” certification, similar to the regime for “fair trade” coffee imports into the U.S. Fourth, though the corporations have
enough market power effectively to control Ivory Coast’s cocoa
markets, and could use that power to stop or limit the use of child
slave labor if they so chose; they have taken no such action.
5

The panel majority does not explain how this pleading could
make plausible a finding of purpose to promote slavery in light
of the concession from the plaintiffs that the defendants did not
have the purpose of promoting slavery. See Doe, 766 F.3d at 1025.
After all, one would assume that a panel, having concluded that
the plaintiff must show purpose, would find that a plaintiff who
concedes the defendant lacks that purpose has briefed himself
out of his case. The panel majority’s contrary decision is unexplained and, I submit, inexplicable.
6

288
despite having been told that the chemical in question
was subject to U.S. export restrictions. The chemical
was sold to a company defendant Alcolac knew was a
shell company designed to evade those export restrictions.
Through the shell company, the chemicals eventually reached Saddam Hussein’s regime in Iraq,
which used the chemicals to create mustard gas it
then used to killed thousands of Kurds. Aziz, 658 F.3d
at 390–91. Plaintiffs alleged, in sum, that Alcolac sold
its chemicals “with actual or constructive knowledge
that such quantities [of the chemicals] would ultimately be used by Iraq in the manufacture of mustard
gas to attack the Kurds.” Id. at 394. Nonetheless, the
Fourth Circuit held plaintiffs had not adequately alleged purposeful violation of customary international
law by Alcolac. Id. at 401. That is, the allegations that
Alcolac knew how the chemicals would be used did not
amount to an allegation that Alcolac harbored specific
intent (i.e. purpose) that the Kurds be gassed, and
thereby accomplish a form of genocide.
The contradiction with the majority’s holding is
obvious. If selling chemicals with the knowledge that
the chemicals will be used to create lethal chemical
weapons does not constitute purpose that people be
killed, how can purchasing cocoa with the knowledge
that slave labor may have lowered its sale price constitute purpose that people be enslaved? The majority replies that “the defendants [in Aziz] had nothing to gain
from the violations of international law.” Doe, 766 F.3d
at 1024. Demonstrably not so—the more Saddam Hussein used chemical weapons to kill his opponents, the
more of Alcolac’s chemicals he would need and thus the

289
higher the sales of Alcolac’s products; the higher their
sales, of course, the higher their profit.7
The majority fares no better with its characterization of the Second Circuit’s decision in Talisman,
which should come as no surprise since the Fourth
Circuit’s Aziz opinion explicitly relied on Talisman.
Aziz, 658 F.3d at 398. Talisman Energy (“Talisman”),
a Canadian oil corporation, was part of a conglomerate that had a business arrangement with the Sudanese government whereby Talisman extracted oil in
several regions of Sudan. Talisman and its conglomerate worked closely with the Sudanese government:
Talisman upgraded airstrips for the Sudanese government, who used the airstrips were used to conduct
bombing raids on the ethnic South Sudanese; Talisman considered expanding its oil-exploration area
into South Sudan despite knowing the government
would kill the local inhabitants to give Talisman the
land; Talisman paid royalties to the Sudanese government, knowing the money would go to the continuation of the ethnic genocide8 perpetrated by the government against the South Sudanese people; and, the conglomerate provided fuel to Sudanese government military aircraft taking off on bombing missions in pursuit

The plaintiffs in Aziz alleged that Alcolac had sold one million
pounds of its chemicals to the shell corporation, on the understanding that the shell corporation “intended to place further orders in the three to six million pound range annually.” Aziz, 658
F.3d at 391. It belies economic reality to suggest that an order of
that size provides no benefit to the seller of goods.
7

Genocide is a recognized violation of customary international
law. Abagninin v. AMVAC Chemical Corp., 545 F.3d 733, 739
(9th Cir. 2008).
8

290
of its genocidal aims. Talisman, 582 F.3d at 262. Nevertheless, the Second Circuit held that plaintiffs
(Southern Sudanese victims of the government’s attacks) had not shown Talisman had aided and abetted
the Sudanese government’s genocidal acts, because
“[p]laintiffs d[id] not suggest in their briefs that Talisman was a partisan in regional, religious, or ethnic hostilities, or that Talisman acted with the purpose to assist persecution.” Id. at 263. In distinguishing this
case, the majority makes a point—Talisman was
harmed by the government’s genocidal conduct to the
extent that it ultimately had to abandon its Sudanese
venture, while Nestle continued its cocoa business.9
Doe, 766 F.3d at 1024. But the Second Circuit also
noted that “if ATS liability could be established by
knowledge of those abuses coupled only with such commercial activities as resource development, the statute
would act as a vehicle for private parties to impose embargos or international sanctions through civil actions
in United States courts.” Talisman, 582 F.3d at 294.10
By contrast, defendants here are alleged to have
been aware that slavery was occurring on the cocoa
plantations, but not to have done anything to assist

Of course, Talisman also benefitted from its relationship with
the military; like any oil company doing business in a region
prone to violence, it had to “rely on the military for defense.” Talisman, 582 F.3d at 262.
9

An embargo by chocolate manufacturers on Ivory Coast chocolate farmers is precisely the predictable economic effect plaintiffs’ successful action would have. Indeed, failure to effect an
embargo by refusing to deal with the plantation owners is precisely the misuse of economic power which the majority finds sufficient to make plausible the conclusion that defendants acted
with the purpose to promote slavery. Doe, 766 F.3d at 1025.
10

291
directly in the enslavement of plaintiffs. Indeed, the
plaintiffs in this case do not even allege that defendants could not have procured similar prices from the
Ivorian plantations absent their use of slave labor—
by technological innovations or the exercise of monopsony power, for instance.11 By contrast, Talisman was
required to acquiesce in the Sudanese government’s
misdeeds if it wanted to make a profit. It bears emphasis that Alcolac and Talisman undoubtedly knew
that their actions were contributing to great evils: the
use of poison gas in Alcolac’s case, and genocide in Talisman’s. Nonetheless, the Second and Fourth Circuit’s
decisions absolved these companies of ATS aiding and
abetting liability, because plaintiffs’ allegations did
not make it plausible that defendants specifically intended Kurd or Southern Sudanese killings.
Thus, the panel majority’s claim to have adopted
the Second and Fourth Circuit’s analysis is simply in-

Nor can the panel majority rely for its answer on the plaintiffs’
allegations that the corporations trained farmers and lobbied
Congress. As to farmer training, the complaint alleges that two
of the named defendants are attempting to change farming and
labor practices in the Ivory Coast in an effort to reduce the use
of child labor; the complaint contains no allegation that the third
defendant has engaged in any farmer training at all. The panel
majority cannot be inferring pro-slavery purpose from anti-slavery activity. As for the lobbying, plaintiffs themselves allege that
the corporations’ lobbying efforts had the intent of ensuring child
labor free chocolate; the plaintiffs then allege that the defendants’ lobbying had the effect of allowing child slavery to continue.
That the corporations’ lobbying is alleged to have backfired does
not mean that the backfire was intended.
11

292
correct. It has not done so, and has thus created a circuit split on the proper mens rea element for aiding and
abetting liability under customary international law.
Moreover, the majority is on the wrong side of the
circuit split it creates. Sosa requires that the federal
courts accept as proper bases of a claim for relief only
those violations of customary international law that
have “definite content and acceptance among civilized
nations.” Thus, if there is conflict as to the proper
scope of ATS liability, the narrower reading should be
chosen, as no consensus can be said to exist on the
broader one. Sosa, 542 U.S. at 732. As the majority
opinion recognizes, “the Rome Statute rejects a
knowledge standard and requires the heightened
mens rea of purpose, suggesting that a knowledge
standard lacks the universal acceptance that Sosa demands.”12 Doe, 766 F.3d at 1024. The conflict between
the Rome Statute’s rejection of knowledge and the
panel majority’s effective acceptance of knowledge is
sufficient to eliminate the required consensus. In its
assessment of our sister circuits and its reading of Supreme Court precedent, therefore, the panel majority
is well off the mark.

The Rome Statute, 37 I.L.M. 999 (1998), is the treaty that establishes the International Criminal Court. The United States
has signed but not ratified the treaty. In 2002, Under Secretary
of State John Bolton sent a letter to then-UN Secretary General
Kofi Annan which stated that the United States did not intend
to become a party to the treaty and suspended the United
States’s signature. See Press Statement of Richard Boucher,
United States Department of State, May 6, 2002, available at
http://2001-2009.state.gov/r/pa/prs/ps/2002/9968.htm.
12

293
I turn next to the question of extraterritoriality—
an important one in this case, since all the acts of enslavement and maintenance of slavery are alleged to
have occurred outside United States borders. While
this case was pending before the panel, the Supreme
Court announced its decision in Kiobel v. Royal Dutch
Petroleum, 133 S. Ct. 1659 (2013). The Supreme Court
held in Kiobel that the presumption against extraterritoriality applies to claims brought under the ATS; as
usual, that presumption is rebuttable.13 Id. at 1669.
To be viable, ATS claims must “touch and concern the
territory of the United States” with “sufficient force to
displace the presumption against extraterritorial application.” Id. (citing Morrison v. National Australia
Bank, 561 U.S. 247, 264–273 (2010)).
The plaintiffs claim Kiobel’s “touch and concern”
language announces a new test to determine when the
presumption against extraterritoriality is rebutted,
while defendants argue Kiobel simply adopts the test
announced in Morrison. Morrison’s text adopted a “focus” test, whereby courts must ask whether the defendants engaged in the conduct that is the focus of
the statute at issue. Morrison, 561 U.S. at 266–67.14

This is the presumption that “when a statute gives no clear
indication of an extraterritorial application, it has none.” Kiobel,
133 S. Ct. at 1664 (brackets omitted) (quoting Morrison v. National Australia Bank Ltd., 561 U.S. 247, 255 (2010)). That is,
American statutes—the 1934 Securities Exchange Act or the
1797 Alien Tort Statute—do not apply to actions taken beyond
our shores unless Congress tells us to the contrary.
13

In Morrison, an Australian bank had purchased a Florida
mortgage-servicing company, and listed the mortgage-servicing
company’s assets on its annual reports. It proudly touted the success of the mortgage-servicing company’s business and gave it a
high valuation. A few years later, however, the bank wrote down
14

294
The panel majority adopted plaintiffs’ view and held
that “Morrison may be informative precedent for discerning the content of the touch and concern standard,
but the opinion in Kiobel II did not incorporate Morrison’s focus test.” Doe, 766 F.3d at 1028. Respectfully,
the majority is quite wrong.
First, the Supreme Court’s opinion in Kiobel counsels against the majority’s analysis. As the Supreme
Court’s majority opinion states, though Morrison
dealt with acts of Congress, “the principles underlying
the [Morrison] canon of interpretation [which counsel
against the Exchange Act’s extraterritorial application] similarly constrain courts considering causes of
action that may be brought under the ATS.” Kiobel,

the value of the mortgage-servicing company’s assets, causing the
bank’s share price to drop. Id. at 251–53. The plaintiffs, Australian
shareholders in the bank, brought suit for violation of SEC Rule
10b-5, which states that it is unlawful “to use or employ, in connection with the purchase or sale of any security registered on a national securities exchange or any security not so registered, . . . any
manipulative or deceptive device or contrivance in contravention of
such rules and regulations as the [Securities and Exchange] Commission may prescribe.” Id. at 262 (ellipses and brackets in original). The district court dismissed for lack of jurisdiction because the
conduct occurred abroad, and the Second Circuit affirmed. The Supreme Court reclassified the issue as merits-based rather than jurisdictional, and affirmed. In light of the presumption against the
extraterritorial applicability of federal law, the Court held that “the
focus of the Exchange Act is not upon the place where the deception
originated, but upon purchases and sales of securities in the United
States.” Id. at 266–67. Because the statute intended only to regulate domestic transactions and protect prospective parties to domestic transactions alone, the plaintiffs’ claims, which arose out of deception occurring in Australia, between Australian buyers and
sellers of Australian bank shares, were dismissed for failure to state
a claim for relief.

295
133 S. Ct. at 1664. Moreover, the Court’s explanation
of the “touch and concern” language is encompassed in
one citation to Morrison. Id. at 1669.15 The meaning is
clear: the Supreme Court stated that the Morrison presumption against extraterritorial application of American statutes is to be applied to ATS cases. And, since
the presumptions are the same, it follows that the very

15 Kiobel cites to pages 2883–88 of Morrison. In those pages, the Supreme Court explained why the Australian share fraud claims in Morrison
did not have sufficient “contact with the territory of the United States.” Morrison, 561 U.S. at 2884. The Court first noted that the principal purpose of
the 1934 Securities and Exchange Act was to protect transactions on domestic exchanges, as Congress could not regulate foreign exchanges. Second, as to securities traded on foreign exchanges, the Securities Exchange
Act was exclusively focused on domestic purchases and sales; here, the
transaction had not occurred in the United States. Id. Furthermore, there was
no contemporary statutory context suggesting that Congress’s “comprehensive regulation of securities trading” was meant to encompass foreign transactions on securities not registered in the United States. Id. at 2885. Indeed,
the strong risk of incompatibility with foreign law counseled against application of the Securities and Exchange Act to such transactions. Id. The
Court further noted, in rejecting the test proposed by the Solicitor General
(“SG”), the fact that the SG’s test (which asked if “significant and material
conduct” had happened in the United States) would open the floodgates of
class action litigation for lawyers representing victims of foreign securities
fraud. Id. at 2886. Finally, the Court explained that the consistency of the
SG’s proposed test with international law meant only that adoption of the
SG’s test would not violate international law, not that it was required by
international law, and that the SEC’s interpretation was not entitled to deference because it was based on cases which the Supreme Court had disapproved.

Thus, a court applying the Morrison test in the ATS context should focus
on the location of the alleged violation of customary international law, statutory indicia that Congress intended U.S. courts to regulate the particular
conduct at issue, the risk of an increase in future litigation, and the existence
of a well-founded interpretation of applicable law to which the court should
defer. All of these considerations point to the conclusion that plaintiffs’
claims here lack sufficient contact with the territory of the United States.

296
same evidence is needed to rebut either presumption.
Moreover, the Kiobel opinion cannot have imparted
any additional meaning to the “touch and concern” test;
the Kiobel majority did not apply the test or provide
any further guideposts as to its possible meaning.
Against this evidence, the panel majority points to the
mere use of different language, as well as some language in the concurrences of Justices Kennedy and
Alito in Kiobel, to claim a new but undefined test was
created by the Court. Doe, 766 F.3d at 1028. This is too
thin a reed on which to support such an expansive argument.
Second, the two circuits to consider this issue
agree that Kiobel simply directs application of the
Morrison test; the panel majority’s contrary conclusion thus creates another circuit split. In Baloco v.
Drummond Co., Inc., 767 F.3d 1229 (11th Cir. 2014),
the Eleventh Circuit noted that “[t]he Court in Kiobel
looked to Morrison v. National Australia Bank Ltd.,
561 U.S. 247 (2010), for a discussion of when claims
that ‘touch and concern the territory of the United
States’ do so ‘with sufficient force to displace the presumption against extraterritorial application.’”16 Id.

Baloco was a Colombian national and the child of a union
leader who worked for Drummond Ltd. at Drummond’s coal mining operation in Colombia. Drummond is a closely-held corporation with its principal place of business in Alabama. The union
leader was murdered, Baloco alleged, by paramilitary members
of the AUC, an organization affiliated with Colombia’s military
which provided security for Drummond’s coal mining operation
and was engaged in a guerrilla war with FARC. Baloco brought
suit under the ATS, Trafficking Victims Protection Act, and Colombia’s wrongful death statute. The district court granted Drummond’s motion to dismiss Baloco’s ATS claims for lack of subject
matter jurisdiction under 12(b)(1). The Eleventh Circuit affirmed.
16

297
at 1236–37 (quoting Kiobel, 133 S. Ct. At 1669). Similarly, in Mastafa v. Chevron Corp., 770 F.3d 170, 182–
86 (2d Cir. 2014), the Second Circuit applied the Morrison “focus” test in a post-Kiobel ATS case to determine if the presumption against extraterritoriality
had been rebutted.17

The court adopted the presumption that the ATS statute did not
touch murders occurring outside the United States, and applied the
Kiobel “touch and concern the territory of the United States”
standard to see if the presumption was rebutted. The court explained that “[t]he [Supreme] Court in Kiobel looked to Morrison
for a discussion of when claims that ‘touch and concern the territory of the United States’ do so ‘with sufficient force to displace
the presumption against extraterritorial application.” Baloco, 767
F.3d at 1236–37 (quoting Kiobel, 133 S. Ct. at 1669). Examining
the allegations of Baloco’s complaint, Baloco’s “claims are not focused within the United States” because the killings occurred in
Colombia in the context of a guerrilla war in Colombia. Baloco,
767 F.3d at 1237–38.
Mastafa was an Iraqi woman who was the victim of torture by
agents of Saddam Hussein’s regime in Iraq. She brought suit
against Chevron, alleging that it paid kickbacks and other unlawful payments to the regime which enabled the regime to survive and torture her. The district court granted Chevron’s
12(b)(1) motion to dismiss for lack of subject matter jurisdiction,
and the Second Circuit affirmed. The court explained that the
Supreme Court’s decision in Kiobel “significantly clarified the jurisdictional grant of the ATS with respect to extraterritoriality.”
Mastafa, 770 F.3d at 181–82. The court noted that in Kiobel, the
Supreme Court had not explained how this presumption could be
displaced; “[t]o determine how to undertake the extraterritoriality analysis where plaintiffs allege some ‘connections’ to the
United States, we first look to the Court’s opinion in Morrison.”
Id. at 183. The circuit interpreted the Morrison methodology as
requiring that the conduct which touched and concerned the territory of the United States be the conduct which gave rise to ATS
liability. The circuit then concluded that the only conduct alleged
17

298
The panel majority’s analysis thus puts our court
on one side of yet another circuit split; yet again, the
majority has taken the minority, incorrect side.18
Finally, I note that this case squarely presents the
question whether ATS liability should extend to corporations.19 Our court’s earlier affirmative answer to

in the complaint which touched and concerned the United States
(maintenance of escrow accounts and arrangement of payments
in New York bank accounts) did not constitute a violation of customary international law. Thus, the district court correctly concluded that it lacked subject matter jurisdiction. Applied here,
the only conduct of defendants which touched and concerned the
U.S. were (1) sales of cocoa products in the US and (2) lobbying
efforts in the Congress. Neither sales nor lobbying are even colorable violations of customary international law.
There is one other court to have opined on this issue: the Fourth
Circuit, in Al Shimari v. CACI Premier Technology, Inc., 758 F.3d
516 (4th Cir. 2014). The paragraphs in which the Fourth Circuit
decided that the Morrison presumption against extraterritorial
application was rebutted do not cite the “focus” test; of course,
those paragraphs also do not cite the “touch and concern” test.
Id. at 528–29. However one interprets the Fourth Circuit opinion, it does not affirmatively hold that “the opinion in Kiobel II
did not incorporate Morrison’s focus test.” Doe, 766 F.3d at 1028.
The majority opinion in this case is the first to come to that conclusion. And the panel majority is the first to hold that Kiobel
necessitates remand of the case to decide whether the presumption against extraterritoriality has been vacated, a conclusion
the Fourth Circuit did not reach.
18

A circuit split exists on whether the ATS’s grant of jurisdiction
extends to claims against corporations. Compare, e.g., Flomo v.
Firestone Natural Rubber Co., LLC, 643 F.3d 1013, 1021 (7th Cir.
2011) (“[C]orporate liability is possible under the Alien Tort Statute . . . .”) with Kiobel v. Royal Dutch Petroleum Co., 621 F.3d
111, 148–49 (2d. Cir. 2011) (“[C]orporate liability has not at19

299
this question in the panel was vacated by the Supreme
Court, making this a question of first impression in
this circuit. Sarei v. Rio Tinto PLC, 671 F.3d 736, 748
(9th Cir. 2011) (en banc), vacated by 133 S. Ct. 1995
(2013).20 The panel majority chose to “reaffirm the corporate liability analysis” of Sarei. Doe, 766 F.3d at
1021. Here again, the majority has erred.
The Sarei analysis, as the majority adopts it today, comes in three parts. First, the analysis of customary international law is norm-by-norm, as “there
is no categorical rule of corporate immunity or liability” in ATS cases. Id. Second, corporate liability can
be imposed in the absence of “international precedent
enforcing legal norms against corporations.”21 Id.

tained a discernable, much less universal, acceptance among nations of the world in their relations inter se, and it cannot, as a
result, form the basis of a suit under the ATS.”).
Sarei was vacated in light of the Supreme Court’s decision in
Kiobel and the opinion was not reinstated on remand. Sarei v.
Rio Tinto, 722 F.3d 1109 (9th Cir. 2013) (en banc). Instead, “a
majority of the en banc court” voted to affirm the district court’s
judgment of dismissal with prejudice without any further explanation. Thus, the original Sarei en banc opinion has no precedential effect.
20

In the Sarei en banc court’s words, “[t]hat an international tribunal has not yet held a corporation criminally liable does not
mean that an international tribunal could not or would not hold
a corporation criminally liable under customary international
law.” Sarei, 671 F.3d at 761. Of course, as the Sarei opinion did
not state, that an international tribunal has not yet held a corporation criminally liable does not mean that an international
tribunal would hold a corporation criminally liable, either. And
as the Second Circuit noted in Kiobel, the Sarei panel’s factual
premise was incorrect: the refusal to extend liability to corporations like IG Farben, which aided and abetted Nazi war crimes,
was “not a matter of happenstance or oversight,” but a careful
21

300
Third, norms that are “‘universal and absolute,’ or applicable to ‘all actors,’ can provide the basis for an ATS
claim against a corporation.” Id.
There are many problems with this approach. Our
court was wrong enough in Sarei to join those circuits
which held that corporate liability could exist under
the ATS. But even amongst those circuits that erroneously conclude that corporate liability can exist under
the ATS, the Sarei approach resuscitated by the panel
majority distinguishes itself as particularly erroneous, in two ways.
First, the Court has explained that a norm cannot
give rise to ATS liability unless it is “specific, universal, and obligatory.” Sosa v. Alvarez-Machain, 542
U.S. 692, 733 (2004) (quoting In re Estate of Marcos
Human Rights Litigation, 25 F.3d 1467, 1475 (9th Cir.
1994)). Well and good. In this case, the panel majority
finds that the norm against slavery is sufficiently specific, universal, and obligatory to give rise to ATS liability. Doe, 766 F.3d at 1022. I agree. The majority
then says that because of the “categorical nature of the
prohibition on slavery and the moral imperative underlying that prohibition,” corporations must be liable
for aiding and abetting slavery. Doe, 766 F.3d at 1022.
But this is circular reasoning: by the panel’s reasoning, any norm “categorical” enough to give rise to an
ATS claim based on customary international law necessarily gives rise to corporate liability for violation of

decision reflecting the central moral principle of holding men, not
“abstract entities,” accountable for evil actions. Kiobel, 621 F.3d
at 134–35.
Moreover, as I discuss below, Sarei’s willingness to rush ahead
of international tribunals’ declarations of law is inconsistent
with the Supreme Court’s cautious mood in Sosa.

301
that norm. And worse yet, the majority’s reasoning
contradicts the Supreme Court’s teaching in Sosa that
there must be a meaningful inquiry—not a mere labeling of norms as ‘categorical’—as to whether the
particular international norm at issue, which is assumed to confer liability under the ATS generally,
would allow for corporate liability in particular. Sosa,
542 U.S. at 732 n.20.
Second, the Sarei opinion rested its analysis on
common sense inference about “congressional intent
when the ATS was enacted.” Sarei, 671 F.3d at 761.
Because Congress could not have anticipated the “array of international institutions that impose liability
on states and non-state actors alike in modern times,”
the Sarei panel refused to be bound “to find liability
only where international fora have imposed liability.”
Id. But this approach is forestalled by Sosa’s reminder
that federal courts have “no congressional mandate to
seek out and define new and debatable violations of
the law of nations.” Sosa, 542 U.S. at 728. In light of
the cautious mood expressed by Sosa, therefore, a desire to “get ahead” of international law cannot be followed.
In sum, the majority’s error violates the Supreme
Court’s commands and opens our doors to an expansive vision of corporate liability.22

More expansive, even, than the Sarei decision that the Court
vacated. In the Sarei en banc opinion, we first noted that there
was an international norm against war crimes, then noted international law cases which recognized aiding and abetting liability
for war crimes. Sarei, 671 F.3d at 763–66. By contrast, the panel
majority here finds an international norm against slavery and a
22

302
We do the law a disservice when we allow our
sympathies, no matter how well-founded, to run our
decisions afoul of the Supreme Court’s unequivocal
commands. Because this court has done such a disservice by refusing to take this case en banc, I respectfully dissent.

general international law principle of aiding and abetting liability—without finding such liability applied to slavery—and finds
those two sufficient to give rise to liability. Thus, the panel imposes liability for aiding and abetting slavery without citing a
single case in which an international tribunal recognized the applicability of this form of liability for this particular norm.

303
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
_______________
No. CV 05-5133-SVW-MRW
_______________
John Does I – VI, Individually and on behalf of Proposed Class Members,
Plaintiffs,

v.

NESTLÉ, S.A., NESTLÉ U.S.A., NESTLÉ Ivory
Coast, ARCHER DANIELS MIDLAND CO., CARGILL INCORPORATED COMPANY, CARGILL COCOA, CARGILL WEST AFRICA, S.A.
_______________

Defendants.

SECOND AMENDED COMPLAINT FOR
INJUNCTIVE RELIEF AND DAMAGES
1. Forced labor (Alien Tort Statute, 28 U.S.C. §
1350)
2. Cruel, inhuman, or Degrading Treatment (Alien Tort Statute, 28 U.S.C. § 1350)
3. Torture (Alien Tort Statute, 28 U.S.C. § 1350)
DEMAND FOR JURY TRIAL

I.

304
NATURE OF THE ACTION

1. Plaintiffs John Doe I, John Doe II, John Doe
III, John Doe IV, John Doe V, and John Doe VI (referred to herein as the “Former Child Slave” Plaintiffs) are all former child slaves of Malian origin who
were trafficked and forced to work harvesting and/or
cultivating cocoa beans on farms in Côte d’Ivoire,
which supply cocoa beans to the Defendant companies
named herein. The Former Child Slave Plaintiffs
bring this action on behalf of themselves and all other
similarly situated former child slaves of Malian origin
against Defendants: Nestlé, S.A., Nestlé, U.S.A., and
Nestlé Côte d’Ivoire, S.A. (together as “Nestlé”); Cargill, Incorporated (“Cargill, Inc.”), Cargill Cocoa, and
Cargill West Africa, S.A. (together as “Cargill”); and
Archer Daniels Midland Company (“ADM”) (referred
to collectively as the “Chocolate Importers” or Defendants) for the forced labor and torture they suffered as
a result of the wrongful conduct either caused and/or
aided and abetted by these corporate entities. Specifically, the Former Child Slave Plaintiffs assert claims
for child slavery/forced labor, cruel, inhumane or degrading treatment, and torture under the Alien Tort
Statute (“ATS”), 28 U.S.C. § 1350.
2. The Former Child Slave Plaintiffs bring their
ATS actions in the United States because such claims
cannot be maintained in their home country of Mali
as currently there is no law in Mali whereby such
Plaintiffs can seek civil damages for their injuries
against the major exporters of cocoa operating outside
of Mali. Nor could claims be brought in Côte d’Ivoire
as the judicial system is notoriously corrupt and
would likely be unresponsive to the claims of foreign
children against major cocoa corporations operating in
and bringing significant revenue to Côte d’Ivoire. It is
also likely that both Plaintiffs and their attorneys

305
would be placed in danger following the civil unrest in
Côte d’Ivoire and the general hostility by cocoa producers in the region where Plaintiffs were forced to
work. Further, the Former Child Slave Plaintiffs
bring their claims in the United States as the United
States has provided a forum for such human rights
lawsuits with the passage of the ATS.
3. The Former Child Slave Plaintiffs bring this
action using pseudonyms due to fear of retaliation
against themselves and their families by those persons who trafficked them into Côte d’Ivoire; the owners of farms on which they were enslaved; and by the
local buyers, who are employees and/or agents of the
Defendants. Plaintiffs’ case not only threatens to expose criminalized elements within the cocoa sector but
also to dismantle the source of its significant profits,
cheap labor procured through forced child trafficking.
For this reason, Plaintiffs’ lives are in great danger as
evidenced by the violence already wielded against
other critics and investigators of corruption and child
labor within the cocoa sector. For example, FrenchCanadian reporter Guy André Kieffer, who was investigating the criminal elements within the cocoa sector,
disappeared and is presumed dead. Other journalists
investigating cocoa and child labor have also received
death threats.
II. JURISDICTION AND VENUE
4. Pursuant to 28 U.S.C. § 1331, this Court has
federal question jurisdiction over this dispute pursuant to the ATS, 28 U.S.C. § 1350 for the alleged violations of international human rights law. The ATS provides federal jurisdiction for “any civil action by an alien for a tort only, committed in violation of the law of
nations or a treaty of the United States.”

306
5. Venue and Personal Jurisdiction over each
Defendant is proper in this judicial district, and in the
United States as a whole for the foreign Defendants,
because, as more fully detailed below, Defendants either own, lease, export to, or otherwise conduct business activities, including the sale of cocoa and cocoa
derivative products, to chocolate retailers in the
United States and/or in California such that they
maintain a general course of business activity within
the United States, including California, either directly
through their own activities or by virtue of their parent entities acting as their alter ego and/or agent.
III. PARTIES
A. Former Child Slave Plaintiffs
6. Plaintiff John Doe I is an adult citizen of Mali
currently residing near the city of Sikasso. He brings
this action on behalf of himself and all other former
child slaves trafficked into Côte d’Ivoire from Mali for
purposes of working and then forced to work on a farm
and/or farmer cooperative that provided cocoa beans
to any one and/or more of the Defendants named
herein.
7. Plaintiff John Doe II is an adult citizen of
Mali currently residing near the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves of Malian origin trafficked into
Côte d’Ivoire from Mali for purposes of working and
then forced to work on a farm and/or farmer cooperative that provided cocoa beans to any one and/or more
of the Defendants named herein.
8. Plaintiff John Doe III is an adult citizen of
Mali currently residing near the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves of Malian origin trafficked into
Côte d’Ivoire from Mali for purposes of working and

307
then forced to work on a farm and/or farmer cooperative that provided cocoa beans to any one and/or more
of the Defendants named herein.
9. Plaintiff John Doe IV is an adult citizen of
Mali currently residing near the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves trafficked into Côte d’Ivoire from
Mali for purposes of working and then forced to work
on a farm and/or farmer cooperative that provided cocoa beans to any one and/or more of the Defendants
named herein.
10. Plaintiff John Doe V is an adult citizen of
Mali currently residing near the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves of Malian origin trafficked into
Côte d’Ivoire from Mali for purposes of working and
then forced to work on a farm and/or farmer cooperative that provided cocoa beans to any one and/or more
of the Defendants named herein.
11. Plaintiff John Doe VI is an adult citizen of
Mali currently residing near the city of Sikasso. He
brings this action on behalf of himself and all other
former child slaves of Malian origin forced to work on
a farm and/or farmer cooperative that provided cocoa
beans to any one and/or more of the Defendants
named herein.
B. Former Child Slave Plaintiffs’ Class Action Allegations
12. The Former Child Slave Plaintiffs bring this
action individually, and pursuant to Fed. R. Civ. P.
23(a), 23(b)(2), and 23(b)(3), on behalf of the following
class:
13. All individuals during the period 1996
through the present who reside or did reside in the

308
country of Mali, West Africa, and who were trafficked
from Mali to any cocoa producing region of Côte
d’Ivoire and forced to perform labor as children under
the age of 18 on any farm and/or farmer cooperative
within any cocoa producing region of Côte d’Ivoire, including but not limited to the geographical regions of
Bouake, Bouaflé, Man, Daloa, Odienne, Oume, Gagna, Soubre, Duekoue and San Pédro for the purpose
of harvesting and/or cultivating cocoa beans that were
supplied, either directly or indirectly, to any of the
named Defendants herein.
14. The class is so numerous that joinder of all
members is impractical. The Former Child Slave
Plaintiffs know that there are thousands of class
members.
15. There are questions of law and fact common to
the class. Key common questions include, but are not
limited to, the following:
a) Whether Plaintiffs and Proposed Class Members were unlawfully trafficked for purposes of forced
child labor, in violation of International Labor Conventions 138 and 182, so as to work on cocoa farms,
which supplied cocoa beans to the named Defendants
herein?
b) Whether Defendants caused and/or aided
and abetted the forced labor and torture imposed on
Plaintiffs by either providing logistical support to the
supplier farms and/or failing to provide sufficient logistical support and/or take adequate action to prevent and stop such forced child labor in violation of
international law, federal law and California state
law?
16. The Former Child Slave Plaintiffs’ claims are
typical of the claims of the class. They seek redress for
the same conduct that has affected all class members

309
and press legal claims which are the same for all class
members.
17. The Former Child Slave Plaintiffs named
herein will fairly and adequately represent the class.
These Plaintiffs do not have conflicts of interest with
members of the class and have retained counsel who
are experienced in complex litigation, including class
actions and international litigation, who will vigorously prosecute this action.
18. A class action is the superior method for adjudication of this controversy. In the absence of a class
action, courts will be unnecessarily burdened with
multiple, duplicative individual actions, particularly
in the case of Mali where class claims are not recognized. Moreover, if a class is not certified, many meritorious claims will go un-redressed as the individual
class members are not able to prosecute complex litigation against large defendant corporations.
C. Chocolate Importer Defendants
19. Defendant Nestlé, SA, is the world’s largest
food and beverage company involved primarily in the
manufacture and sale of beverages, milk products,
chocolate, confectionery and biscuits. Based in Switzerland, it employs around 253,000 people and has
factories or operations in almost every country in the
world. Its stock is traded in the United States in the
form of American Depositary Receipts (ADR), which is
a negotiable security representing ownership of publicly traded shares in a non-US corporation. Nestlé’s
ADRs are held through Citibank, N.A., a major U.S.
banking institution, and together with its ADR receipts and the sale of Nestlé brand products in the forum constitute significant contacts with the United
States, including the forum.

310
20. Nestlé, USA is a wholly-owned subsidiary of
Nestlé, SA. Headquartered in California, it is one of
the largest food and beverage companies in the U.S.
with 21,000 employees nationwide, 42 manufacturing
facilities, 6 distribution centers, and 58 sales offices
across the country, including California. It is one of
the largest purchasers, manufacturers, and retail
sellers of cocoa products in North America.
21. Defendant Nestlé Côte d’Ivoire, SA (or Nestlé
Ivory Coast) is a subsidiary of Nestlé, SA. Its purpose
within the Nestlé enterprise is to process cocoa beans
for export globally, including North America and California specifically.
22. Defendant Archer-Daniels-Midland Company (ADM) is a publicly held Delaware corporation
with its principal place of business in Decatur, Illinois. It is engaged in the business of procuring, transporting, storing, processing and merchandising agricultural commodities and products. This includes specifically the processing of cocoa beans from Côte
d’Ivoire and the production of cocoa liquor, cocoa butter, cocoa powder, chocolate and various cocoa compounds for the food processing industry primarily in
the United States market, including California. In addition to providing cocoa products to California manufacturers and processors, ADM owns and operates
several processing plants in California which process
rice, bakery mix and specialty ingredients.
23. Defendant Cargill, Incorporated Company
(“Cargill, Inc.”) is one of the largest privately held corporate providers of food and agricultural products and
services worldwide with over 100,000 employees in 59
countries. Its activities include cultivating and processing grain, oilseeds and other agricultural commodities, including cocoa for distribution to food producers. Headquartered in Minneapolis, it is a family

311
business that is tightly controlled and centrally managed. On information and belief, in 1992, the business
was restructured to ensure that managers making decisions about buying and selling commodities had ties
to Cargill Headquarters in Minneapolis and would receive instructions from there.
24. Cargill Cocoa is a subsidiary of Cargill, Inc.
incorporated in Pennsylvania. It is a major cocoa bean
originator and processor. It offers a wide range of
high-quality cocoa powder, butter and liquor products
under the Gerkens and Wilbur brands to leading manufacturers of food, chocolate and confectionery products worldwide, including processors and manufacturers of cocoa and cocoa products in California. Products
are sold through an international network of offices,
agents and distributors. Its facilities include a production facility in Côte d’Ivoire for the production of cocoa
liquor, butter and powder and origination of cocoa
beans. Cargill Cocoa & Chocolate North America is responsible for partnerships with farmers in the Ivory
Coast, including a program to train farmers in crop
protection.1
25. Cargill West Africa, SA is a subsidiary of
Cargill, Inc. and a member of the Cargill Group
headed by Cargill, Inc. Formed in 1986, its purpose
within the Cargill Group is to process and/or export
cocoa beans supplied to it by farms and/or farmer cooperatives in Côte d’Ivoire. Upon information and belief, Cargill West Africa, SA exports cocoa to the

85 out of 101 farmer cooperatives in Cote d’Ivoire are involved
in their crop protection initiative “Yiri”.
1

http://www.cargillcocoachocolate.com/sustainability/cocoa-promise-in-action/yiri-plus-program/index.htm

312
United States, including California, either directly or
indirectly through other Cargill Group affiliates.
D. Unknown Corporate Defendants
26. Plaintiffs are currently unaware of the true
names and capacities of Defendants sued herein as
Corporate DOES 1-10, and therefore sue these Defendants by using fictitious names. Plaintiffs will
amend this complaint to allege their true names and
capacities when ascertained. Upon information and
belief each fictitiously named Defendant is responsible in some manner for the occurrences herein alleged
and that the injuries to Plaintiffs herein alleged were
proximately caused in relation to the conduct of the
named Defendants, as well as Corporate Does 1-10.
IV. AGENCY
27. Plaintiffs contend that each of the subsidiaries identified herein is and was, at all relevant times,
the agent of the parent companies identified herein.
Specifically, the parent entities control the subsidiaries’ operations, particularly with respect to the sourcing, purchasing, manufacturing, distribution, and/or
retailing of cocoa and cocoa derived products from the
Côte d’Ivoire.
28. Plaintiffs further contend that each of the
parent entities identified herein control and/or have
the ability to control their subsidiaries’ actions with
respect to labor practices on the farms and/or farmer
cooperatives from which cocoa products are sourced.
29. Plaintiffs are informed and believe that at all
material times each of the parent defendants and
their relevant subsidiaries were the agent or otherwise working in concert with each other and that each
such subsidiary was acting within the course and

313
scope of such agency or concerted activity. To the extent that said conduct was perpetrated by certain subsidiary defendants, the parent defendant corporations
confirmed and ratified the same.
V. ALTER EGO
30. Plaintiffs contend that each of the subsidiaries identified herein is and was, at all relevant times,
the alter-ego of the parent companies identified
herein. Specifically, the parent entities control every
aspect of the subsidiaries’ operations, particularly
with respect to the sourcing, purchasing, manufacturing, distribution, and/or retailing of cocoa and cocoa
derived products, and have used them merely as conduits for the receipt or transfer of funds and/or products with respect to cocoa products derived from the
Côte d’Ivoire.
31. Upon information and belief, the subsidiary
and parent corporations named herein have common
ownership, common board of directors, are inadequately capitalized for the risks at hand, and have
failed to observe corporate formalities with respect to
their operations. The inherent and pervasive failure
to maintain separate identities constitutes improper
conduct and disrespects the privilege of using the corporate form to conduct business.
VI. AIDING AND ABETTING
32. Côte d’Ivoire is a country struggling to recover from years of civil conflict. Active hostilities
ended in January 2003, leaving the country divided
into three zones of control: the government-controlled
south, the rebel-held north and the Zone of Confidence, which was formally patrolled by international
troops. Although several peace agreements have been
signed, and the Zone of Confidence dismantled, acts of

314
violence continue. Côte d’Ivoire’s cocoa-producing regions, which lie mostly with the government controlled southern zone, are at the heart of the Ivorian
conflict. In this conflict, the cocoa hierarchy has been
described by the International Crisis Group as an “Enron-type structure” of front companies with secret
bank accounts used to transfer funds with multiple
layers of insulation between the criminal acts and
their eventual beneficiaries.
33. It is in this often lawless and clandestine
backdrop that Cote d’Ivoire has emerged as the largest exporter of cocoa in the world, providing 70% of the
world’s supply. A majority of this cocoa is imported to
the US by the named Defendants herein. Indeed, journalist Carol Off explains in her 2006 book “Bitter
Chocolate: Investigating the Dark Side of the World’s
Most Seductive Sweet” that the “dirty work” of buying
and selling cocoa beans in this conflict ridden country
has become the domains of large multinationals such
as Defendants Nestlé, ADM, and Cargill and that
since the 1990s, Côte d’Ivoire cocoa production has
been controlled by these companies with the unilateral goal of finding the cheapest sources of cocoa.
34. Defendants ADM and Cargill are headquartered in and have their main management operations
in the U.S., and every major operational decision by
both companies is made in or approved in the U.S. At
all times relevant to the injuries to the Plaintiffs, Defendants ADM and Cargill had complete control over
their cocoa production operations in Côte d’Ivoire, and
they regularly had employees from their U.S. headquarters inspecting their operations in Côte d’Ivoire
and reporting back to the U.S. headquarters so that
the U.S.-based decision-makers had accurate facts on
the ground. Defendants ADM and Cargill had the
ability and control in the U.S. to take any necessary

315
steps to eradicate the practice of using child slaves to
harvest their cocoa in Côte d’Ivoire.
35. Defendant Nestlé established a major operation in the U.S., which is a key market for Nestlé cocoa
products. To promote, expand and protect this market, Nestlé established Nestlé, USA as a whollyowned subsidiary of Nestlé, SA. This subsidiary is
now one of the largest food and beverage companies in
the U.S. with 21,000 employees nationwide, 42 manufacturing facilities, 6 distribution centers, and 58
sales offices across the country. It is one of the largest
purchasers, manufacturers, and retail sellers of cocoa
products in North America. Every major operational
decision regarding Nestlé’s U.S. market is made in or
approved in the U.S. At all times relevant to the injuries to the Plaintiffs, Nestlé had complete control over
its cocoa production operations in Côte D’Ivoire, and
had the ability and control in the U.S. to take any necessary steps to eradicate the practice of using child
slaves to harvest its cocoa in Côte D’Ivoire. Nestlé regularly had employees from their Swiss and U.S. headquarters inspecting their operations in Côte D’Ivoire
and reporting back to these offices so that the U.S.based decision-makers had accurate facts on the
ground.
36. The history and methodology of the exploitation of child slaves in Côte D’Ivoire by the Defendants
and other multinationals is virtually undisputed. Defendants were able to obtain an ongoing, cheap supply
of cocoa by maintaining exclusive supplier/buyer relationships with local farms and/or farmer cooperatives
in Côte d’Ivoire. Through these exclusive supplier/buyer relationships, maintained in the form of
memorandums of understanding, agreements, and/or
contracts, both written and oral, Defendants are able
to dictate the terms by which such farms produce and

316
supply cocoa to them, including specifically the labor
conditions under which the beans are produced.
37. Defendants control such conditions by
providing local farmers and/or farmer cooperatives
with inter alia ongoing financial support, including
advance payments and personal spending money to
maintain the farmers’ and/or the cooperatives’ loyalty
as exclusive suppliers; farming supplies, including
fertilizers, tools and equipment; training and capacity
building in particular growing and fermentation techniques and general farm maintenance, including appropriate labor practices, to grow the quality and
quantity of cocoa beans they desire. The training and
quality control visits occur several times per year and
require frequent and ongoing visits to the farms either
by Defendants directly or via their contracted agents.
38. Among other countries, Defendant Nestlé
was directly involved in the purchasing and processing of cocoa beans from Côte d’Ivoire. Among its
exclusive supplier/buyer relationships were agreements with suppliers Keita Ganda and Keita Baba
from plantations in Daloa; Lassine Kone from plantations in Sitafa. Among other areas, Defendant Nestlé
processed the cocoa near Odienne in Côte d’Ivoire.
39. Defendant Cargill has a direct presence in
Côte d’Ivoire cocoa farms. Carol Off notes that Cargill
is possibly the largest privately owned corporation in
the world and that its influence over the food we eat,
in terms of where it comes from and how it is produced, is staggering. Among its exclusive supplier/buyer relationships are Dôté Colibaly, Soro Fonipoho, Sarl Seki, Lenikpo Yéo (alias “the Big One”)
from which 19 Malian child slaves were rescued, Keita
Ganda, and Keita Hippie, who produce the bulk of the
cocoa in the Bouaflé region.

317
40. Cargill’s Côte d’Ivoire Country Webpage
states that in 2000/01, Cargill opened two up-country
buying stations in Daloa and Gagnoa in the western
cocoa belt, and that Cargill’s Micao cocoa processing
plant has obtained ISO 9002 certification, which is a
system of quality standards for food processing from
sourcing through processing that inherently requires
detailed visits and monitoring of farms.
41. Defendant ADM was also directly involved in
the purchasing and processing of cocoa beans from
Côte d’Ivoire. Among its exclusive suppliers is a
farmer cooperative known as SIFCA. In a 2001 article
found in Biscuit World, ADM explains that its acquisition of SIFCA in Côte d’Ivoire “gives ADM Cocoa an
unprecedented degree of control over its raw material
supply, quality and handling.” In the same article, an
ADM executive states that “ADM Cocoa can deliver
consistent top quality products by control of its raw
materials,” and that “ADM is focused on having direct
contact with farmers in order to advise and support
them to produce higher quality beans for which they
will receive a premium.”
42. ADM’s 2004 Cocoa Webpage openly states
that ADM Cocoa has a “strong presence in origin regions,” and in a section entitled “Farmers as Partners,” ADM further states that “[t]he success of the
thousands of small, family-owned farms on which cocoa is typically grown is vital to the cocoa industry.
That is why ADM is working hard to help provide certain farmer organizations with the knowledge, tools,
and support they need to grow quality cocoa responsibly and in a sustainable manner . . . ADM is providing
much needed assistance to organizations representing
thousands of farmers and farming communities.
These efforts are making an impact at the farm level.”

318
43. The ADM Cocoa Brochure, states that
“[t]hrough its support of the World Cocoa Foundation,
the European Cocoa Association, the US Chocolate
Manufacturers Association and other programs, ADM
is actively involved in long-term efforts to ensure that
cocoa is grown responsibly and sustainably. Such efforts include research into environmentally sound
crop management practices, plant breeding work to
develop disease-resistant varieties and farmer field
schools to transfer the latest know-how into the hands
of millions of cocoa farmers around the world. Starting
from the cocoa growers through to the world’s top food
and beverage manufacturers, ADM Cocoa is committed to delivering the best in product quality and service at every stage.”
44. As part of their ongoing and continued presence on the cocoa farms in Côte d’Ivoire for purposes
of quality control, pesticide eradication, cultivation
assistance, harvesting, and packing and shipping,
among other activities and assistance to the farmers,
Defendants, through U.S.-based employees, had firsthand knowledge of the widespread use of child labor
harvesting cocoa on the farms they were working with
and purchasing from.
45. In its 10-K securities filings, ADM explicitly
stated that research on the cocoa industry and on development was based in Milwaukee, Wisconsin.
46. ADM processed the cocoa in facilities in Massachusetts, New Jersey, and Wisconsin.
47. Defendants also had knowledge of the widespread use of child labor harvesting cocoa on the
farms they were working with and purchasing from
based on the numerous, well-documented reports of
child labor by both international and U.S. organizations.

319
48. The U.S. State Department, the International Labor Organization (ILO), and UNICEF,
among others, have confirmed since the late 1990s the
existence of child slavery with documented reports
and statistics. Notable non-governmental organizations have also independently confirmed that many, if
not most, of the children working on Ivorian cocoa
plantations are being forced to work as slaves without
any remuneration.
49. In 1997, UNICEF reported that children
from the neighboring countries of Mali and Burkina
Faso are being trafficked to Côte d’Ivoire to harvest
cocoa beans. See Carol Bellamy, The State of the
World’s Children 1997: Focus on Child Labour, Oxford
University Press for UNICEF (1996). The ILO estimates there are 378,000 children working in Côte
d’Ivoire in various sectors of the economy. International Programme on the Elimination of Child Labour,
ILO, Combating Trafficking in Children for Labour
Exploitation in West and Central Africa (2001). The
U.S. State Department has also estimated that there
were at least 15,000 child laborers working on cocoa,
coffee, and cotton farms in 2004. Bureau of Democracy, Human Rights and Labor, U.S. Dep’t of State,
Country Reports on Human Rights Practices, 2004:
Cote d’Ivoire (2004).
50. Despite the well-documented use of child labor on cocoa farms in Côte d’Ivoire, Defendants not
only purchased cocoa from farms and/or farmer cooperatives which they knew or should have known relied
on forced child labor in the cultivating and harvesting
of cocoa beans, but Defendants provided such farms
with money, supplies, and training to do so with little
or no restrictions from the government of Côte
d’Ivoire. Upon information and belief, several of the
cocoa farms in Côte d’Ivoire from which Defendants

320
source are owned by government officials, whether directly or indirectly, or are otherwise protected by government officials either through the provision of direct
security services or through payments made to such
officials that allow farms and/or farmer cooperatives
to continue the use of child labor.
51. Defendants, because of their economic leverage in the region and exclusive supplier/buyer agreements, each had the ability to control and/or limit the
use of forced child labor by the supplier farms and/or
farmer cooperatives from which they purchased their
cocoa beans. The Defendants, based in the U.S., and
focused on protecting their U.S. market share following increased negative campaigning in the U.S.
against their use of child labor in harvesting cocoa in
West Africa, decided in the U.S. to do little or nothing
to stop the exploitation and abuse of child workers and
instead merely issue promises and policy statements
in the U.S. to falsely assure the U.S. consumers that
they were committed to putting an end to child slavery
in their cocoa production. The three Defendants each
made specific and false assertions in the U.S. to U.S.
consumers to deny that they were aiding and abetting
child slavery, which allowed each of them to continue
aiding and abetting child slavery with no measurable
loss of U.S. market share.
52. Defendant Nestlé published in the U.S. in
English and targeting the U.S. market its “Standards
of Business Conduct,” which state that “Nestlé is
against all forms of exploitation of children. Nestlé
does not provide employment to children before they
have reached the age to have completed their compulsory education . . . and expects its suppliers to apply
the same standards. Nestlé abides by national laws in
all countries in which it has operations and complies
with the International Labour Organisation (ILO)

321
Convention 138 on Minimum Age for Employment
and the ILO Convention 182 on the Worst Forms of
Child Labour.” Nestlé also informed U.S. consumers
in the U.S. that it requires all of its subcontractors
and Outsourcing Contractors to adhere to Nestlé’s
Corporate Business Principles, and chooses its Suppliers based on, inter alia, their “minimum corporate social responsibility standards.”
53. Nestlé’s 2006 “Principles of Purchasing,”
published in the U.S. in English and targeting the
U.S. market, states “purchasing should, wherever
possible, be part of the Supply Chain . . . and that
Strategic Buyers perform strategic activities such as
market research or analysis [and] supplier profiling
and selection.” Under the section “Raw Materials,”
Nestlé states it “provides assistance in crop production.” Under the section, “Traceability,” Nestlé states
“[t]raceability includes tracking inside our company
supply chain, i.e. from the reception of raw and packaging materials, production of finished products to delivery to customers.” Indeed, Nestlé states that
“[t]raceability of incoming materials is of the utmost
importance to Nestlé. In dealing with suppliers, Purchasing must insist on knowing the origin of incoming
materials and require suppliers to communicate the
origin of their materials.” Nestlé’s Principles of Purchasing also states that it “actively participate[s] as
the first link in an integrated supply chain;” that it
“develop[s] supplier relationships;” and that it “continually monitor[s] the performance, reliability and
viability of suppliers.”
54. Nestlé’s 2005 Webpage on Suppliers Management also discusses the importance of the Nestlé
Supply Chain for production operations. “The Nestlé
Quality System covers all steps in the food supply

322
chain, from the farm to the consumer of the final products. Quality assurance activities are not confined to
production centers and head offices. They include
working together with producers and suppliers of raw
. . . materials.”
55. Nestlé’s Commitment to Africa Brochure,
published in the U.S. in English and targeting the
U.S. market, further states that “[w]hile we do not
own any farmland, we use our influence to help suppliers meet better standards in agriculture. . . . Working directly in our supply chain, we provide technical
assistance to farmers.” Nestlé goes on to state that the
“[s]upport provided to farmers ranges from technical
assistance on income generation to new strategies to
deal with crop infestation, to specific interventions designed to address issues of child labour.” “Specific programmes directed at farmers in West Africa include
field schools to help farmers with supply chain issues,
as well as a grassroots ‘training of trainers’ programme to help eliminate the worst forms of child labour.”
56. Defendant Nestlé published in the U.S. in
English and targeting the U.S. market “The Nestlé
Commitment on Child Labour In Agricultural Supply
Chains”
(http://www.nestle.com/assetlibrary/documents/library/documents/corporate_social_responsibility/nestle-commitment-child-labour.pdf) stating:
•

“Nestlé is against all forms of exploitation of
children, and is firmly committed to actions to
eradicate child labour from its agricultural
supply chains, in line with our commitments
in the Nestlé Corporate Business Principles.”

•

“Nestlé is committed to work with all relevant
stakeholders . . . to address child labour.”

•

•

323
“Nestlé sources agricultural crops from over 5
million farmers, and is exposed to the potential for child labour and the worst forms of
child labour across a range of commodities
and countries.”
“The Commitment has . . . been prepared by
Nestlé to specifically guide and align its efforts to tackle child labour in its agricultural
supply chains.”

57. Defendant Nestlé published in the U.S. in
English and targeting the U.S. market “The Nestlé
Supplier Code,” which states:
•

The Nestlé Supplier Code “defines the nonnegotiable minimum standards that we
ask our suppliers and their sub-tier suppliers
to respect and adhere to when conducting
business with Nestlé.”

•

The supplier code “helps the continued implementation of our commitment to international
standards such as the OECD Guidelines for
Multinational Enterprises, the UN Guiding
Principles on Business and Human Rights,
the Core Conventions of the International Labour Organization (ILO) and the 10 Principles
of the United Nations Global Compact . . . .”

•

“The Standards of the Code set forth expectations for the Supplier for whom Nestlé does
business, including their parent, subsidiary,
or affiliate entities, as well as all others with
whom they do business including all employees (including permanent, temporary, contract agency and migrant workers), upstream
suppliers and third parties.”

•

324
The first “pillar” of the Nestlé Supplier Code
is Human Rights. Included in this is a prohibition against child labor.

58. Defendant Nestlé, by publishing in the U.S.
in English and targeting the U.S. market the various
statements discussed above, intended to demonstrate
to the U.S. market that it had made a decision to prevent child labor harvested cocoa from reaching the
U.S. market by using its control over its cocoa suppliers to prevent child slaves from harvesting Nestlé’s cocoa. While Nestlé admitted its control and ability to
achieve this, it failed to take the promised action so
that it could protect its U.S. market while also continuing to benefit from the cost savings of aiding and
abetting child slavery.
59. Defendant Cargill’s Position Paper on cocoa
industry labor, published in the U.S. in English and
targeting the U.S. market, explicitly states that
“[a]busive treatment towards children in agriculture
or in any other industry is not acceptable.” Cargill’s
International Code of Conduct, also published in the
U.S. in English and targeting the U.S. market, states
that Cargill will “comply with the letter and spirit of
all applicable . . . laws designed to accomplish equal
and fair opportunities in employment.” Cargill Cocoa
Promise, available at at: http://www.cargillcocoachocolate.com/wcm/groups/public/@ccc/@all/documents/document/na31657361.pdf). The International
Code of Conduct also promises:
•

“We form close, supportive relationships with
farmers and farmer organization, providing
them with solutions that they can own, and
giving them the skills and knowledge to implement programs that will make a positive
and meaningful change.” (p. 2)

•

2

325
“Cocoa has always been a crop that offered
economic opportunity. But now, with many
farms at the end of their productive lifecycle,
cocoa productivity is under pressure. The majority of smallholder cocoa farms, particularly
in West Africa, were established 20–30 years
ago. Cocoa is a tree crop and the trees have
aged and become less productive; soil nutrient
levels have decreased and pests and diseases
affect both cocoa pod and overall tree health.
How can we solve this together?2 By
working with farmers to dramatically
improve knowledge and adoption of
good agricultural practices – whether
that is with the appropriate use of weeding and pruning techniques or the development of safer harvesting practices. By
improving farmers’ incomes and providing better services for farmers, their families and their communities. And by
providing farmers with the planting materials and other inputs they need to invest in their farms and prepare for a successful future. It’s all part of the Cargill
Cocoa Promise, which we are rolling out
in six origin countries according to local
needs.

•

“We are all too aware of the unique challenges
faced in each region, and although West Africa
– and in particular, Côte d’Ivoire . . . .” (p.
5)

•

“Increasingly, reporting needs to incorporate
clear proof of tangible change. That is why

Emphasis added.

326
we are building on the measurement systems we have already established, developing comprehensive indicators to assess the impact of our actions and
demonstrate the improvement generated
by programs on the ground. This allows
us to track both inputs (such as the number
of farmers trained and volumes certified) and
outputs (such as improved knowledge of pest
and disease control management and solid entrepreneurial skills). The next step is to
consistently measure the impact of all of
our activities on a broader scale, using
impact assessment frameworks and the
skills of our existing in-house research
and consultancy team. When combined
with anecdotal material, this is the kind of information that cocoa and chocolate manufacturers can use to engage and activate consumer demand in a credible way. It means
consumers can understand the current
situation in origin countries, as well as
the difference that they can make by
buying sustainable products – creating a
much more compelling proposition.” (p. 10)
•

Cargill claims they are “working to protect the
rights of children.” (graphic on p. 11)

•

“Working to Promote and protect the rights of
children:
o . . . [W]e need to raise awareness of
child labor issues and children’s
rights in farming communities. The
most effective way for us to do this is
through farmer training. That is why
we have worked in partnership with the
International Cocoa Initiative (ICI), a

327
leading organization addressing child labor issues in West African cocoa-growing
communities, to develop a specific training
module.”
o “In Côte d’Ivoire, 425 extension agents received four days of intensive training from
ICI on the issue of child labor and sensitization, equipping them with the skills to
effectively train farmers. The project will
reach more than 70,000 cocoa producers
before 2016.”
o In partnership with the International Cocoa Initiative (ICI), 8,720 farmers were
trained in 2013 to protect and improve the
rights of children as an integrated part of
our farmer training approach. In total
70,000 will be trained.
o According to Nick Weatherill, Executive
Director, International Cocoa Initiative
(ICI): “Working with Cargill and
ANADER3, we’ve been able to ensure that
thousands of farmers get specialist training on child labor issues to thousands of
farmers. Cargill’s Farmer Field Schools
gives us, and the ANADER agents we
train, unrivalled access to farmers in an
established learning environment.”
•

“Supplying smallholders farmers with the
knowledge, inputs, and finance they need to
make good decisions and run a successful
farm over the long term.”

Agence nationale d’appui
(http://www.anader.ci/#close).
3

au

développement

rural,

328
o With the right investment, cocoa productivity can increase significantly. Already,
in Côte d’Ivoire, we have seen that yields
of over 800–1,000 kilograms per hectare
are achievable in a smallholder context. In
many cases, this is a 100% increase of current yields. The appropriate use of inputs
such as fertilizers and crop protection help
farmers to maximize current cocoa yields
without compromising the future of their
farms or local environments. We help
them to gain access to the inputs, as
well as the financing, for fertilizers
and crop protection, to invest in their
farms and plan for the future. Cargill’s extensive on-the-ground networks include not just partnerships
with farmer organizations, but also
buying stations in all the major cocoagrowing regions. Together, these form
an efficient delivery model to store and
distribute and provide access to fertilizer,
crop protection and planting materials to
farmers. (p. 22)
Cargill has numerous other releases that contain similar representations that it has complete control of its
supply chain and boasts that it has been recognized in
this area. All of these policies, as well as the actual
decisions that resulted in Cargill continuing to obtain
cocoa harvested by child laborers, were made in the
U.S. In addition, Cargill’s recent announcement to
close a plant in Lititz Pennsylvania stated that “the
company’s vast administrative, research and development and marketing resources” are located in Minneapolis, where it maintains its corporate headquarters.

329
60. Defendant ADM’s Business Code of Conduct
and Ethics, known as “The ADM Way,” states with respect to Child Labor that “ADM will not condone the
employment or exploitation of legally underage workers or forced labor and will not knowingly use suppliers who employ such workers or labor.” ADM further
states that its Code, including its Child Labor provision, is “a statement of the values to be recognized in
the conduct of ADM’s business by its employees, officers, directors and other agents . . . It is [also] the responsibility of all . . . its subsidiaries worldwide to
comply with this Business Code of Conduct and Ethics
. . . [and that] the values explained in this [Code] are
to be consistently applied throughout the world in
ADM’s business, not only when it’s convenient or consistent with other business objectives, but in all situations.” ADM also asserts that it “will deal fairly with
its customers, suppliers and business partners [and
that] no ADM representative should take unfair advantage of anyone through . . . misrepresentation of
material facts or any other unfair dealing practice.”
61. Defendants’ assertions, published in the U.S.
in English and targeting the U.S. market, make clear
that Defendants were able to make decisions in the
U.S. that would eradicate child labor and help the
child laborers obtain education. However, they failed
to implement these decisions after assuring the U.S.
market that they would, allowing them to continue to
benefit from child slavery without any measurable impact on their bottom line.
62. Despite Defendants’ admitted knowledge of
the widespread use of forced child labor on the cocoa
farms from which they source and their specific policies prohibiting child labor, Defendants not only continued to provide cocoa farms money, supplies, and
training to grow cocoa beans for their exclusive use

330
knowing that their assistance would necessarily facilitate child labor, but they actively lobbied against all
legal enforcement mechanisms that would have
curbed forced child labor.
63. In 2001, following news reports that child
slavery was a key ingredient of American chocolate,
U.S. Congressman Eliot Engel introduced a bill that
would have forced U.S. chocolate importers and manufacturers to adhere to a certification and labeling
system that their chocolate was “slave free.” The bill
passed the House of Representatives with a vote of
291 to 115 in favor of the measure.
64. The U.S. chocolate industry, including Defendants, immediately moved to eradicate the bill (rather than child slavery) urging the legislatures, concerned non-governmental organizations, and the public at large that there was no need for concrete, enforceable legislation against child slavery because
they would instead implement a private, voluntary
mechanism to ensure child labor free chocolate.
65. The U.S. chocolate industry, including Defendants, launched a multi-million dollar lobbying effort, which paid off by resulting in the Harkin-Engel
Protocol, an entirely voluntary agreement whereby
the chocolate industry would essentially police itself
and in effect guarantee the continued use of the
cheapest labor available to produce its product -- that
of child slaves.
66. By providing the logistical and financial assistance described herein across a period of years, Defendants knew that the farmers they were assisting
were using and continued to use forced child labor, but
nevertheless continued to provide such assistance.
But for Defendants’ knowing and substantial assistance and their efforts to derail enforceable legal

331
mechanisms via the Harkin-Engel Protocol, the farmers would not have been able to operate their cocoa
plantations using forced child labor.
67. The Defendants made decisions in the U.S.
to respond to the Harkin-Engel Protocol passed by the
U.S. Congress by adopting so-called monitoring systems that Defendants knew would serve as a tool to
further mislead the U.S. market but that would not
actually provide rigorous or accurate marketing. Defendants fought efforts in the U.S. to require enforceable standards that would effectively require Defendants to stop profiting from child slavery.4
68. The three individual Plaintiffs, and the
members of the class, all were forced to work as child
slaves during the time that Defendants had decided in
the U.S. not to address child slavery, but to instead
misrepresent to the U.S. market that they were implementing effective programs to help stop the practice and rehabilitate the former slaves.
69. More recent sources confirm the ongoing use
of child slaves to harvest cocoa in Côte D’Ivoire by
large multinationals, including Nestlé, ADM, and
Cargill. The Dark Side of Chocolate, a film that focuses on the role of the multinational companies in
perpetuating the use of child slaves, provides shocking details about the extent and the horrors of slavery
on
cocoa
plantations
in
Côte
D’Ivoire
Reports in the past have shown the way that Nestlé profited
through keeping labor costs low through these illegal practices.
Cocoa farmers receive only 3.2% of the retail price while the
mark-up is 43%. Oxfam, Equality for women starts with chocolate: Mars, Mondelez and Nestle and the fight for Women’s Rights
(2013),
available
at
https://www.oxfam.org/sites/www.oxfam.org/files/equality-forwomen-starts-with-chocolate-mb-260213.pdf
4

332
(https://www.youtube.com/watch?v=7Vfbv6hNeng).
Further, the U.S. Department of Labor funded researchers at Tulane University, who published a 2015
study, Survey Results on Child Labor in West African
Cocoa Growing Areas, which provides detailed and
current facts of the large numbers of children still performing hazardous work in harvesting cocoa in Côte
D’Ivoire. Defendants have continued to operate in the
U.S. market based on their decision made in the U.S.
to continue to aid and abet child slavery while implementing a public relations campaign in the U.S. to
mislead the U.S. market about the ongoing use of
child slavery.
VII. HARM TO THE INDIVIDUAL PLAINTIFFS
A. Former Child Slave Plaintiffs
70. Plaintiff John Doe I was trafficked into Côte
d’Ivoire at age fourteen (14) to work on a large cocoa
plantation located in Abobogou, near the town of
Bouafle in Côte d’Ivoire. He was forced to work on the
plantation until the age of nineteen (19), between the
period of 1994 and 2000, when he finally escaped.
During the four year period, he was forced to work
harvesting and cultivating cocoa beans for up to
twelve (12) hours a day and sometimes as many as
fourteen (14) hours, six days a week. This work included cutting, gathering, and drying the cocoa beans
for processing. Upon information and belief, the cocoa
cultivated on this plantation is supplied to any one
and/or more of the Defendants herein. He was not
paid for his work and only given scraps of food to sustain him. He, along with the other children on the
plantation, was heavily guarded at all times and at
night kept in a locked room to prevent escape. When
the guards felt he was not working quickly enough, he
was often beaten with tree branches. He was beaten

333
so hard that he suffered cuts on his hands and legs.
Plaintiff John Doe I brings this action on behalf of
himself and all other similarly situated former child
slaves in Mali.
71. Plaintiff John Doe II was trafficked into Côte
d’Ivoire and forced to work as a child slave on a cocoa
plantation for approximately 2 ½ years between the
period of 1998-2000. During this time, he was between
the age of 12-14 years old, below the legal working age
in Côte d’Ivoire. The plantation was located in the Region de Man, Côte d’Ivoire. During the 2 ½ years, he
was forced to work harvesting and cultivating cocoa
beans for up to twelve (12) hours a day and sometimes
as many as fourteen (14) hours, six days a week. This
work included cutting, gathering, and drying the cocoa beans for processing. Upon information and belief,
the cocoa cultivated on this plantation is supplied to
any one and/or more of the Defendants herein. Once
on the plantation, his movements were strictly controlled and he was not permitted to leave under the
threat that he would be severely beaten and his feet
cut open, as he had witnessed with the other children
who attempted escape. At night, he, along with the
other children working on the farm, were forced to
sleep on the floor of a locked room until morning when
they were again gathered for work. Plaintiff John Doe
II was not paid, provided with only the bare minimum
of food, and beaten with a whip when the guards felt
he was not performing adequately. Plaintiff John Doe
II brings this action on behalf of himself and all other
similarly situated former child slaves in Mali.
72. Plaintiff John Doe III was was trafficked into
Côte d’Ivoire and forced into slavery at age 14 on a
cocoa plantation located in the Bengalo Region de
Man, Côte d’Ivoire. He was forced to work on the plantation for approximately four (4) years until he was 18

334
years old from 1996-2000. During this time, he
worked between twelve (12) and fourteen (14) hours,
six days a week cutting, gathering, and drying cocoa
beans and was not paid for his work. Upon information and belief, the cocoa cultivated on this plantation is supplied to any one and/or more of the Defendants herein. John Doe III could not leave the plantation under fear that he would be severely beaten and
forced to drink urine, as had been done with other the
children who attempted escape. He was watched at
gun point at all times and at night was forced to sleep
in a small locked room with no windows and several
other children on the floor. When he did not perform
adequately, he was often whipped by the overseer.
Plaintiff John Doe III brings this action on behalf of
himself and all other similarly situated former child
slaves in Mali.
73. Plaintiff John Doe IV was trafficked into
Côte d’Ivoire when he was around the age of twelve
(12) to work on a cocoa plantation in Côte d’Ivoire. He
was recruited by a “locateur” who sold him into slavery. The plantation he was sold to was located in
Kassangoro. He was forced to work on the plantation
for approximately a year between 1998 and 1999,
when he finally escaped. During this time, he was
forced to work harvesting and cultivating cocoa beans
for twelve (12) hours to fourteen (14) hours a day. This
work included cutting, gathering, and drying the cocoa beans for processing. Upon information and belief,
the cocoa cultivated on this plantation is supplied to
one or more of the Defendants herein. He was not paid
for his work and only poor food to sustain him. He,
along with the other children on the plantation, was
heavily guarded at all times and at night kept in a
locked room to prevent escape. He tried to escape several times before he succeeded. Once time when he
was caught the guards cut his feet at the bottoms and

335
rubbed pepper in the wounds. Another time, he was
tied to a papaya tree and was severely beaten. This
damaged his left arm and left it permanently damaged. He finally escaped with a few other children by
digging a hole under the wall of the hut where they
slept with a dirt floor. He escaped to Baoule. The Malian Envoy helped him and other children to get home
to their homes and then went back to rescue other Malian children working on the plantation. Plaintiff John
Doe IV brings this action on behalf of himself and all
other similarly situated former child slaves in Mali.
74. Plaintiff John Doe V was sold into slavery
and trafficked into Côte d’Ivoire when he was eleven
years old by a “locator.” He was forced to work as a
child slave on a cocoa plantation for less than a year
in approximately 1998. The plantation was located in
Kassangoro. He was forced to work harvesting and
cultivating cocoa beans for long hours. This was all he
did. The work included cutting, gathering, and drying
the cocoa beans for processing. Upon information and
belief, the cocoa cultivated on this plantation is supplied to any one and/or more of the Defendants herein.
He was guarded by men with guns. One of the guards
was called “nyejugu” (sour face). He ran away once but
was captured and severely beaten. He was rescued by
the Malian Envoy because another child had escaped
and told his family where he was. Plaintiff John Doe
V brings this action on behalf of himself and all other
similarly situated former child slaves in Mali.
75. Plaintiff John Doe VI was trafficked into
Côte d’Ivoire at age ten (10) to work on a large cocoa
plantation located in Koussou in Côte d’Ivoire. A man
took him from Mali to Côte d’Ivoire and sold him to a
plantation for 20,000 CFA. He was forced to work on
the plantation for three (3) years between 1997 and
2001, when he finally escaped. During the three-year

336
period, he was forced to work harvesting and cultivating cocoa beans for very long days, sometimes as many
as fourteen (14) hours, six days a week. This work included cutting, gathering, and drying the cocoa beans
for processing. Upon information and belief, the cocoa
cultivated on this plantation is supplied to one or more
of the Defendants herein. He was not paid for his work
and only given scraps of food to sustain him. He, along
with the other children on the plantation, was heavily
guarded at all times and at night kept in a locked
room to prevent escape. John Doe VI could not leave
the plantation under fear that he would be severely
punished. He was with around 75 other Malian children. He saw that children who tried to flee were
caught and the bottom of their feet were cut and
rubbed with salt. He was beaten for working too slow
when he was sick. He has many scars from beatings
and from cutting himself with a machete while working. He saw other children who died on the plantation.
Plaintiff John Doe VI brings this action on behalf of
himself and all other similarly situated former child
slaves in Mali.
76. The members of the class have been forced to
harvest cocoa in the major cocoa regions of Côte
d’Ivoire, including but not limited to the geographical
regions of Bouake, Bouaflé, Man, Daloa, Odienne,
Oume, Gagna, Soubre, Duekoue and San Pédro. All
Defendants have sourcing relationships within one or
more of those areas, and each Defendant has utilized
substantial amounts of cocoa harvested with child laborers, including members of the class.
VIII. DEFENDANTS’ VIOLATIONS OF LAW
77. The causes of action maintained herein arise
under and violate the following laws, agreements, conventions, resolutions and treaties:

(a)

337
Alien Tort Statute (ATS), 28 U.S.C. § 1350;

(b) Protocol Amending the Slavery Convention,
done Dec. 7, 1953, 7 U.S.T. 479 (entered into force Dec.
7, 1953);
(c) Slavery Convention, concluded Sept. 1926,
46 Stat. 2183, T.S. No. 788. 60 I.N.T.S 253 (entered
into force Mar. 9, 1927);
(d) Supplementary Convention on the Abolition
of Slavery, the Slave Trade, and Institutions and
Practices Similar to Slavery;
(e) International Labour Organisation Convention No. 29 Concerning Forced or Compulsory Labor
(1930), 39 U.N.T.S. 55 (entered into force May 1, 1932);
(f) International Labour Organisation Convention No. 105 Concerning the Abolition of Forced Labour Convention;
(g) International Labour Organisation (ILO)
Convention 138 on Minimum Age for Employment
(1973) 1015 U.N.T.S. 297 (entered into force June 19,
1976);
(h) ILO Convention 182 on the Worst Forms of
Child Labour (1999) 38 I.L.M. 1207(entered into force
November 19, 2000);
(i) United Nations Charter, 59 Stat. 1031, 3
Bevans 1153 (1945);
(j) Universal Decl. of Human Rights, G.A. Res.
217A(iii), U.N. Doc. A/810 (1948);
(k) International Covenant on Civil and Political
Rights, G.A. Res. 2220A(xxi), 21 U.N. Doc., GAOR
Supp. (No. 16) at 52, U.N. Doc. A/6316 (1966);

338
(l) Convention Against Torture and Other
Cruel, Inhuman or Degrading Treatment or Punishment, G.A. res. 39/46, 39 U.N. Doc., GAOR Supp. (No.
51) at 197, U.N. Doc. A/39/51 (1984);
(m) Declaration on the Protection of All Persons
From Being Subjected to Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment,
G.A. Res. 3452, 30 U.N. Doc., GAOR Supp. (No. 34) at
91, U.N. Doc. A/10034 (1976);
(n)

Customary international law;

(o)

Federal Common and Statutory Law.

IX. CLAIMS FOR RELIEF
COUNT I
FORCED LABOR BY ALL FORMER CHILD
SLAVE PLAINTIFFS
AGAINST ALL DEFENDANTS
THE ALIEN TORT STATUTE, 28 U.S.C. § 1350
78. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1-77 of this Complaint
as if fully set forth herein.
79. The Former Child Slave Plaintiffs were
placed in fear for their lives, were deprived of their
freedom, separated from their families and forced to
suffer severe physical and mental abuse.
80. Defendants’ use of forced labor under these
conditions of torture violate the law of nations, customary international law, and worldwide industry
standards and practices, including, but not limited to
those identified in paragraph
81. To the extent necessary, Defendants’ actions
occurred under color of law and/or in conspiracy or on
behalf of those acting under color of official authority,
such that the injuries inflicted on these Plaintiffs as a

339
result of the forced labor were inflicted deliberately
and intentionally through the acts and/or omission of
responsible state officials and/or their agents to act in
preventing and/or limiting the trafficking or otherwise the use of child slaves. Upon information and belief, there are also several farms which are owned by
government officials, whether directly or indirectly, or
are otherwise protected by government officials either
through the provision of security services or through
payments made to such officials that allow farms
and/or farmer cooperatives to continue the use of child
labor.
82. Defendants’ conduct in violation of customary international law either directly caused these injuries, or Defendants are liable for these injuries because they provided knowing, substantial assistance
to the direct perpetrators, or because the direct perpetrators were agents, and/or employees of Defendants
or of companies that are the alter egos of Defendants.
83. The conduct of Defendants was malicious,
fraudulent and/or oppressive and done with a willful
and conscious disregard for the Former Child Slave
Plaintiffs’ rights and for the deleterious consequences
of Defendants’ actions. As a result, the Former Child
Slave Plaintiffs have sustained significant injuries
and these Plaintiffs will continue to experience pain
and suffering and extreme and severe mental anguish
and emotional distress. The Former Child Slave
Plaintiffs are thereby entitled to compensatory and
punitive damages in amounts to be proven at trial.

340
COUNT II
CRUEL, INHUMAN, OR DEGRADING TREATMENT
BY ALL FORMER CHILD SLAVE PLAINTIFFS
AGAINST ALL DEFENDANTS
THE ALIEN TORT STATUTE, 28 U.S.C. § 1350
84. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1-81 of this Complaint
as if fully set forth herein.
85. The acts described herein had the intent and
the effect of grossly humiliating and debasing the Former Child Slave Plaintiffs, forcing them to act against
their will and conscience, inciting fear and anguish,
and breaking their physical and/or moral resistance.
86. Defendants’ actions forced the Former Child
Slave Plaintiffs against their will and under fear of
harm, to labor for Defendants’ economic benefit and in
doing so the Former Child Slave Plaintiffs were placed
in great fear for their lives and forced to suffer severe
physical and psychological abuse and agony.
87. In acting through the implicit sanction of the
state, Defendants acted under color of law and/or in
conspiracy or on behalf of those acting under color of
official authority, and the injuries inflicted on the Former Child Slave Plaintiffs as a result of the cruel, inhuman and degrading treatment were inflicted deliberately and intentionally through the omission of responsible state officials and/or their agents to act in
preventing and/or limiting the trafficking or otherwise the use of child slaves. Upon information and belief, there are also several farms which are owned by
government officials, whether directly or indirectly, or
are otherwise protected by government officials either
through the provision of security services or through
payments made to such officials that allow farms

341
and/or farmer cooperatives to continue the use of child
labor.
88. The acts described herein constitute cruel,
inhuman or degrading treatment in violation of the
law of nations under the ATS and Defendants are liable because they directly caused these injuries or they
provided knowing, substantial assistance to the direct
perpetrators, or because the direct perpetrators were
agents, and/or employees of Defendants or of companies that are the alter egos of Defendants.
89. Former Child Slave Plaintiffs are thereby entitled to compensatory and punitive damages in
amounts to be proven at trial.
COUNT III
TORTURE BY ALL FORMER CHILD SLAVE
PLAINTIFFS
AGAINST ALL DEFENDANTS
THE ALIEN TORT STATUTE, 28 U.S.C. § 1350
90. The Former Child Slave Plaintiffs incorporate by reference paragraphs 1-89 of this Complaint
as if fully set forth herein.
91. Defendants’ actions were undertaken under
the color of foreign authority. Specifically, Defendants
acted under color of law, and/or in conspiracy or on
behalf of those acting under color of official authority,
by acting with the implicit sanction of the state and/or
through the intentional omission of responsible state
officials and/or their agents to act in preventing and/or
limiting the trafficking or otherwise the use of child
slaves into Côte d’Ivoire. Upon information and belief,
there are also several farms which are owned by government officials, whether directly or indirectly, or are
otherwise protected by government officials, either
through the provision of security services or through

342
payments made to such officials that allow farms
and/or farmer cooperatives to continue the use of child
labor.
92. Defendants’ conduct either directly caused
Plaintiffs’ injuries, or they are liable for Plaintiffs’ injuries because they provided knowing, substantial assistance to the direct perpetrators, or because the direct perpetrators were agents, and/or employees of
Defendants or of companies that are the alter egos of
Defendants.
93. The acts described herein were inflicted deliberately and intentionally for purposes which included, among others, punishing the victim or intimidating the victim or third persons, and constitute torture in violation of the law of nations under the ATS.
94. Defendants’ tortious acts described herein
placed all members of the Former Child Slave Plaintiffs in great fear for their lives and caused them to
suffer severe physical and mental pain and suffering.
The Former Child Slave Plaintiffs are thereby entitled
to compensatory and punitive damages in amounts to
be proven at trial.
X. LIABILITY
95. The Plaintiffs incorporate by reference paragraphs 1-94 of this Complaint as if set forth herein.
96. Defendants are directly liable for any actions
that they aided and abetted by knowingly providing
financial support, supplies, training, and/or other substantial assistance that contributed to the ability of
their agents, employees and/or partners to use and/or
facilitate the use of child slave labor, including but not
limited to any farm and/or farmer cooperative that
held any agreement, contract, and/or memorandum of
understanding, written or oral, to supply cocoa beans.

343
97. To the extent that Defendants can be said to
have acted indirectly, Defendants are vicariously liable for the actions of their agents, employees, co-venturers and/or partners, including specifically any farm
and/or farmer cooperative which held any agreement,
contract, and/or memorandum of understanding, written or oral, to supply cocoa beans to such Defendants.
98. To the extent that any such agent, employee,
co-venturers and/or partner used and/or facilitated
the use of child slave labor and/or made material misrepresentations and omissions, such entity was acting
within the course and scope of such agency, enterprise, or venture and Defendants confirmed and ratified such conduct.
99. Defendants are further liable for the acts of
any and all corporations and/or entities found to be
their alter ego. Defendants’ control over these entities’
operations, particularly with respect to the sourcing,
purchasing, manufacturing, distribution, and/or retailing of cocoa and cocoa derived products, renders
them mere conduits for the receipt or transfer of funds
and/or products with respect to cocoa products derived
from the Côte d’Ivoire. Such inherent and pervasive
failure to maintain separate identities constitutes improper conduct and disrespects the privilege of using
the corporate form to conduct business.
XI. DEMAND FOR JURY TRIAL
100. Plaintiffs demand a trial by jury on all issues
so triable.
XII.

PRAYER FOR RELIEF

101. WHEREFORE, Plaintiffs respectfully request the Court to:
(a) enter judgment in favor of the Plaintiffs on
all counts of the Complaint;

344
(b) award the Plaintiffs compensatory and punitive damages;
(c) grant the Plaintiffs equitable relief including, but not limited to, an injunction prohibiting further damage to their persons, remedying past damage, and protecting their rights under customary international law;
(d) award Plaintiffs the costs of suit including
reasonable attorneys’ fees; and
(e) award Plaintiffs such other and further relief
as the Court deems just under the circumstances.
Dated: July 14, 2016
/s/Terry Collingsworth
Terry Collingsworth
(DC Bar # 471830)
Attorney for Plaintiffs

